<html>
<title> - SUPPLEMENTAL NUTRITION ASSISTANCE PROGRAM</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


  .
            SUPPLEMENTAL NUTRITION ASSISTANCE PROGRAM

=======================================================================

                                HEARINGS

                               BEFORE THE

                       SUBCOMMITTEE ON NUTRITION

                                AND THE

                        COMMITTEE ON AGRICULTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 15, 2015;
                         OCTOBER 27, 2015; AND
                           NOVEMBER 18, 2015

                               __________

                            Serial No. 114-3

                               __________

                                 Part 3

                               __________
                               
                               
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                               


          Printed for the use of the Committee on Agriculture
                         agriculture.house.gov

                                __________
                                
                         U.S. GOVERNMENT PUBLISHING OFFICE
93-962PDF                        WASHINGTON : 2016                         

________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="086f7867486b7d7b7c606d6478266b676526">[email&#160;protected]</a>  


                        COMMITTEE ON AGRICULTURE

                  K. MICHAEL CONAWAY, Texas, Chairman

RANDY NEUGEBAUER, Texas,             COLLIN C. PETERSON, Minnesota, 
    Vice Chairman                    Ranking Minority Member
BOB GOODLATTE, Virginia              DAVID SCOTT, Georgia
FRANK D. LUCAS, Oklahoma             JIM COSTA, California
STEVE KING, Iowa                     TIMOTHY J. WALZ, Minnesota
MIKE ROGERS, Alabama                 MARCIA L. FUDGE, Ohio
GLENN THOMPSON, Pennsylvania         JAMES P. McGOVERN, Massachusetts
BOB GIBBS, Ohio                      SUZAN K. DelBENE, Washington
AUSTIN SCOTT, Georgia                FILEMON VELA, Texas
ERIC A. ``RICK'' CRAWFORD, Arkansas  MICHELLE LUJAN GRISHAM, New Mexico
SCOTT DesJARLAIS, Tennessee          ANN M. KUSTER, New Hampshire
CHRISTOPHER P. GIBSON, New York      RICHARD M. NOLAN, Minnesota
VICKY HARTZLER, Missouri             CHERI BUSTOS, Illinois
DAN BENISHEK, Michigan               SEAN PATRICK MALONEY, New York
JEFF DENHAM, California              ANN KIRKPATRICK, Arizona
DOUG LaMALFA, California             PETE AGUILAR, California
RODNEY DAVIS, Illinois               STACEY E. PLASKETT, Virgin Islands
TED S. YOHO, Florida                 ALMA S. ADAMS, North Carolina
JACKIE WALORSKI, Indiana             GWEN GRAHAM, Florida
RICK W. ALLEN, Georgia               BRAD ASHFORD, Nebraska
MIKE BOST, Illinois
DAVID ROUZER, North Carolina
RALPH LEE ABRAHAM, Louisiana
JOHN R. MOOLENAAR, Michigan
DAN NEWHOUSE, Washington
TRENT KELLY, Mississippi

                                 ______

                    Scott C. Graves, Staff Director

                Robert L. Larew, Minority Staff Director

                                 ______

                       Subcommittee on Nutrition

                  JACKIE WALORSKI, Indiana, Chairwoman

RANDY NEUGEBAUER, Texas              JAMES P. McGOVERN, Massachusetts,  
GLENN THOMPSON, Pennsylvania         Ranking Minority Member
BOB GIBBS, Ohio                      MARCIA L. FUDGE, Ohio
ERIC A. ``RICK'' CRAWFORD, Arkansas  ALMA S. ADAMS, North Carolina
VICKY HARTZLER, Missouri             MICHELLE LUJAN GRISHAM, New Mexico
DAN BENISHEK, Michigan               PETE AGUILAR, California
RODNEY DAVIS, Illinois               STACEY E. PLASKETT, Virgin Islands
TED S. YOHO, Florida                 BRAD ASHFORD, Nebraska
DAVID ROUZER, North Carolina         SUZAN K. DelBENE, Washington
RALPH LEE ABRAHAM, Louisiana
JOHN R. MOOLENAAR, Michigan

                                  (ii)
                             C O N T E N T S

                              ----------                              
                                                                   Page

          Subcommittee on Nutrition--Wednesday, July 15, 2015

Conaway, Hon. K. Michael, a Representative in Congress from 
  Texas, opening statement.......................................   361
Lujan Grisham, Hon. Michelle, a Representative in Congress from 
  New Mexico, prepared statement.................................   360
McGovern, Hon. James P., a Representative in Congress from 
  Massachusetts, opening statement...............................   359
Walorski, Hon. Jackie, a Representative in Congress from Indiana, 
  opening statement..............................................   357
    Prepared statement...........................................   358

                               Witnesses

Baron, Hon. Jon, Vice President for Evidence-Based Policy, Laura 
  and John Arnold Foundation, Washington, D.C....................   361
    Prepared statement...........................................   363
Weill, J.D., James D., President, Food Research and Action 
  Center, Washington, D.C........................................   366
    Prepared statement...........................................   368
Sullivan, Ph.D., James X., Rev. Thomas J. McDonagh, C.S.C., 
  Associate Professor of Economics; Director, Wilson Sheehan Lab 
  for Economic Opportunities, University of Notre Dame, South 
  Bend, IN.......................................................   374
    Prepared statement...........................................   375
Everett, Jeremy K., Director, Texas Hunger Initiative, Baylor 
  University, Waco, TX...........................................   380
    Prepared statement...........................................   382

          Subcommittee on Nutrition--Tuesday, October 27, 2015

McGovern, Hon. James P., a Representative in Congress from 
  Massachusetts, opening statement...............................   401
    Submitted report.............................................   439
Walorski, Hon. Jackie, a Representative in Congress from Indiana, 
  opening statement..............................................   399
    Prepared statement...........................................   400

                               Witnesses

Ratcliffe, Ph.D., Caroline E., Senior Fellow and Economist, 
  Center on Labor, Human Services, and Population, Urban 
  Institute, Washington, D.C.....................................   403
    Prepared statement...........................................   404
Riley, Ruth, former WNBA Athlete and Olympic Gold Medalist, 
  Granger, IN; on behalf of NBA Cares............................   409
    Prepared statement...........................................   410
    Submitted questions..........................................   456
Ochoa, Jr., M.D., F.A.A.P., Eduardo, Little Rock, AR; on behalf 
  of Children's HealthWatch......................................   411
    Prepared statement...........................................   413
    Submitted report.............................................   447
Haskins, Ph.D., Ron, Senior Fellow, Economic Studies and Co-
  Director, Center on Children and Families, Brookings 
  Institution, Washington, D.C...................................   417
    Prepared statement...........................................   419

              Full Committee--Wednesday, November 18, 2015

Conaway, Hon. K. Michael, a Representative in Congress from 
  Texas, opening statement.......................................   459
    Prepared statement...........................................   461
McGovern, Hon. James P., a Representative in Congress from 
  Massachusetts, opening statement...............................   462
Peterson, Hon. Collin C., a Representative in Congress from 
  Minnesota, opening statement...................................   462

                               Witnesses

Doar, Robert, Co-Chair, National Commission on Hunger; Morgridge 
  Fellow in Poverty Studies, American Enterprise Institute, 
  Washington, D.C................................................   463
Chilton, Ph.D., M.P.H., Mariana M., Co-Chair, National Commission 
  on Hunger; Associate Professor, Department of Health Management 
  and Policy, Dornsife School of Public Health, Drexel 
  University; Director, Center for Hunger-Free Communities, 
  Philadelphia, PA...............................................   465
    Joint prepared statement.....................................   467
    National Commission on Hunger, submitted report..............   499


               SUPPLEMENTAL NUTRITION ASSISTANCE PROGRAM

(PAST, PRESENT, AND FUTURE OF SNAP: DEVELOPING AND USING EVIDENCE-BASED 
                               SOLUTIONS)

                              ----------                              


                       WEDNESDAY, JULY 15, 2015 *

                  House of Representatives,
                                 Subcommittee on Nutrition,
                                  Committee on Agriculture,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to call, at 1:30 p.m., in 
Room 1300 of the Longworth House Office Building, Hon. Jackie 
Walorski [Chairwoman of the Subcommittee] presiding.
---------------------------------------------------------------------------
    * Editor's note: the June 25, 2015 hearing entitled, Supplemental 
Nutrition Assistance Program (Past, Present, and Future of SNAP: How 
Our Welfare System Can Discourage Work) while it is listed as part 2 of 
the Supplemental Nutrition Assistance Program series of hearings, it is 
considered a stand-alone hearing for the purposes of the numbering of 
pages for the entire series.
---------------------------------------------------------------------------
    Members present: Representatives Walorski, Crawford, Davis, 
Yoho, Abraham, Moolenaar, Conaway (ex officio), McGovern, Lujan 
Grisham, Aguilar, Plaskett, and DelBene.
    Staff present: Anne DeCesaro, Carly Reedholm, Mary Nowak, 
John Konya, Lisa Shelton, Liz Friedlander, and Nicole Scott.

OPENING STATEMENT OF HON. JACKIE WALORSKI, A REPRESENTATIVE IN 
                     CONGRESS FROM INDIANA

    The Chairwoman. Good afternoon. Welcome to today's hearing 
on developing and using evidence-based solutions in SNAP. We 
will explore what kind of research is needed to develop more 
evidence-based solutions, and what can be done to improve the 
quality and quantity of data, and how research can be used to 
improve the program. This is the seventh in our Past, Present, 
and Future of SNAP series. Today's hearing builds on themes 
presented throughout the series, and provisions included in the 
2014 Farm Bill.
    As we continue these discussions, I want to reiterate this 
process is not just about the bureaucracy behind SNAP. It is 
about helping people. We are here to ensure people will get a 
job, support their family, and ultimately become financially 
independent. We repeatedly heard calls for more flexibility so 
that both governmental and non-governmental organizations can 
better serve recipients. As we work to make that possibility a 
reality, we must also be mindful of our duty to be good 
stewards of hard earned taxpayer dollars. Giving more 
flexibility must be accompanied by measures that provide for 
robust accountability, oversight, and feedback. This will 
ultimately protect recipients, and ensure taxpayer dollars are 
well spent.
    Unfortunately, most of the research currently funded by the 
Department of Agriculture revolves around the process, like 
application timing, inaccuracy, and recipient characteristics, 
such as gender, age, and family composition. This approach 
misses the forest through the trees. Instead the Department 
must move beyond the basics of measuring the ``numbers served'' 
and develop new data points that focus on outcomes, like well-
being, changes in earnings, and family stability. This shifts 
the conversation from ``serving the most'' to ``being the 
best.'' This leads to better outcomes because we are better 
able to judge what works and what doesn't.
    Measuring outcomes is not a new concept. In fact, in our 
third hearing on the role of the charitable sector, Jonathan 
Webb, with Feed the Children, suggested developing a set of 
outcome measures similar to those used in international food 
aid programs. The 2014 Farm Bill planted the seeds of an 
outcome-based approach. The much discussed SNAP work pilots 
allow ten states to test various approaches to serving 
recipients. In exchange for a share of Federal funds, they must 
agree to comprehensive external evaluation aimed at measuring 
increases in employment and overall household incomes. The 
pilots' emphasis on outcomes was a great bipartisan step 
forward to promote innovation and flexibility, and strong 
accountability. I look forward to monitoring the process of 
these pilots. They will help to provide a window into what 
works and what doesn't so that limited taxpayer dollars can be 
used effectively as possible in providing a safety net to those 
in need, and means to climbing the economic ladder.
    Thank you to all of our witnesses for being here today, and 
I am anticipating a great discussion.
    [The prepared statement of Mrs. Walorski follows:]

    Prepared Statement of Hon. Jackie Walorski, a Representative in 
                         Congress from Indiana
    Welcome to today's hearing on developing and using evidence-based 
solutions in SNAP. We will explore what kind of research is needed to 
develop more evidence-based solutions, what can be done to improve the 
quality and quantity of data, and how research can be used to improve 
the program. This is the seventh in our Past, Present, and Future of 
SNAP series, and will build on themes presented throughout the series 
and provisions included in the 2014 Farm Bill.
    As we continue these discussions, I want to reiterate this process 
is not just about the bureaucracy behind SNAP, it's about helping 
people. We're here to ensure people get a job, support their family, 
and ultimately become financially independent.
    We have repeatedly heard calls for more flexibility so that both 
governmental and non-governmental organizations can better serve 
recipients. As we work to make that possibility a reality, we must be 
mindful of our duty to be good stewards of hard-earned taxpayer 
dollars. Giving more flexibility must be accompanied by measures that 
provide for robust accountability, oversight, and feedback. This will 
ultimately protect recipients and ensure taxpayer dollars are well-
spent.
    Unfortunately, most of the research currently funded by the 
Department of Agriculture revolves around the process, like application 
timing and accuracy, and recipient characteristics, such as gender, 
age, and family composition. This approach misses the forest through 
the trees. Instead, the Department must move beyond the basics of 
measuring the `number served' and develop new data points that focus on 
outcomes like well-being, changes in earnings, and family stability. 
This shifts the conversation from `serving the most' to `being the 
best' leads to better outcomes for more people because we're better 
able to judge what works and what doesn't.
    Measuring outcomes is not a new concept. In fact, in our third 
hearing on the Role of the Charitable Sector, Jonathan Webb, with Feed 
the Children, suggested developing a set of outcome measures, similar 
to those used in international food aid programs.
    The 2014 Farm Bill planted the seeds of an outcome-based approach. 
The much discussed SNAP work pilots allow ten states to test various 
approaches to serving recipients. In exchange for a share of Federal 
funds, they must agree to comprehensive, external evaluation aimed at 
measuring increases in employment and overall household incomes. The 
pilots' emphasis on outcomes, was a great, bipartisan step forward to 
promote innovation and flexibility, and strong accountability.
    I look forward to monitoring the progress of these pilots, as they 
will help to provide a window into what works and what doesn't so that 
limited taxpayer dollars can be used efficiently as possible in 
providing a safety net to those in need and a means to climbing the 
economic ladder.
    Thank you to all our witnesses for being hearing today and I am 
anticipating an engaging discussion.

    The Chairwoman. I would now like to recognize Ranking 
Member McGovern for his opening statement.

 OPENING STATEMENT OF HON. JAMES P. McGOVERN, A REPRESENTATIVE 
                 IN CONGRESS FROM MASSACHUSETTS

    Mr. McGovern. Thank you very much, Chairwoman Walorski, for 
holding today's hearing, and thank you to the witnesses for 
being with us. I look forward to your testimony. This is our 
seventh hearing on SNAP, and I still have a lot of questions as 
to where all this is headed. We are told that the purpose of 
all these hearings is to make SNAP better. No program is 
perfect. There is always room for improvement. But I worry 
that, for some of my colleagues, improvement is code for cuts. 
It makes me nervous that we are going down a path that I worry 
could actually make hunger worse in this country.
    In past hearings we have heard a lot about case management. 
Well, I am all for case management, but show me the money. Case 
management is expensive, and no one's talking about increasing 
SNAP funding to pay for it. We shouldn't take money away from 
the food benefit to pay for case management. We shouldn't rob 
Peter to pay Paul. Likewise, we have heard a lot about work 
requirements, but SNAP is not a jobs program. It is a food 
program. If my friends who are critics of this program want to 
talk about jobs, then we should talk about how our job training 
programs are woefully under-funded. There seems to be little 
appetite to provide more money there too.
    Today's hearing is about SNAP and evidence. Well, let us 
look at the evidence. According to USDA data, SNAP enrollment 
is at the lowest level it has been in nearly 4 years. SNAP 
caseloads are coming down from their peak in the middle of one 
of the country's worst recessions, and they are expected to 
continue to decline. That is how the program is designed to 
work, and it is working. We also have evidence from Children's 
HealthWatch that receiving SNAP is associated with important 
health outcomes for children. Children whose families received 
SNAP were less likely to be food insecure, less likely to be 
underweight, and less likely to be at risk of developmental 
delays. If we are talking about investing in our future, I 
can't think of a better investment than making sure that our 
kids have enough to eat.
    One of the things that frustrates me a little bit about 
some of the hearings that we have had is that we haven't heard 
directly from anybody at the Food and Nutrition Service at 
USDA, those directly responsible for administering SNAP. I 
understand FNS has a whole team doing research on evidence-
based outcomes on SNAP. It would seem to me that we should be 
hearing from them directly.
    And if we are focusing on evidence, we should look at the 
body of evidence that shows the SNAP benefit is too low, that 
people run out of money to pay for groceries mid-month and have 
to turn to food pantries and food banks to feed them through 
the end of the month. We should be looking at the evidence that 
shows that more and more seniors are experiencing hunger. 
Seniors are the population with the most number of folks who 
are eligible for SNAP, but who aren't enrolled. Why is that? Is 
it because they don't know that they are eligible? Is it that 
they are ashamed to ask for help? We should be examining those 
issues more closely, and we also ought to be looking at hunger 
among our veterans. These are the men and women who bravely 
fought for our country, and I don't think we are doing enough 
to support them. They and their families have sacrificed a 
great deal.
    Today's hearing is about evidence, and the evidence shows 
us that SNAP works. SNAP is helping millions of struggling 
families around the county put food on the table, and as this 
economy improves, more and more people are getting back on 
their feet, and off of SNAP. SNAP is working, and my hope is 
that this Committee will look for ways to strengthen it so that 
we can continue to give families a hand up when they need it. I 
yield back my time.
    The Chairwoman. Thank you, Mr. McGovern. The chair would 
request that other Members submit their opening statements so 
the witnesses may begin their testimony, and to ensure there is 
ample time for questions.
    [The prepared statement of Ms. Lujan Grisham follows:]

Prepared Statement of Hon. Michelle Lujan Grisham, a Representative in 
                        Congress from New Mexico
    We should be rewarding and incentivizing those states that 
eradicate hunger.

    The Chairwoman. The chair would also like to notify Members 
they will be recognized for questioning in order of seniority 
for Members who were here at the start of the hearing. After 
that, Members will be recognized in order of arrival. I 
appreciate the Members' understanding.
    Witnesses are reminded to limit their oral statements to 5 
minutes. All the written statements will be included for the 
record. And I would like to now welcome our witnesses to the 
table. John Baron, Vice President of Evidence-Based Policy, 
Laura and John Arnold Foundation, Washington, D.C. James Weill, 
President, Food Research and Action Center, Washington, D.C.
    Special welcome to James Sullivan, Associate Professor of 
Economics, University of Notre Dame, and Wilson Sheehan Lab for 
Economic Opportunity, Notre Dame, Indiana. Dr. Sullivan has 
been at Notre Dame since 2002, researching poverty and the 
effects of anti-poverty programs in the U.S. In 2012 Dr. 
Sullivan co-founded the Lab for Economic Opportunities, which 
partners with Catholic Charities to find research-driven 
solutions to poverty. Dr. Sullivan, thanks for your testimony, 
I appreciate you appearing before this Committee today. Thank 
you for your continued efforts to find research-based solutions 
to poverty in the United States.
    Next I would like to recognize Chairman Conaway to 
introduce the final member of the panel.

OPENING STATEMENT OF HON. K. MICHAEL CONAWAY, A REPRESENTATIVE 
                     IN CONGRESS FROM TEXAS

    Mr. Conaway. Well, thank you, gentlelady. It is my pleasure 
to introduce Jeremy Everett. Jeremy's dad and I are good 
friends. Jeremy's the founding Director of the Texas Hunger 
Initiative at Baylor University. Under his leadership, THI 
thinks outside the box to develop and implement true public-
private partnerships with all levels of government and types of 
community-based organizations to reduce hunger in Texas and 
beyond. He is also in town this week because he is currently 
serving on the National Commission on Hunger, which was created 
by Congress in 2014. I have heard that they had a great hearing 
yesterday, and that we look forward to recommendations from 
that effort later in the year.
    Jeremy has been doing important research-based work in this 
space for a long time, and we are honored to have him here 
today. And, in spite of what our Ranking Member said about who 
else he wanted to hear from, we are excited about hearing from 
these witnesses today, because they are the ones that are the 
experts. And with that, I yield back.
    The Chairwoman. Thank you, Mr. Chairman. Mr. Baron, please 
begin your testimony when you are ready.

        STATEMENT OF HON. JON BARON, VICE PRESIDENT FOR
   EVIDENCE-BASED POLICY, LAURA AND JOHN ARNOLD FOUNDATION, 
                        WASHINGTON, D.C.

    Mr. Baron. Chairwoman Walorski, Ranking Member McGovern, 
and Members of the Subcommittee, I appreciate the opportunity 
to testify regarding evidence-based solutions in the 
Supplemental Nutrition Assistance Program, or SNAP Program. I 
am testifying on behalf of the Laura and John Arnold 
Foundation. My testimony will first discuss how evidence-based 
reforms and other entitlement programs, such as welfare and 
Unemployment Insurance, have identified several highly 
effective strategies for increasing participants' success in 
finding employment, while simultaneously reducing government 
spending. Then I will offer some concrete ideas for advancing 
similar reforms within SNAP.
    In welfare policy in the 1980s and 1990s a large number of 
randomized control trials of state and local welfare-to-work 
programs were conducted across the United States. Such studies 
are widely considered the gold standard method of evaluating 
program effectiveness, and this was the first time that such 
rigorous randomized methods were deployed on a large scale in 
social spending instead of the usual evaluation methods, which 
often produce much less reliable answers.
    Some of the welfare studies found modest effects. Some of 
them found no effects. But one trial in Riverside County, 
California in the late 1980s of a work-focused welfare-to-work 
program was a blockbuster. The program was found to increase 
employment and earnings by 40 percent over 5 years for single 
parent long-term welfare recipients, compared to the control 
group, and to produce net savings to the taxpayer of over $20 
million county-wide by reducing participants use of welfare and 
food stamps.
    Around the same time, a different randomized controlled 
trial in Los Angeles, of their welfare-to-work program, which 
provided remedial education to welfare recipients, found no 
meaningful effects. Based on these findings, Los Angeles 
scrapped its program, borrowed the key elements of the Work 
First Riverside model, and implemented it county-wide in Los 
Angeles County. When the Los Angeles Program was tested in a 
subsequent randomized control trial, it was found, lo and 
behold--also to produce impressive effects--about a 25 percent 
increase in employment and earnings, and net savings to the 
taxpayer of about $30 million.
    Riverside, and Los Angeles, and several similar studies 
that followed had a major influence on national welfare policy, 
helping to build the political consensus for the work 
requirements in the 1996 Welfare Reform Act. In my written 
testimony I describe a randomized trial in a different 
entitlement program, Unemployment Insurance, UI, that has 
recently identified a highly effective strategy developed by 
the State of Nevada for assisting UI claimants to find 
employment.
    Now, in SNAP, building similar evidence-based solutions 
that produce important improvements in participants' lives is 
possible. The Agriculture Department's ten state pilot program 
that you referred to, Madam Chairman, is a valuable step, and 
it was great to see that that program is using randomized 
trials to evaluate the ten different state pilots. But to build 
a body of proven effective strategies within SNAP, as in 
welfare, will require a much larger effort, and specifically 
strategic trial and error. In other words, rigorously testing 
many promising reforms to identify the few that are effective.
    The instances of effectiveness that I just described in 
welfare and UI are exceptions that have emerged from testing a 
much larger pool of strategies. More generally, most 
innovations, typically 80 to 90 percent, are found to produce 
weak or no positive effects when rigorously evaluated, a 
pattern that occurs not just in social spending, but in other 
fields where randomized trials have been carried out, including 
medicine and business.
    Now, my written testimony offers several concrete 
suggestions to greatly accelerate the rate of innovation and 
rigorous evaluation in SNAP, and to do it in a cost-effective 
way. First, we suggest that the Federal Government incentivize 
states to use their existing funds for SNAP employment and 
training to rigorously evaluate new employment and training 
strategies. One important incentive, similar to what was done 
in welfare would be to allow states to share in any budget 
savings that result from an employment and training strategy 
that is demonstrated through a rigorous evaluation to be 
effective. Another incentive, also used in welfare, would be 
for the Federal Government to fund \1/2\ the cost of these 
state level evaluations, with states funding the other \1/2\.
    Our second main recommendation, designed to maximize the 
number of strategies that can be evaluated within a given 
budget, would be to use low cost randomized trials as a main 
evaluation method, and my written testimony describes how such 
methods are increasingly possible in social spending by using 
administrative data to measure the outcomes.
    In conclusion, there is every reason to believe that, with 
robust state level innovation and rigorous evaluation in SNAP, 
we can succeed in identifying highly effective strategies for 
increasing workforce success and self-sufficiency of program 
participants.
    [The prepared statement of Mr. Baron follows:]

Prepared Statement of Hon. Jon Baron, Vice President for Evidence-Based 
       Policy, Laura and John Arnold Foundation, Washington, D.C.
    Chairman Walorski, Ranking Member McGovern, and Members of the 
Nutrition Subcommittee:

    I appreciate the opportunity to testify regarding evidence-based 
solutions in the Supplemental Nutrition Assistance Program (SNAP). As 
brief background, I serve as Vice President of Evidence-Based Policy at 
the Laura and John Arnold Foundation (LJAF). Our mission is to address 
our nation's most pressing and persistent challenges using evidence-
based, multi-disciplinary approaches. LJAF is a 501(c)(3) private 
foundation, and, as such, does not advocate for specific legislation or 
financially benefit from its activities or research. I am also the 
founder and former President of the Coalition for Evidence-Based 
Policy, a nonprofit, nonpartisan organization that worked with Federal 
policy officials from 2001 to 2015 to advance important evidence-based 
reforms in government social spending, many of which were enacted into 
law and policy.
    My testimony will briefly discuss how evidence-based reforms in 
other entitlement programs--welfare and unemployment insurance--have 
succeeded in identifying several highly-effective strategies for 
increasing participants' workforce success and self-sufficiency, while 
simultaneously reducing government spending. Then, I will offer a few 
concrete ideas for advancing similar reforms in SNAP.

    1980s/90s welfare policy:

    Rigorous evaluations identified welfare-to-work strategies that 
increased participants' employment/earnings by 20 to 50 percent, and 
produced net government savings of $2,500 to $7,500 per person.

          In the 1980s and 1990s, government, foundations, and leading 
        researchers sponsored or carried out a large number of 
        randomized controlled trials (RCTs) of state and local welfare 
        reforms. RCTs are widely considered the strongest, most 
        credible method of evaluating program effectiveness. Three 
        major reform efforts--two in California and one in Oregon--were 
        found to be especially effective. Focused on moving welfare 
        recipients quickly into the workforce through short-term job-
        search assistance and training (as opposed to longer-term 
        remedial education), these initiatives produced gains of 20 to 
        50 percent in participants' employment and earnings. 
        Remarkably, they also produced net savings to the government, 
        through reduced costs for welfare and food stamps, of $2,500 to 
        $7,500 per person, or more than $20 million for each of the 
        three programs.\1\
---------------------------------------------------------------------------
    \1\ These are 2014 dollars. The program models are: (i) the 
Riverside Greater Avenues for Independence (GAIN) Program (Stephen 
Freedman, Daniel Friedlander, Winston Lin, and Amanda Schweder, The 
GAIN Evaluation: Five-Year Impacts on Employment, Earnings, and AFDC 
Receipt, Working Paper 96.1, MDRC, July 1996; James Riccio, Daniel 
Friedlander, and Stephen Freedman, GAIN: Benefits, Costs, and Three-
Year Impacts of a Welfare-to-Work Program, MDRC, September 1994); (ii) 
Los Angeles Jobs--First GAIN (Stephen Freedman, Jean Tansey Knab, Lisa 
A. Gennetian, and David Navarro, The Los Angeles Jobs--First GAIN 
Evaluation: Final Report on a Work First Program in a Major Urban 
Center, MDRC, June 2000); and (iii) Portland Job Opportunities and 
Basic Skills Training (JOBS) Program (Susan Scrivener, Gayle Hamilton, 
Mary Farrell, Stephen Freedman, Daniel Friedlander, Marisa Mitchell, 
Jodi Nudelman, Christine Schwartz, National Evaluation of Welfare-to-
Work Strategies: Implementation, Participation Patterns, Costs, and 
Two-Year Impacts of the Portland (Oregon) Welfare-to-Work Program, 
MDRC, May 1998; Gayle Hamilton, Stephen Freedman, Lisa Gennetian, 
Charles Michalpoulos, Johanna Walter, Diana Adams-Ciardullo, Anna 
Gassman-Pines, Sharon McGroder, Martha Zaslow, Jennifer Brooks, Surjeet 
Ahluwalia, Electra Small, and Bryan Ricchetti, National Evaluation of 
Welfare-to-Work Strategies: How Effective Are Different Welfare-to-Work 
Approaches? Five-Year Adult and Child Impacts for Eleven Programs, MDRC 
and Child Trends, December 2001).
---------------------------------------------------------------------------
          According to Federal officials and others involved in the 
        reform efforts, these findings helped build political consensus 
        for the strong work requirements in the 1996 welfare reform 
        act, and they played a central role in shaping many of the 
        work-first state-level reforms that followed. The scientific 
        rigor of the findings was critical to their policy impact.\2\
---------------------------------------------------------------------------
    \2\ Judith M. Gueron and Howard Rolston, Fighting for Reliable 
Evidence, Russell Sage Foundation, 2013, chapters 9 and 10. Ron 
Haskins, ``What Works Is Work: Welfare Reform and Poverty Reduction,'' 
Northwestern Journal of Law and Social Policy, vol. 4, no. 1, 2009, pp. 
29-60. Ron Haskins, in Rigorous Evidence: The Key To Progress Against 
Crime and Substance Abuse? Lessons From Welfare, Medicine, and Other 
Fields, Proceedings of a National Policy Forum Sponsored by the U.S. 
Department of Justice and Coalition for Evidence-Based Policy, June 14, 
2004, pp. 30-36. Judith M. Gueron, ``Building Evidence: What It Takes 
and What It Yields,'' Research on Social Work Practice, vol. 17, no. 1, 
January 2007, pp. 134-142.

---------------------------------------------------------------------------
    Unemployment Insurance (UI):

    A recent RCT of Nevada's Reemployment and Eligibility Assessment 
program for UI claimants found a $2,789 (18 percent) increase in 
earnings per claimant, and a net government savings of $715 per 
claimant.

          Nevada's Reemployment and Eligibility Assessment (REA) 
        program is a mandatory program for new UI claimants which 
        provides an in-person review of their UI eligibility, and 
        personalized reemployment services (e.g., job search 
        assistance), during a single interview session. The program, 
        evaluated in a Department of Labor-funded RCT across the state 
        in 2009-2011, was found to produce a $2,789 (18 percent) 
        increase in earnings per claimant, a four percentage point 
        increase in their employment rate, and a net savings to the UI 
        system of $715 per claimant, 18 to 26 months after random 
        assignment.\3\
---------------------------------------------------------------------------
    \3\ Eileen Poe Yamagata, Jacob Benus, Nicholas Bill, Hugh 
Carrington, Marios Michaelides, and Ted Shen, Impact of the 
Reemployment and Eligibility Assessment Initiative, Impaq 
International, June 2011. Marios Michaelides, Eileen Poe-Yamagata, 
Jacob Benus, and Dharmendra Tirumalasetti, Impact of the Reemployment 
Eligibility Initiative In Nevada, Impaq International, January 2012. 
Coalition for Evidence-Based Policy, Top Tier Evidence Summary of the 
Nevada Reemployment and Eligibility Assessment Program, February 2014, 
linked here (http://toptierevidence.org/wp-content/uploads/2014/09/
Nevada-REA-Near-Top-Tier-summary.pdf).
---------------------------------------------------------------------------
          The Department of Labor is currently funding an expansion of 
        the Nevada REA program to other states, along with a 
        replication RCT to determine whether the findings from the 
        Nevada study will generalize to other sites.

    In SNAP: Building similar evidence-based solutions, with large 
effects, is possible:

    The Department of Agriculture's ten-state pilot program, authorized 
by Congress last year to fund and rigorously evaluate employment/
training projects for SNAP participants, is a valuable first step.

          The program embodies two core elements that experience in 
        welfare and other areas suggests are essential to successful 
        reform: (i) rather than prescribing or circumscribing the types 
        of projects to be funded, the program used a competitive 
        process to select a diverse array of state-initiated projects, 
        thus tapping into promising entrepreneurial approaches 
        generated by the field; (ii) the program requires that each 
        state project be evaluated in a randomized controlled trial so 
        as to credibly determine whether it produces the hoped-for 
        effects on participants' employment, income, economic well-
        being, and use of public assistance.

    However, building a body of proven-effective approaches--as in 
welfare--will require a greatly expanded effort, because experience 
suggests only a subset of tested approaches will be found to work.

          Well-conducted RCTs, by measuring programs' true effect on 
        objectively important outcomes such as earnings, income, and 
        receipt of public assistance, are able to distinguish those 
        that produce sizable effects from those that do not. Such 
        studies have identified a few social interventions that are 
        truly effective--such as those described above--but these are 
        exceptions that have emerged from testing a much larger pool. 
        Most, including those thought promising based on initial 
        studies, are found to produce small or no effects--underscoring 
        the need to test many interventions. This pattern occurs across 
        a broad range of fields where rigorous evaluations have been 
        conducted. For example:

    <bullet> Education: Of the 90 interventions evaluated in RCTs 
            commissioned by the Institute of Education Sciences (IES) 
            since 2002, approximately 90 percent were found to have 
            weak or no positive effects.\4\
---------------------------------------------------------------------------
    \4\ Coalition for Evidence-Based Policy, Randomized Controlled 
Trials Commissioned by the Institute of Education Sciences Since 2002: 
How Many Found Positive Versus Weak or No Effects, July 2013, linked 
here (http://coalition4evidence.org/wp-content/uploads/2013/06/IES-
Commissioned-RCTs-positive-vs-weak-or-null-findings-7-2013.pdf).

    <bullet> Employment/training: In Department of Labor-commissioned 
            RCTs that have reported results since 1992, about 75 
            percent of tested interventions were found to have found 
            weak or no positive effects.\5\
---------------------------------------------------------------------------
    \5\ This is based on a count of results from the Department of 
Labor RCTs that have reported results since 1992, as identified through 
the Department's research database (link (http://wdr.doleta.gov/
research/keyword.cfm)). We are preparing a short summary of these 
findings, to be released shortly.

    <bullet> Medicine: Reviews have found that 50 to 80 percent of 
            positive results in initial (``phase II'') clinical studies 
            are overturned in subsequent, more definitive RCTs (``phase 
            III'').\6\
---------------------------------------------------------------------------
    \6\ John P.A. Ioannidis, ``Contradicted and Initially Stronger 
Effects in Highly Cited Clinical Research,'' Journal of the American 
Medical Association, vol. 294, no. 2, July 13, 2005, pp. 218-228. 
Mohammad I. Zia, Lillian L. Siu, Greg R. Pond, and Eric X. Chen, 
``Comparison of Outcomes of Phase II Studies and Subsequent Randomized 
Control Studies Using Identical Chemotherapeutic Regimens,'' Journal of 
Clinical Oncology, vol. 23, no. 28, October 1, 2005, pp. 6982-6991. 
John K. Chan et. al., ``Analysis of Phase II Studies on Targeted Agents 
and Subsequent Phase III Trials: What Are the Predictors for Success,'' 
Journal of Clinical Oncology, vol. 26, no. 9, March 20, 2008. Michael 
L. Maitland, Christine Hudoba, Kelly L. Snider, and Mark J. Ratain, 
``Analysis of the Yield of Phase II Combination Therapy Trials in 
Medical Oncology,'' Clinical Cancer Research, vol. 16, no. 21, November 
2010, pp. 5296-5302. Jens Minnerup, Heike Wersching, Matthias 
Schilling, and Wolf Rudiger Schabitz, ``Analysis of early phase and 
subsequent phase III stroke studies of neuroprotectants: outcomes and 
predictors for success,'' Experimental & Translational Stroke Medicine, 
vol. 6, no. 2, 2014.

    <bullet> Business: Of 13,000 RCTs of new products/strategies 
            conducted by Google and Microsoft, 80 to 90 percent have 
            reportedly found no significant effects.\7\
---------------------------------------------------------------------------
    \7\ Jim Manzi, Uncontrolled: The Surprising Payoff of Trial-and-
Error for Business, Politics, and Society, Perseus Books Group, New 
York, 2012, pp. 128 and 142. Jim Manzi, Science, Knowledge, and 
Freedom, presentation at Harvard University's Program on Constitutional 
Government, December 2012, linked here (https://www.youtube.com/
watch?v=N4c89SJIC-M).

          In other words, strategic trial-and-error is needed. By 
        rigorously testing many promising approaches, we can identify 
        the few that are effective and merit larger-scale 
---------------------------------------------------------------------------
        implementation.

    The Federal Government could greatly accelerate evidence building 
within SNAP by creating strong incentives for states to use their 
existing funds to rigorously test new employment/training strategies.

  <bullet> States currently receive substantial Federal funds--and 
        often contribute their own funds--to provide employment/
        training services to SNAP participants, but have little 
        incentive to use these funds to rigorously test new strategies. 
        Specifically, in FY 2013, the states received approximately 
        $290 million in Federal funds to provide such employment and 
        training services, and many states contribute their own funds 
        to supplement the Federal funding. Yet, states currently have 
        little incentive to use these funds to develop innovative new 
        strategies and rigorously evaluate them, because any budget 
        savings from strategies demonstrated successful in increasing 
        participants' employment and earnings, and reducing their use 
        of SNAP, would accrue only to the Federal Government (in the 
        form of reduced SNAP expenditures).

  <bullet> By contrast, in welfare policy, in the years leading up to 
        the 1996 reforms, states had strong incentives to use existing 
        funds to rigorously evaluate welfare-to-work strategies. First, 
        welfare was jointly funded by the states and the Federal 
        Government, and under Federal policy, if states could 
        rigorously demonstrate (usually through an RCT) that a new 
        welfare-to-work strategy successfully reduced welfare 
        expenditures, both the state and the Federal Government would 
        share in such savings. Second, the Federal Government gave the 
        states great flexibility to innovate, by granting them waivers 
        from Federal welfare rules, but in return required the states 
        to rigorously evaluate their innovations to determine their 
        effectiveness. Third, the Federal Government funded \1/2\ the 
        cost of each state-level evaluation, and helped manage and 
        monitor the evaluation design and implementation so as to 
        ensure scientific rigor.

  <bullet> To create similar incentives in SNAP, we suggest that states 
        be allowed to share in any budget savings resulting from an 
        employment/training strategy rigorously shown to be effective--
        i.e., shown, in a rigorous evaluation (wherever feasible, an 
        RCT), to increase the employment and earnings of SNAP 
        participants, and to reduce their use of SNAP and other public 
        assistance.

  <bullet> In addition, we suggest that--as in welfare--the Federal 
        Government fund \1/2\ the cost of the evaluation studies of 
        state-developed employment/training strategies (with states 
        funding the other \1/2\) and collaborate with states in the 
        design and implementation of such studies to ensure their 
        scientific rigor.

    To maximize the number of strategies that can be evaluated within a 
given evaluation budget, we suggest using low- or modest-cost RCTs as a 
main evaluation method.

          Recently, researchers have shown it is possible, in many 
        instances, to conduct sizable RCTs at low or modest cost by 
        using administrative data that are already collected for other 
        purposes to measure the key outcomes, rather than engaging in 
        original--and often costly--data collection (e.g., researcher-
        administered interviews, observations, or tests). Such an 
        approach could likely be applied in many SNAP RCTs--i.e., 
        states that are rigorously evaluating state-developed 
        employment/training strategies could often use state UI records 
        and other administrative data to measure key outcomes including 
        employment, earnings, and receipt of SNAP and other public 
        assistance. Such leveraging of existing data can enable many 
        more RCTs to go forward, by dramatically reducing their cost.
          As an illustrative example in another entitlement program, 
        the Department of Labor-funded RCT of the Reemployment and 
        Eligibility Assessment (REA) program, described above, cost 
        about $320,000 through the 12 to 18 month follow-up, based on 
        the researchers' rough estimate--a small fraction of the usual 
        multimillion-dollar cost of major RCTs. Even though the study 
        had a very large sample--33,000 UI claimants in Nevada and over 
        100,000 in three other states implementing different REA 
        strategies--it was conducted at modest cost by measuring all 
        outcomes using administrative data on UI receipt and earnings 
        that the states collect already for other purposes.
          In 2012, the Coalition for Evidence-Based Policy developed a 
        brief (http://coalition4evidence.org/wp-content/uploads/2012/
        03/Rigorous-Program-Evaluations-on-a-Budget-March-2012.pdf) 
        with five additional examples of sizable, well-conducted RCTs, 
        in diverse program areas, that cost less than $300,000. These 
        studies all produced valid evidence of practical importance for 
        policy decisions and, in some cases, identified program 
        strategies that produce budget savings.\8\
---------------------------------------------------------------------------
    \8\ Coalition for Evidence-Based Policy, Rigorous Program 
Evaluations on a Budget: How Low-Cost Randomized Controlled Trials Are 
Possible in Many Areas of Social Policy, March 2012, linked here 
(http://coalition4evidence.org/wp-content/uploads/2012/03/Rigorous-
Program-Evaluations-on-a-Budget-March-2012.pdf).

    We suggest reserving the use of traditional, more comprehensive 
(and costly) RCTs for the evaluation of strategies with a very strong 
signal of sizable impacts from prior studies--including, for example, 
---------------------------------------------------------------------------
low-cost RCTs.

          The main goals would be (i) to determine whether the prior 
        impacts can be successfully reproduced and sustained over time, 
        and (ii) to identify the conditions and populations in which 
        the strategy is most effective. When focused on especially 
        promising strategies, such studies can thereby supply valuable 
        evidence to guide decisions about whether and how to scale up 
        the strategy so as to optimize its impact. However, using such 
        comprehensive RCTs to evaluate strategies without a highly 
        promising evidence base can be a costly and inefficient use of 
        evaluation funds, because of the high likelihood of finding no 
        meaningful impacts, discussed above.

    Conclusion: A robust Federal effort to stimulate state-level 
innovation and rigorous evaluation in employment/training of SNAP 
participants can succeed in identifying strategies that produce 
important gains in employment and earnings, and net savings to the 
taxpayer.

    The Chairwoman. Thank you, Mr. Baron. Mr. Weill, please 
proceed with your testimony.

STATEMENT OF JAMES D. WEILL, J.D., PRESIDENT, FOOD RESEARCH AND 
                ACTION CENTER, WASHINGTON, D.C.

    Mr. Weill. Chairwoman Walorski, Ranking Member McGovern, 
Members of the Subcommittee, thank you for the opportunity to 
testify this afternoon. I am Jim Weill. I am President of the 
Food Research and Action Center, commonly known as FRAC. For 45 
years FRAC has worked to implement and strengthen SNAP and 
other nutrition and anti-poverty programs in order to reduce 
hunger and improve nutrition and well-being. My written 
testimony details the very extensive body of evidence that 
already shows how successful SNAP is in reducing hunger, 
malnutrition, and poverty, and improving child and adult 
health, and other outcomes. And it points out that these 
outcomes would be at deep risk if the program were weakened, or 
subjected to demonstration projects based on misconceptions or 
stereotypes.
    The key purposes of SNAP, defined in the statute, are to 
address hunger among low-income households that suffer from 
limited purchasing power, to assist those households in 
obtaining a more nutritious diet, to bolster normal channels of 
trade, and to strengthen the agricultural economy. The first 
set of research findings, summarized in my written testimony, 
is that SNAP is fulfilling these core purposes, and in 
particular it boosts food purchasing power for needy Americans, 
and thereby reduces significantly the prevalence of food 
insecurity and malnutrition. By doing so, the research shows, 
SNAP produces important positive effects on health, on mental 
health, on child development, on employability, and on other 
desirable outcomes. The positive impacts on child health are 
particularly notable, and those effects can be long lasting. 
For example, a recent compelling report says that the exposure 
to SNAP in utero, or in early childhood, reduces the incidence 
of metabolic syndrome in adulthood, and reduces obesity, 
hypertension, diabetes, and heart disease.
    SNAP and its impacts, moreover, reach a very broad and 
diverse population of rural, urban, and suburban people in 
need: 70 percent of recipients live in households with minor 
children, 11 percent in households with seniors, 18 percent in 
households with people with disabilities. Many beneficiaries 
are struggling veterans. And in many ways the program has 
become a work support program. When the adults in the household 
are not seniors, or persons with disabilities, they typically 
are working, albeit at low wages, or are very recently 
unemployed. Among SNAP households with at least one working age 
adult not receiving disability benefits, more than \1/2\ have a 
member who works while receiving SNAP, and more than 80 percent 
work either in the year prior or the year after receiving SNAP. 
These rates are even higher for SNAP households with children. 
And, as we have learned most profoundly in the Great Recession, 
SNAP is very responsive to national or local economic 
downturns.
    SNAP not only reduces hunger, it alleviates poverty and 
supports family economic stability. According to one new 
analysis, SNAP lifted ten million people above the poverty line 
in 2012. Exposure to SNAP in early childhood increases women's 
economic self-sufficiency, with greater high school graduation 
rates, higher earnings, and lower rates of welfare received in 
adulthood.
    There is one serious SNAP shortcoming, and that is its 
inadequate benefit levels. But the nation has just run a large 
natural experiment with more adequate SNAP benefits, and the 
early research shows that it worked. The American Recovery and 
Reinvestment Act began an increase in benefits in April 2009, a 
boost that was cut off in late 2013. While it was in effect, 
research shows, the boost reduced food insecurity and improved 
the health of young children. But there needs to be more 
extensive research on the impact of the boost on food 
insecurity and health. It is disconcerting how little interest 
there has been about this in the research community.
    And finally I will just summarize quickly some examples 
from my written testimony of recent policy changes, Federal and 
state, that should be evaluated for their impact on hunger and 
on SNAP's effectiveness. Last year's farm bill created pilots 
to provide incentives for SNAP consumers' purchases of fruit 
and vegetables. As Mr. Baron indicated, the farm bill also 
created a substantial demonstration project for ten states' 
innovative employment and training strategies. The improvements 
made last year in the Federal child care program also should be 
evaluated to see if more work--supporting child care will lead 
to higher rates of food security, as well as less joblessness; 
and the President's proposal to help states streamline SNAP 
processes for seniors could provide evidence of ways to improve 
the far too low senior SNAP participation rate, and thereby 
lower their food insecurity and health costs. And last, as more 
states adopt higher state minimum wages, while the Federal 
minimum wage and other states are lagging behind, that provides 
a natural opportunity to examine the evidence that higher 
minimum wages can be a significant solution to food insecurity, 
and also bring down SNAP participation rates.
    So, in conclusion, SNAP is fundamentally sound and 
successful. There are ways to make it even better. Indeed, 
there is already a body of research on this that I haven't been 
able to do full justice to today, but I hope the Subcommittee 
will explore that existing body of research, and where it 
leads, further.
    [The prepared statement of Mr. Weill follows:]

 Prepared Statement of James D. Weill, J.D., President, Food Research 
                  and Action Center, Washington, D.C.
    Thank you for the invitation to testify this afternoon.
    I am Jim Weill, President of the Food Research and Action Center 
(FRAC). FRAC works through research, advocacy, outreach, and 
identification and dissemination of best practices to reduce poverty 
and end hunger in America. For 45 years FRAC has been engaged in 
efforts to implement and strengthen the SNAP (formerly ``food stamp'') 
program in order to reduce hunger and improve nutrition; and I 
personally have been involved in work around SNAP and other key means-
tested programs like Medicaid, Supplemental Security Income, and school 
meals since the 1970s, in jobs at the Legal Assistance Foundation of 
Chicago, the Children's Defense Fund, and--since 1998--FRAC.
    I will be primarily discussing today the rich veins of evidence 
showing how successful SNAP is in reducing hunger, malnutrition and 
poverty, and improving family security, child and adult health, 
employment and other outcomes. In discussing what research to undertake 
and which evidence-based solutions to pursue, it is crucial to 
understand the substantial body of first-rate evidence on the program 
that already exists.
    The evidence demonstrates that SNAP is a great example of how 
government at its best can work well for people. Senator Bob Dole, 
among others, described the Food Stamp Program as the most important 
social program advance since the creation of Social Security. That 
insight has since been buttressed by more and more evidence of SNAP's 
strengths and positive outcomes--outcomes that would be at deep risk if 
the program were weakened or if new demonstration projects or program 
changes were developed without understanding what we already know. SNAP 
is a key part of a safety net that not only reduces hunger but supports 
work, family stability, child development and opportunity. Damaging 
SNAP by building in ill-conceived changes based on misconceptions or 
stereotypes would result in irreparable harm to people who are trying 
desperately to put food on the table and to move out of poverty. SNAP 
is targeted and effective. It is a critical support to millions of poor 
and hungry people in our country.
    The first and most significant set of findings is that SNAP 
fulfills its core purpose: it reduces food insecurity and malnutrition, 
and that result is crucially important to the nation as a whole and to 
every state and community. A number of studies, including many 
published in the last couple of years, find that participation in SNAP 
quite significantly reduces the prevalence of food insecurity among 
households and among both adults and children in those households.\1\ 
One study showed that SNAP reduces the childhood food insecurity rate 
by at least 8.1 points.
---------------------------------------------------------------------------
    \1\ For citations and additional studies on SNAP's role in reducing 
food insecurity, see FRAC's SNAP and Public Health: The Role of the 
Supplemental Nutrition Assistance Program in Improving the Health and 
Well-Being of Americans, as well as the April 2015 issue of Food 
Insecurity and Hunger in the U.S.: New Research. Both publications are 
available at www.frac.org.
---------------------------------------------------------------------------
    As I will discuss in detail later, the effects of SNAP on reducing 
food insecurity would be much greater if monthly SNAP benefits were 
more adequate. But even with the constraint of benefits being too low, 
the program still has important impacts on reducing hunger and food 
insecurity.
    Addressing hunger and malnutrition among low-income people is the 
core Congressional goal in SNAP, and it should be: reducing hunger must 
remain a paramount national goal. Food insecurity has a range of severe 
negative effects for children and adults.\2\ Food insecurity is 
associated with some of the most costly health problems in the United 
States, including diabetes, heart disease, depression, obesity, and 
pregnancy complications (e.g., gestational diabetes and iron 
deficiency). And among seniors, food insecurity has been linked with 
poor or fair health status, diabetes, anemia, depression, disability, 
limitations in daily activities, decreased quality of life, and lower 
intakes of calories and key nutrients. In addition, because of limited 
resources, individuals in food insecure households often are forced to 
choose food over medication, postpone preventive or needed medical 
care, dilute or ration infant formula, or forgo the foods needed for 
special medical diets (e.g., diabetic diets). Such practices and 
behaviors not only exacerbate disease and compromise health, but also 
increase expensive physician encounters, emergency room visits, and 
hospitalizations.
---------------------------------------------------------------------------
    \2\ For citations and additional studies on the consequences of 
food insecurity, see FRAC's SNAP and Public Health: The Role of the 
Supplemental Nutrition Assistance Program in Improving the Health and 
Well-Being of Americans, as well as the April 2014 and July 2014 issues 
of Food Insecurity and Hunger in the U.S.: New Research. These 
publications are available at www.frac.org.
---------------------------------------------------------------------------
    The consequences of food insecurity--and even marginal food 
security--are especially detrimental to the health, development, and 
well-being of children. Research shows a clear link between food 
insecurity and low birthweight, birth defects, iron deficiency anemia, 
more frequent colds and stomachaches, untreated dental caries, 
developmental risk, mental health problems, and poor educational 
outcomes for children--all of which have serious health and economic 
consequences in both the short term and long-term.
    As I will discuss, by reducing food insecurity, improving diets and 
connecting beneficiaries to food through normal means of commerce, SNAP 
has a range of proven positive effects on health, mental health, 
employability, and other desirable outcomes.
    Moreover, in looking at these positive impacts, it is important to 
maintain focus on how broad and diverse is the population of people in 
need that SNAP serves and benefits:

  <bullet> About 70 percent of SNAP recipients live in households with 
        minor children;

  <bullet> Eleven percent live in households with seniors;

  <bullet> Eighteen percent live in households with people with 
        disabilities;

  <bullet> Many beneficiaries are struggling veterans; and even low-
        paid enlisted active duty military families participate; and

  <bullet> When the adults in the household are not seniors or persons 
        with disabilities, they typically are working--at low wages--or 
        are recently unemployed. Among SNAP households with at least 
        one working-age adult not receiving disability benefits, more 
        than \1/2\ have a member who works while receiving SNAP, and 
        more than 80 percent work either in the year prior or the year 
        after receiving SNAP. The rates are even higher for SNAP 
        households with children.\3\
---------------------------------------------------------------------------
    \3\ Rosenbaum, D. (2013). The Relationship Between SNAP and Work 
Among Low-Income Households. Center on Budget and Policy Priorities. 
Available at: www.cbpp.org/cms/?fa=view&id=3894.

    SNAP is also there when natural disasters like hurricanes, 
tornadoes and floods strike. Indeed in 2005, in a report from President 
Bush's White House on government action in the aftermath of Hurricanes 
Katrina, Rita and Wilma, the Disaster SNAP program was singled out for 
its responsiveness and effectiveness.
    And, as we have learned most profoundly in the Great Recession, 
SNAP is appropriately and effectively responsive to national--or 
regional or local--economic downturns, when joblessness rises, and 
wages and hours for workers who hang on to their jobs often are 
reduced.
    These diverse groups of Americans--whether people with 
disabilities, seniors, low-paid working families, families facing 
unemployment, veterans or people affected by natural or man-made 
economic disasters--turn to SNAP when facing severe need. And their 
need is great: 83 percent of households on SNAP have incomes at or 
below the Federal poverty line ($19,530 for a family of three in 2013--
the year of this SNAP data analysis).\4\ Indeed, 58 percent of them 
have incomes at or below \3/4\ of the poverty line.
---------------------------------------------------------------------------
    \4\ Farson Gray, K. (2014). Characteristics of Supplemental 
Nutrition Assistance Program Households: Fiscal Year 2013. Report No. 
SNAP-14-CHAR. Alexandria, VA: U.S. Department of Agriculture, Food and 
Nutrition Service, Office of Policy Support.
---------------------------------------------------------------------------
    It is this intimate connection to great human need that explains 
the caseload trends. The weak performance of the economy in the years 
before the Great Recession, and then the huge pain of the Recession, 
were key drivers of SNAP participation growth. Even as employment now 
slowly recovers, moreover, the problem of low wages--for example, the 
Federal minimum wage hasn't gone up since 2009 and in real, inflation-
adjusted, terms is at only \3/4\ of the level typical in the 1960s and 
1970s--means that more low-wage working families turn to SNAP for help. 
The weakening of other parts of the safety net--unemployment insurance, 
housing assistance, TANF, etc.--also causes an erosion of family 
incomes that increases the need for SNAP benefits.
    There is an additional explanation for the widespread need, over 
time, for SNAP's help. The American economy operates in such a way that 
very large numbers of people cycle into and out of poverty, hunger and 
other hardship. Mark Rank, an expert on poverty at Washington 
University in St. Louis, calculates that \1/2\ of all children in the 
U.S. reside in a household that receives SNAP benefits at least once 
during their childhood,\5\ as do \1/2\ of all American adults at some 
point between the ages of 20 and 65.\6\
---------------------------------------------------------------------------
    \5\ Rank, M.R. & Hirschl, T.A. (2009). Estimating the risk of food 
stamp use and impoverishment during childhood. Archives of Pediatrics 
and Adolescent Medicine, 163(11), 994-999.
    \6\ Rank, M.R. & Hirschl, T.A. (2005). Likelihood of using food 
stamps during the adulthood years. Journal of Nutrition Education and 
Behavior, 37(3), 137-146.
---------------------------------------------------------------------------
    And, contrary to stereotypes, these beneficiaries are as diverse as 
America--they come from all races and ethnic groups; they are rural, 
suburban and urban. They are as diverse as is American poverty and 
hunger. Indeed, rural food insecurity rates are higher than metro area 
rates; and food insecurity rates are roughly the same in every region 
of the country, albeit they are highest in the South.\7\
---------------------------------------------------------------------------
    \7\ Coleman-Jensen, A., Gregory, C., & Singh, A. (2014). Household 
Food Security in the United States in 2013, ERR-173. Washington, DC: 
U.S. Department of Agriculture, Economic Research Service.
---------------------------------------------------------------------------
    Let me return now to the many specific ways in which SNAP benefits 
struggling Americans.
    SNAP not only reduces hunger, but it alleviates poverty and 
supports family economic stability.\8\ SNAP is as effective as low-
income tax credits in lifting people out of poverty. According to a new 
analysis, SNAP lifted 10.3 million people above the poverty line in 
2012, comparable to the number lifted out by the Earned Income Tax 
Credit and Child Tax Credit together: 4.9 million of those lifted out 
of poverty were children. And the SNAP program was far more effective 
than any other government effort (e.g., EITC/CTC; housing assistance; 
Supplemental Security Income; TANF), other than Social Security, in 
lifting people above \1/2\ the poverty line.
---------------------------------------------------------------------------
    \8\ For citations and additional research on SNAP's role in 
alleviating poverty, see FRAC's SNAP and Public Health: The Role of the 
Supplemental Nutrition Assistance Program in Improving the Health and 
Well-Being of Americans at www.frac.org.
---------------------------------------------------------------------------
    In some state estimates of particular note for the Subcommittee, 
SNAP lifted 224,000 people above the poverty line in Indiana; 913,000 
in Texas; 342,000 in Pennsylvania, 141,000 in Massachusetts; 419,000 in 
Ohio; and 338,000 in North Carolina.\9\
---------------------------------------------------------------------------
    \9\ Sherman, A. & Trisi, D. (2015). Safety Net More Effective 
Against Poverty Than Previously Thought. Center on Budget and Policy 
Priorities. Available at: www.cbpp.org/research/poverty-and-inequality/
safety-net-more-effective-against-poverty-than-previously-thought.
---------------------------------------------------------------------------
    SNAP also helps support families by improving housing security. 
Families receiving housing subsidies, SNAP, and WIC benefits are 72 
percent more likely to be housing-secure (i.e., defined as living 
without overcrowding or frequent moves within the last year), compared 
to those families receiving housing subsidies alone.\10\
---------------------------------------------------------------------------
    \10\ Sandel, M., Cutts, D., Meyers, A., Ettinger de Cuba, S., 
Coleman, S., Black, M.M., Casey, P.H., Chilton, M., Cook, J.T., 
Shortell, A., Heeren, T., & Frank, D. (2014). Co-enrollment for child 
health: how receipt and loss of food and housing subsidies relate to 
housing security and statutes for streamlined, multi-subsidy 
application. Journal of Applied Research on Children, 5(2), Article 2.
---------------------------------------------------------------------------
    And SNAP helps long-term economic security. In one seminal analysis 
published by the National Bureau of Economic Research, and looking at 
the long-term effects of SNAP, exposure to SNAP in early childhood 
increased women's economic self-sufficiency in terms of greater high 
school graduation rates (18 percent higher), higher earnings, and lower 
rates of welfare receipt in adulthood.\11\
---------------------------------------------------------------------------
    \11\ Hoynes, H.W., Schanzenbach, D.W., & Almond, D. (2012). Long 
run impacts of childhood access to the safety net. NBER Working Paper, 
18535. Cambridge, MA: National Bureau of Economic Research.
---------------------------------------------------------------------------
    SNAP improves beneficiaries' dietary intake, health and well-
being.\12\ Extensive research shows that SNAP improves dietary intake. 
And the higher the level of SNAP benefits is, the larger is the 
positive nutritional effect of program participation.
---------------------------------------------------------------------------
    \12\ For citations and additional research on SNAP's role in 
improving dietary intake, health and well-being, see FRAC's SNAP and 
Public Health: The Role of the Supplemental Nutrition Assistance 
Program in Improving the Health and Well-Being of Americans, as well as 
the April 2015 issue of Food Insecurity and Hunger in the U.S.: New 
Research. Both publications are available at www.frac.org.
---------------------------------------------------------------------------
    Numerous studies--many of them recent--demonstrate the favorable 
impact of SNAP participation on physical and mental health. Indeed, the 
notion that ``food is medicine'' is growing in resonance.
    SNAP has a powerful impact on child health. Young children in food-
insecure households that receive SNAP benefits are less likely to be at 
developmental risk, in fair or poor health, and overweight, and they 
have fewer hospitalizations than comparable non-participants. SNAP also 
has been linked with lower rates of nutrient deficiency and lower rates 
of failure to thrive among children.
    SNAP improves adult health in terms of increasing the probability 
of reporting excellent or good health, as well as having fewer sick 
days and doctor's visits. In addition, exposure to SNAP in utero or in 
early childhood reduces the incidence of metabolic syndrome (obesity, 
hypertension, diabetes, heart disease) in adulthood.
    On the other hand, a loss or reduction in SNAP benefits has 
detrimental impacts on health. Families with young children whose SNAP 
benefits were recently lost or reduced due to an increase in income 
have higher odds of poor child health and developmental risk, household 
food insecurity, forgoing medical care for family members, or making 
health care trade-offs (e.g., paying for health care costs instead of 
paying for food or housing).
    SNAP is a public-private partnership that works efficiently and 
accurately. SNAP makes good use of regular channels of commerce--retail 
stores and Electronic Benefit Transfer (EBT) systems--rather than 
requiring constructing new, costly delivery systems. SNAP relieves 
pressure on overwhelmed food banks, pantries, religious congregations, 
and other emergency food providers across the country. They recognize 
SNAP as the cornerstone of national, state, and local anti-hunger 
efforts, and are the first to note their total inability to meet added 
demand that would come from weakening SNAP.
    SNAP benefits create markets, economic growth and jobs in urban and 
rural communities--at grocers, farmers' markets, military commissaries, 
manufacturers, and farms. Because SNAP benefits are so urgently needed, 
they are spent quickly--97 percent of benefits are redeemed by the end 
of the month of issuance--and therefore have great positive economic 
effects. Moody's Analytics and USDA estimate that the economic growth 
impact of SNAP ranges from $1.73 to $1.79 per $1 of SNAP benefits.
          * * * * *
    In the midst of all of these quite considerable strengths of the 
SNAP program, the most serious shortcoming is its inadequate benefit 
levels. Benefits are not adequate to get most families through the 
whole month, let alone to allow them to buy the foods needed for a 
quality diet. Benefits are inadequate even though SNAP recipients use a 
variety of savvy shopping practices to stretch their limited food 
dollars, such as clipping coupons, using shopping lists, looking for 
deals by comparing store circulars, purchasing generic brands, buying 
in bulk quantities, and shopping at multiple 
stores.\13\<SUP>-</SUP>\15\
---------------------------------------------------------------------------
    \13\ Bradbard, S., Michaels, E.F., Fleming, K., & Campbell, M. 
(1997). Understanding the Food Choices of Low Income Families: Summary 
of Findings. Alexandria, VA: U.S. Department of Agriculture, Food and 
Consumer Service, Office of Analysis and Evaluation.
    \14\ Seefeldt, K.S. & Castelli, T. (2009). Low-income women's 
experiences with food programs, food spending, and food-related 
hardships: evidence from qualitative data. Contractor and Cooperator 
Report, 57. Washington, D.C.: U.S. Department of Agriculture, Economic 
Research Service.
    \15\ Wiig, K. & Smith, C. (2009). The art of grocery shopping on a 
food stamp budget: factors influencing the food choices of low-income 
women as they try to make ends meet. Public Health Nutrition, 12(10), 
1726-1734.
---------------------------------------------------------------------------
    Researchers, advocates, and food pantries have been saying for 
years that SNAP benefits are inadequate, but in 2013 the prestigious 
Institute of Medicine, after a thorough study, outlined the factors 
that explain why the SNAP allotment is not enough to get most families 
through the month with a minimally adequate diet (e.g., the lag in SNAP 
benefits keeping up with inflation because of budget cuts made by 
Congress; the failure to fully account for shelter costs when 
determining family income available for food costs so that SNAP 
benefits are lower; the unreasonable assumptions about the amount of 
time beneficiaries have to purchase and prepare food).\16\
---------------------------------------------------------------------------
    \16\ Institute of Medicine and National Research Council Committee 
on Examination of the Adequacy of Food Resources and SNAP Allotments. 
(2013). Supplemental Nutrition Assistance Program: Examining the 
Evidence to Define Benefit Adequacy. Washington, D.C.: National 
Academies Press.
---------------------------------------------------------------------------
    An analysis by FRAC finds that SNAP benefits are inadequate, in 
part, because they are based on the U.S. Department of Agriculture's 
(USDA) impractical Thrifty Food Plan. The plan: includes lists of foods 
that are impractical to find in many communities or impractical given 
time constraints; lacks the variety called for in the Dietary 
Guidelines for Americans; unrealistically assumes adequate facilities 
and time for food preparation; unrealistically assumes food 
availability, affordability, and adequate transportation; particularly 
costs more than the SNAP allotment in many parts of the country; and 
ignores special dietary needs.\17\
---------------------------------------------------------------------------
    \17\ For this and additional information on the weaknesses of the 
Thrifty Food Plan, see FRAC's Replacing the Thrifty Food Plan in Order 
to Provide Adequate Allotments for SNAP Beneficiaries at www.frac.org.
---------------------------------------------------------------------------
    On the other hand, the nation has just run a large natural 
experiment involving providing more adequate benefits, and it 
worked.\18\ Average benefits starting in April 2009 reflected a 
temporary boost in monthly allotments pursuant to the American Recovery 
Reinvestment Act (ARRA). Unfortunately, the temporary ARRA boost was 
cut off on November 1, 2013, and benefits then were reduced for all 
SNAP participants. But the ARRA boost had very important positive 
effects while it was in effect. It helped reduce the ratio of food 
insecurity by 2.2 points and reduce very low food insecurity by 2.0 
points among low-income households between December 2008 (pre-ARRA) and 
December 2009 (about 8 months post-ARRA). SNAP households also 
exhausted benefits later in the month with the ARRA boost--they were 
able to save slightly more benefits for use at the end of the month. 
Two years after the ARRA boost started, young children in households 
receiving SNAP benefits were significantly more likely to be ``well'' 
than children from non-participating low-income households; such a 
difference was not observed prior to the benefit boost.
---------------------------------------------------------------------------
    \18\ For citations and additional studies on the ARRA boost and its 
impacts, see FRAC's SNAP and Public Health: The Role of the 
Supplemental Nutrition Assistance Program in Improving the Health and 
Well-Being of Americans, as well as the April 2015 issue of Food 
Insecurity and Hunger in the U.S.: New Research. Both publications are 
available at www.frac.org.
---------------------------------------------------------------------------
    Prior to the temporary boost, caloric intake declined by as much as 
25 percent at the end of the month among SNAP participants. However, 
the ARRA boost eliminated this decline, leading researchers to 
conclude, when the boost expired, that: ``now that the ARRA-induced 
benefit boost has been eliminated, it is likely that SNAP recipients 
are again experiencing a monthly cycle in caloric intake.''
    Another USDA report estimates that increasing the maximum SNAP 
benefit by ten percent would reduce the number of SNAP households with 
very low food security by about 22 percent.\19\
---------------------------------------------------------------------------
    \19\ Nord, M. (2013). Effects of the Decline in the Real Value of 
SNAP Benefits from 2009 to 2011, ERR-151. Washington, D.C.: U.S. 
Department of Agriculture, Economic Research Service.
---------------------------------------------------------------------------
          * * * * *
    Given this extensive body of research, as the Committee considers 
``Developing and Using Evidence-Based Solutions'' in SNAP, I would 
close with the following points and recommendations:
    The statutory language and the history of SNAP define the purposes 
that frame the solutions we should seek. The SNAP program is explicitly 
designed:

  (1)  to address hunger and malnutrition among low-income households 
            suffering from limited purchasing power;

  (2)  to assist those households in obtaining a more nutritious diet;

  (3)  to bolster normal channels of trade--i.e., to assure that low-
            income people can use regular grocery stores rather than 
            have to rely on a system like pantries; and

  (4)  to strengthen the agricultural economy.

    The program has succeeded remarkably well in achieving these goals, 
even across several decades of demographic, economic, fiscal and 
political change. If anything, the program is more essential and 
effective than it was 20 or 30 or 40 years ago.
    For that reason, I recommend that the first priority be to look at 
the existing body of evidence as to how SNAP is fulfilling these core 
statutory purposes and see how to build on that evidence base and 
implement key findings. In particular, there needs to be more in-depth 
research on the impact of the ARRA boost to monthly SNAP allotments on 
food purchasing power, food insecurity, adult and child health, and 
other outcomes. Does the research demonstrate that this is a solution 
to food insecurity and to bad health and other outcomes that food 
insecurity causes so as to justify raising benefits on a long-term 
basis?
    I would also recommend that the Committee look at new developments 
in SNAP and related programs coming out of the farm bill and other 
recent developments in Federal and state policy to see what evidence is 
emerging from them that the Committee can build on. Here are five 
examples:

  <bullet> Last year's farm bill created the Food Insecurity Nutrition 
        Incentive Grant Program (``FINI'') to provide incentives at the 
        point of sale for SNAP consumers' purchases of fruits and 
        vegetables. By enhancing purchasing power in a targeted way, 
        this farm bill-created set of pilots could provide important 
        evidence of strategies to strengthen SNAP to further reduce 
        food insecurity and improve nutrition.

  <bullet> The farm bill also created a substantial demonstration 
        project that will fund ten states' innovative employment and 
        training strategies (SNAP E&T), plus an independent evaluation 
        of their results. USDA announced the ten pilots in March. There 
        will be much to learn from these pilots about the ways in which 
        SNAP E&T can better lead to good jobs that build food security 
        and economic stability and security.

  <bullet> There is much evidence that the absence of affordable child 
        care is a barrier to stable employment and to families getting 
        and keeping jobs with family-supporting wages. The 
        reauthorization and strengthening last year of the Child Care 
        and Development Block Grant (CCDBG) has the potential to 
        ameliorate some of this problem, especially if CCDBG is 
        adequately funded. It will be important to see whether child 
        care support can be better integrated with SNAP, and with SNAP 
        E&T, reach more adequate numbers of low-income families needing 
        help, and help lead to higher rates of food security.

  <bullet> We know that the SNAP participation rates of seniors have 
        been considerably lower than the rates for other groups. There 
        are many reasons for this--e.g., seniors are less willing to 
        grapple with the unnecessary red tape and wait times that 
        prevail in many states. The President has proposed an 
        initiative to help states streamline application processes for 
        the elderly. It would be important to fund that and determine 
        the extent to which it could raise senior SNAP participation 
        rates and lower senior food insecurity, and thereby lower the 
        resulting health costs for Medicare, Medicaid and other 
        systems.

  <bullet> As more states adopt higher state minimum wages, but the 
        Federal minimum wage and other states lag behind, there is an 
        opportunity for researchers to look at whether there is 
        evidence--and the robustness of the evidence--that higher 
        minimum wages are a significant solution to food insecurity and 
        also bring down SNAP participation rates. We need clearer 
        understanding of how families' work, bolstered by higher 
        minimum wages, other wage supports like health coverage, and 
        other supports, produces greater self-sufficiency.
Conclusion
    In taking a close look at SNAP, I hope this Committee and 
Subcommittee will first apply the principle of doing no harm. This is 
particularly crucial because the program is so successful and so 
important to so many people in every community in America. There are 
ways to make SNAP an even better support for food security, poverty 
reduction, nutrition, health, learning and work, and those strategies 
grow out of the rich research basis on how effective SNAP already is. I 
appreciate the opportunity to be here today and discuss some of them.

    The Chairwoman. Thank you, Mr. Weill. Dr. Sullivan, please 
proceed.

STATEMENT OF JAMES X. SULLIVAN, Ph.D., REV. THOMAS J. MCDONAGH, 
  C.S.C., ASSOCIATE PROFESSOR OF ECONOMICS; DIRECTOR, WILSON 
                    SHEEHAN LAB FOR ECONOMIC
    OPPORTUNITIES, UNIVERSITY OF NOTRE DAME, SOUTH BEND, IN

    Dr. Sullivan. Chairwoman Walorski, Ranking Member McGovern, 
and other Members of the Subcommittee, thank you for inviting 
me to participate in today's hearing. I am talking to you today 
because the impact of social programs has been the focus of 
much of my academic research, and recently I co-founded the 
Wilson Sheehan Lab for Economic Opportunities, a research 
center at the University of Notre Dame that implements impact 
evaluations to identify innovative, effective, and scalable 
programs that help the disadvantaged move to self-sufficiency. 
We work with some of the largest private providers of services 
to the poor in the country, such as the Catholic Charities 
Network, as well as state and local agencies. While these front 
line providers are driven by compassion and motivation for 
helping the poor, most of them design and launch programs 
without solid evidence of effectiveness. The same could be said 
of many national programs, most of which are not evaluated, or 
are evaluated with unreliable methods.
    One of the greatest advances in the social sciences in 
recent decades is the development and application of methods 
that allow us to determine whether social programs are having 
their intended effect. The gold standard of these approaches is 
the randomized controlled trial. Nowadays gathering evidence is 
commonplace in many sectors. The medical profession runs tens 
of thousands of experiments each year to test the effectiveness 
of new interventions. These experiments have led to vast 
improvements in health care all across the globe. Shouldn't the 
same commitment to proven effectiveness apply to our social 
programs? Using evidence to steer resources towards the most 
effective programs would allow us to do more good with the 
limited resources available.
    Despite its size and importance, there is little hard 
evidence of the impact of SNAP. There is some promising quasi-
experimental evidence showing that in utero exposure to the 
food stamp program is associated with increased birth weight 
and lower rates of obesity and heart disease in adulthood. But 
this evidence is for those exposed to food stamps in the late 
1960s and early 1970s. There is a clear need for rigorous 
experimental evidence of the impact of SNAP in its current 
form.
    Evaluating SNAP can be challenging, given its structure. It 
is much easier to conduct experiments when a program is rolled 
out, expanded, or changed in significant ways, or when the 
program is not made available to all those who might be 
eligible. SNAP is an entitlement program that has been around 
for more than 5 decades, and there has been relatively little 
experimentation with program rules. I applaud this 
Subcommittee's efforts to generate more evidence to guide the 
future of nutrition policy. There are a number of strategies 
that can help develop a strong base of evidence and improve 
policy. Let me highlight just a few.
    First, policymakers should incentivize innovation. Programs 
can't be built on evidence of effectiveness if there is no 
evidence. The most innovative ideas for social programs 
frequently come from states and local providers, but they need 
funds to experiment with new ideas. The most recent farm bill 
made important strides towards encouraging innovation by 
authorizing $200 million to support pilot projects designed and 
implemented by state agencies to reduce SNAP dependency and 
encourage work. These grants create a pipeline of innovative 
programs that, if proven effective, can be scaled up to ensure 
broad impact.
    Second, the program needs to be rigorously evaluated, 
otherwise there is no way to know whether the program is being 
implemented correctly, and having its intended effect. If a 
funding agency does require an evaluation, it often does not 
require the evaluation to employ the best experimental or 
quasi-experimental methods possible, which limits the extent to 
which this evidence can shape future policy.
    Third, researchers need greater access to administrative 
data. Collecting survey data for an evaluation can be an 
expensive proposition. In many instances, administrative 
records already collect information on key outcomes, such as 
employment, earnings, program participation, and many others. 
But these data are often not available for evaluation purposes. 
Some cities and states have established administrative data 
repositories that can be used for evaluation, but there needs 
to be a national effort. The Ryan-Murray Act represents an 
excellent step towards greater access to data. This legislation 
would create a commission to study how administrative data 
might be compiled in order to facilitate research and 
evaluation. This would make possible countless studies of 
government programs, resulting in the design of more effective 
policies.
    Advances in technology and data collection have greatly 
expanded opportunities to implement high quality evaluation of 
social programs. By encouraging innovation and evaluation, and 
by targeting support at interventions shown to be successful, 
policymakers will ensure that our social programs are more 
effective at helping vulnerable populations get ahead. We at 
the Wilson Sheehan Lab welcome this transformation in the way 
we fight poverty in America. Thank you.
    [The prepared statement of Dr. Sullivan follows:]

    Prepared Statement of James X. Sullivan, Ph.D., Rev. Thomas J. 
 McDonagh, C.S.C., Associate Professor of Economics; Director, Wilson 
Sheehan Lab for Economic Opportunities, University of Notre Dame, South 
                                Bend, IN
I. Introduction
    Chairwoman Walorski, Ranking Member McGovern, and other Members of 
the Subcommittee, thank you for inviting me to participate in today's 
hearing, ``Past, Present, and Future of SNAP: Developing and Using 
Evidence-Based Solutions.'' I am talking to you today because examining 
evidence on the impact of programs designed to help the marginalized 
and disadvantaged has been the focus of much of my academic research 
over the past 15 years.
    Recently I co-founded the Wilson Sheehan Lab for Economic 
Opportunities (LEO), which is a research center at the University of 
Notre Dame that identifies innovative, effective and scalable programs 
that help those in need move to self-sufficiency. The Wilson Sheehan 
Lab has partnered with some of the largest private providers of 
services to the poor in the country, including the Catholic Charities 
network, as well as state and local governmental agencies, to examine 
evidence of program effectiveness. These projects include programs to 
promote community college completion, comprehensive case-management 
programs, homeless prevention services, and diversion programs for 
first-time, non-violent offenders. This evidence allows resources to be 
channeled to the programs that will have the greatest impact on the 
lives of the most vulnerable.
    As I have learned through my work at the Wilson Sheehan Lab, the 
idea of impact evaluation is a foreign concept to many local service 
providers. While these front-line providers are driven by compassion 
and motivation for helping the poor, most of them design and launch 
programs without solid evidence of effectiveness. They typically 
measure outputs or track outcomes for program participants, but rarely 
are the programs evaluated using rigorous methods. The lack of evidence 
of what works and what doesn't is not unique to local programs. The 
same could be said of many national programs that operate on a much 
larger scale.
II. The Need for Greater Evidence on the Impact of Social Programs
The New Era of Experiments
    One of the greatest advances in the social sciences in recent 
decades is the development and application of methods that allow us to 
determine whether social programs are having their intended effect. The 
general idea behind these methods is simple: one can determine the 
impact of a program by comparing outcomes for a group of people who are 
exposed to an intervention (the treatment group) to those for a group 
who are not (the control group). The control group is supposed to 
reflect the counterfactual--what the outcomes for the treatment group 
would be if they had not been exposed to the intervention. The gold 
standard approach is the randomized controlled trial (RCT), in which 
individuals are assigned to either the treatment or control group 
randomly. In cases where an RCT is not feasible, quasi-experimental 
approaches are available that are intended to mimic the research design 
of an RCT. For example, one might compare those eligible for a program 
to those just barely ineligible; or compare program participants to 
those on a waiting list. These alternative approaches typically do a 
much better job of determining the impact of interventions than 
nonscientific approaches such as tracking outcomes for program 
participants. However, if the control group does not appropriately 
reflect the counterfactual, the quasi-experimental results are not 
reliable.
    Nowadays, gathering experimental evidence is commonplace in many 
sectors. The medical profession runs tens of thousands of experiments 
each year to test the effectiveness of new pharmaceuticals, medical 
procedures, devices, or treatment regimens.\1\ These experiments have 
led to vast improvements in healthcare all across the globe. Large 
companies are constantly running experiments in an attempt to better 
target resources, attract new customers, or avoid spending money on 
projects that don't work. Google runs 20,000 experiments each year 
while Capital One runs three times that many.\2\ Shouldn't the same 
commitment to proven effectiveness apply to our social programs?
---------------------------------------------------------------------------
    \1\ Manzi, J. (2012). Uncontrolled: The Surprising Payoff of Trial-
and-Error for Business, Politics, and Society. New York: Basic Books.
    \2\ Prigg, M. (2012, February 6). ``The human search engine.'' 
London Evening Standard. Retrieved fromhttp://www.standard.co.uk/news/
techandgadgets/the-human-search-engine-7315344.html; Brooks, D. (2012, 
April 26). ``Is Our Adults Learning?'' The New York Times. Retrieved 
from http://www.nytimes.com/2012/04/27/opinion/brooks-is-our-adults-
learning.html?_r=0.
---------------------------------------------------------------------------
The Impact of Evidence
    By steering resources towards the most effective social programs, 
evidence of what works and what doesn't can significantly improve the 
lives of the poor. All too often innovative, promising interventions 
are not brought to scale because program operators are unable to 
demonstrate effectiveness. Greater evidence of impact for these 
successful programs would attract the resources necessary to serve more 
disadvantaged individuals and families. For example, several RCTs have 
shown that the Nurse-Family Partnership, a home visitation program for 
new, mostly low-income mothers, has improved outcomes for both mothers 
and children.\3\ This evidence has helped spur a national home visiting 
initiative.\4\
---------------------------------------------------------------------------
    \3\ http://toptierevidence.org/programs-reviewed/interventions-for-
children-age-0-6/nurse-family-partnership.
    \4\ See Chapter 2 of Haskins, R., & Margolis, G. (2014). Show Me 
the Evidence: Obama's Fight for Rigor and Results in Social Policy. 
Brookings Institute Press.
---------------------------------------------------------------------------
    On the other hand, ineffective programs often persist because there 
is no evidence to show they don't work. These programs squander 
precious resources that could have greater impact elsewhere. Or worse, 
they may cause harm to those they intend to help. One notable example 
is Scared Straight--a program that aimed to deter juvenile delinquency 
by exposing at-risk youth to prison life and adult inmates. The program 
gained national attention when it was featured in the 1978 Academy 
Award winning documentary, Scared Straight! Based on anecdotal evidence 
of success from several studies that did not meet minimal scientific 
standards, many states and other countries adopted the program. When 
the program was eventually evaluated using experimental methods, 
several studies showed that the program actually ``led to higher rates 
of offending behavior.'' \5\ A 2004 Washington State Institute for 
Public Policy cost-benefit report concluded that $1 spent on a Scared 
Straight program resulted in an additional $264 in costs in today's 
dollars.
---------------------------------------------------------------------------
    \5\ Petrosino, Andrew, Carolyn Turpin-Petrosino, Meghan E. Hollis-
Peel, and Julia G. Lavenberg (2013). `` `Scared Straight' and other 
juvenile awareness programs for preventing juvenile delinquency.'' The 
Cochrane Collaboration.
---------------------------------------------------------------------------
    By guiding funds away from ineffective programs, high quality 
impact evaluations allow us to do more good with the limited resources 
available. This not only produces better results for those in need, but 
also for the economy as a whole.
Evaluating Social Programs
    There are many examples where large-scale experiments have informed 
social policy. In the early 1990s more than 30 experiments were run at 
the state level to test the impact of changes in features of welfare 
programs. The results of these experiments--most noticeably the effect 
of work incentives on employment--helped shape landmark national 
welfare reform legislation in 1996.\6\ Other notable experiments 
include the Head Start Impact Study and the U.S. Department of Housing 
and Urban Development's Moving to Opportunity demonstration project. 
Experiments such as these are becoming much more common.
---------------------------------------------------------------------------
    \6\ Grogger, J., & Karoly, L.A. (2005). Welfare Reform: Effects of 
a Decade of Change. Cambridge: Harvard University Press.
---------------------------------------------------------------------------
    However, when Google alone runs thousands more experiments than the 
government agencies that oversee social programs, it is clear we have 
not come far enough. And the fact of the matter is that funding 
decisions are typically made without information on program 
effectiveness. Only about one percent of non-defense discretionary 
dollars are backed by any hard evidence.\7\ Most domestic social 
programs are not evaluated, or are evaluated with unreliable methods. 
For example, in 2009 Federal agencies spent about $18 billion on 47 
employment and training programs, but as a recent GAO report concluded: 
``little is known about the effectiveness of most programs.'' \8\
---------------------------------------------------------------------------
    \7\ Nussle, Jim and Peter Orszag (2014). ``Let's Play Moneyball,'' 
in Moneyball for Government. J. Nussle, & P. Orszag, eds. Disruption 
Books.
    \8\ U.S. Government Accountability Office, ``Providing Information 
on Colocating Services and Consolidating Administrative Structures 
Could Promote Efficiencies,'' GAO-11-92: Published: Jan 13, 2011. 
http://www.gao.gov/products/GAO-11-92. Discussed in Barnes, Melody and 
John Bridgeland (2014). ``Making Moneyball Work,'' in Moneyball for 
Government. J. Nussle, & P. Orszag, Eds. Disruption Books.
---------------------------------------------------------------------------
Evaluating SNAP
    Although SNAP is the nation's largest cash or near cash means-
tested transfer program (with costs exceeding $70 billion annually in 
recent years),\9\ there is little hard evidence on the impact of the 
program. While no large-scale experiments have evaluated SNAP,\10\ 
there is some promising quasi-experimental evidence from recent 
research showing that in utero exposure to the food stamp program is 
associated with increased birthweight and lower rates of obesity and 
heart disease in adulthood.\11\ But this evidence is for those exposed 
to food stamps in the late 1960s and early 1970s. There is a clear need 
for rigorous, experimental evidence of the impact of SNAP in its 
current form. Is SNAP the best way to improve nutritional outcomes for 
the disadvantaged? The honest answer is that we don't know. Bringing 
evidence to bear on this question would allow us to better help those 
struggling to put food on the table.
---------------------------------------------------------------------------
    \9\ http://www.fns.usda.gov/pd/supplemental-nutrition-assistance-
program-snap.
    \10\ See http://www.fns.usda.gov/ops/supplemental-nutrition-
assistance-program-snap-research for a list of recent SNAP research, 
which includes some small-scale RCT studies.
    \11\ Almond, D., H. Hoynes, and D.W. Schanzenbach. 2011. ``Inside 
the war on poverty: The impact of food stamps on birth outcomes.'' 
Review of Economics and Statistics 93(2): 387-404. Almond, D., H. 
Hoynes, and D.W. Schanzenbach. 2012. ``Childhood Exposure to the Food 
Stamp Program: Long-run Health and Economic Outcomes,'' NBER Working 
Paper No. 18535.
---------------------------------------------------------------------------
    An important challenge to evaluating SNAP is that the structure of 
the program can make it difficult to implement the most rigorous 
experimental or quasi-experimental methods. It is much easier to 
conduct experiments when a program is rolled-out, expanded, or changed 
in significant ways, or when the program is not made available to all 
those who might be eligible. Food stamps is an entitlement program that 
has been around for more than 5 decades, and although there have been 
notable changes to the program, these reforms are modest compared to 
those for other programs such as AFDC/TANF or the Earned Income Tax 
Credit.\12\ Also, because states are given limited flexibility to 
experiment with changes to program rules it is difficult to gather 
evidence on the effectiveness of possible improvements to SNAP.
---------------------------------------------------------------------------
    \12\ For further discussion see Hoynes, H.W., & Schanzenbach, D.W. 
(2015). U.S. Food and Nutrition Programs. NBER working paper 21057.
---------------------------------------------------------------------------
    The most recent farm bill made some important strides towards 
encouraging more policy based on evidence by authorizing $200 million 
to support ten pilot projects designed and implemented by state 
agencies to reduce dependency and encourage work.\13\ Each of these 
pilots is required to have an independent evaluation that compares 
outcomes for households participating in the pilot to a ``control 
group'' of households not participating in the pilot. The legislation 
also requires the participating states to make administrative data 
available in order to track outcomes. It is important for pilot 
programs such as these to require or incentivize grantees to evaluate 
their pilots using the best experimental or quasi-experimental methods 
possible in order to generate the kind of evidence needed to shape 
future food assistance policy.
---------------------------------------------------------------------------
    \13\ http://www.fns.usda.gov/2014-snap-e-t-pilots.
---------------------------------------------------------------------------
III. Promoting Evidence-Based Policy
    I applaud this Subcommittee's efforts to seek ways to generate more 
evidence to guide the future of nutrition policy. There are a number of 
strategies to encourage the development of a stronger base of evidence 
and to ensure that this evidence is used to target resources towards 
programs that work and away from those that don't. Let me highlight a 
few:
1. Incentivize Innovation
    First, you can't expect programs to be built on evidence of 
effectiveness if there is no evidence. The most innovative ideas for 
social programs frequently come from states or local providers. But 
state and local agencies and private service providers often lack the 
resources to put these ideas into practice. Thus, we need funds to 
encourage providers to experiment with new, promising ways to help 
those in need, and to build strong evidence for innovative programs. A 
nice example of this approach is the Department of Education's 
Investing in Innovation (i3) initiative, which has distributed more 
than $1 billion in grants using a tiered-evidence model to fund 
programs to improve student achievement. The lowest tier, or 
``Development,'' i3 grants provide support for promising initiatives 
that currently lack rigorous evidence. Grants such as these create a 
pipeline of innovative programs that, if proven effective, can be 
scaled up to ensure broad impact.
2. Incentivize Programs To Be Based on Rigorous Evidence
    Second, new funding should go predominantly to programs that can 
provide solid evidence of effectiveness. In this tiered-evidence 
approach, funds are allocated by merit-based competitions, as opposed 
to formula grants where geography or other factors are more important 
than rigorous evidence. These competitions create a market for proven 
solutions. Here, again, the i3 initiative offers an excellent 
framework. The evidence requirement for the top tier, or ``Scaleup,'' 
i3 grants includes one or more well-designed and implemented RCTs or 
quasi-experimental studies.\14\ Such a tiered-evidence model could be 
incorporated into future SNAP pilot programs, similar to the one 
authorized in Section 4022 of the most recent farm bill.
---------------------------------------------------------------------------
    \14\ For further discussion of the tiered-evidence model see 
Haskins and Margolis (2015).
---------------------------------------------------------------------------
3. Require Initiatives To Be Rigorously and Continuously Evaluated
    Third, even when new programs are grounded in solid evidence, it is 
important to ensure that they are rigorously evaluated. Otherwise, 
there is no way to know whether the program is being implemented 
correctly and having its intended effect. Many government grants that 
support social programs require grantees to evaluate the program being 
funded. A typical evaluation might only track outcomes for program 
participants. In the case of a SNAP pilot to promote work, this might 
mean that the grantee provides information on earnings and employment 
for program participants. While this information is valuable, it is not 
sufficient for determining a program's impact, because we don't know 
the counterfactual--what the outcomes for these participants would have 
been had they not participated in the program. Better information about 
program impacts would be available if evaluations were required to be 
well-designed and well-implemented experiments or quasi-experiments.
    A program should continue to be evaluated as it is scaled-up, even 
when there is clear initial evidence of success from an RCT. Program 
impacts can sometimes be difficult to replicate in other settings. For 
example, experiments testing the impact of re-employment bonuses in 
Illinois showed strong evidence of success, but subsequent studies of 
similar programs in other states were less promising.\15\ Positive 
results can be hard to replicate because the expanded program may not 
be implemented correctly, or the success of the initial program may 
hinge on a feature of the intervention that is hard to replicate, such 
as an extremely talented program operator.
---------------------------------------------------------------------------
    \15\ Meyer, Bruce D. (1995). ``Lessons from the U.S. Unemployment 
Insurance Experiments,'' Journal of Economic Literature, Vol. 33, No. 
1. (Mar., 1995), pp. 91-131.
---------------------------------------------------------------------------
    Evidence of program impact is also helpful when the results are 
less promising. Often times, modest or negative results can uncover 
issues with program design or implementation. In this way, evidence 
promotes an environment of learning that leads to better programs.\16\ 
But if evaluations of a program continue to produce disappointing 
results, then the funds for this program should be reallocated towards 
efforts with evidence of success. There tends to be a fair amount of 
inertia in social policy--funding today goes to the same programs that 
were funded in the past. Even when hard evidence shows a program is 
ineffective, it is often difficult to pull the plug. Consider the case 
of the Even Start Literacy Program, a national initiative established 
in 1989 that was designed to improve both child and parent literacy. 
Three national evaluations showed that the program had little impact--
children and parents in the treatment group ``did not gain more than 
children and parents in the control group.'' \17\ Even after the 
release of these findings more than $1 billion were allocated to the 
program, and it was more than 10 years before the program was finally 
defunded.\18\ In order to best leverage evidence to improve outcomes 
for children and families, there needs to be willingness to shut down 
ineffective programs.
---------------------------------------------------------------------------
    \16\ Sperling, Gene (2014). ``A Continuum Approach,'' in Moneyball 
for Government. J. Nussle, & P. Orszag, eds. Disruption Books.
    \17\ U.S. Department of Education, Planning and Evaluation Service, 
Elementary and Secondary Education Division, ``Third National Even 
Start Evaluation: Program Impacts and Implications for Improvement,'' 
Washington, D.C., 20202. http://www2.ed.gov/rschstat/eval/disadv/
evenstartthird/toc.html.
    \18\ Bridgeland, John and Peter Orszag (2013), ``Can Government 
Play Moneyball?'' The Atlantic, July/August. http://
www.theatlantic.com/magazine/archive/2013/07/can-government-play-
moneyball/309389/.
---------------------------------------------------------------------------
4. Provide Greater Access to Administrative Data
    Fourth, one of the most significant barriers to high quality impact 
evaluations is limited access to administrative data. Collecting data 
on participants in an evaluation can be an expensive proposition. An 
hour long survey can cost upwards of $500 per completed survey. In many 
instances, administrative records already collect information on key 
outcomes such as employment, earnings, program participation, college 
enrollment, income, criminal history, and many others. Moving to 
Opportunity and other large scale impact evaluations have relied 
heavily on these kinds of administrative data. The problem is that 
these data are often not available for evaluation purposes. Some cities 
and states have established administrative data repositories that can 
be used for evaluation, but there needs to be a national effort. One 
promising example is the National Student Clearinghouse that compiles 
student enrollment and degree information for more than 3,600 colleges 
and universities across the country. The data from this clearinghouse 
provide researchers, educators, and policymakers with the information 
necessary to advance evidence-based education policies.
    In conversations with Chairman Ryan's staff prior to the 
introduction of the Ryan-Murray commission bill, we discussed a 
document I wrote about how a clearinghouse for program and survey data 
might work.\19\ This clearinghouse could provide policymakers and 
researchers access to administrative data on dozens of government 
programs. These data would be accessible, on a restricted basis, 
through a centralized but secure information system that would allow 
users to link participants across programs, to respondents in surveys, 
and to other administrative data sources. These data would provide 
critical information on program impacts that is currently unavailable 
to policymakers and researchers. This would make possible countless 
studies of government programs, and as such, would transform the way 
researchers analyze and evaluate these programs, and provide 
policymakers with better evidence of program impact and effectiveness, 
resulting in the design of more effective government programs.
---------------------------------------------------------------------------
    \19\ Sullivan, James X. (Forthcoming), ``Promoting Greater 
Understanding of the Impact of Federal Programs: What a Clearinghouse 
for Program and Survey Data Might Look Like,'' Wilson Sheehan Lab for 
Economic Opportunities Policy Brief.
---------------------------------------------------------------------------
    The Ryan-Murray Evidence-Based Policymaking Commission Act of 2015 
represents an excellent step towards greater access to data to evaluate 
programs. This legislation would create a commission to study how 
administrative data on Federal programs and other data might be 
compiled in order to facilitate research and evaluation. The commission 
would also study the feasibility of a national clearinghouse for such 
information.
5. Disseminate Evidence on What Works
    Finally, policymakers, educators, service providers, and 
researchers need a way to track down easily the existing body of 
evidence on what works and what does not. A national repository of 
well-designed, well-implemented impact evaluations would help promote a 
broader culture of evaluation. An important challenge here is that the 
body of evidence on social programs is far larger than the body of good 
evidence. Stakeholders need a way to filter out unreliable studies to 
ensure that policy decisions are guided by the most reliable evidence. 
This means that we need clear standards for what constitutes solid 
evidence. Ideally, an independent entity would assess evaluations and 
identify those that are reliable.
    A well-designed model of how to synthesize a large body of evidence 
is the What Works Clearinghouse, which is run by the U.S. Department of 
Education's research arm: the Institute of Education Sciences (IES). 
For this clearinghouse, IES reviews research on education programs and 
policies, and highlights those that are of the highest quality. The 
U.S. Department of Labor offers a similar service for labor topics 
through the Clearinghouse for Labor Evaluation and Research (CLEAR). 
Outside the government, the Coalition for Evidence-Based Policy 
provides a nice one stop shop for what works in social policy. It has 
established the highest standards for identifying social programs that 
are supported by well conducted RCTs.\20\
---------------------------------------------------------------------------
    \20\ http://evidencebasedprograms.org/.
---------------------------------------------------------------------------
IV. Conclusions
    Advances in technology and data collection have greatly expanded 
opportunities to implement high-quality evaluations of social programs. 
Evidence from these evaluations can help in the design of programs that 
yield better results and guide policy on how best to allocate scarce 
resources. By encouraging innovation and evaluation and by targeting 
support at interventions shown to be successful, policymakers will 
ensure that our social programs are more effective at helping 
vulnerable populations get ahead. We at the Wilson Sheehan Lab welcome 
this transformation in the way we fight poverty in America.

    The Chairwoman. Thank you, Dr. Sullivan. And I do want to 
get to Mr. Everett. Please proceed with your testimony. After 
that we are going to break to vote and come back for questions. 
So, Mr. Everett?

    STATEMENT OF JEREMY K. EVERETT, DIRECTOR, TEXAS HUNGER 
            INITIATIVE, BAYLOR UNIVERSITY, WACO, TX

    Mr. Everett. Thank you, Chairwoman Walorski, Ranking Member 
McGovern, and Members of the Subcommittee on Nutrition for the 
opportunity to speak before you today. My name is Jeremy 
Everett. I am the Director of the Texas Hunger Initiative at 
Baylor University. THI is a collaborative capacity building 
project that develops and implements strategies to end hunger 
through research, policy, and community engagement. 
Headquartered at Baylor University, with 12 regional offices 
across the state, THI convenes Federal, state, and local 
government stakeholders with nonprofits, faith communities, and 
business leaders to create an efficient system of 
accountability that increases food security, and is an 
evidence-based collaborative model, a model we call informed 
engagement.
    Informed engagement is a cyclical process of research 
informing on the ground strategy, and subsequently on the 
ground strategy informing research. This process leads to 
evidence-based solutions that have the potential to make 
Federal nutrition programs more efficient for the state, and 
more impactful for low-income Americans. Our work within local 
communities across the state is guided by three core 
assumptions. First, hunger and poverty are too complex for 
sectors to address independently of one another. Second, public 
and private partnerships are an effective means for 
coordinating access to SNAP and other Federal nutrition 
programs within a larger continuum of care. And third, research 
and evaluation provide a foundation for practical evidence-
based solutions.
    Assumption one, hunger and poverty are too complex for 
sectors to address independently of one another. When the Texas 
Hunger Initiative began in 2009, we identified thousands of 
organizations working tirelessly to address food security in 
Texas, however, there were still more than five million Texans 
living in food insecure households. A big reason for this is 
they were not coordinating with each other. We realized that 
our first priority needed to be building public and private 
partnerships.
    Assumption two is that public and private partnerships are 
an effective means for coordinating access to SNAP and other 
Federal nutrition programs within a larger continuum of care. 
In congruence with Baylor's aspiration of informed engagement, 
THI, and its partners across the State of Texas, are fostering 
public and private partnerships to maximize the efficiency of 
nutrition programs and develop local solutions to address 
hunger. Public and private partnerships are collaborations 
among state agencies and local organizations that bridge local, 
state, and Federal resources to maximize the efficiency of 
programs, while increasing community ownership.
    Our third assumption, research and evaluation provide a 
foundation for practical evidence-based solutions. As a part of 
the informed engagement process, our work building public and 
private partnerships are continuously evaluated. Being at a 
university, we are in a unique position to engage in research 
and evaluation that is both collaborative and actionable. Every 
project we engage in is informed by existing research on food 
security, and evaluated by a research team.
    Because community-based initiatives are innovative, and 
often in a continuous state of development. We utilize the 
aspects of developmental evaluation. Our goal is to make sure 
that our programmatic decisions are informed by research and 
evaluation, and that research and evaluation are informed by 
what we are doing programmatically. When public and private 
partnerships are carefully informed by research and evaluation, 
stronger networks are likely formed between clients and local 
organizations, thus building a foundation for increased social 
capital for low-income families.
    Social capital, a measure of trust, and reciprocity in 
social networks, is positively associated with household food 
security independent of household level socioeconomic factors. 
Thus social capital is a compliment to anti-hunger and anti-
poverty programs because it strengthens the assets and 
resources that exist within disadvantaged communities. Stronger 
networks, social capital, and Federal nutrition programs are 
all important components for building food security.
    Our efforts at the Texas Hunger Initiative demonstrate 
informed engagement, and are building a foundation for 
evidence-based solutions. We believe that allocating resources 
to the Hunger Free Communities line in the farm bill will 
expand the capacity of informed engagement in public and 
private partnerships, resulting in greater local coordination, 
strengthened social networks for low-income Americans. And when 
public and private partnerships are carefully informed by 
research and evaluation, stronger networks are likely formed 
between clients and local organizations, thus building a 
foundation for increased social capital for low-income 
families.
    We believe that this has the potential to reduce the need 
for long-term Federal assistance. When we invest in these 
efforts and build them up on scalable, evidence-based 
solutions, we exhibit both the willpower and the know-how to 
build public and private infrastructure to strengthen families 
and build communities. Thank you.
    [The prepared statement of Mr. Everett follows:]

    Prepared Statement of Jeremy K. Everett, Director, Texas Hunger 
                Initiative, Baylor University, Waco, TX
    Thank you, Chairwoman Walorski, Ranking Member McGovern, and 
Members of the Subcommittee on Nutrition for the opportunity to speak 
before you today. My name is Jeremy Everett. I am the Director of the 
Texas Hunger Initiative (THI) at Baylor University. THI is a 
collaborative, capacity-building project that develops and implements 
strategies to end hunger through research, policy, and community 
engagement. Headquartered at Baylor University with 12 regional offices 
across the state, THI convenes Federal, state and local government 
stakeholders with nonprofits, faith communities and business leaders to 
create an efficient system of accountability that increases food 
security in Texas. This evidence-based, collaborative model is called 
informed engagement.
    Informed engagement is one of Baylor University's aspirational 
statements that comprise a new 10 year vision called Pro Futuris. Under 
the banner of informed engagement, the university aims to address 
problems facing the local and global community by leading initiatives 
to form stronger community partnerships and ``support research that 
provides a foundation for effective solutions'' (Baylor University, 
2015). Informed engagement is a cyclical process of research informing 
on-the-ground strategy and, subsequently, on-the-ground strategy 
informing research. This process leads to evidence-based solutions that 
have the potential to make Federal nutrition programs more efficient 
for the state and more impactful for low-income Americans.
    Our work within local communities across the state is guided by the 
following core assumptions: first, hunger and poverty are too complex 
for sectors to address independently of one another; second, public and 
private partnerships are an effective means for coordinating access to 
SNAP and other Federal nutrition programs within a larger continuum of 
care; third, research and evaluation provide a foundation for practical 
evidence-based solutions.

    Assumption One: hunger and poverty are too complex for sectors to 
address independently of one another.

    It is estimated that 27 percent of children live in food-insecure 
households in Texas, which is higher than the national average (21%) 
(Feeding America, 2014). This means they had difficulty meeting basic 
food needs at least some time during the year (Coleman-Jensen, Gregory, 
& Singh, 2014). When the Texas Hunger Initiative began in 2009, we 
identified thousands of organizations tirelessly working to address 
food security in Texas; however, there were still over five million 
Texans living in food-insecure households. A big reason for this was 
that many agencies, churches, and food pantries were trying to address 
the problem on their own. They weren't coordinating with each other. We 
realized that our first priority needed to be building public and 
private partnerships.

    Assumption Two: public and private partnerships are an effective 
means for coordinating access to SNAP and other Federal nutrition 
programs within a larger continuum of care.

    In congruence with Baylor's aspiration of informed engagement, THI 
and its partners across the State of Texas are fostering public and 
private partnerships to maximize the efficiency of nutrition programs 
and to develop local solutions to address hunger. Public-private 
partnerships:

  <bullet> are collaborations among state agencies and local 
        organizations;

  <bullet> bridge local, state, and Federal resources to maximize the 
        efficiency of these programs;

  <bullet> can be arranged at both the state and local levels, and can 
        operate as formal or informal collaborations; and

  <bullet> decrease access barriers, build local and state networks, 
        and increase community ownership.

    More specifically, our public-private partnerships increase access 
to Federal programs including SNAP and child nutrition programs, such 
as the Summer Meals and after school Meals programs. My colleague 
Dustin Kunz testified before the full Committee on April 15 about our 
partnership with the Texas Health and Human Services Commission (HHSC) 
and a network of over 1,200 community-based organizations to increase 
statewide access to benefits such as SNAP. This partnership decreases 
the need for government offices across the state while ensuring that 
eligible individuals and families have access to a continuum of care 
where SNAP is one, crucial part of the solution.

    Assumption Three: research and evaluation provide a foundation for 
practical evidence-based solutions.

    As part of the informed engagement process, our work building 
public-private partnerships is continuously evaluated. Being at a 
university, we are in a unique position to engage in research and 
evaluation that is both collaborative and actionable. Every project we 
engage in is informed by existing research on food security and 
evaluated by our research team. Because community-based initiatives 
``are innovative and are often in a state of continuous development,'' 
we utilize aspects of developmental evaluation (Gamble, 2008, p. 12). 
Our evaluation ``focuses on the relationships between people and 
organizations over time, and the problems or solutions that arise from 
those relationships'' (Kania & Kramer, 2013). Our goal is to make sure 
our programmatic decisions are informed by research and evaluation and 
our research and evaluation is informed by what we're doing 
programmatically.
    For example, we've conducted focus groups to understand the 
experience of families as they access assistance, and we used the 
information gathered to inform how we support local organizations. 
We've surveyed local organizations to understand their capacity to 
serve as access points for nutrition programs and used the results to 
try to determine what types of organizations might best fill this role. 
We've also developed maps that show high-poverty Census tracts that do 
not have sufficient access points for nutrition programs to make sure 
that we are investing in communities with the highest need. And we've 
written case studies that document the process of building coalitions 
and use the experiences we've gathered to inform how we build 
coalitions and public and private partnerships moving forward.
    By investing in the capacity of local organizations, they are 
better equipped to build social capital and networks for low-income 
families. When public and private partnerships are carefully informed 
by research and evaluation, stronger networks are likely formed between 
clients and local organizations, thus building a foundation for 
increased social capital for low-income families. A study demonstrates 
that ``social capital--a measure of trust, reciprocity and social 
networks--is positively associated with household food security, 
independent of household-level socioeconomic factors'' (Martin, et al., 
p. 2645). The authors posit that social capital is a complement to 
anti-hunger and anti-poverty programs because it ``strengthens the 
assets and resources that exist within disadvantaged communities.'' 
Stronger networks, social capital, and Federal nutrition programs are 
important components for building food security.
    Our efforts at the Texas Hunger Initiative demonstrate informed 
engagement and are building a foundation for evidence-based solutions. 
We believe allocating resources to the Hunger Free Communities line 
item in the farm bill will expand the capacity of informed engagement 
and public and private partnerships, resulting in greater local 
coordination and strengthened social networks for low-income Americans. 
When public and private partnerships are carefully informed by research 
and evaluation, stronger networks are likely formed between clients and 
local organizations, thus building a foundation for increased social 
capital for low-income families. And we believe this has the potential 
to reduce the need for long-term Federal assistance. When we invest in 
these efforts and build them upon scalable, evidence-based solutions, 
we exhibit both the will-power and the know-how to build public and 
private infrastructure to strengthen families and communities.
References
    Baylor University (2015). Pro Futuris: A strategic vision for 
Baylor University. Aspirational statement three: Informed engagement. 
http://www.baylor.edu/profuturis/index.php?id=91150
    Kania, J. & Kramer, M. (2013). Embracing emergence: How collective 
impact addresses complexity. http://www.ssireview.org/blog/entry/
embracing_emergence_how_collective_impact_addresses_complexity
    Martin, K.S., Rogers, B.L., Cook, J.T., & Joseph, H.M. (2004). 
``Social capital is associated with decreased risk of hunger.'' Social 
Science & Medicine 58, 2645-2654.
About the Texas Hunger Initiative at Baylor University
Who We Are
    The Texas Hunger Initiative (THI) is a collaborative, capacity-
building project focused on ensuring that develops and implements 
strategies to end hunger through research, policy, and community 
engagement. Headquartered at Baylor University with 12 regional offices 
across the state, THI convenes Federal, state and local government 
stakeholders with nonprofits, faith communities and business leaders to 
create an efficient system of accountability that increases food 
security in Texas.
What We Do
Developing Public-Private Partnerships
    In the context of THI's work, public-private partnerships (PPPs) 
are collaborations between state agencies and community-based 
organizations that maximize nutrition program access by increasing 
scalability and local community empowerment. PPPs bridge local, state, 
and Federal resources to maximize the efficiency and reach of these 
programs. PPPs can be arranged at both the state and local levels, and 
can operate as formal or informal collaborations.
Increasing Access to Nutrition Programs
    THI increases access to nutrition programs by partnering with 
schools and their districts, nonprofits, and congregations to maximize 
efficiency and reach of service delivery.
Child Hunger Outreach
    Summer Meals

    Since summer 2009

    <bullet> 200+ more Summer Meals sponsors were added

    <bullet> 1,300+ more Summer Meal sites were added

    <bullet> 48,000+ more kids per day receive Summer Meals

    <bullet> 5 million more Summer Meals served \4\

    School Breakfast

    Since 2009-2009 school year

    <bullet> 65 million more school breakfasts served

    <bullet> 337,000 more kids per day eat school breakfast \5\
Food Planning Associations
    Food Planning Associations (FPAs) are collaborations of 
organizations and individuals who are committed to making their 
communities food secure through strategic planning and program 
coordination. FPAs are comprised of individuals representing a variety 
of sectors including nonprofit, business, health, schools, government, 
and more.

  <bullet> THI supports 12 FPAs across the state.
Community Partner Program
    THI and its subcontractors are partnering with Texas Health and 
Human Services Commission to recruit a network of community-based 
organizations to assist eligible Texans in utilizing public benefits 
through an online application system.

  <bullet> Total Community Partners: 1,200+

  <bullet> Community Partners represent the following sectors:

    <ctr-circle> Health & Disability: 395

    <ctr-circle> Early Childhood Intervention & after school 
            Enrichment: 264

    <ctr-circle> Protective & Rehabilitative: 61

    <ctr-circle> Employment & Skill Training: 51

    <ctr-circle> Education: 40

    <ctr-circle> Family Services: 17

    <ctr-circle> Community Development: 12

    <ctr-circle> Government: 9

    <ctr-circle> Community Center: 7

    <ctr-circle> Other: 281 \6\

  1.  S.A. Andersen, ed. (1990). ``Core Indicators of Nutritional State 
            for Difficult to Sample Populations.'' The Journal of 
            Nutrition 120, 1557S-1600S.

  2.  Coleman-Jensen, A., C. Gregory, and A. Singh. Household Food 
            Security in the United States in 2013, ERR-173, U.S. 
            Department of Agriculture, Economic Research Service, 
            September 2014.

  3.  Gundersen, C., et al. Map the Meal Gap 2014: Highlights of 
            Findings for Overall and Child Food Insecurity. Feeding 
            America, 2014.

  4.  Texas Hunger Initiative analysis of Texas Department of 
            Agriculture 2008-2009, 2009-2010, 2010-2011, 2011-2012, 
            2012-2013, 2013-2014 SSO & SFSP Program Data

  5.  Texas Hunger Initiative analysis of Texas Department of 
            Agriculture 2008-2009, 2009-2010, 2010-2011, 2011-2012, 
            2012-2013, 2013-2014 NSLP & SBP Program Data

  6.  Texas Hunger Initiative analysis of SalesForce data.

    The Chairwoman. Thank you, Mr. Everett. I would like to 
advise Members that a series of votes has been called. I 
anticipate this series of votes to last approximately 20 
minutes. I would ask that the Members return to the hearing as 
quickly as possible from voting. This hearing will stand in 
recess, subject to the call of the chair.
    [Recess.]
    The Chairwoman. The Committee will come back to order, and 
we are actually moving into the question portion, so I would 
like to direct my first question to Dr. Sullivan.
    In reviewing existing SNAP research funded by the 
Department of Agriculture, is it sufficient enough to improve 
the program and identify evidence-based solutions in the world 
today that we live in?
    Dr. Sullivan. Thank you for the question. I mentioned in my 
written testimony a number of challenges in evaluating the SNAP 
program broadly. These challenges arise because the program is 
an entitlement that is available universally, and so we lack a 
group to which we can compare the effects of the program. One 
might want to compare the effects of the food stamp program for 
participants to those that look like the participants, but 
don't participate. But eligible households, because it is an 
entitlement, are eligible to receive the benefits. So what this 
means is that we are limited in the kinds of rigorous studies 
that we can do of the food stamp program. One of the easy ways 
to address that would be to run pilot projects that we can 
evaluate in an experimental way, and that is the kind of things 
that have been done, and encouraged, and funded by the most 
recent farm bill.
    So pilot projects are a nice way to test additional 
features. Unfortunately, they are limited in terms of the 
ability to test the overall program. If I wanted to test the 
overall program, I would rewind the clock to 1964, when we were 
first rolling this out, and roll it out gradually, and 
construct a rigorous research design around that rollout. But, 
unfortunately, I can't roll back the clock, so we can't do 
that.
    The Chairwoman. And this Committee has been consistent from 
the start that we believe in SNAP.
    Dr. Sullivan. Yes.
    The Chairwoman. We are not looking at tearing apart a 
program. We are looking at the areas where we make this work 
better, and some of the things that all of you have talked 
about today. Do you believe there is space within the program 
to do an evaluation?
    Dr. Sullivan. The current program? I mean, absolutely, and 
I think that the idea of pilots is a great place to start, 
right, because you can allow the innovators, those at the local 
level, to experiment with new ideas, and test them rigorously 
to find out what works and what doesn't amongst these new 
ideas. And then once you start with a pilot, and you build a 
body of evidence on what works, you can scale those effective 
programs up, and you can run a larger demonstration project. 
And then you evaluate it again.
    And once you build the evidence on the effectiveness of a 
demonstration project, now let us scale it up to a larger 
level. Maybe it becomes state waivers. Or, another way to test 
this on a broad scale, there will be much broader support for 
those kinds of initiatives if they are built off of evidence at 
the local level that these kinds of changes really work.
    The Chairwoman. I appreciate it. Mr. Everett, your work 
extends well beyond SNAP to actually address hunger in Texas. 
Can you talk a little bit about what it is you are researching 
and evaluating?
    Mr. Everett. We have an interdisciplinary research agenda. 
So one of the things we research is what we call the Community 
Partner Program, looking at how we can incorporate private 
organizations, nonprofits and congregations, into becoming 
access points for the SNAP program, or Medicaid, Medicare, 
CHIP, and so forth. On the local level we have been able to do 
this by reducing the number of Health and Human Service offices 
we have around the state, which has saved us a lot of money as 
a state in bureaucratic spending.
    We are looking at that. We test that to find out what makes 
a good community partner organization, what makes a good access 
point, and what organizations build strong social networks for 
low-income families so that we can hopefully get them into 
gainful employment. We look at the Summer Meals program, how we 
can help organizations, sponsoring organizations, around the 
country be able to operate that program in the black.
    A lot of organizations lose money. If they are losing money 
when running that program, then oftentimes that requires 
additional investment, maybe from other organizations, like 
foundations, or it could cause them to get out of the program 
altogether. And so we run programs there. We have tested 
nutrition levels of the Breakfast in the Classroom Program, and 
its potential impacts on academic performance. You name it. It 
is a pretty wide range of evaluation projects.
    The Chairwoman. I appreciate it, thank you. And I would now 
recognize Ranking Member McGovern, for 5 minutes.
    Mr. McGovern. Thank you very much, Chairwoman. First of 
all, thank you all for being here. This is very interesting. 
Mr. Everett talked about better coordination. I agree. I wish, 
within the Federal Government, all the relevant agencies that 
deal with issues of hunger and poverty were better coordinated, 
would meet on a regular basis, and talk about how they can work 
better together.
    That is one of the reasons why I have been urging the White 
House to do a White House conference on food, nutrition, and 
hunger to try to bring everybody who has a role in this 
together, and lock them in a room, and say, ``Okay, what is the 
plan here?'' And I am all for evidence-based evaluation, but we 
are talking about a program, in SNAP, that has one of the 
lowest error rates of any Federal program. This is not a 
program that is fraught with waste and abuse. It is a program 
that is actually run pretty well.
    And the majority of people on the program are kids, senior 
citizens, and members of the disabled community. And the 
majority work, and some people work full time, and yet still 
earn so little that they are on the benefit. So those people 
don't need another evidence-based study to try to incentivize 
them to work. Those people are working. I think what they 
probably want is a study as to that would show what an increase 
in the minimum wage to a livable wage would mean for them, so 
that their work actually pays something, so that they don't 
have to rely on public assistance. Let us define the context 
here.
    I see the reality when I am back home, and in various 
places around the country. The fact is that the benefit, as Mr. 
Weill pointed out, is inadequate. Most SNAP families end up at 
food pantries and food banks before the month is out. And it is 
not that they don't know how to budget their money properly. It 
is not a very generous benefit, contrary to what you might hear 
on some talk radio shows. I have two sisters who are school 
teachers in Massachusetts. A lot of the kids that come to class 
on Monday, it is clear that they haven't eaten most of the 
weekend. They can't concentrate.
    Dr. Sullivan, you referred to the thousands of studies of 
medical treatments, including drugs. I think of SNAP as 
providing medicine for people, because I do think food is 
medicine. But I want more research on the adequacy of the 
dosage. Isn't that an important research goal within the 
framework that you are describing? Isn't that indeed the most 
urgent research question?
    Dr. Sullivan. I would agree that it would be wonderful to 
study what the impact of food stamp generosity is on the well-
being of recipients. And Mr. Weill mentioned a natural 
experiment was, when we expanded the generosity in 2009 
temporarily. And the challenge is what kind of evidence can we 
collect when we do those kinds of things? We expanded food 
stamp generosity at the same time that a lot of other things 
were going on in the macroeconomy that made it difficult for 
low-income families. As a result, it is really challenging to 
determine exactly what the impact of that expansion was.
    Mr. McGovern. Well, I can tell you when we took back that 
food stamp generosity, when the Recovery Act monies ran out, 
all of us heard from constituents who complained that food 
prices didn't go down, that they could afford less, and that 
they were ending up relying more and more on food banks. I am 
interested in making sure, especially amongst our kids, that 
they have adequate food, but also they have access to 
nutritious food.
    Dr. Sullivan. Yes. I agree with you, but let me be clear on 
what I am pushing here, is that I would like to have the solid 
scientific evidence that shows that food stamps is improving 
nutritional outcomes so that we can put an end to this debated 
question that some people saying that it is effective, some 
people are saying that it is not. If we can generate the kind 
of evidence that will convince policymakers and other 
stakeholders that it is clearly effective, then it is much 
easier to design policies and expand them.
    Mr. McGovern. Now, I don't disagree with the what you are 
saying here. But the problem is there are a lot of Members of 
Congress who are instinctively against SNAP because they think 
it creates dependency, when the evidence is the opposite. But, 
an important question here is whether or not the benefit that 
we currently have is adequate to meet the nutritional needs of 
families, and especially our kids, and I don't think it is. And 
I see that evidence when I go to schools, and I see kids that 
show up on a Monday morning unable to concentrate because they 
are hungry.
    Dr. Sullivan. Yes.
    Mr. McGovern. I think that is an area we should be focusing 
attention on. I thank the Chairwoman.
    The Chairwoman. I now recognize Mr. Abraham, for 5 minutes.
    Mr. Abraham. Thank you, Madam Chair. What we have been 
talking about today is more than just counting the number of 
people receiving the benefits, which would seem like it could 
be very expensive. Dr. Sullivan, you mentioned in your 
testimony that better administrative data might be a solution. 
Can you expand on that a little bit?
    Dr. Sullivan. Sure. So there are lots of administrative 
data that give us information on SNAP, and many other programs, 
that allow us to track participation in the program, and other 
things like earnings, employment, et cetera. And what I was 
commentating on, in terms of administrative data, is that this 
provides an incredible opportunity to determine the impact of 
these programs.
    So, for example, if I want to know what the effect of SNAP 
is on employment, I could write a survey and track down SNAP 
participants and non-participants, but that would be really 
expensive, and hard to do, but administrative data from UI 
earnings records already has those outcomes for us. And if I 
were able to have access to those kinds of data, it would make 
it much easier for us to conduct these kinds of experiments. 
When I referred to the Ryan-Murray Act, that is an effort to 
create a commission to really explore broader ways to create 
greater access to this. And the end result of that is that we 
have better information, and from better information we end up 
having better policy.
    Mr. Abraham. Mr. Everett, what role does administrative 
data play in your field?
    Mr. Everett. It plays an important role, because we are 
constantly evaluating data that the state collects, or that the 
Federal Government collects. Oftentimes the data sets don't 
match, and so Dr. Sullivan and I were discussing earlier that 
we have dedicated research analysts who just clean data to make 
sure that it is accurate, so that our projections that we are 
making as a state, or as a Federal Government, as it relates to 
nutrition programs, are accurate. And so it is a core 
component--so more transparency would increase our ability to 
serve the state and the Federal Government more fully.
    Mr. Abraham. Okay. Thank you. Most SNAP research now is 
paid for with discretionary funding, and our discretionary 
appropriations. And as recently as 2016, the agricultural 
approps bill favored reported by the approps on July 8 included 
a rider to increase oversight on research, and this goes to Dr. 
Sullivan and Mr. Baron. In reviewing the existing the SNAP 
research funded by the Department of Agriculture, in your 
opinion, is it sufficient?
    Mr. Baron. There are other policy areas, as I mentioned in 
my written statement and in my oral statement, like welfare, 
where there have been a large body of rigorous evaluations that 
have built a sizable body of strategies that have been shown 
effective in a variety of goals, including increasing workforce 
participation and success of program participants. In SNAP 
there have not been. There have not been a body of such 
studies.
    There have been some, and there have been an increasing 
number in recent years, including the ten state pilots that are 
going forward, that have been scientifically rigorous enough to 
provide a credible answer about whether the program worked or 
not. And an area that Congressman McGovern touched on, one of 
the positive examples of a recent rigorous randomized trial 
that was done, sponsored by the Department of Agriculture, was 
providing summer electronic benefits for children, they don't 
get school lunches during the summer, so electronic summer 
benefits was a way of expanding the food benefits they receive. 
And it was tested in a rigorous evaluation to determine the 
effect on child hunger, and it did find an effect. But the 
number of studies like that that are done within SNAP to try to 
identify what works is very small, compared to other areas. 
Literally a handful of examples. I think there is a need for a 
much more robust effort at innovation at the state and local 
level, coupled with rigorous evaluation.
    Mr. Abraham. Dr. Sullivan, real quick. I have about 30 
seconds.
    Dr. Sullivan. I would agree with Mr. Baron. I might start 
by just saying that there is a lot of good information and 
research out there on the SNAP Program. We know a lot about the 
SNAP Program, like what drives changes in caseloads, and that 
the macroeconomy plays a large role. We know that SNAP is 
fairly well targeted, and that a lot of people who receive SNAP 
are at or near the poverty line.
    But when I say things like there isn't a lot of hard 
evidence on the impact of SNAP, I am talking about what Mr. 
Baron was referring to, that there is a lack of this kind of 
experimental evidence that would provide the convincing 
evidence that would shape policy.
    Mr. Abraham. Thank you. Madam Chair, I yield back.
    The Chairwoman. I now recognize Ms. DelBene.
    Ms. Delbene. Thank you, Madam Chair, and thanks to all of 
you for being here with us today. Many of you have talked about 
the efforts of finding and using evidence in the SNAP Program, 
and in my State of Washington, we have already developed a 
number of effective strategies to help families achieve self-
sufficiency. Washington's employment and training program has 
helped over 11,000 people find jobs, and in one study less than 
\1/2\ of those enrolled in the program remain on government 
assistance 2 years after they enrolled. So Washington's program 
has been a model, and we used it as a model to help create the 
ten employment and training pilots that were in the farm bill.
    I was wondering, Mr. Weill, if you can explain further how 
employment and training programs might be able to help us 
develop further strategies to help expand opportunity, and make 
sure that we reduce hunger at the same time.
    Mr. Weill. Thank you, Congresswoman. Washington has one of 
the strongest SNAP E&T programs in the country. It has done a 
much better job than most other states. There are a number of 
attributes. The most important one, in some ways, is that there 
is really strong coordination with other agencies, with 
community colleges, with nonprofits, and other state agencies. 
And also the state has used the available Federal money. We are 
talking about work demonstrations here, and we have all talked 
about the ten state pilots, but the fact is that there are 
large streams of Federal money that a lot of states, unlike 
Washington, aren't really using. Most of the Federal E&T 
discretionary money is used by five states. So we need more 
states to follow the examples of states like Washington that 
have done a good job.
    Not all the evidence in the world has to be from randomized 
control trials. As Dr. Sullivan's written testimony indicated, 
there are good workarounds for a lot of these research 
problems. The problem then is getting states to pick up on what 
is proven research. And the evidence that the states are good 
at picking up on what is proven is not itself overwhelming.
    Ms. Delbene. I also wanted to follow up on something you 
mentioned in your testimony. You talked about the primary goals 
of SNAP being addressing hunger and malnutrition, assisting 
households obtain a more nutritious diet, strengthening the 
agricultural economy, and doing so through normal channels of 
trade. Can you elaborate on what the research tells us about 
how SNAP is meeting those goals today?
    Mr. Weill. As my written evidence suggests in more detail, 
we know that SNAP reduces food insecurity, both among children 
and adults, and it does that by increasing their purchasing 
power. So it is accomplishing that goal. As Mr. McGovern 
suggests, it could do more if benefits were more adequate, but 
it is certainly achieving the goal to a significant degree that 
is important to the society.
    Also, since all SNAP benefits run through grocery stores, 
big box stores, farmers' markets, it is doing that through 
normal means of commerce, and it is a boost to the agriculture 
economy. So it is meeting its statutory goals, and doing so in 
a very effective way.
    Ms. Delbene. And what else should we be studying? Do you 
have other ideas on things we aren't looking at today that we 
should be looking at?
    Mr. Weill. Well, there are a lot of state choices and state 
activities that some states do and other states don't that get 
in the way of eligibility and benefits. Just as one example, 
some states use the very outdated, very low basic assets test, 
which keeps, particularly, seniors, but also working families, 
out of the program. But a lot of other states have chosen the 
option to do away with, or substantially raise that asset test. 
One important question that could be looked at is the impact of 
the asset tests on keeping working families and others out of 
the program, reducing participation, and hurting food security.
    There are state choices on income levels, on certification 
periods (how long people can be in the program before they have 
to go through difficult bureaucratic means to get re-certified 
for a second period). A bunch of options that vary from state 
to state that are natural experiments to research what is most 
effective and what isn't.
    Ms. Delbene. Thank you. I will yield back.
    The Chairwoman. Thank you. The chair recognizes Mr. Yoho, 
for 5 minutes.
    Mr. Yoho. Thank you, Madam Chairman. I appreciate you all 
being here to discuss this so we can reform the nutrition 
program so we get the best benefit for the end-user, and that 
the American taxpayers' dollars go to wise use.
    Mr. Weill, you just said that the studies determined that 
SNAP has decreased food insecurity. I think I just heard you 
say that?
    Mr. Weill. Yes, that is correct.
    Mr. Yoho. No offense, but those are kind of common sense 
things, that if we put more money into the system, in people's 
hands, it is going to increase their buying and purchasing 
power. Have we done beyond that, to saying why are people in 
that situation in the first place? And I know we are coming out 
of a terrible economic time, but what is the breakdown to where 
people are in that, and we have such a high number of people on 
food assistance?
    And, again, I have said this in this Committee before, 
being a veterinarian, I have dealt with every species of 
animals, whether the parent raises that child, or that 
offspring, and then teaches it the way to go and weans it. We 
are the only species on the planet that seems to be going 
backwards. Are we looking at the underlying cause of why we are 
here, and having so many people on nutrition programs?
    Mr. Weill. The very, very large majority of adults on the 
program are people with disabilities, are seniors, and are 
working parents.
    Mr. Yoho. All right. If we took that category out, and we 
looked at able-bodied people, and not looked at the poor, the 
elderly, the disabled, but look at that one group of 
individuals, how much does that account for the spending on 
nutritional programs?
    Mr. Weill. I don't know off the top of my head what 
percentage of the SNAP budget goes to households with working 
age adults who aren't disabled, but I can tell you that 
significantly more than the majority of those adults who aren't 
disabled on SNAP are currently working, but they are working at 
very low wages, and possibly only part time, because they would 
like to work full time but can't. Or they have worked very 
recently, and they are now unemployed for 2 or 4 months, and 
they are receiving SNAP during relatively short periods of 
unemployment.
    In some ways the public view of most able-bodied adult SNAP 
recipients as people who haven't worked for very long periods 
of time is very inaccurate. The number of people who aren't 
currently working and are on SNAP, compared to those who are 
working at low wages, or who were working recently, or who will 
be going back to work soon, the number of people who fall in 
that category is relatively small.
    Mr. Yoho. Is anybody else----
    Mr. Weill. There are, but it is a large program. There are 
a lot of people in that category, but it is a small proportion.
    Mr. Everett. Okay. Sure. I would love to address that. 
Right now we have less social mobility than we have had since 
1929 as a nation, so part of the problem is definitely wages. 
So in Texas right now we have the most people working in 
minimum wage conditions that are utilizing the SNAP program 
than any other state. So the program has become essentially a 
work support program.
    So the conditions in many of our communities are such where 
educational outcomes--the issue that we are dealing with with 
SNAP, or with hunger, is merely a part of the larger umbrella 
issue of poverty. And, as you know, poverty is incredibly 
complex, and people are poor for a myriad of reasons, but 
access to quality health care, access to quality education, 
access to housing, and so on and so forth, all have direct 
impact on the outcomes, in terms of utilization of the SNAP 
program.
    Mr. Yoho. I am going to reclaim my time, because what you 
described is a situation where it is an ongoing process, and we 
are not going to work ourselves out of this until we change 
something. And we have had the War on Poverty for 50 years. We 
put $20 trillion into that, and we are going backwards in that 
process. Somewhere the cycle has to be brought--and I am all 
for helping people get into a system, get them educated, get 
them to move beyond that so that we break that cycle. But what 
I hear on these programs is we are just following the same 
thing over and putting more money in there. We have to break 
that cycle, and that is what I am looking for. The panels, as 
they come in here, how do we break this cycle? How do we get 
beyond this? You know, as you guys--well, I don't want to get 
into that. That is where I would really like to hear from you 
guys.
    And let me ask you this. I mean, you are in a faith-based 
organization, right?
    Mr. Everett. Yes, Baylor University, yes.
    Mr. Yoho. Yes. Texas Hunger Initiative----
    Mr. Everett. Yes.
    Mr. Yoho.--do you feel that that is an integral part of 
helping people get food outside of government? If it is faith-
based versus just a government program, do you see a need for 
those?
    Mr. Everett. Absolutely. I think one of the things that I 
mentioned in my opening remarks was the importance of public 
and private partnerships. When you have organizations like 
congregations and local nonprofits that have an intrinsic 
interest in ensuring that people not only have access to 
benefits, but also have access to gainful employment, because 
that is a part of their mission and purpose, that that is----
    Mr. Yoho. I am going to have to cut you off because I am 
out of time. Thank you for your answer.
    The Chairwoman. Yes, and to the Members, I apologize, we 
have another set of votes coming. Mr. Aguilar, the chair 
recognizes you for 5 minutes.
    Mr. Aguilar. Thank you, Madam Chair, and I want to thank 
the panel for joining us here today. This question is for Mr. 
Weill. I am looking at March 2015 data for Cal-Fresh recipients 
in my county of San Bernardino in California. In the first 
quarter there were 397,000 people in my county on Cal-Fresh 
living in 177,000 households. My question is, how would an 
evidence-based solution assure me that these folks, whether 
they are children, elderly, or disabled, would benefit from 
evidence-based solutions to SNAP alone? And I want to be sure 
that the people in my community are receiving the assistance 
that they need to avoid food insecurity.
    Mr. Weill. So I am not a researcher, but I would disagree a 
little bit with Dr. Sullivan. I think there are workarounds for 
randomized control experiments that can be done in the SNAP 
Program to show how effectively or not effectively the program 
is reaching people in your county. And those would include 
determining the proportion of the estimated eligible people in 
the county who are actually participating, as compared to 
surrounding counties.
    It would include looking at data--when people apply for 
benefits, most people are really desperate; they have just lost 
jobs, lost other sources of income--on how quickly people get 
into the program, which can be done through administrative 
data. I know some counties in California are very slow in 
processing applications. Also, looking at the quality of the 
employment and training program in the county, and other 
aspects of discretionary county decisions and policies in the 
county, and comparing them not just to other states, but to 
surrounding counties in California. And I will be glad to 
provide your staff with data sources as to how to get that in 
your county.
    Mr. Aguilar. Thank you, I appreciate it, sir. Mr. Baron, 
earlier you cited Riverside County as an example of an 
evidence-based solution from something that you mentioned, from 
studies in the 1990s, and I am not sure if it is the best 
example. The study cited participation rates of 57 and 60 
percent, respectively, for education and training, but parents 
are only a small part of the equation, as the panelists have 
mentioned, and Mr. McGovern mentioned. What about kids that 
received benefits, seniors, veterans under care, people with 
disabilities, and those living with individuals with 
disabilities? I just question the actual number of people who 
benefited.
    And I would also say, just for context, that region, which 
is just a few miles away from my district, had an unemployment 
rate of near 15 percent a few years ago. So I would question 
the long-term benefits of the reforms and the programs that you 
cite.
    Mr. Baron. Well, it is a good question. One thing that was 
unique about the Riverside study was that it was a 
scientifically rigorous study, and it had a 5 year follow-up. 
And there was no question that it produced a meaningful 
improvement in people's life outcomes, an improvement of about 
40 percent in their employment and earnings. And because they 
were employed and earning, it produced sizable savings to the 
government of several thousand dollars per person in food 
stamps and welfare.
    It was done with a very wide slice of welfare participants. 
And in Los Angeles County, where it was replicated, it was 
implemented for every welfare participant in all of Los 
Angeles, and also shown to be effective. Los Angeles County, at 
the time, had the largest welfare population in the United 
States. So for that particular study, this particular approach 
of moving people from welfare into the workforce, was 
demonstrated credibly in one county, and then demonstrated 
credibly on a very large scale for a large number of people in 
another county, for single parent, long-term welfare 
recipients, as well as two parent participants, to have large 
effects. And that is why it had such an important policy 
impact.
    Mr. Aguilar. I appreciate it. Mr. Everett, your colleague, 
Mr. Kunz, testified before our Subcommittee in April, and he 
mentioned some of the great things that you guys are doing to 
increase SNAP participation. Do you rely on volunteers for all 
of your outreach, or do you work with the State of Texas to get 
some SNAP outreach funding for materials?
    Mr. Everett. Well, we have regional offices with field 
staff that work with about 1,200 community partner 
organizations. So many of those community partner organizations 
might have case managers that are employed by their local 
nonprofit that act as a navigator for SNAP accessibility.
    Mr. Aguilar. Do each of those regional offices have full 
time----
    Mr. Everett. They do.
    Mr. Aguilar.--full time staff members?
    Mr. Everett. They do.
    Mr. Aguilar. Within your--okay, I am sorry. I am out of 
time. Thank you so much. I appreciate it.
    The Chairwoman. Thank you. The chair recognizes Congressman 
Davis, for 5 minutes.
    Mr. Davis. Thank you, Madam Chair, and thank you for 
convening this hearing. And I appreciate the Ranking Member, 
Mr. McGovern, who is very passionate about these issues, and I 
just wanted to see how fast he would turn around when he heard 
his name.
    Mr. McGovern. You got my attention.
    Mr. Davis. Yes. But this is a great opportunity to hear 
some innovative approaches. Some of the longest debate that we 
had during our farm bill negotiations were obviously related to 
the programs that funded our food and nutrition programs. And I 
am glad to hear many of the witnesses today. I have read your 
testimony, and thanks for being here.
    I am from Illinois, and part of the farm bill, we 
authorized ten pilot programs to be able to look at a valuable 
first step to building the solution for making some of the 
meaningful improvements that many of you are talking about. And 
I am excited to see that Illinois is a grantee. I frankly 
didn't think our governor at the time, who is no longer 
governor, would actually make the application. I am glad he 
did. I actually had to apologize for calling him out in the 
newspaper.
    Mr. Baron, what advice would you give a state like Illinois 
to ensure that this pilot program is successful?
    Mr. Baron. There have been a lot of studies that have been 
done, not specifically in food stamps, but in other areas, in 
Unemployment Insurance and employment programs for hard to 
employ populations. There have been a number of rigorous 
studies that have been done in welfare-to-work that have 
identified, in a few cases, not many, some highly effective 
approaches for increasing the workforce success of low-income 
families.
    If I were a state, or advising a state, my suggestion would 
be to look very carefully at what has been learned in those 
prior studies. There are a few programs, even if they are in 
different program areas, but with low-income populations, that 
have produced really large impacts on peoples' life outcomes, 
and to see whether adaptations of those programs for a food 
stamps population could be tested. So the short answer is I 
would look to the prior research to identify what is most 
promising, and try that in food stamps.
    Mr. Davis. Excellent. Thank you. Thanks for your advice, 
and we may have our new Administration in Illinois reach out 
for some more suggestions on how to be successful.
    Dr. Sullivan, in your testimony you talked about how the 
structure of SNAP makes it difficult to gather evidence on the 
real effectiveness of the program. And if you have already 
mentioned this before I got here, or if you mentioned it to a 
previous question, I apologize for the redundancy, so feel free 
to move even beyond with some other suggestions. But, from your 
perspective, what changes should be made in order to get the 
most accurate data? And how can we take what you are learning, 
quantify results, and move them into the public policy realm?
    Dr. Sullivan. Thank you. Let me address the second one, 
because it is closely related to what Mr. Baron was saying, and 
that is at the Wilson Sheehan Lab, we sometimes refer to this 
as innovate, evaluate, replicate. So these pilots are an effort 
to incentivize innovation, so we see state agencies 
experimenting with new things. We need to rigorously evaluate 
these pilots, and that is what is being done, and we need to 
continue to encourage that kind of rigorous evaluation, and 
then use that research to inform future decisions. So if the 
pilot is working, then we use that information to scale it up. 
We say, these are the kinds of programs that are worth 
investing more dollars in.
    If the pilot is not working, that doesn't necessarily mean 
that we shut it down right away. When we are working with an 
agency doing an evaluation, the first question we ask when we 
get modest or negative evidence is why? Why is the evidence not 
as promising as we had hoped, and can the evidence help us 
steer or redirect a program in a way to make it better? So the 
evidence is an opportunity to improve the impact of the 
programs that we are designing.
    Now, if a program continues to demonstrate--or lack to 
demonstrate effectiveness, then that is when we start thinking 
about reallocating resources towards programs and pilots that 
have actually demonstrated real impact.
    Mr. Davis. So are there any other ideas that you may have 
that we have yet to ask you a question on that you feel may be 
helpful for us to develop a new policy, and more innovative 
policies?
    Dr. Sullivan. Well, the pilots are a nice place to start, 
and what I would encourage is the opportunity to build off of 
that. And there are other models in other agencies. The U.S. 
Department of Education has a good model, a tier-based model 
that, once there is a pilot that has demonstrated 
effectiveness, there are funds available to scale that pilot 
up, and then evaluate it again. And then, when there continues 
to be evidence of effectiveness, then we scale it up even 
further, say within a large scale demonstration project. So 
there is this gradual accumulation of evidence so that we can 
support better policy.
    The Chairwoman. Thanks. The chair now recognizes 
Congresswoman Lujan Grisham, for 5 minutes. And again, I 
apologize, we are up against another vote.
    Ms. Lujan Grisham. Thank you, Madam Chair, for this 
opportunity to continue to look at ways to make this program, 
SNAP, that I really care about and believe in, as effective as 
possible in meeting its goals--and doing what it ought to do, 
which is help this country eradicate hunger. I am from a state 
that is--I bet every one of the Members of the Subcommittee and 
entire Agriculture Committee could repeat New Mexico's 
statistics. New Mexico has one of the worst hunger problems in 
the country for both children and adults. And we went from last 
to fourth this year, so that is in the right direction, but it 
is still deplorable that my constituents face hunger every 
single day. And I recognize that this is a program whose intent 
and ability to do something about that is meaningful.
    As a longtime state bureaucrat, Mr. Baron, I love any ideas 
that incentivize me, as a policymaker in that regard, to think 
of ways to improve programs, and if there are savings, to keep 
it. But, and here is my big but, that in the context of states, 
particularly like mine, who are in significant budgetary 
problems, and are suffering from one of the weakest economies 
in the country, and an Administration who I disagree with, in 
terms of how they feel about any public benefits, those kinds 
of incentives can be very counter-productive, and create 
exactly the opposite intent, of innovation and productive 
reform. I really want you to talk to me a little bit about 
that, but I am going to give you some stats to illustrate how 
this can go wrong.
    Right now New Mexico, our proposed work requirements are 
for seniors and children. I want to tell you that our work 
requirements are also for unpaid work, which means I am already 
not getting enough for child care and housing, now I have to 
volunteer in places that are far away, in a state that has no 
public transportation really, because we are a rural and 
frontier state, so we are slow to get that off the ground. And 
think about it in the context of all of our friends now who 
have often unproductive and unwanted audits in health care, 
where we incentivize the independent auditors, that they get to 
keep anything that they find, so they find stuff that really 
isn't fraud, but is a mistake. It really shuts down a lot of 
our direct care providers in the health care system. That is 
going on in New Mexico as well.
    And one more thing. When we are putting up barriers just in 
the application process, as in New Mexico, because of those 
changes in the applications, most applicants wait months before 
they can get our computer system to look at those applications. 
SNAP benefits processing has fallen by 23 percent, and this is 
a design as part of reforming the program: 20,000 lost their 
food benefits. The state did nothing about it, and the only way 
to address the delays, and the barriers, and the applications, 
and the computer system, and the work requirements is courts 
are now involved, mandating that the state do something.
    So that is an extreme example of how it goes completely the 
other way. Talk to me about some of those protections, 
balances, so that when we do our job, that hunger doesn't get 
worse, and that we are focusing on supporting those 
constituents who need us most, and who need this program most, 
and so we can be sure get the services and benefits that they 
need.
    Mr. Baron. If the Federal Government were to incentivize 
state level innovation, I agree with you, it would need to 
circumscribe the types of innovations that would be allowed. 
There would be great flexibility, but you don't want to allow 
experimentation that is likely to cause harm.
    But within circumscribed limits, there are probably many 
different strategies--useful strategies, plausible strategies--
that could be tested. What was done in welfare, starting in the 
Bush Senior Administration was that the Federal Government, 
HHS, allowed states to try their own welfare reform 
innovations, and HHS waived provisions of Federal law to allow 
those state innovations--but HHS required a rigorous randomized 
trial to determine whether that innovation worked or did not 
work. And that is the reason why you have such a large body of 
scientific evidence that was built about what works in welfare.
    When President Clinton came into office, he said, I am 
going to continue the state level waivers, the innovations that 
I agree with, and the ones that I disagree with.
    Ms. Lujan Grisham. All right. And I am going to reclaim----
    Mr. Baron. Yes.
    Ms. Lujan Grisham.--the 6 seconds that I have, but I really 
encourage this Committee to remember that there are states 
who--even without waivers, and exceptions, and changes have not 
done the jobs that we intend, as policymakers, for these 
programs, and we have a responsibility to require 
accountability in any of these kinds of designs.
    The Chairwoman. Thank you. I do appreciate the panel's help 
in understanding how we can better balance flexibility and 
accountability to help our recipients climb the economic 
ladder. You have certainly given us plenty to think about as we 
continue our look at the past, present, and future of the SNAP 
Program. No system is perfect, we understand, but we can always 
do better.
    Under the rules of the Committee, the record of today's 
hearing will remain open for 10 calendar days to receive 
additional material, supplementary written responses from the 
witnesses to any question posed by any Member. This hearing of 
the Committee on the Agriculture, Nutrition Subcommittee, is 
adjourned.
    [Whereupon, at 3:18 p.m., the Subcommittee was adjourned.]


               SUPPLEMENTAL NUTRITION ASSISTANCE PROGRAM

        (PAST, PRESENT, AND FUTURE OF SNAP: BREAKING THE CYCLE)

                              ----------                              


                       TUESDAY, OCTOBER 27, 2015

                          House of Representatives,
                                  Subcommittee on Nutrition
                                  Committee on Agriculture,
                                   Washington, D.C.
    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 1300 of the Longworth House Office Building, Hon. Jackie 
Walorski [Chairwoman of the Subcommittee] presiding.
    Members present: Representatives Walorski, Crawford, Yoho, 
Abraham, Moolenaar, McGovern, Adams, Aguilar, Plaskett, 
Ashford, and DelBene.
    Staff present: Anne DeCesaro, Haley Graves, Jadi Chapman, 
Mollie Wilken, Faisal Siddiqui, John Konya, Lisa Shelton, 
Nicole Scott, and Carly Reedholm.

OPENING STATEMENT OF HON. JACKIE WALORSKI, A REPRESENTATIVE IN 
                     CONGRESS FROM INDIANA

    The Chairwoman. Good morning. Welcome to today's Past, 
Present, and Future of SNAP hearing on Breaking the Cycle. I 
would like to welcome you here this morning. I am so 
appreciative for all of our witnesses who have come, for our 
Members as well. Thank you for coming to the Nutrition 
Subcommittee, and thank you for making time in your schedules 
to be here.
    This is the latest hearing in our series, the Past, 
Present, and Future of SNAP. Today, we are examining how to 
break the cycle of poverty.
    This hearing was inspired by a visit I made last year to 
Concord High School in Elkhart, Indiana, in my district. I am 
sure my colleagues here are very familiar with how these visits 
typically go. You answer questions from the brightest students 
gathered in the auditorium or the classroom, and they ask 
questions like how does a bill become law, what is it like to 
be in Congress, what is your position on such-and-such an 
issue? However, one student's question that day caught me off 
guard, and it was a young woman who stood up in that class and 
said, ``How do I break the cycle of poverty?'' And I will never 
forget this as long as I live. The student stood up in front of 
her peers and bravely told her story that day of her family 
receiving SNAP. While in high school, she got a job to start 
saving for college because she recognized the value of a 
college degree. She is trying to break out of the poverty 
cycle, trying to do the right thing as a young woman, yet feels 
intense pressure on all sides to maintain the status quo. She 
wanted to know how can she as a young woman, break the cycle of 
poverty. That day will resonate with me forever, and that is 
why we are here today.
    In our past hearings, we have examined the conditions 
necessary to help adults climb the economic ladder, and the way 
community organizations serve as vital conduits and bridges to 
other support services. But what about adolescents and kids? 
Studies have shown that children who grow up in impoverished 
conditions are more likely to have lower academic achievement, 
and are more likely to live in poverty as adults. How do we 
give today's youths an off-ramp from this?
    SNAP is only one piece in the social safety net puzzle for 
families, so we have to recognize that this one program can't 
do it all. And as we saw in a previous hearing, sometimes that 
puzzle can inadvertently create disincentives to work. The 
welfare cliff, for example, forces recipients to consider 
foregoing raises or promotions, or work altogether, because the 
increase in earned income isn't enough to replace the loss of 
SNAP and other benefits. America is the land of opportunity, 
not the land of we will have to think about it.
    SNAP tries to help young people break the cycle of poverty 
by exempting formal college savings, like 529 plans, and income 
from full-time students under 18 from eligibility calculations. 
Are these effective? Is there more we can do to aid children to 
break the cycle of poverty?
    Today, we will hear from witnesses who can attest to the 
impact poverty has on children, the challenges they face as 
they transition into adulthood, and ways we can help them 
increase their chance at success.
    I thank each of our witnesses today so much for being here, 
and I would like to take a moment to introduce one witness here 
today from my district, Ruth Riley.
    Ms. Riley played for the University of Notre Dame and was a 
member of the 2001 National Championship Women's Team, won a 
WNBA Championship with the Detroit Shock, and a gold medal with 
the U.S. Olympic team in 2004. Before she won championships on 
the basketball court, Ruth was raised in a single-parent 
household that relied on food stamps and free and reduced 
lunches. In 2012, Ruth became an ambassador for Share our 
Strength, a nonprofit organization committed to ending 
childhood hunger, as part of their No Kid Hungry campaign. 
Thank you, Ms. Riley, so much for being here today.
    [The prepared statement of Mrs. Walorski follows:]

    Prepared Statement of Hon. Jackie Walorski, a Representative in 
                         Congress from Indiana
    Good morning and welcome to our hearing of the Nutrition 
Subcommittee. Thank you all for making time in your schedules to be 
here and thank you to today's witnesses for your participation.
    This is the latest hearing in our series, The Past, Present, and 
Future of SNAP. Today, we are examining how to break the cycle of 
poverty.
    This hearing was inspired by a visit I made last year to Concord 
High School in Elkhart, Indiana, in my district. I'm sure my colleagues 
are familiar with how these visits typically go, answering questions 
from the bright students gathered in the auditorium or classroom. How 
does a bill become a law? What's it like being in Congress? What's your 
position on such-and-such issue? However, one student's question that 
day caught me off guard: How do I break the cycle of poverty?
    The student stood up in front of her peers and bravely told her 
story of her family receiving SNAP. While in high school, she got a job 
to start saving for college because she recognized the value of a 
college degree. She is trying to break out of the poverty cycle, trying 
to do the right thing, yet feels intense pressure on all sides to 
maintain the status quo. She wanted to know: How do I break the cycle 
of poverty? That day still resonates with me and, as I said, is why we 
are here today.
    In our past hearings, we've examined the conditions necessary to 
help adults climb the economic ladder and the way community 
organizations serve as vital conduits to other support services. But 
what about adolescents and kids?
    Studies have shown that children who grow up in impoverished 
conditions are more likely to have lower academic achievement and are 
more likely to live in poverty as adults. How do we give today's youth 
an off-ramp from this?
    SNAP is only one piece in the social safety net puzzle for 
families, so we must recognize that this one program can't do it all. 
And as we saw in a previous hearing, sometimes that puzzle can 
inadvertently create disincentives to work. The ``welfare cliff,'' for 
instance, forces recipients to consider foregoing raises or promotions, 
or work altogether, because the increase in earned income isn't enough 
to replace the loss of SNAP and other benefits.
    America is the Land of Opportunity, not the Land of ``Well, I'll 
Have to Think About It.''
    SNAP tries to help young people break the cycle of poverty by 
exempting formal college savings, like 529 plans, and income from full-
time students under 18 from eligibility calculations. Are these 
effective? Is there more we can be doing to aid children to break the 
cycle of poverty?
    Today, we'll hear from witnesses who can attest to the impact 
poverty has on children, the challenges they face as they transition 
into adulthood, and ways we can help them increase their chance at 
success.
    I thank each of our witnesses who are here today and I would like 
to take a moment to also introduce one witness here today from my 
district, Ruth Riley.

    The Chairwoman. I would now like to recognize Ranking 
Member McGovern for his opening statement.

 OPENING STATEMENT OF HON. JAMES P. McGOVERN, A REPRESENTATIVE 
                 IN CONGRESS FROM MASSACHUSETTS

    Mr. McGovern. Well, thank you very much. And I want to 
thank the witnesses for being here. I think this is an 
important hearing.
    And let me just begin by saying that I agree with our 
Chairwoman that SNAP can't do it all, but what it is supposed 
to do, which is to make sure that people don't go hungry in 
this country, I think it needs to do it better. And if we are 
going to break the cycle of poverty, quite frankly, it is going 
to require a hearing with more than just the Agriculture 
Committee, because a lot of our antipoverty programs, a lot of 
the issues that happen when people hit this so-called cliff, 
fall under the jurisdiction of multiple committees.
    One of the things that I have been urging, unfortunately 
unsuccessfully thus far, the White House to do is to host a 
conference--a White House conference on food, nutrition, and 
hunger, because there are a lot of good things happening all 
across the country in combating hunger. What we need is a 
clearinghouse to be able to highlight best practices, but we 
also need to talk very candidly about ways that we can sew up 
some of the holes in the social safety net to make sure that 
people don't fall through the cracks, so that we are helping 
people move beyond SNAP and hopefully breaking the cycle of 
poverty.
    We have had multiple hearings in this Committee. We have 
had seven hearings to be exact. We have heard a lot about SNAP, 
we have talked about comprehensive case management models and 
innovative public-private partnerships. Look, I am all for 
strengthening SNAP's job training program, but the real problem 
is that we don't have enough slots available to meet the need 
for workers looking to improve their skills. Bolstering our job 
training programs is expensive. I support it, but it is 
expensive. And we want to have much more robust case 
management. That is going to cost more as well. I am all for it 
and I think that is an important way to help people break the 
cycle of poverty. But if we are going to do that, we need to 
make sure that the funding is there. And what I am very 
strongly against is robbing Peter to pay Paul. I don't think we 
should lessen our commitment to food and nutrition programs, 
and divert those monies to someplace else, because, in my view 
and based on my experience, the SNAP benefit as it is currently 
constructed is inadequate for families. Go to any food bank in 
this country and at the end of the month, people are lined up 
because they have run out of their SNAP benefit. And by the 
way, the SNAP benefit that is available for people today is 
less than it was a few years ago because of actions that this 
Congress has taken to cut the benefit.
    SNAP in and of itself is not a jobs program; it is a food 
program. That is why I am especially pleased that Dr. Ochoa is 
here with us today, and that his testimony focuses on what the 
body of evidence says about SNAP's positive effect on 
children's health. We know that access to adequate nutritious 
food during childhood is key to healthy development and future 
economic productivity. We need to get this right. We need to do 
this better.
    So let me remind my colleagues that \1/2\ of all SNAP 
recipients are children, and the last time I checked children 
weren't expected to work, unless we want to repeal the child 
labor laws. But the majority of people on this program are 
children, are senior citizens, are those who are disabled. Of 
those who work, the majority work, but they earn so little that 
they still qualify for SNAP.
    And so I look forward to the hearing today. We need to 
figure out how we can do this better, but I worry that in this 
Committee sometimes we look at SNAP to be the remedy for 
everything. This is a program to make sure people do not go 
hungry in this country, and the benefit is inadequate. We need 
to bring in other committees. We need to get the White House 
more engaged in this debate and in the challenges before us, 
and we need to figure this out, and I think we can probably 
find some bipartisan consensus on that.
    So with that, I yield back my time.
    The Chairwoman. Thank you, Mr. McGovern.
    The chair would request that other Members submit their 
opening statements for the record so the witnesses may begin 
testimony to ensure there is ample time for questions.
    The chair also would like to notify Members that they will 
be recognized for questioning in order of seniority for Members 
who were here at the start of the hearing. After that, Members 
will be recognized in order of arrival. I appreciate Members' 
understanding.
    Witnesses are reminded to limit your oral statements to 5 
minutes. All of the written statements will be included in the 
record.
    I would now like to welcome the witnesses to the table. 
Caroline Ratcliffe, Senior Fellow, Urban Institute, Washington, 
D.C. Thank you so much for being here. The aforementioned Ruth 
Riley, former WNBA Athlete and Olympic Gold Medalist. Dr. 
Eduardo Ochoa, Jr., M.D., Little Rock, Arkansas, on behalf of 
Children's HealthWatch. Thank you so much for being here. And 
Dr. Haskins, Senior Fellow, Brookings Institution, Washington, 
D.C.
    With that, Dr. Ratcliffe, please begin with your testimony 
when you are ready.

       STATEMENT OF CAROLINE E. RATCLIFFE, Ph.D., SENIOR
  FELLOW AND ECONOMIST, CENTER ON LABOR, HUMAN SERVICES, AND 
                  POPULATION, URBAN INSTITUTE,
                        WASHINGTON, D.C.

    Dr. Ratcliffe. Thank you. Good morning, Madam Chair, and 
Members of the Subcommittee.
    My name is Caroline Ratcliffe and I am an Economist and 
Senior Fellow at the Urban Institute. The Urban Institute does 
not take policy positions. The views I am presenting today are 
my own. I will describe findings from my research on childhood 
poverty. This research is closely connected with this 
Subcommittee's work on SNAP, as poor children are substantially 
more likely to be food-insecure than their non-poor 
counterparts.
    My research highlights obstacles poor children face in 
reaching milestones, such as completing high school, graduating 
from college, and maintaining consistent employment. This 
research helps us understand what it would take to break the 
cycle of poverty. This research is based on data that tracks 
families over 40 years, and follows children from birth 
throughout childhood and into adulthood.
    I will answer three questions. In answering these 
questions, I get at issues of economic mobility, and how 
poverty and economic vulnerability cycles through to the next 
generation.
    The first question is just how many children are we talking 
about when considering poverty. Well, roughly one in five 
children currently lives in poverty. Nearly two in five 
children are poor for at least 1 year before they reach their 
eighteenth birthday. That means that roughly 29 million of 
today's children are expected to live below the poverty line 
before age 18. Further, one in ten children is persistently 
poor; meaning, they spend at least \1/2\ of their childhood 
living in poverty. Importantly, persistently poor children do 
not enter poverty and stay there. Rather, they tend to cycle 
into and out of poverty.
    Moving to the second question: How does childhood poverty 
link with adult success. Children who have been poor for at 
least 1 year before age 18 are less likely to reach important 
adult milestones, such as graduating from high school, 
enrolling in and completing college, and maintaining consistent 
employment. Although 93 percent of children who were never poor 
complete high school by age 20, only 78 percent of children who 
have ever been poor do so. And when looking at the subset of 
children who are persistently poor, the disparity is even 
greater. As these poor children become adults with limited 
education, there are implications for their long-term economic 
well-being, as lower-educated groups have lower wages and 
higher unemployment rates. Overall, these data show that when 
these poor children enter adulthood and have their own 
children, poverty and economic vulnerability, as well as food 
insecurity, will cycle through to the next generation.
    Moving to address the final question: Among children who 
have experienced poverty, what are key indicators of their 
future success beyond poverty. There are three important 
dimensions. First is parents' educational attainment. Among 
children who have experienced poverty, children with less-
educated parents, particularly a parent with no high school 
degree, have lower educational achievement. This relationship 
persists even after taking account of the length of time 
children spend in poverty, and other family and neighborhood 
characteristics. So it is not just poverty. Parents' education 
matters above and beyond poverty.
    The second is residential instability. Among children who 
have experienced poverty, children who move for negative 
reasons, such as an eviction or the family's need for lower 
rent, are worse-off educationally than children who never move. 
Moves that happen for negative reasons can exacerbate already 
tenuous circumstances for children, particularly if the move 
results in the need to change schools during the school year.
    Third, place matters. Children who grow up in disadvantaged 
neighborhoods fare much worse. Among children who have been 
poor, children in more advantaged neighborhoods are 
substantially more likely to complete high school by age 20 
than children from the most disadvantaged neighborhoods.
    In closing, these data show that childhood poverty and the 
cycle of poverty are complex issues. If we want to break the 
cycle of poverty and food insecurity, there should be close 
coordination across safety net programs. SNAP exists in the 
context of other programs and policies, so it would be 
beneficial to connect SNAP reforms with other antipoverty 
programs, such as those that assist with savings and asset 
building, education and training, childcare and other work 
supports. SNAP has taken important steps in this direction by 
making it easier for families to save in years when they have 
higher income, without giving up future SNAP eligibility in 
downtimes. Savings and assets give people the tools to protect 
their families in tough times, and invest in themselves and 
their children. Further reforms in this direction can help 
families create a more stable environment for children.
    Thank you.
    [The prepared statement of Dr. Ratcliffe follows:]

 Prepared Statement of Caroline E. Ratcliffe, Ph.D., Senior Fellow and 
   Economist, Center on Labor, Human Services, and Population, Urban
                      Institute, Washington, D.C.*
---------------------------------------------------------------------------
    * The views expressed are those of the author and should not be 
attributed to the Urban Institute, its trustees, or its funders.
---------------------------------------------------------------------------
How Does Child Poverty Relate to Adult Success?
    Good morning, Madam Chair, and Members of the Subcommittee. Thank 
you for the opportunity to speak today.
    My name is Caroline Ratcliffe, and I am an Economist and Senior 
Fellow at the Urban Institute. The Urban Institute, a nonprofit 
research organization, brings decades of objective analysis to policy 
debates and is dedicated to using research to elevate the debate on 
social and economic policy. The Urban Institute does not take policy 
positions. The views I present today are my own.
    Rather than focus on the Supplemental Nutrition Assistance Program 
(SNAP), I will describe findings from my research on childhood poverty, 
with a particular focus on how it relates to adult success. This 
research puts a spotlight on the obstacles poor children face in 
reaching milestones important to any young person--such as completing 
high school, graduating from college, and maintaining consistent 
employment--and helps us understand what it would take to ``break the 
cycle'' of poverty.
    My research is based on data from the University of Michigan's 
Panel Study of Income Dynamics, which tracks families over 40 years. 
These data follow children from birth, throughout childhood, and into 
adulthood. I will focus my testimony on answering three questions.

  1.  When considering child poverty, just how many children are we 
            talking about?

  2.  How does childhood poverty link with adult success?

  3.  Beyond childhood poverty, what matters for the future success of 
            poor children?

    In answering these questions, we get at issues of economic mobility 
and how poverty and economic vulnerability cycles through to the next 
generation.
1. Childhood Poverty: Just How Many Children Are We Talking About?
    Following children from birth through age 17 shows a much greater 
prevalence of poverty than the annual U.S. poverty statistics suggest. 
While roughly one in five children currently lives in poverty (21.1 
percent), nearly twice as many (38.8 percent) are poor for at least 1 
year before they reach their 18th birthday (Figure 1). Translating 
these percentages to numbers of children, roughly 29 million of today's 
children are expected to live below the poverty level for at least 1 
year before age 18. Black children fare much worse; fully \3/4\ (75.4 
percent) are poor during childhood. The number for white children is 
substantial, yet considerably lower (30.1 percent). Poor children are 
also substantially more likely to be food-insecure than their near-poor 
and non-poor counterparts.
Figure 1
Percentage of Childhood Poor, by Race 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Source: Urban Institute tabulations of Panel Study of Income 
        Dynamics (PSID) data.
          Notes: Tabulations are weighted and include children born 
        between 1968 and 1989. Persistently poor children are poor at 
        least \1/2\ the years from birth through age 17. Ever-poor, 
        nonpersistently children are poor at least 1 year, but fewer 
        than \1/2\ the years, from birth through age 17.

    This research also examines a longer-term measure of poverty-
persistent childhood poverty. A child is defined as persistently poor 
if he or she spends at least half of his or her childhood living in 
poverty. Among all children, one in ten (10.5 percent) is persistently 
poor (Figure 1). Again, translating this to the number of children, we 
expect that nearly eight million of today's children will spend at 
least \1/2\ their childhoods in poverty. Again, black children fare 
worse. Roughly four in ten (38.5 percent) black children are 
persistently poor, while fewer than one in 20 white children (4.3 
percent) are persistently poor.
    Persistently poor children tend to cycle into and out of poverty. 
Over \1/2\ (58 percent) of persistently poor children have three or 
more spells of poverty, and, thus, periods of economic instability.
    Are there early markers that help identify children who are likely 
to be persistently poor? Yes. Children born to poor parents who have 
not completed high school are particularly vulnerable to persistent 
childhood poverty. Among children born to poor parents, children whose 
parents did not complete high school are 30 to 45 percentage points 
more likely to be persistently poor than children whose parents have 
some education beyond high school.
2. How Does Childhood Poverty Link with Adult Success?
    Children who have been poor for at least 1 year before they turn 18 
are less likely to reach important adult milestones, such as graduating 
from high school, enrolling in and completing college, and maintaining 
consistent employment, than children who have never been poor. 
Persistently poor children fare even worse.
    Although more than nine in ten never-poor children (92.7 percent) 
complete high school by age 20, only three in four ever-poor children 
(77.9 percent) do so (Table 1). When looking at the subset of children 
who are persistently poor, the disparity is greater. Less than \2/3\ of 
persistently poor children (63.5 percent) complete high school by age 
20. Put another way, over \1/3\ of persistently poor children do not 
complete high school by age 20.
    Some of these youth are likely leaving high school to help support 
their families. Research by my Urban Institute colleagues finds that 
nearly \1/3\ of out-of-school youth (ages 16-18) without a high school 
degree are working, with roughly \1/2\ working at least 40 weeks of the 
year for an average of 30 hours a week (during the weeks they work). On 
average, the earnings of these working youth account for about 20 
percent of family income.
    Lower levels of educational success among poor children persist 
beyond high school completion. While 37 percent of never-poor children 
complete a bachelor's degree by age 25, only three percent of 
persistently poor children do so. It's unclear whether poor children 
gain ground after age 25, but the pattern between ages 20 and 25 
suggest that any gains are likely limited.

                                                     Table 1
                       Educational Achievement and Employment by Childhood Poverty Status
                                                    (percent)
----------------------------------------------------------------------------------------------------------------
                                                                                         Among Ever Poor
                                                                               ---------------------------------
                                                 Never poor       Ever  poor          Not
                                                                                  persistently     Persistently
                                                                                      poor             poor
----------------------------------------------------------------------------------------------------------------
Educational attainment:
  High school diploma by age 20                          92.7         *** 77.9             83.3         *** 63.5
  Postsecondary enrollment by age 25                     69.7         *** 41.4             47.6         *** 22.8
  Completed college by age 25                            36.5         *** 13.0             16.2          *** 3.2
Consistently employed ages 25-30                         70.3         *** 57.3             63.6         *** 35.4
----------------------------------------------------------------------------------------------------------------
Source: Urban Institute tabulations of Panel Study of Income Dynamics (PSID) data.
Notes: Tabulations include children born between 1968 and 1989. Statistical significance for the ``never poor''
  and ``ever poor'' columns is based on the difference between individuals who are never poor and those who are
  ever poor in childhood. Significance for the ``not persistently poor'' and ``persistently poor'' columns is
  based on the difference between individuals who are ever poor but not persistently poor and those who are
  persistently poor in childhood.
   * p < 0.1. ** p < 0.05. *** p < 0.01.

    As these poor children become adults with limited education, 
implications arise for their long-term economic well-being. Lower-
educated groups have lower wages and higher unemployment rates.
    In fact, when following people up through age 30, we find that 
people who were poor as a child are less likely to be consistently 
employed as a young adult (between ages 25 and 30). They are also more 
likely to spend multiple years in poverty as a young adult (between 
ages 25 and 30).
    Overall, ever-poor and persistently poor children have 
substantially worse educational and employment outcomes than their 
never-poor counterparts. The data suggest that when these children 
enter adulthood and have children, poverty and economic vulnerability, 
as well as food insecurity, will cycle through to the next generation.
3. Beyond Child Poverty What Matters for the Future Success of 
        Children?
    Among children who have experienced poverty, what are the key 
markers--beyond poverty--of their future success? There are three 
important dimensions.
    First, parents' educational attainment at the child's birth is 
importantly related to children's academic achievement, with lower 
educational attainment among children with less-educated parents. This 
relationship persists even after controlling for family and 
neighborhood characteristics, including duration of childhood poverty. 
Compared with ever-poor children whose parents did not complete high 
school, children whose parents have more than a high school education 
are 30 percent more likely to complete high school by age 20, more than 
twice as likely to enroll in post-secondary education by age 25, and 
nearly five times more likely to complete college by age 25.
    The relationships differ somewhat for children whose parents have 
only a high school education. Ever-poor children whose parents have a 
high school education (versus not completing high school) are more 
likely to complete high school and enroll in college or another post-
secondary program (by 11 and 60 percent, respectively), but they are 
not statistically significantly more likely to complete a 4 year 
college degree. That is, they are more likely to get some post-high 
school education but not get through a 4 year college program by age 
25.
    Among poor children, parents' educational attainment is not related 
to whether the child is consistently employed as a young adult. But, 
there is more to the story. Although no direct relationship with young 
adult employment is found, it is well established that lower 
educational achievement brings lower average wages and dampened 
opportunities for upward mobility.
    So, it's not just poverty. Parents' educational attainment matters 
above and beyond poverty. The limited education of today's parents can 
create a vicious cycle that hinders future generations.
    Second, residential instability is related to lower academic 
achievement for ever-poor children, in both high school and college 
completion. Ever-poor children who move for a negative reason (such as 
eviction or the family's need for lower rent) are worse off 
educationally than ever-poor children who never move. Children with two 
or more negative moves are 13 to 15 percent less likely to complete 
high school by age 20, 35 to 36 percent less likely to enroll in post-
secondary education by age 25, and 60 to 68 percent less likely to 
complete college by age 25 than children who never move. Children with 
multiple negative moves also have worse educational outcomes than 
children who move for positive or neutral reasons.
    Moves that happen for a negative reason can exacerbate already 
tenuous circumstances for children, particularly if the moves do not 
coincide with changes in the school year or promotional moves (e.g., 
from elementary to middle school).
    Third, place and neighborhood characteristics matter for ever-poor 
children, even in models that take account of the length of time 
children spend in poverty and other family characteristics. Children 
who grow up in disadvantaged neighborhoods fare much worse. Among 
children who have been poor, children in more advantaged neighborhoods 
(where poverty and unemployment rates are near five percent) are 22 
percent more likely to complete high school by age 20 and are roughly 
15 times more likely to complete a 4 year college degree by age 25 than 
children in the most disadvantaged neighborhoods (where poverty rates 
top 50 percent and unemployment rates are over 25 percent).
    Part of the story may be schools. Research suggests greater college 
enrollment is associated with high school characteristics that more 
likely exist in better neighborhoods, such as higher teacher 
expectations, social norms toward attending college, and greater staff 
support for college enrollment.
Summary and Policy Suggestions
    To summarize, one in every five children currently lives in 
poverty, but nearly twice as many experience poverty at some point 
during their childhood. Among the strains of poverty, poor children are 
more likely to experience food insecurity. Ever-poor children are less 
successful than their never-poor counterparts in their educational 
achievement, which can erode employment prospects and wages throughout 
a lifetime.
    Moreover, the educational achievement of one generation ripples 
through to the next. Even among the subset of ever-poor children, 
children of less-educated parents are less likely to achieve important 
educational milestones than their peers with more highly educated 
parents. Education and training programs, bundled with work supports 
such as child care subsidies, could improve financial well-being and 
stability for parents with limited education. Higher educational 
achievement has been clearly linked with higher employment rates and 
earnings, and receipt of child care assistance has been found to 
increase the economic well-being of low-wage unmarried mothers.
    Beyond childhood poverty and parental education, residential 
instability stands out as important to children's future success. 
Household moves that happen for negative reasons are particularly 
related to worse outcomes. Federal policy allows some vulnerable 
children (homeless and foster care children, for example) to remain in 
the same school when moving across school boundary lines. However, most 
low-income children are left out. More flexible policies on this front 
would provide greater stability for children and help them succeed in 
school.
    Also, place matters. Children who grow up in more disadvantaged 
neighborhoods fare much worse. Place-conscious strategies that both 
address current neighborhood conditions and help poor families move out 
of disadvantaged neighborhoods to better neighborhoods with better 
schools would help children succeed.
    Finally, savings and assets can provide a vital cushion for low-
income families. One positive savings advancement is in SNAP, which has 
taken steps over the years to liberalize rules related to the level of 
assets families can have and still participate in the program. This 
liberalization eases disincentives for families to save in years when 
they have higher incomes.
    Beyond SNAP asset limits, other steps could be taken to actively 
encourage low-income families to save, and such savings could be used 
to provide stability when economic difficulties hit families. This 
encouragement would entail redirecting some of the $384 billion in 
Federal asset-building subsidies, which primarily benefit higher-income 
families, to lower-income families. Promising policies to promote 
asset-building among low-income families include promoting emergency 
savings with incentives linked to savings at tax time and offering 
matched savings such as universal children's savings accounts. Research 
shows that low-income families can save and build assets over time. By 
more efficiently and equitably promoting saving and asset building, 
more people will have the tools to protect their families in tough 
times and invest in themselves and their children.
Additional Information
    Acs, Gregory, Pamela Loprest, and Caroline Ratcliffe. 2010. 
``Progress toward Self-Sufficiency for Low-Wage Workers.'' Washington, 
D.C.: Urban Institute.
    Baum, Sandy. 2014. ``Higher Education Earnings Premium: Value, 
Variation, and Trends.'' Washington, D.C.: Urban Institute.
    Ratcliffe, Caroline. 2015. ``Child Poverty and Adult Success.'' 
Low-Income Working Families brief. Washington, D.C.: Urban Institute. 
http://www.urban.org/research/publication/child-poverty-and-adult-
success.
    Ratcliffe, Caroline, and Signe-Mary McKernan. 2012. ``Child Poverty 
and Its Lasting Consequence.'' Low-Income Working Families Paper 21. 
Washington, D.C.: Urban Institute. http://www.urban.org/research/
publication/child-poverty-and-its-lasting-consequence.
    ___. 2012. ``Child Poverty and Its Lasting Consequence: Summary.'' 
Low-Income Working Families fact sheet. Washington, D.C.: Urban 
Institute. http://www.urban.org/research/publication/child-poverty-and-
its-lasting-consequence-summary.
    ___. 2010. ``Childhood Poverty Persistence: Facts and 
Consequences.'' Low-Income Working Families brief. Washington, D.C.: 
Urban Institute. http://www.urban.org/research/publication/childhood-
poverty-persistence-facts-and-consequences.
    Roderick, Melissa, Vanessa Coca, and Jenny Nagaoka. 2011. 
``Potholes on the Road to College: High School Effects in Shaping Urban 
Students' Participation in College Application, Four-Year College 
Enrollment, and College Match.'' Sociology of Education 84 (3): 178-
211.
    Scott, Molly, Simone Zhang, and Heather Koball. 2015. ``Dropping 
Out and Clocking In: A Portrait of Teens Who Leave School Early and 
Work.'' Low-Income Working Families brief. Washington, D.C.: Urban 
Institute. http://www.urban.org/research/publication/dropping-out-and-
clocking.

    The Chairwoman. Thank you, Dr. Ratcliffe.
    Ms. Riley, please proceed with your testimony.

 STATEMENT OF RUTH RILEY, FORMER WNBA ATHLETE AND OLYMPIC GOLD 
         MEDALIST, GRANGER, IN; ON BEHALF OF NBA CARES

    Ms. Riley. Good morning, Chairwoman Walorski, Ranking 
Member McGovern, and Members of the Committee.
    I would like to thank you for this opportunity to share my 
experience on the importance of the Supplemental Nutrition 
Assistance Program, or what my family called food stamps.
    This is an issue that is woven into the very fabric of my 
childhood. My father walked out when I was 4 years old. He left 
my mom to raise my older sister, younger brother, and myself on 
her own. She found herself doing whatever blue collar work she 
could to provide for us, but it wasn't easy.
    Besides the rare instances that I would wake up in the 
middle of the night and find her crying at the kitchen table 
because she was trying to navigate through our family's 
finances, I was pretty oblivious, as most children are, to the 
level of poverty we lived in. I knew there were some times when 
my mom paid for our groceries with what looked like Monopoly 
money instead of cash. Off and on throughout my childhood I 
would have this little ticket that would get me a free 
breakfast or lunch at school. But as a kid, I had limited 
knowledge of food stamps or free and reduced lunch programs. I 
just knew that somehow, when we needed it, there was always 
food.
    Because I had this food, I was able to learn and focus in 
school, which ultimately led me to graduate with honors from 
the University of Notre Dame. It fueled my real passion, 
basketball. I am grateful and proud of the success that I have 
had winning championships on the collegiate, professional, and 
Olympic levels. I often joke that when I was growing up, I was 
tall, lanky, and uncoordinated. But looking back, I can't 
imagine what my path would have been like if I was tall, lanky, 
uncoordinated, and hungry. When times were tough, the nutrition 
I received through programs like food stamps and school meals 
helped me grow stronger. It saw me through all the numerous 
hours of training before and after school, lifting with our 
football coaches and playing pick-up games with the boys. It 
was all very physically demanding, and I couldn't have done it 
if I didn't have enough to eat.
    We live in the land of wealth and opportunity, so 
acknowledging that one in five children in this country lives 
in a family struggling to put food on the table is hard. It is 
easy to feel compassion about hungry children when it is in the 
abstract, but it is tough to admit that our next-door 
neighbor's child might not have enough food they need to 
thrive. I say thrive because in America, it is often not the 
case of life or death or survival, it is the fact that kids 
don't have the nutrition they need to learn and physically 
grow. By not providing them with that, as a society, we are 
also not providing them with the opportunity to be successful, 
to go to college, and to break the cycle of poverty instead of 
getting stuck in it.
    We talk about educational reform, but we don't talk about 
the fact that hungry kids can't concentrate and learn. We talk 
about health care, but we don't talk about the stunted 
development and avoidable health issues that rise from the lack 
of proper nutrition. We talk about jobs, but we overlook the 
impact of hunger-related issues on creating a job-ready 
generation.
    SNAP is critical to ending childhood hunger. I can tell you 
firsthand that when programs like SNAP work in tandem with 
other programs like school meals, we can make sure that kids 
are getting the three meals a day they need to grow strong. For 
example, school breakfast ensures that kids start their days 
with healthy meals to fuel their brains, while allowing parents 
to stretch SNAP dollars longer into the month instead of 
running out early. This way, when the money is extremely tight, 
we can guarantee that kids are still getting the healthy food 
they need.
    My mom taught me to dream big and then to work extremely 
hard to achieve those dreams. My dream as a little girl growing 
up on a farm in Indiana was to play in the Olympics, and I was 
fortunate to see that dream fulfilled in Athens in 2004, when I 
stood on the podium and received a gold medal. Today, my dream 
is equally as bold, and I believe, achievable. I want to see a 
nation where no child goes hungry, a nation where every child 
has the ability to get the nutrition they need to grow up smart 
and strong, a nation where every little girl dares to dream her 
dream, and gets the food and support she needs to grow up and 
achieve them.
    Thank you.
    [The prepared statement of Ms. Riley follows:]

Prepared Statement of Ruth Riley, Former WNBA Athlete and Olympic Gold 
             Medalist, Granger, IN; on Behalf of NBA Cares
    Good morning, Chairwoman Walorski, Ranking Member McGovern, and 
Members of the Committee. I would like to thank you for this 
opportunity to share my experience on the importance of the 
Supplemental Nutrition Assistance Program, or what my family called 
``food stamps.''
    This is an issue that is woven into the fabric of my childhood. My 
father walked out when I was 4 years old. He left my mom to raise my 
sister, brother, and I on her own. She found herself doing whatever 
blue collar work she could find to provide for us. It wasn't easy. 
Besides the rare instances I would wake up in the night to find my mom 
crying at the kitchen table as she was trying to navigate our family's 
finances, I was pretty oblivious, as most kids are, to the level of 
poverty we were living in.
    I knew there were some times when my mom paid for our groceries 
with what looked like monopoly money instead of cash. Off and on 
throughout my childhood I would have a little ticket that got me a free 
breakfast or lunch at school. But as a kid, I had limited knowledge of 
food stamps or free and reduced price school meals. I just knew that, 
somehow, when we needed it, there was always food.
    Because I had this food, I was able to learn and focus in school, 
which ultimately led me to graduate with honors from the University of 
Notre Dame. It also fueled my real passion. Basketball. I'm grateful 
and proud of the success I've had in winning championships at the 
collegiate, professional, and Olympic levels. I often joke that growing 
up I was tall, lanky and uncoordinated. Looking back, I can't imagine 
what my path would have been if I'd been tall, lanky, uncoordinated 
and hungry. When times were tough, the nutrition I received through 
programs like food stamps and school meals helped me grow stronger. It 
saw me through all the numerous hours of training before and after 
school, lifting with the football coaches and playing pick-up games 
with the guys. It was all physically demanding and I could not have 
done it if I hadn't had enough to eat.
    We live in a land of wealth and opportunity, so acknowledging that 
one in five children in this country lives in a family struggling to 
put enough food on the table is hard. It's easy to feel compassion 
about hungry children when it's in the abstract, but it's tough to 
admit that our next-door neighbor's children might not have the food 
they need to thrive. I say thrive because, in America, it's often not 
the case of life or death or survival. It's the fact that kids don't 
have the nutrition they need to learn and physically grow. By not 
providing them with that, as a society, we're also not providing them 
with the opportunity to be successful, to go to college, and to break 
the cycle of poverty instead of getting stuck in it. We talk about 
educational reform, but we don't talk about the fact that hungry kids 
can't concentrate and learn. We talk about health care, but we don't 
talk about the stunted development and avoidable health issues that 
rise from a lack of proper nutrition. We talk about jobs, but we 
overlook the impact that hunger-related issues have on creating a job-
ready generation.
    SNAP is critical to ending childhood hunger. I can tell you, first 
hand, that when programs like SNAP work in tandem with other programs 
like school meals, we can make sure that kids are getting the three 
meals a day they need to grow up strong. For example, school breakfast 
ensures that kids can start their days with a healthy meal to fuel 
their brains, while also allowing parents to stretch SNAP dollars 
longer into the month instead of running out early. This way, even when 
money is extremely tight, we can guarantee that kids are still getting 
the healthy food they need.
    My mom taught me to dream big and then to work extremely hard to 
achieve those dreams. My dream as a little girl growing up on a farm in 
Indiana was to play in the Olympics, and I was fortunate to see that 
dream fulfilled in Athens in 2004 as I stood on the podium to receive 
my gold medal. Today, my dream is equally as bold, and I believe, 
achievable. I want to see a nation in which no child goes hungry. A 
nation where every child has the ability to get the nutrition they need 
to grow up smart and strong. A nation where every little girl dares to 
dream her dreams, and also gets the food and support she needs to grow 
up and achieve them.

    The Chairwoman. Thank you, Ms. Riley.
    Dr. Ochoa, please proceed with your testimony.

 STATEMENT OF EDUARDO OCHOA, Jr., M.D., F.A.A.P., LITTLE ROCK, 
            AR, ON BEHALF OF CHILDREN'S HealthWatch

    Dr. Ochoa. Thank you, Madam Chair, and Members of the 
Committee, and good morning.
    My name is Dr. Eddie Ochoa, and I have the opportunity to 
give this testimony as a member of Children's HealthWatch, a 
nonpartisan network of pediatricians, public health 
researchers, and children's health and policy experts committed 
to improving children's health in America.
    I am a general pediatrician, and I practice at Arkansas 
Children's Hospital in Little Rock, as a faculty member of the 
University of Arkansas for Medical Sciences.
    Little Rock is one of five sites in the Children's 
HealthWatch research network, along with Baltimore, Boston, 
Minneapolis, and Philadelphia. Our mission is to improve the 
health and development of young children by informing policies 
that address and alleviate economic hardships. We do this by 
interviewing caregivers in emergency departments and clinics on 
the frontlines of care in these five sites. We have interviewed 
60,000 caregivers since 1998 to determine the impact of public 
policies on child health and development of real children.
    Justin is one such real child. Hospitalized twice in his 
first 2 years of life for poor growth, I saw him in my clinic. 
He lives in the Mississippi Delta region of Arkansas with his 
parents and two siblings. The family drove over an hour each 
way to come see me. Justin's father works at a sawmill but his 
wages fluctuate. When he brings home less money in a month, the 
family is eligible for the Supplemental Nutrition Assistance 
Program, but with an uptick in his pay, they lose eligibility 
for SNAP and a crucial support for supporting Justin's and the 
whole family's health. The increased pay does not match the 
value of the SNAP benefit, and thus, Justin's health can 
fluctuate with his father's pay and his family's eligibility 
for SNAP.
    Speaking of health, intuitively all of us in this room 
would probably guess that being hungry or food-insecure is not 
good for a young child like Justin. In fact, there is a wealth 
of scientific evidence demonstrating the hazard that food 
insecurity poses to health across the whole lifespan, starting 
in pregnancy and early childhood. Adequate nutrients are 
required to support healthy development, but food insecurity 
can compromise it. The USDA estimates that nearly 20 percent of 
all U.S. hospitals with children under 6 experienced food 
insecurity in 2014, reporting limited or uncertain availability 
of enough food for an active healthy life.
    We know that household food insecurity increases the risk 
of developmental delays by approximately 70 percent in early 
childhood. More specifically, compared to food-secure children, 
food-insecure children are twice as likely to be in fair or 
poor health, and are 30 percent more likely to have been 
hospitalized after birth.
    We have strong solutions to this grave national problem. 
The furthest-reaching of these is SNAP. It is truly a health 
intervention, helping to protect the health and well-being of 
those who participate in the program. For example, research has 
shown that SNAP lowers the risk of household and child food 
insecurity, reduces the risk of anemia, obesity, and poor 
health for children and adults, and lowers the risk of 
hospitalization for failure to thrive, and reports of child 
abuse or neglect. Moreover, it enhances intake of B vitamins, 
iron, calcium, and improves children's academic performance.
    At Children's HealthWatch, we call SNAP a vaccine because, 
like a vaccine, it protects children's health now and in the 
future, and also has wider community benefits. Our research on 
families with young children has shown that SNAP significantly 
reduces food insecurity for the whole family, and importantly, 
reduces food insecurity among children. Children whose families 
receive SNAP, compared to those who are likely eligible but did 
not receive it, were also significantly less likely to have 
developmental delays and less likely to be underweight for 
their age. Families as a whole also were better able to make 
ends meet when they participated in SNAP. Those who 
participated were less likely to have had to choose between 
paying for medical care and paying for other basic needs like 
food, housing, or utilities. But like a vaccine, it is 
essential to be able to apply SNAP in the proper dose, and for 
the necessary course or length of time in order for it to have 
the maximum impact on children and families.
    If you will allow me to make another child health 
connection here, food insecurity and hunger can be likened to a 
problem like asthma, which needs the right medicine when there 
is a breathing crisis and a different, long-term medicine when 
there--to keep another crisis at bay. It is certainly true that 
asthma is a big problem in the U.S., but hunger in America is 
an even bigger problem, and it is not easy to know who is food-
insecure and who is not. I will come back to that idea in a 
second.
    In order to manage asthma properly, so-called rescue 
medication is essential to deal with the immediate crisis 
because medicine is not enough as a long-term strategy. Food 
assistance for hungry children and families must be as robust 
on the long-term side via systemic programs such as school 
meals, summer feeding, WIC, in addition to the cornerstone that 
SNAP is. It is also dependent on the emergency food assistance 
networks across America.
    As you might imagine, though it exists everywhere in the 
U.S., the severity of food insecurity differs by state, and 
rates can be very high in some states. Where I live in 
Arkansas, Children's HealthWatch research based on data from 
the caregivers in our emergency department shows that nearly 
one in four families with a child under the age of 4 in the 
home is food-insecure. This is against a backdrop of 27.7 
percent of Arkansas households with children being food-
insecure, and having the second highest overall rate of food 
insecurity in America. We highlighted these findings in a 
report titled Doctor's Orders, released this past spring. We 
also made note of the fact that food insecurity coexists with 
other household insecurities, as have previously been 
mentioned, like rent and utilities.
    I mentioned earlier that food insecurity is often not easy 
to spot. That is why we developed a shortened version of the 18 
item USDA screener, and validated what we call the Hunger Vital 
Sign. The Hunger Vital Sign emphasizes that just like blood 
pressure or weight, which a nurse checks at every visit, we can 
use this as a marker of food insecurity in the home. And, in 
fact, last week, the American Academy of Pediatrics released a 
statement, Promoting Food Security for All Children, that 
recommends the use of this Hunger Vital Sign by all 
pediatricians.
    I thank you again for the invitation to provide this 
testimony.
    [The prepared statement of Dr. Ochoa follows:]

Prepared Statement of Eduardo Ochoa, Jr., M.D., F.A.A.P., Little Rock, 
                AR; on Behalf of Children's HealthWatch
    Chairwoman Walorski, and distinguished Members of the Committee, my 
name is Dr. Eduardo Ochoa. I am honored to have the opportunity to give 
this testimony as a representative of Children's HealthWatch, a 
nonpartisan network of pediatricians, public health researchers, and 
children's health and policy experts committed to improving children's 
health in America. I am a general pediatrician and I practice at 
Arkansas Children's Hospital in Little Rock as a faculty member of the 
University of Arkansas for Medical Sciences.
    Little Rock is one of five sites in the Children's HealthWatch 
research network, along with Baltimore, Boston, Minneapolis and 
Philadelphia. Our mission is to improve the health and development of 
young children by informing policies that address and alleviate 
economic hardships. We accomplish this mission by interviewing the 
caregivers of young children on the frontlines of pediatric care, in 
urban emergency departments and primary care clinics. Since 1998, we 
have interviewed over 60,000 caregivers and analyzed those interviews 
to determine the impact of public policies on the health and 
development of real children.
    Justin is one such real child. Hospitalized twice in his first 2 
years of life for poor growth, I saw him in my clinic. He lives in the 
Mississippi Delta region of Arkansas with his parents and two siblings. 
The family drove over an hour each way to come to see me. Justin's 
father works at a sawmill, but his wages fluctuate. When he brings home 
less money in a month, the family is eligible for the Supplemental 
Nutrition and Assistance Program (SNAP). But with an uptick in his pay, 
they lose eligibility for SNAP, and a crucial support for supporting 
Justin's, and the whole family's, health. The increased pay does not 
match the value of the SNAP benefit and thus Justin's health can 
fluctuate with his father's pay and his family's eligibility for SNAP.
    Speaking of health, intuitively all of us in this room would 
probably guess that being hungry or food-insecure is not good for a 
young child like Justin. In fact, there is a wealth of scientific 
evidence demonstrating the hazard that food insecurity poses to health, 
across the whole lifespan, starting in pregnancy and early childhood. I 
want to give you a brief overview of the sorts of harm it can do--being 
a pediatrician, I have mainly focused here on impacts on children. 
Adequate prenatal nutrition is critical to ensure normal development of 
children's bodies and brains and to bolster child food security. Of 
particular concern during this period is the greater risk of food-
insecure mothers entering pregnancy with insufficient iron stores and 
with low-folate diets. Poor iron and folic acid status are linked to 
preterm births and fetal growth retardation, respectively. Prematurity 
and intrauterine growth retardation are critical indicators of medical 
and developmental risks that affect not only children's short-term 
well-being but also extend into adulthood. Children born to mothers who 
were food-insecure during pregnancy also are at increased risk of birth 
defects, including cleft palate and spina bifida, among others. 
Finally, research shows that women who were marginally food-insecure 
and had restricted their eating in an unhealthy way prior to becoming 
pregnant are more likely to gain excessive weight during pregnancy, 
which puts the mother at risk for gestational diabetes and obesity 
postpartum, and can predispose the baby to chronic disease through the 
phenomenon of prenatal nutritional programming. The first few years of 
a child's life are marked by the most rapid brain and body growth of a 
child's entire lifetime--including dramatic changes in cognitive, 
linguistic, social, and emotional development and in self-regulation, 
setting the stage for school readiness and adult well-being.
    Adequate nutrients are required to support healthy development, but 
food insecurity can compromise it. The U.S. Department of Agriculture 
(USDA) estimates that 19.9 percent of all U.S. households with children 
under 6 years of age experienced food insecurity in 2014, reporting 
limited or uncertain availability of enough food for an active, healthy 
life. We know that household food insecurity increases the risk of 
developmental delays by approximately 70% in early childhood. More 
specifically, compared to food-secure children, food-insecure children 
are twice as likely to be in fair or poor health and are 30% more 
likely to have been hospitalized since birth. Mental health problems 
such as depression and anxiety disorders in mothers and behavior 
problems in preschool age children are more common when mothers are 
food-insecure.
    But food insecurity does not have to reach the level of outright 
hunger to cause these problems. Even mild nutritional deficits during 
critical periods of brain growth among infants and toddlers, also known 
as marginal food security, may be detrimental, as they are associated 
with higher odds of child fair or poor health status, hospitalizations, 
and mothers' depressive symptoms and fair or poor health status, 
compared with children and mothers in food-secure households.
    Food insecurity has also been identified as a serious risk factor 
for long-term poor health among older children; repeated or persistent 
exposure to food insecurity appears to be particularly toxic. For 
example, food insecurity's impacts on health differ according to age 
and gender, with younger children experiencing general health impacts, 
older youth having higher odds of chronic conditions, asthma, and worse 
mental health, including aggression and thoughts of suicide, and some 
adverse effects persisting for girls but not boys. Furthermore, food 
insecurity is linked to developmental consequences for both girls and 
boys during kindergarten through third grade, and impaired social 
skills development and reading performance for girls.
    What this body of evidence demonstrates clearly is that food 
insecurity is detrimental on nearly every aspect of physical and mental 
health. Yet, we have strong solutions to this grave national problem. 
The furthest reaching of these is the Supplemental Nutrition Assistance 
Program (SNAP). SNAP is truly a health intervention, helping to protect 
the health and well-being of those who participate in the program. For 
example, research has shown that SNAP lowers the risk of household and 
child food insecurity, reduces the risk of anemia, obesity, and poor 
health for children and adults, and lowers the risk of hospitalization 
for failure to thrive & reports of child abuse/neglect. Moreover, it 
enhances intake of B vitamins, iron and calcium, and improves 
children's academic performance. It has long-lasting effects too--a 
longitudinal study found that for those who participated in SNAP in 
early childhood, SNAP lowered the risk of adult metabolic syndrome and 
thus also lowered the risk of diabetes and cardiovascular disease and 
it increased the likelihood that women would be self-sufficient in 
adulthood.
    At Children's HealthWatch, we call SNAP a vaccine, because like a 
vaccine, it protects children's health now and in the future and also 
has wider community benefits. Our research on families with young 
children has shown that SNAP significantly reduces food insecurity for 
the whole family and importantly, reduces food insecurity among 
children. Children whose families received SNAP, compared to those who 
were likely eligible but did not receive it were also significantly 
less likely to have developmental delays and less likely to be 
underweight for their age (underweight is an indication of 
undernutrition). Families as a whole also were better able to make ends 
meet when they participated in SNAP--those who participated in SNAP 
were less likely to have had to choose between paying for medical care 
and paying for other basic needs like food, housing, or utilities.
    But like a vaccine, it is essential to be able to apply SNAP in the 
proper dose and for the necessary course or length of time in order for 
it to have the maximal impact on children and families and ensure their 
long-term success. The Institute of Medicine found the SNAP benefit is 
inadequate to purchase a healthy diet ad recommended revisiting the 
base calculation. The dose matters--research we recently released 
showed that compared to families participating in SNAP when the 
American Recovery and Reinvestment Act (ARRA) increase to benefits was 
in place, among our families with young children household and child 
food insecurity increased significantly when the amount of the SNAP 
benefit was reduced for all participants in November 2013.
    If you will allow me to make another child health connection here, 
food insecurity and hunger can be likened to a problem like asthma, 
which needs the right medicine when there's a breathing crisis, and a 
different, long-term medicine to keep another crisis at bay. It is 
certainly true that asthma is a big problem in the U.S.--the CDC 
estimates that one in ten children had asthma in 2009 and everyone in 
this room probably knows someone with asthma, if they don not have it 
themselves. But hunger in America is an even bigger problem, and it is 
not easy to know who is food-insecure and who is not. I'll come back to 
that idea and tell you how we have found a way for health providers to 
find this out quickly in the clinical setting.
    In order to manage asthma properly, so-called rescue medication is 
essential to deal with the immediate crisis, but this medicine is not 
enough as a long-term strategy. Children with poorly controlled asthma 
are at a higher risk of dying from their disease, and children with 
food insecurity are at higher risk of being in poor health now, which 
affects them far into their future--potentially changing their level of 
academic success and subsequent workforce participation. Therefore, 
food assistance for hungry children and families must be as robust on 
the long-term side, via systemic programs such as school meals, summer 
feeding, CACFP, and WIC, in addition to the fundamental cornerstone, 
SNAP, as on the emergency side, via the emergency food provision 
networks across America. The systemic programs have the advantages of 
population-level application, supporting a healthy diet, and in the 
case of SNAP, a kitchen-table intervention, the ability to purchase and 
prepare meals in the home. In contrast, the emergency assistance 
networks, like the rescue medication, have the ability to rapidly 
respond to immediate needs. America's hungry children clearly need 
both, in order to address short-term crises and also provide them the 
longer-term nutritional foundation to give them the chance to develop 
appropriately, perform better in school, and succeed in the workforce 
as healthy adults.
    As you might imagine, though it exists everywhere in the United 
States, the severity of food insecurity differs by state and can be 
very high in some states. Where I live in Arkansas, Children's 
HealthWatch research based on data from caregivers we surveyed who come 
into the only pediatric emergency department in the state shows that 
nearly one-in-four (22.7%) families with a child under the age of 4 
years in the home is food-insecure. This is against a backdrop of 27.7% 
of Arkansas households with children being food-insecure, and having 
the second-highest overall rate of food insecurity in America. We 
highlighted these findings in a report titled ``Doctor's Orders'' 
released this past spring.
    Our report also made note of the fact that food insecurity co-
exists with other household insecurities like difficulty paying for 
utilities and struggling to maintain stable housing, and that families 
who were food-insecure were also more likely to make trade-offs between 
paying for these basic needs and paying for health care. So you can see 
that in addition to addressing food insecurity and leading to improved 
child health, a program like SNAP also leads to a healthier household 
that is more likely to meet important needs for all its members. As I 
see all the time in my clinics, low-income parents often face many of 
these interlocking needs all at once, and if there is a child in the 
home with a special health care need, the extent to which food, housing 
and energy needs are addressed in a coordinated fashion puts those 
families and children in a much healthier place. In fact, research has 
demonstrated that when eligible families receive support for both food 
(WIC and SNAP) and SNAP, they are more likely to be stably housed. If 
we want children to do well, then we have to care for the whole 
household. When more households in a community can meet their needs, we 
have healthier communities.
    I mentioned earlier that food insecurity is often not easy to spot 
or hear, like the wheezing that marks an asthma attack. That is why in 
2010 Children's HealthWatch did specific research to narrow down the 
gold standard 18 item USDA food insecurity screener to a two item, 
validated screening tool that can be used in most clinical settings. We 
call it the Hunger Vital Sign (HVS) to emphasize that just like blood 
pressure or weight which the nurse checks at every medical visit, we 
need to also be thinking about hunger. With responses to these two 
questions, any nurse, medical student or doctor could identify a person 
in household at risk of food insecurity. In fact, last week the 
American Academy of Pediatrics released the policy statement 
``Promoting Food Security for All Children'', which recommends that the 
Hunger Vital Sign be used by pediatricians at scheduled health 
maintenance visits and other times when indicated. At our institution 
in Little Rock, pediatric trainees have taken on the pilot project of 
using the HVS in `continuity clinics', where they see a panel of 
patients throughout their residency, to identify food insecurity. Thus 
far, they are finding positive screens at about the rate our emergency 
department surveys have found, but we will fully analyze the data in 
the near future.
    Using a tool like the HVS will surely get to the level of need our 
patients have, but then what do we do in response? As our `Doctors 
Orders' report describes, we have implemented strategies in our 
hospitals and clinics to try to address food insecurity when we find 
it. Starting for the youngest patients, we have entered into a 
partnership with our state health department to place a WIC office 
inside our hospital. I should note that we modeled this and other ideas 
on other sites in our Children's HealthWatch network, specifically 
Boston Medical Center and Hennepin County Medical Center in 
Minneapolis. By offering our youngest patients more seamless WIC 
certification on campus, we hope to address some of the logistical 
barriers our families have to receiving WIC benefits for which they are 
eligible. We have also partnered with our state human services 
department to enable our hospital financial counselors to help families 
through the SNAP application process as those families apply for 
Medicaid. Through a partnership with the USDA and again with our state 
human services department, we are a site for summer and year-round 
meals in our cafeteria and have fed over 10,000 children thus far on 
our campus. Lastly, through partnerships with a local food pantry, we 
also provide emergency food bags to families that have an urgent need 
for food. I have personally seen the relief on the faces of parents 
when we are able to send them home with enough food to get them through 
a few days.
    I mentioned earlier that I practice general pediatrics, and am one 
of many providers on our faculty. We have a panel of nearly 30,000 
Medicaid patients, and intend to build a new primary care clinic within 
a year, which will be located in an area of Little Rock with a high 
proportion of Latino and African-American children. As the lead medical 
director for this clinic, I am helping to design the space and I plan 
to have financial counselors on staff who can help our families apply 
for SNAP and Medicaid, utilize community health workers as part of our 
care teams, and be a location for distribution of meals for children 
who come to our clinic. We are also exploring ways to incorporate the 
Hunger Vital Sign into our electronic medical record, as has been done 
in medical settings across the country.
    Real children in real families have real needs that can come up 
unexpectedly. Gabby was a playful and happy 2 year old in perfectly 
good health until an illness struck her that caused multiple prolonged 
seizures that to this day are difficult to control and have caused 
extreme disability. Gabby's father had a full-time job with a railroad 
company and was able to weather this situation because Gabby's mom 
could provide full-time, round-the-clock care to Gabby while he worked. 
Unfortunately, this was before the Great Recession. When the Recession 
struck, Gabby's father had his hours reduced, his benefits cut, and 
ultimately became uninsured. Gabby's health worsened along with his 
family's crisis. Arkansas had not yet expanded Medicaid under the 
Affordable Care Act. As we cared for Gabby in our clinic for children 
with complex medical problems, we were able to help the family apply 
for SNAP, receive emergency food and other assistance. Remember not 
just one bad thing happens at a time--slowly, with SNAP and other 
supports to bridge the gaps that Gabby's family could no longer afford 
on a lower income, Gabby started to improve. Today Gabby is in better 
shape, with a combination of medications and an electronic device to 
control seizures, her parents are both insured, and the family receives 
supports to help with food, their mortgage payment, and other household 
necessities. It is essential for families like Gabby's that our systems 
of support are strong and sufficient. These essential programs, 
especially SNAP, must be there for families like Gabby's in times of 
need. SNAP would not have prevented Gabby's particular illness, but it 
can prevent health complications for children like her and support 
health and healthy development for many others.
    Thank you again, Chairwoman Walorski, for the opportunity to 
address this Subcommittee today on behalf of Children's HealthWatch and 
on behalf of the children for whom we all care in our clinics.

    The Chairwoman. Thank you, Dr. Ochoa. We appreciate it.
    Dr. Haskins, you may proceed.

        STATEMENT OF RON HASKINS, Ph.D., SENIOR FELLOW,
          ECONOMIC STUDIES AND CO-DIRECTOR, CENTER ON
         CHILDREN AND FAMILIES, BROOKINGS INSTITUTION,
                        WASHINGTON, D.C.

    Dr. Haskins. Chairwoman Walorski, Ranking Member McGovern, 
Members of the Subcommittee, I am very pleased to testify----
    The Chairwoman. Excuse me, can you turn your microphone on?
    Dr. Haskins. I am sorry. I am very pleased to testify 
today. I consider it a great privilege to be able to talk about 
poverty and the solutions to poverty, that people can actually 
do something about it.
    I would like to do three things: Talk about the progress we 
have made against poverty, or the lack of it, then I want to 
talk about the causes, and then I want to focus on work because 
it is something this Subcommittee could do something about.
    So here are poverty rates for kids in female-headed 
families, for the elderly, and for all children. For the 
elderly, I think that is the pattern that we would all like to 
see; that there is very substantial decline after the 
declaration of the war on poverty, and it has continued to 
decline slowly, and we have the lowest poverty rate of any 
group and societies among elderly, and it is primarily because 
of Social Security. A lot of the elderly have savings that take 
them way above the poverty line, but Social Security hardly has 
supplements enough to keep the elderly out of poverty.
    The chart for single-parent families, the line graph for 
single-parent families, is much more difficult. They have the 
highest poverty rate, and they have the most rapidly growing 
demographic group in the country because of our divorce rates 
and especially our non-marital birthrates. So we are taking 
kids out of the group, married couple families, who have a 
poverty rate about \1/5\ of single-parent families, and putting 
them into single-parent families. That contributes greatly to 
poverty.
    And then, of course, the second reason that we have such 
high poverty rates is because of education. The gap in 
education, even the low-income families and especially black 
kids have increased their achievement over the years, somewhat, 
not greatly, but somewhat. They still have suffered a greater 
gap with middle-class families. So we haven't closed the gap.
    And then the final cause, in addition to family composition 
and education, is work. Let me devote the rest of my testimony 
to work.
    We have had one case in which work made a big difference, 
and it occurred about the time of welfare reform. It was not 
just welfare reform. I don't want to claim that. It was a very 
good economy, we had very good programs, and I want to focus on 
those programs. And I called them the work support programs. 
Congress passed 20, 30 pieces of legislation to change these 
programs so that they would be friendlier to work and address 
the cliff problem, and so forth.
    The Chairwoman. Pardon me, Dr. Haskins----
    Dr. Haskins. Yes.
    The Chairwoman.--for 1 second. I apologize. To the Members 
that are here, you received his PowerPoint, it is right here, 
that he is talking about. We are not seeing it on the screen, 
but you do have it in front of you.
    Thanks. Go ahead----
    Dr. Haskins. Okay.
    The Chairwoman.--Dr. Haskins.
    Dr. Haskins. Do I get my 10 seconds back?
    The Chairwoman. Absolutely.
    Dr. Haskins. Good, thank you.
    All right, so this chart shows other than Social Security 
for the elderly, the best strategy that we have found to reduce 
poverty. So what we did, if you look approximately at the 
middle of the chart, roughly around the mid-1990s, is that we 
dramatically reduced poverty among female-headed--kids in 
female-headed families. And the reason we did that is in part 
because of welfare reform. It required work and the mothers 
went to work. It was about a 40 percent increase in the 
percentage of mothers, especially never-married mothers, who 
were the most disadvantaged, who got jobs. But then the second 
part of the equation is that this work support system that I 
have been talking about, and that Congress--and on several 
occasion over the past 35, even 40 years, Earned Income Tax 
Credit, Additional Child Tax Credit, and so forth, and you can 
see by the subsequent lines that each of them, when you apply 
them to the family, their poverty rate comes down and down and 
down and down. It cuts it by more than 40 percent. So these 
government programs really make a big difference. I do not 
challenge the idea that food stamps are primarily for food, but 
it also makes a great contribution to increase the incentive to 
work in addition to serving its nutrition benefits.
    So now let me say one thing about what this Committee could 
do. The focus of welfare reform was not in education training, 
it was in work. So states developed great skills, and people 
who could do it, help people find jobs, do a resume, some 
states even helped people dress better, they practiced 
interviews and all that. And as I said, the mothers went to 
work in droves, they got jobs, they made low wages, but with 
additional benefits they were much better off, and their kids 
were too. In fact, the poverty rate among black children who 
are disproportionately female-headed families, and among all 
kids in female-headed families, both reached their lowest rates 
ever. And today, even after two Recessions, they are still 
lower than they were during the early 1990s, so the system was 
pretty successful.
    So what this Committee could do. You have wisely, with the 
Senate, created these ten demonstrations, because food stamps 
do not have strong work requirements as welfare did in the so-
called TANF Program, Temporary Assistance for Needy Families. I 
think they need to be changed. There are lots of issues about 
how to change it, and you are going to learn a lot from these 
demonstrations. There are ten states that are trying to figure 
out how they can increase the work rate in food stamps. And 
keep in mind, look at this chart, every mom who goes to work, 
even in a low-wage job, it--has a great chance to get out of 
poverty. If she works close to full-time and has two or fewer 
kids, she will be out of poverty because of her work and 
because of the work support benefits.
    Now, I want to caution about something that happened in 
welfare reform that is still the case today, and that is a 
problem, and that is that there are a lot of single moms who 
have a hard time both working and rearing their children. And 
so as a result, we have a group at the bottom, most people call 
it the disconnected mothers, who are probably worse-off now 
than they were before. If they could go on welfare and stay in 
welfare forever, they wouldn't be out of poverty but they would 
be better off than if they didn't have income from either wages 
or from cash.
    So that is something to look out for. We want a system that 
is tough, that requires work, that sends a message that people 
have to work and then we subsidize their income, but we don't 
want one that is so tough that mothers who cannot work 
successfully and have depression or a number of other problems 
we can talk about if you want to, wind up without either cash 
income from the welfare program or in-kind, like food stamps, 
or from earnings.
    [The prepared statement of Dr. Haskins follows:]

   Prepared Statement of Ron Haskins, Ph.D., Senior Fellow, Economic 
  Studies and Co-Director, Center on Children and Families, Brookings 
                     Institution, Washington, D.C.
    Chairman Walorski, Ranking Member McGovern, and Members of the 
Subcommittee:

    My name is Ron Haskins; I'm a Senior Fellow at Brookings and I co-
direct the Brookings Center on Children and Families. I am also a 
Senior Consultant at the Annie E. Casey Foundation.
    I have been invited to talk with you about what this Subcommittee 
could do to reduce poverty and increase economic mobility. I begin with 
a brief word about the problem; namely, how difficult it has been 
reduce the poverty rate. This leads to an overview of one of the most 
successful government reforms to reduce poverty, the welfare reform law 
of 1996 and its impacts on work rates and poverty. I then turn to 
review of what this Subcommittee could do to replicate the success of 
welfare reform while avoiding its most important problem.
Are We Reducing Poverty and Increasing Economic Mobility?
    Figure 1 shows the changes in poverty rates since 1959 for three 
important groups--all children, children in female-headed families, and 
the elderly. Trends in poverty among the elderly show something like 
the progress everyone hopes we can make in reducing poverty among all 
Americans. There was rapid progress in the early 1960s followed by a 
slower rate of decline but very few years in which the poverty rate 
increased. Poverty among the elderly today is ten percent, much lower 
than the rate among children in the other two groups. The explanation 
for this pattern can be found in two words--Social Security.\1\ Most of 
the elderly receive a monthly cash payment from the Federal Government 
that in most cases, including for the elderly who have few or no 
additional sources of income, is adequate to keep them out of poverty.
---------------------------------------------------------------------------
    \1\ Jonathan Gruber and Gary Engelhardt, ``Social Security and the 
Evolution of Elderly Poverty,'' in Public Policy and the Income 
Distribution, ed. Alan Auerback, David Card, and John Quigley (New 
York: Russell Sage Foundation, 2006), 259-287.
---------------------------------------------------------------------------
    Progress among the other two groups is far less impressive, with an 
exception to be examined in more detail below. The poverty rate for all 
children under the official measure shows rapid progress in the 1960s, 
but little consistent progress since. The child poverty rate in 1960 
was 14 percent. By 1980, it was over 21 percent. Worse, in no 
subsequent year has the child poverty rate reached the 14 percent 
achieved in 1969. The rate last year, the most recent available, was 
well over 20 percent. Changes over time in the poverty rate of children 
in female-headed families has been uneven, and has rarely been below 30 
percent. But there was a major decline in the late 1990s that holds an 
important clue about reducing poverty. I examine this decline in more 
detail below.\2\
---------------------------------------------------------------------------
    \2\ ``Income and Poverty in the United States: 2014'' (Washington: 
United States Census Bureau, September 2015).
---------------------------------------------------------------------------
Figure 1
Official Poverty Rates for the Elderly, Female-Headed Households with 
        Children and All Children, 1959-2014 
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
          Source: Census Bureau, Poverty Division, CPS ASEC Tables 2 
        and 3.
          Note: Data on elderly poverty rates unavailable for years 
        1960-1965.
Figure 2
Income Quintile of Children When They Grow Up Relative to Their 
        Parents' Income Quintile 
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
          Note: Numbers are adjusted for family size.
          Source: Pew Charitable Trusts, ``Pursuing the American Dream: 
        Economic Mobility Across Generations'' (Washington: July 2012).

    Figure 2 shows a standard measure of economic mobility; namely, the 
economic position of children compared to the economic position of 
their own parents based on data from the Panel Study of Income Dynamics 
that started collecting data on 5,000 families in the 1960s.\3\ Then, 
as the children of parents in the original sample grew up, they were 
followed as well, yielding data on family income for both the parents 
and their children. In Figure 2, the five bar graphs divide the parents 
into five parts (called ``quintiles'') based on family income with an 
equal number of parents in each bar graph. Thus, the 20 percent of 
parents with the lowest income during their prime earning years are in 
the bar graph on the left and the 20 percent with the highest income 
are in the bar graph on the right; parents with income between these 
two groups are displayed in the middle three bar graphs. Notice that 
each bar graph is divided into five parts. Each of these five parts 
represents the income quintile the children of parents in that income 
quintile wound up in during their prime earning years.
---------------------------------------------------------------------------
    \3\ Pew Charitable Trusts, ``Pursuing the American Dream: Economic 
Mobility Across Generations'' (Washington: July 2012).
---------------------------------------------------------------------------
    Figure 2 provides an informative way to look at economic mobility 
across generations. If children wound up in an income quintile that was 
not correlated in any way with their parents' income, each bar graph 
would have five equal parts, each containing 20 percent of the children 
of the parents represented in the bar graph. This pattern is close to 
the one found in the middle bar graph which shows that children from 
parents in the middle income quintile were almost equally likely to 
wind up in each of the five income quintiles.
    But the other quintiles, especially the bottom and the top 
quintiles, show that where children wind up in the income distribution 
in their generation is greatly influenced by their parents' income. 
Consider the bottom quintile. Adult children from the bottom quintile 
have a 43 percent chance of winding up in the bottom themselves and 
only four percent of them wind up in the top quintile. Now consider the 
top quintile. Here we see that adult children whose parents were in the 
top 20 percent were more likely than adult children in the other 
quintiles to wind up in or near the top. For example, whereas only four 
percent of the adult children of parents in the bottom quintile made it 
all the way to the top, 40 percent of adult children with parents in 
top quintile made it to the top. Equality of opportunity this is not. 
Several studies have shown that this pattern has not changed much over 
the generations.\4\ We do not now have equality of economic opportunity 
in America, nor have we ever, although there are and have been many 
examples of individuals rising far above their parents' income--and 
vice versa.
---------------------------------------------------------------------------
    \4\ Raj Chetty, Nathaniel Hendren, Patrick Kline, Emmanuel Saez, 
and Nick Turner, ``Is the United States Still a Land of Opportunity? 
Recent Trends in Intergenerational Mobility,'' American Economic Review 
Papers and Proceedings 104 (2014):141-147.
---------------------------------------------------------------------------
    The conclusions are obvious, and almost everyone who studies 
poverty and economic mobility agrees: progress against poverty has been 
modest or nonexistent, depending on the group, and the nation has an 
unequal distribution of income that persists across generations. We 
have limited equality of educational and economic opportunity in 
America.
Why Are We Having Trouble Fighting Poverty and Increasing Mobility?
    Why has it been so difficult to reduce poverty and increase 
economic mobility? We now spend around a trillion dollars a year on 
programs for poor and low-income families and individuals.\5\ Until 
recently, spending increased almost every year. But as spending 
increased, the nation neither reduced poverty by much nor increased 
economic mobility. Why, despite all this spending, have we made so 
little progress?
---------------------------------------------------------------------------
    \5\ ``CRS Report: Welfare Spending the Largest Item in the Federal 
Budget,'' accessed October 23, 2015, http://www.budget.senate.gov/
republican/public/index.cfm/files/serve/?File_id=
34919307-6286-47ab-b114-
2fd5bcedfeb5&__hstc=15845384.42def987e2de1a7208006a251af15a
20.1363171173913. 
1364813815069.1364846795312.22&__hssc=215845384.1.1364846795312.
---------------------------------------------------------------------------
    Most analysts would agree that the dissolution of the two-parent 
family, little progress in improving the educational achievement of the 
poor relative to that of the more advantaged, and the decline of work 
among men are major factors in accounting for our lack of progress.\6\ 
More specifically:
---------------------------------------------------------------------------
    \6\ Ron Haskins and Isabel Sawhill, Creating an Opportunity Society 
(Washington: Brookings Institution Press, 2009).

  <bullet> An ever rising share of American children live in female-
        headed families, the family type in which children are five 
        times as likely to be poor as children in married-couple 
        families and in which their development is negatively 
        affected.\7\
---------------------------------------------------------------------------
    \7\ David Ribar, ``Why Marriage Matters for Child well-being,'' 
Future of Children, Policy Brief, Fall 2015.

  <bullet> In addition, until recent years, more and more children were 
        born outside marriage, in most cases instantly creating the 
        family form in which children are likely to be poor.\8\
---------------------------------------------------------------------------
    \8\ Ron Haskins, ``The Family is Here to Stay--Or Not,'' Future of 
Children 25(2) (Fall 2015): 129-153.

  <bullet> Although education levels have improved modestly, the 
        education gap between kids from poor and rich families has 
        increased substantially, making it difficult for children from 
        poor families to close the income gap between themselves and 
        children from rich families.\9\
---------------------------------------------------------------------------
    \9\ Sean Reardon, ``The Widening Academic Achievement Gap Between 
the Rich and the Poor: New Evidence and Possible Explanations,'' in 
Whither Opportunity? Rising Inequality, Schools, and Children's Life 
Chances, edited by Greg Duncan and Richard Murnane (New York: Russell 
Sage Foundation, 2011), p. 91-116.

  <bullet> Although work rates among women, especially low-income and 
        poorly educated women, have shown improvement, the work rate 
        for men has declined over the last 4 decades and wages for men 
        in the lower \1/2\ of the wage distribution have been 
        stagnant.\10\
---------------------------------------------------------------------------
    \10\ Harry Holzer and Marek Hlavac, ``A Very Uneven Road: U.S. 
Labor Markets Since 2000,'' US2010 series (New York: Russell Sage 
Foundation, 2012) .

    A comprehensive strategy to fight poverty and increase mobility 
would attack these causes on three fronts by aiming to increase the 
share of children growing up in married-couple families, in part by 
delaying unplanned births; to increase the educational achievement and 
years of schooling completed among children from poor families; and to 
increase work rates among the poor. In this testimony, I confine my 
attention to increasing work rates, an important determinant of poverty 
and mobility that this Subcommittee could actually do something about. 
I begin with the example of welfare reform.
What to Do: An Example
    In 1996 Congress passed and President Clinton signed one of the 
most sweeping pieces of welfare reform legislation ever passed by 
Congress.\11\ A primarily goal of the legislation was to help, 
encourage, and cajole mothers to work. The law did three things to try 
to increase work rates: it ended the legal entitlement to welfare 
payments, thereby clearing the way for cash benefits to be contingent 
on working or preparing to work; it placed a 5 year time limit on 
receipt of cash welfare for most mothers; and it required states to 
place half their welfare caseload in programs designed to help 
recipients find work or prepare for work. After the welfare reform law 
was enacted, work rates among single mothers increased dramatically, 
the welfare rolls fell more than ever before, and child poverty rates 
declined to their lowest level ever among black children and among all 
children in female-headed families. These effects cannot be attributed 
exclusively to welfare reform. There is general agreement among 
researchers who study welfare that the growing economy of the second 
half of the 1990s and the maturing of a system of Federal and state 
subsidies for low-income workers with children, which will be referred 
to here as the ``work support system,'' also played important roles in 
accounting for the dramatic increases in work and falling poverty 
rates.\12\
---------------------------------------------------------------------------
    \11\ Ron Haskins, Work over Welfare: The Inside Story of the 1996 
Welfare Reform Law (Washington, D.C.: Brookings, 2006).
    \12\ Carolyn J. Heinrich and John Karl Scholz, ed., Making the 
Work-Based Safety Net Work Better: Forward-Looking Policies to Help 
Low-Income Families (New York: Russell Sage, 2011).
---------------------------------------------------------------------------
Figure 3
Effect of Earnings, Transfers, and Taxes on the Poverty Rate among 
        Households Headed by Single Mothers, 1987-2013 
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
          Note: Abbreviations are as follows: Unemployment Insurance 
        (UI), Supplemental Security Income (SSI), Aid to Families with 
        Dependent Children (AFDC), Temporary Assistance for Needy 
        Families (TANF), General Assistance (GA), Supplemental 
        Nutrition Assistance (SNAP), Earned Income Tax Credit (EITC), 
        Additional Child Tax Credit (ACTC), and Federal Insurance 
        Contributions Act (FICA).
          Source: Thomas Gabe, Congressional Research Service, Welfare, 
        Work, and Poverty Status of Female-Headed Families with 
        Children: 1987-2013.

    Thus, it is the combination of the push of strong work requirements 
and the pull of earnings supplements from the work support system that 
provides the most complete explanation of how the nation can reduce 
welfare rolls, increase work, and reduce child poverty. A recent report 
from the Congressional Research Service shows how the new push and pull 
system works. Figure 3 shows the trends in poverty rates from 1987 to 
2013 based on a poverty measure that, unlike the official measure used 
above, counts a wide-range of government benefits (including noncash 
benefits like the Supplemental Nutrition Assistance Program, SNAP, 
often referred to as food stamps, and cash benefits such as tax 
credits) as income. The top line shows the poverty rate among female-
headed families when only earnings are counted as income. Lines below 
the first line show the poverty rates when income from the various work 
support benefits is added to earnings and taxes are subtracted in 
stepwise fashion.\13\ The major finding from the figure is that 
government work support benefits have greatly reduced poverty rates 
among female-headed families (and low-income two-parent families as 
well) in every year since 1987. In addition, the chart reveals a number 
of important lessons for Members of this Subcommittee for fighting 
poverty. Here is a summary of data from Figure 3 that provides the 
information we need to understand these lessons:
---------------------------------------------------------------------------
    \13\ Figures were adapted from Thomas Gabe, ``Welfare, Work, and 
Poverty Status of Female-Headed Families with Children,'' R41917 
(Washington: Congressional Research Service, November 21, 2014), 
especially Figure 13, p. 33.

------------------------------------------------------------------------
                                   Poverty Rate Based on:
                   -----------------------------------------------------
       Years                            Earnings plus
                      Earnings Only    Benefits Minus      Difference
                                            Taxes           (Percent)
------------------------------------------------------------------------
       1987-93                54.3              41.7             ^23.2
          2000                40.8              26.8             ^34.0
          2010                50.1              29.6             ^40.9
          2013                47.6              29.2             ^38.7
------------------------------------------------------------------------

    In the early period from 1987 to 1993, the poverty rate among 
female-headed families with children based only on the mothers' 
earnings was very high-well over 50 percent in every year and averaging 
54.3 percent. Then the poverty rate based on earning plummeted for the 
next 7 years, falling from 54.3 percent to 40.8 percent, the lowest it 
had ever been for female-headed families. This precipitous decline in 
poverty was caused mostly by much more work among single mothers, 
attributable in large part to welfare reform.
    Now consider how work support programs impacted the poverty rate 
based on earnings only. Government transfer programs drove the poverty 
rate down from 54.3 to 41.7 percent in 1987-93,\14\ a reduction of 
about 23 percent. But when the work rate was much higher in 2000, the 
poverty rate based exclusively on earnings was only 40.8 percent, 25 
percent lower than the comparable rate in the 1987-1993 period. Even 
better, after single mothers received the package of work-based 
benefits, the 2000 poverty rate fell to 26.8 percent, a decline of 34 
percent.\15\
---------------------------------------------------------------------------
    \14\ Poverty rates in this section that take benefits into account 
are not the official Federal poverty rate. They are based on the 
official poverty threshold (the amount of income that divides the poor 
and non-poor) but add benefits that are mostly not included in 
calculating the official poverty rate.
    \15\ The bottom line in Figure 9 includes payments from programs 
enacted as part of the American Recovery and Reinvestment Act of 2009, 
most (but not all) of which are now expired. Also included in the last 
line is income the mother receives from other household members.
---------------------------------------------------------------------------
    In 2010, work declined and poverty rose, due to the Great 
Recession. Yet the combination of relatively high work rates in 2010 
(relative to the 1987 to 1993 period) kept poverty lower than during 
the earlier period and the impact of government programs in percentage 
terms produced nearly twice as great a decline in poverty as in the 
earlier period (a reduction of 40.9 percent vs. 23.2 percent).
    Finally, the figures for 2013 show that female heads are now 
increasing their earnings from work, and the work-based safety net 
continues to reduce poverty a great deal (nearly 39 percent).
    This analysis shows that the Federal work support system achieves 
the goal of, as President Clinton put it so tersely, ``making work 
pay.'' \16\ The most important element of the work support system was 
the creation of the EITC program in 1975 and its expansion, almost 
always on a bipartisan basis, on several occasions since. The EITC 
provides working families that include children with nearly $60 billion 
each year, mostly in one-time cash payments. The passage of the 
Additional Child Tax Credit (ACTC) as part of the Bush 2001 tax 
reforms, along with subsequent expansions of the ACTC, were also 
important and now provide working families that include children with 
around $30 billion each year. In addition, child care subsidies have 
been expanded on numerous occasions, the Supplemental Nutrition 
Assistance Program (SNAP) has been modified to make it easier for 
working families to claim the benefit, the Medicaid program has been 
modified and extended (in part by creating the Child Health Insurance 
Program in 1997) to cover almost all children under 200 percent of 
poverty, and a number of other improvements have been made in the work-
based safety net at both the Federal and state levels. This system is 
available to all low-income working families with children and 
virtually guarantees that if parents work close to full time, they and 
their children can escape poverty.
---------------------------------------------------------------------------
    \16\ The combination of work support benefits does have work 
disincentives in the sense that some program benefits are reduced as 
earnings rise. In most cases, however, the combination of earnings and 
work support benefits yield higher total income than either earnings 
alone or welfare benefits alone. According to the Congressional Budget 
Office, the marginal tax rates on earnings for low-income working 
families can be as high as 60 percent. See Congressional Budget Office, 
``Effective Marginal Tax Rates for Low- and Moderate-Income Workers'' 
(Washington: CBO, November 2012).
---------------------------------------------------------------------------
What to Do: Two Ideas for the Nutrition Subcommittee
    There are two actions this Subcommittee could take in the near 
future that would have an excellent chance of reducing poverty. The 
most important outcome of welfare reform was increased work rates by 
single mothers. Not only did the work rate of single mothers increase 
in the years after welfare reform, they have stayed higher than they 
were in the early 1990s and previously despite two recessions and the 
increased unemployment that comes with recessions. Given the importance 
of benefits from the work support system in fighting poverty, work 
becomes even more important because welfare recipients have to work to 
get benefits from the work support system. So work opens up two sources 
of income-earnings from the employment and benefits, especially tax 
credits, that can only be obtained if mothers work.
    The food stamp program currently has modest work requirements, but 
they do not appear to be rigorously enforced. Last year Congress, at 
the instigation of the House Agriculture Committee, wisely provided 
$200 million over a period of years for the Department of Agriculture 
to sponsor ten pilot demonstration programs by states that are willing 
to explore innovative ways to encourage work among food stamp 
recipients.\17\ An interesting parallel of this action is that the 1996 
welfare reforms were preceded by more than 40 states conducting 
demonstration programs aimed at testing ideas about how to promote 
work, many of which were evaluated by high quality research designs. 
These demonstrations generally showed that mothers on welfare could 
work and that programs that helped them prepare for work and look for 
jobs increased work rates and reduced the welfare rolls.\18\ By the 
time of the welfare reform debate of 1995-96, most Members of Congress 
on both sides of the aisle realized that many mothers on welfare were 
capable of working and that good programs that helped them prepare for 
and find jobs could substantially increase their work rate and reduce 
the welfare rolls. It seems likely that the ongoing food stamp 
demonstration programs will provide solid ideas about how states can 
increase work rates among food stamp recipients, in this case both 
women and men. These results can be expected to provide the 
Subcommittee with ideas about how to write legislation that would 
encourage work among food stamp recipients.
---------------------------------------------------------------------------
    \17\ Department of Agriculture, ``2014 SNAP E&T Pilots,'' accessed 
October 22, 2015, http://www.fns.usda.gov/2014-snap-e-t-pilots.
    \18\ Judith M. Gueron and Howard Rolston, Fighting for Reliable 
Evidence (New York: Russell Sage, 2013).
---------------------------------------------------------------------------
    An outcome of welfare reform that should be emphasized is that most 
mothers who found employment worked in low-wage, mostly unskilled jobs. 
Thus, their earnings were generally quite low.\19\ Few states had 
effective programs that attempted to upgrade the skills of mothers. 
Even low-wage jobs provided a step toward self-sufficiency, but many 
analysts think that with training (especially training for jobs 
available in the local economy), these mothers could attain the skills 
that would lead to better jobs, higher earnings, and even lower poverty 
rates. There is now a large and growing literature on how skilled jobs 
that require a certificate, a license, or a 2 year degree, often from a 
community college, can help young people from poor and low-income 
families qualify for good jobs with higher incomes.\20\ According to 
the Department of Agriculture, the work demonstration pilots will test 
``a range of job-driven strategies, including intensive sector-based 
approaches and career pathways that prepare workers for specific 
occupations.'' And because the pilots are being subjected to scientific 
evaluations, we can be confident that the findings will be reliable. 
These pilots, in other words, are very likely to provide the basis for 
legislation that will encourage or require states to establish programs 
that increase both work rates and earning among food stamp recipients.
---------------------------------------------------------------------------
    \19\ Greg Acs and Pamela Loprest, ``TANF Caseload Composition and 
Leavers Synthesis Report,'' (Washington, D.C.: Urban Institute, March 
28, 2007).
    \20\ Tamar Jacoby, ``The Certification Revolution,'' in Michael 
Petrilli, ed., Education for Upward Mobility (New York: Rowman & 
Littlefield, 2016); Sheila Maguire, et al., ``Tuning Into Local Labor 
Markets: Findings from the Sectoral Employment Impact Study'' 
(Philadelphia: Public/Private Ventures, 2010).
---------------------------------------------------------------------------
    A word of caution, based on the results of welfare reform, is in 
order. The share of families in poverty receiving welfare cash payments 
has declined as compared with the share receiving cash under Aid to 
Families with Dependent Children (AFDC), the cash welfare program that 
preceded the 1996 welfare reforms. In 1979, for every 100 families in 
poverty, 82 families received AFDC. By contrast, in 2013, for every 100 
families in poverty, only 26 families received Temporary Assistance for 
Needy Families (TANF), the cash welfare program established by the 
welfare reform law of 1996.\21\ Some observers have concluded that the 
increases in work and reductions in poverty achieved by welfare reform 
resulted from work requirements and time limits that forced too many 
mothers off TANF without jobs. But there is little evidence that harsh 
provisions are necessary to encourage able-bodied adults to work. 
Reasonable requirements, strongly enforced, and accompanied by the 
carrots for work provided by the work support system, may well be 
enough to encourage adults to work. And in any case, the Subcommittee 
will have the results from ten state food stamp pilot work programs to 
provide ideas about how food stamp recipients can be encouraged to work 
without resorting to harsh measures.
---------------------------------------------------------------------------
    \21\ LaDonna Pavetti, ``Testimony of LaDonna Pavetti, Ph.D., Vice 
President, Family Income Support Policy, Before the House Ways and 
Means Committee, Subcommittee on Human Resources'' (Washington: Center 
on Budget and Policy Priorities, April 30, 2015), http://
waysandmeans.house.gov/wp-content/uploads/2015/06/LaDonna-Pavvetti-
Testimony-043015-HR3.pdf.
---------------------------------------------------------------------------
    A second caution is that some people believe the goal of food stamp 
work requirements should be to get as many people as possible off food 
stamps. This goal, however, sharply conflicts with another goal of food 
stamps as a vital part of the work support system; namely, to 
supplement the earnings of low-wage workers and thereby both improve 
their economic standing and provide a strong work incentive. Just as 
many mothers who join the welfare rolls lack the skills and experience 
to fill the requirements of high wage jobs, so many recipients of food 
stamps are similarly qualified only for low-wage jobs. To both Congress 
and society, the goal of luring people into work and helping them 
improve their economic condition should be the most important goals. 
Some of these people will work their way into jobs that pay enough that 
they will no longer qualify for food stamps. But most people, including 
parents, who are on food stamps will not have the skills to command 
high wages. In these cases, food stamps will provide an incentive to 
continue working and will allow workers to boost their income.
Conclusion
    Over the last 4 decades, Congress has constructed a work support 
system that not only makes work pay, but also provides substantial work 
incentive. The food stamp program is a vital element of that system. 
When the incentives of the work support system are combined with 
effective programs that encourage work, help people acquire skills, and 
help them find employment, many of the adults receiving food stamps 
today and in the future will join the workforce, increase their self-
sufficiency, set an example for their children, and improve their 
economic condition. Moreover, the state food stamp work demonstrations 
now being implemented seem likely to serve as a beacon to help states 
implement and sustain programs of this type.

    The Chairwoman. Thank you, Dr. Haskins.
    Dr. Haskins. Okay.
    The Chairwoman. I appreciate it. And thanks to all of you 
for your testimony.
    We are going to move to the question period now. And I want 
to just start out by saying, in my district, in South Bend, 
Indiana, we just started recently with a three times a day 
feeding program. We had breakfast, lunch in schools. Now we are 
moving, in some areas in my district, to dinner as well. It is 
being done year-round in some of the school districts. But as 
we talked about today, we want to move beyond this issue of 
just feeding kids and saying they are going to be successful. 
And we want to see these kids succeed, we want to talk about 
the community partnerships and those kind of things that are 
available to make sure that kids actually have a chance to 
reach their American dream. To do that, as you have heard 
earlier, we are talking about holistic kind of approaches that 
we have never done before, and we have made a real effort in 
this Subcommittee to do that.
    So I want to direct my question to Ms. Riley. Looking back 
on your childhood and some of the experiences that you have 
already shared in your testimony, can you just kind of 
elaborate and tell us a little bit more about the support that 
SNAP and school meals provided for you and your siblings, and 
the whole concept of being a child raised in poverty, and 
working your way out, but still looking back to your childhood, 
what did it mean, how important was the nutrition assistance 
you received?
    Ms. Riley. Well, as a child, you are kind of oblivious a 
little bit. I mean you realize that you are different than the 
other kids. You have a means to get the nutrition in a 
different way, whether it is the ticket that I used to get my 
meals. But, as I talked to my mom, once I became a 
spokesperson, I really started to understand the dynamic of our 
family and her need at that time and how essential this was. So 
my role as a spokesperson has been a sense of gratitude looking 
backward and understanding how impactful these programs were to 
my success, not realizing it maybe at the time, but now as an 
adult, realizing that they were absolutely essential to me 
being a healthy student and an athlete.
    The Chairwoman. I appreciate it.
    And, Dr. Haskins, we heard at previous hearings we needed 
evidence-based understanding of how to address this issue 
holistically. In your opinion, have we moved the needle at all 
recently when it comes to poverty and economic mobility? Should 
we keep doing the same things, or do you believe it is 
worthwhile to actually reexamine the situation and say what 
else can we do?
    Dr. Haskins. Economic mobility is a much broader problem 
and will require a much broader solution. And I am going to 
leave that aside. Poverty, I think we have made progress, yes. 
I have shown in the mid-1990s and even today, we have a lower 
poverty rate among female-headed families. And the Committee 
should know that we are not going to make progress against 
poverty unless we address where it is most frequent, and that 
is among female-headed families.
    So this strategy of work and work support, something for 
both sides of the aisle, is really a good strategy. We need to 
expand it. We need more people on food stamps to have a job, 
even if it is a low-wage job, and we would make even more 
progress against poverty. I think the charts that I have shown 
you show that that is the case.
    The Chairwoman. I appreciate that as well.
    And then, Ms. Riley, just briefly back to you. In the time 
that you have been involved now as an advocate for the No Kid 
Hungry campaign, do you see improvements in the lives of the 
kids through the organization you are working for, do you see, 
anything positive happening? And while there is a long way to 
go, have you seen strides being taken that have been effective 
in the area that you are focused on?
    Ms. Riley. Yes, absolutely. And I have been a spokesperson 
in all the cities that I have played in probably in the last 
few years, and so I have been able to see a different 
demographic aspect to that as well. But for kids to know that 
there is a provision there, and to not have to worry about the 
essential foundation of what they need, allows them to have 
hope----
    The Chairwoman. Yes.
    Ms. Riley.--for a better future, allows them to just kind 
of focus on what is before them, which is their school, which 
is their ability just to be kids.
    The Chairwoman. I appreciate it.
    And then, Dr. Ratcliffe, one follow-up question quickly. 
This issue of looking holistically at the issues low-income 
people face, can you elaborate a bit more on that, this is 
actually one of the issues the Committee is looking at in terms 
of what else can we do.
    Dr. Ratcliffe. Thank you. One of the issues, when we look 
at children from birth and throughout their childhood, is that 
parents' educational attainment is so important. So it is work 
of the parents, but also we should look at education and 
training programs, in coordination with childcare and other 
work supports, to help people and parents provide better for 
their families and move up the economic ladder.
    The Chairwoman. Thank you, and I appreciate it.
    And I want to recognize now Mr. McGovern for 5 minutes.
    Mr. McGovern. Well, thank you very much, and I appreciate 
all your testimony. And just for the record, Dr. Ochoa 
mentioned the American Academy of Pediatrics policy statement, 
which recommended that pediatricians screen all children for 
food insecurity, noting the negative health that is associated 
with child hunger. I think it is an important statement. I 
would like to ask unanimous consent that we insert the AAP's 
policy statement into the record.
    Without objection? Okay, all right.
    The Chairwoman. Yes.
    [The information referred to is located on p. 439.]
    Mr. McGovern. And----
    The Chairwoman. I am nodding my head.
    Mr. McGovern. Okay. I know we are talking about the whole 
picture here, but we need to get all the little pieces correct 
if we are going to solve the big picture, and that means we 
need to make sure that SNAP works and provides a benefit that 
is adequate to feed children and to feed families. I think it 
is important to note that the SNAP benefit was more generous in 
2013 than it is today. Food prices continue to go up, and more 
and more families on SNAP end up at food banks. We have close 
to 20 million children in this country who are hungry and food-
insecure. I think every single person in this Congress should 
be ashamed of that fact. We are the richest country in the 
history of the planet. We have close to 20 million children in 
this country who don't have enough to eat, who end up at food 
banks, who end up at food pantries at the end of the month. And 
I think that is something we need to fix.
    We want to get the nutrition part of this right, so we need 
to make sure that the benefit is adequate.
    And, Dr. Haskins, look, I appreciate your talking about the 
importance of work, but let's understand one thing. Work 
doesn't mean people get off of SNAP. To work, they need to be 
able to work. Childhood development needs to come first because 
that is the most important issue that we are talking about here 
today. And we need to make work pay more. No one here mentioned 
raising the minimum wage, but the fact of the matter is you 
have people working and they are still on SNAP. Congress has 
cut not only money for SNAP, Congress has cut money for job 
training programs. And before we change anything, we ought to 
see what the results of the SNAP work pilots are and then base 
any changes on that.
    Dr. Ochoa, in your testimony, you say you have data on what 
a higher SNAP dose means for the health and well-being of 
children in the form of the ARRA monies that boosted SNAP and 
then ran out in November 2013. What does the evidence show, 
because I want to make sure we get this right, and it is 
important for people to understand that there are no quick 
fixes. And a lot of the fixes we are talking about in terms of 
job training, it is going to cost more resources. But I want to 
make sure our kids right now are getting an adequate food 
benefit. Maybe you could respond to that.
    Dr. Ochoa. Yes, thank you, Mr. McGovern.
    As you mentioned, the SNAP benefit was more robust in 2013, 
and 2013 is when the Institute of Medicine issued its report 
saying that the SNAP benefit needed to go up. And so what we 
were able to see with our research in these five sites across 
the country was that when our up-boost was in effect there were 
much less hospitalizations and less developmental delay, better 
health, better height to weight for the children that we 
interviewed in our clinics and emergency rooms. And after the 
rollbacks when we reexamined the data, we found that families 
with young children were 23 percent more likely to be household 
food-insecure, and 17 percent more likely to be child that was 
food-insecure.
    So in the face of having the better benefit and the better 
outcomes, that reversed rather quickly. So it is a troubling 
scenario, if you will, that under a more robust benefit as it 
was, just a little change in that can really have disastrous 
outcomes on child health.
    Mr. McGovern. Yes. Well, I tell people all the time that 
hunger is essentially a political condition because we know 
what we need to do to solve it, but we, for whatever reason, 
don't muster the political will to do it. I am not just talking 
about Congress, I mean the White House as well needs to take 
stronger leadership.
    And I go back to where I began. I think we ought to have a 
White House conference on food, nutrition, and hunger because I 
do think that is the place where all these different ideas 
which fall under the jurisdiction of multiple committees can 
come together, and we can figure out a roadmap to move forward. 
When you ask anybody, whether it is in the White House or here, 
what is the plan to end hunger in America, there really isn't a 
plan. We have programs to try to deal with hunger, but there is 
no plan, and we do need a roadmap, and I am trying to find out 
where the forum is that we can kind of connect all the dots and 
pull these pieces together. I don't know if anyone has any 
ideas, or if you want to endorse my idea of a White House 
conference on food, nutrition, and hunger, that is perfectly 
fine with me, but if we are serious about this, the White House 
needs to be involved more directly on this matter.
    I think I am out of time.
    The Chairwoman. The chair now recognizes Mr. Crawford, for 
5 minutes.
    Mr. Crawford. Thank you, Madam Chair. And I want to thank 
the witnesses for being here, and particularly I want to 
welcome Dr. Ochoa from Arkansas Children's Hospital.
    I am one of those families in Arkansas who has seen 
personally, up close and personal, the benefits of Arkansas 
Children's Hospital. It is a world-class institution and doing 
great work there, and I thank you for that.
    You mentioned some statistics in your testimony, Dr. Ochoa, 
about Arkansas in particular being the second highest rate in 
the United States in terms of food insecurity, and I find that 
to be a little bit ironic considering we are one of the most 
productive agricultural regions in the country, if not the 
world. And so I say that to say this: we tend to look at these 
problems a lot of times through the lens of our own district, 
but with the statistics that we have in east Arkansas, which is 
my district, and the Mississippi Delta, if we can get this 
issue right there we can apply that anywhere, and create a 
template to really effectively address this food insecurity 
issue.
    Let me ask what specifically the Arkansas Children's 
Hospital is doing and the work you are doing in the region, how 
are you tackling food insecurity in the Delta, and can you 
expand on the role of public-private partnerships to help 
assist in those challenges?
    Dr. Ochoa. Yes, thank you very much, Mr. Crawford.
    As I mentioned in my testimony, we issued a report in the 
spring called Doctor's Orders, and I have some copies of these 
reports here with me today, because what we specifically tried 
to do at our institution was look at ways that we could help 
hungry families that were coming to us for care. I mentioned 
that we are the only pediatric hospital in the state, and so we 
interview people in our emergency room from all parts of the 
state, and we found that there were just as many people who 
were coming to the emergency department who were food-insecure, 
but interestingly enough, different from the other sites in our 
research network, more of our families were educated and had 
higher incomes. So even for people who had higher education and 
income levels, the rates of food insecurity, and particularly 
child food insecurity, were very high.
    So we started looking at things that we could do at 
Children's to help the situation, and we have gotten into 
partnerships with both the State Health Department and the 
State Department of Human Services, and private organizations 
like the Arkansas Hunger Relief Alliance and the Arkansas Food 
Bank. So we are doing a variety of things. One is that we are 
training our people in the hospital who are financial 
counselors to help people with their Medicaid and their SNAP 
applications at the same time. DHS helped us a great deal with 
that. Second, DHS helped us apply to be a site for the summer 
meals program, and now we have extended that to all-year-round 
meals. And since we started those meals a couple of years ago, 
we have given away more than 40,000 free lunches to kids that 
are on our campus. We ask no questions. They can have their 
siblings get a lunch. So we give these lunches out every day of 
the week. We also have partnered with the Health Department to 
have a WIC office on our campus. So now for 1 day a week, we 
have a WIC office on our campus that can do eligibility 
determinations, and help people who are either getting 
discharged from the hospital or leaving our clinics. And I am 
sure a lot of those kids who are leaving from our hospital beds 
are going back to your district feeling better that they have 
gotten their WIC eligibility straightened out. And we have also 
partnered with the emergency food networks to have food 
available that we can give to families when they leave. So the 
partnership with the local food pantry, our residents can ask 
screening questions about food insecurity and provide those 
bags of food to families.
    I am going to open a clinic in about a year under the 
Children's Hospital umbrella in southwest Little Rock where 
Latino and African American children are predominantly living 
in the city. And we are going to bake all this in, if you will, 
to the way we design the clinic. To do the Hunger Vital Sign, 
to ask about food insecurity, and to have things ready to 
intervene when we find those.
    Mr. Crawford. Thank you. I know there has been a lot of 
mention about breaking the cycle of poverty. Madam Chair, you 
mentioned that as a question you received in a meeting in your 
district.
    Dr. Ochoa, based on your experience in the Delta, what do 
you think needs to be done to support children who want to 
break the cycle of poverty, how do we do it?
    Dr. Ochoa. Well, there are a lot of complex, interlocking 
needs. Families don't just come with one issue. And when a 
child is sick, we see that there are a lot of things that are 
going on. It is not just about food, it is also about housing, 
it is also about income. We are working with other advocates in 
Arkansas to try to start a conversation about the EITC in 
Arkansas which is very important. We have to think about other 
things like childcare supports. I am glad that Dr. Ratcliffe 
mentioned that because if you have more moms who are working at 
low-wage jobs, if you don't have the childcare to help that 
backstop, it is really not going to be very helpful for that 
mom. So there are a lot of interlocking needs that we need to 
address and think about the holistic view of the child, but 
also know that hunger really marks the brains and the bodies of 
our children.
    Mr. Crawford. Thank you.
    I yield back.
    The Chairwoman. The chair recognizes Ms. Adams, for 5 
minutes.
    Ms. Adams. Thank you, Madam Chair, Ranking Member McGovern. 
And thank you all for your testimony.
    North Carolina is currently approved by USDA to receive a 
waiver from work requirements for able-bodied adults in the 
areas of the state that continue to experience high levels of 
unemployment for Fiscal Year 2016. The waiver allows able-
bodied adults to receive SNAP benefits for more than 3 months 
during a 3 year period if they cannot find a job during an 
economic crisis.
    Recently, the North Carolina General Assembly passed House 
Bill 318, and it prohibits the state from ever applying for a 
waiver for SNAP work requirements for able-bodied adults during 
an economic crisis, and that any waivers currently requested 
shall not extend past March of 2016.
    The bill, in my opinion, is mean-spirited. It punishes 
people in high unemployment areas. And in my district, we have 
a 13.8 percent unemployment, and, of course, this limits the 
state's ability to meet the needs of the unemployed. As has 
been said here, SNAP is not a work program, it is a nutrition 
program, to help those who are struggling to put food on the 
table.
    Last month, I sent a letter to our Governor asking that he 
veto this bill. And we are still waiting, but I continue to 
call on our Governor to do this, which he must do by the end of 
this week to keep the bill from becoming law.
    Dr. Haskins, if there are not enough jobs to go around for 
every able-bodied adult without dependents in North Carolina, 
what is the value of increasing work requirements for SNAP 
recipients?
    Dr. Haskins. Whether there are jobs available or not is a 
complex question because even during a recession when 
unemployment rates are high, people get jobs every day. There 
is a lot of circulation in the economy so there are jobs 
available even during a recession. That means that some people 
are going to be out of work if there are no jobs available, so 
they have to look in adjoining counties and so forth.
    I think it is reasonable to have some adjustment during a 
recession in Federal work requirements. I am not sure I would 
suspend them, but I would give people a longer time to find a 
job, for example, would be a reasonable approach. It is not 
unreasonable to suspend them, but that defeats the policy in 
the first place. There needs to be continuing pressure. People 
getting public benefits need to know that they have to work as 
much as possible, and the government will make exceptions when 
it seems appropriate to do so, namely during recessions or 
high----
    Ms. Adams. Right.
    Dr. Haskins.--unemployment rates like you are talking 
about.
    Ms. Adams. Thank you, sir. I think there are lots of things 
that prohibit that. I mean transportation, gaps, in terms of 
skills gaps and the jobs that are available.
    Dr. Ochoa, how might SNAP be of particular benefit to young 
children who also experience the stress of living in poverty?
    Dr. Ochoa. Yes, thank you. That is an excellent question. I 
think that benefit starts in the womb. So when moms are 
pregnant and they are on SNAP, our research shows that the 
children that are born to those moms do better. They do better 
developmentally, they have better birth weights, they are in 
the hospital less often. And so we not only see the benefit 
from SNAP beginning prior to birth, but then we see the 
benefits all through childhood.
    A program like WIC is great, but WIC is part of the overall 
fabric of food support that these families need in poverty. So 
the SNAP benefit that impacts not just the child but the whole 
household is really important. And as I mentioned earlier, it 
lasts all through early childhood when brain formation is 
really at its critical point, and continues all through school 
and the workforce.
    Ms. Adams. Thank you. How might the investment in SNAP save 
money and healthcare costs in the long-run, just as other 
vaccines do?
    Dr. Ochoa. Well, our research shows that when children have 
an appropriate SNAP benefit and they are not in child food-
insecure households, they do better. So we know there are less 
hospitalizations, there is less developmental delay. The 
developmental delays that I see in my clinics cost the system 
money because we are trying to catch those kids back up. It 
decreases the rate of pre-term births. There is just a whole 
host of scientific evidence that shows that SNAP is really a 
health benefit.
    Ms. Adams. Thank you.
    And, Madam Chair, I yield back.
    The Chairwoman. The chair recognizes Mr. Yoho, for 5 
minutes.
    Mr. Yoho. Thank you, Madam Chair. Thank you all for being 
here.
    Ms. Riley, let me start with you. What led to your success? 
I mean was it an internal desire to become great at what you 
do, was it the physical attributes, was it mentors around you 
that inspired you that led you into that, or was it a 
government program?
    Ms. Riley. All of the above.
    Mr. Yoho. All of the above?
    Ms. Riley. It was----
    Mr. Yoho. I agree with that. You were going to say 
something else?
    Ms. Riley. Just that without any of the contributing 
factors, my mom, mentors, teachers, the program, I couldn't 
have been able to accomplish what I did.
    Mr. Yoho. All right. Is there one that was greater than the 
other? Loving, nurturing mother that gave you the can-do 
attitude?
    Ms. Riley. I think without food, it wouldn't have mattered 
how great my mom was.
    Mr. Yoho. Well, absolutely. None of us would be here 
without it. There are a lot of us that have stories like you. 
We have seen people throughout history have that. This 
Committee has heard my story too many times to repeat it, other 
than when my wife and I were married, we were picking up soda 
bottles to get by because there were no jobs. It was during the 
1970s.
    The point is--and, Dr. Ochoa, you brought up hungry kids, 
low performance, food insecurity, we know all these things. We 
know about the prenatal vitamin supplements and all those 
things that are necessary to have and birth a healthy child. We 
know all those. We can do those studies over and over again. 
Those are the facts. I mean that is just science. And it is 
important to have those.
    Dr. Haskins, you brought out that the single-parent 
households have the highest level of poverty and the highest 
level of food insecurity, and I agree. And these are all facts 
that we know. To me, we are treating a symptom and not treating 
the underlying problem. The underlying problem, to me, is 
responsibility in a lot of this case. Not all these. Because if 
we talk about the elderly or the disadvantaged, the people that 
can't work, that is a whole different category, but for the 
able-bodied person to raise children in the 21st century in 
America and not be responsible for that child--and I am a 
veterinarian by trade, and if we have somebody that doesn't 
take care of an animal, the county steps in and they will 
educate them, sometimes fine them, sometimes take that animal 
away. And I said this in a meeting, actually with my priest, 
and he said, so you want to treat children like people--or you 
want to treat children like animals. I said no, but do we treat 
our animals better than we do our children? And to go along Mr. 
McGovern's case here, the plan to end hunger in America. I 
think that is a noble cause, but we need to look at the 
underlying cause, why are parents having children, multiple 
children, if they can't have the responsibility to take care of 
them? Is there any penalty for not taking care of a child? Does 
anybody want to weigh-in on that?
    Dr. Haskins. Yes, there certainly is. We have a very active 
child protection system, and they intervene in families all the 
time. We have thousands of children in foster care because 
their parents are not providing adequate care. And sometimes we 
completely terminate----
    Mr. Yoho. Before that though.
    Dr. Haskins.--their rights----
    Mr. Yoho. I mean before----
    Dr. Haskins.--and put them up for adoption.
    Mr. Yoho.--that. With one child I can understand that, but 
to have multiple children that fall into this. I know this is 
at the risk of being very controversial, but it if we don't 
treat the underlying problem, and I know it goes with 
education, food, good jobs, and all of that, good-paying jobs, 
we are missing the boat because we are winding up treating a 
symptom that we are going to treat over and over and over again 
unless we get into that. And it is noble that we get in there 
and we feed the children, and we get them off to a good 
educational start so that they can break that cycle, but we 
should put more responsibility or more emphasis on the 
responsibility. When that mother comes in, the single mother 
comes into a health clinic and talk about the responsibility of 
raising that child. And I just hope we are all doing that in a 
manner that we get the results we want so that we can, as Mr. 
McGovern said, work at ending hunger instead of just 
perpetuating a situation over and over again. Any thoughts, Ms. 
Ratcliffe--Dr. Ratcliffe----
    Dr. Ratcliffe. Yes.
    Mr. Yoho.--I am sorry.
    Dr. Ratcliffe. Thank you. The fact is that we do have poor 
children today, and so what my research shows is that focusing 
on those children and making sure they get what they need is 
going to help us into the future. And even if you have families 
that are working full-time, full-year, at the minimum wage, 
even above the minimum wage, that they are going to be eligible 
for a program like SNAP. And when you talk to low-income 
families, a lot of what they say is they would like one good-
paying job. So when we look at it, there are lots of complex 
issues that families are dealing with.
    Ms. Riley. If I could really quickly just say from my own 
experience, my mom obviously didn't intend to be a single 
parent. My father left. She wasn't raised in a household where 
her parents encouraged her to get a skill-set and an education. 
So these programs are essential to fill in the gap when she was 
getting that education to provide for us. So you are looking at 
a smaller subset there.
    Mr. Yoho. Well, my house got repossessed when I was 15 and 
there were six of us in the household. And, I understand that 
plight, and it is, again, it was the opportunity that we took 
advantage of and I never wanted to repeat that for my children.
    I yield back.
    The Chairwoman. The chair recognizes Ms. Plaskett, for 5 
minutes.
    Ms. Plaskett. Thank you very much. Thank you, Madam Chair, 
and the Ranking Member. And thank you so much for your 
testimony, for your thoughts and ideas in this.
    I had so much to say, or questions that I had to ask, but I 
was really taken by the last line of questioning, and the 
discussion about symptoms and what the underlying symptoms are. 
Recognizing in my own life that so many of the friends that I 
grew up have not had the success that life has given me, and so 
much of it had not to do with responsibility but just sheer 
luck and being in the right place, because everybody wanted to 
be responsible and everybody wanted to have those 
opportunities, but they don't always come. They particularly 
don't always come in the areas that this country has completely 
forgotten about, or have neglected because they want to have 
policies that satisfy their own personal needs but don't put 
food in children's stomachs. And so the symptom is us, not the 
irresponsibility of parents. But for those of us that have 
excess food, and food being in abundance in this country, that 
there are children who do not eat, who cares if their parents 
are not working. If children don't eat, that is an indictment 
on all of us.
    So, Dr. Haskins, I wanted to ask you a question. You talked 
about jobs and the responsibility, and that indeed it is very, 
very important for people to have jobs, not only to receive the 
funding, because having jobs makes people feel like fulfilled 
individuals, and I think that most people want that feeling. I 
agree there are some who do not, but as a general whole, most 
Americans, most people throughout the world require that.
    What do we do in the instances where we have a district or 
an area that has a 31 percent child poverty rate, and in some 
areas in that area there is an 18 percent unemployment rate, 
how do you fulfill the need for people to have jobs in areas 
like that?
    Dr. Haskins. Well, there are several answers to that 
question. Historically, Americans have moved to different 
places if they can't find jobs----
    Ms. Plaskett. And what if----
    Dr. Haskins.--that is----
    Ms. Plaskett.--they are so poor that they cannot get a 
plane to get them off of the island where this place is?
    Dr. Haskins. They have relatives, they have friends, there 
are many people who take advantage of that, and the borrow 
money, they are able to move if they are really determined to 
move and especially if they have job experience.
    Ms. Plaskett. So we just have a----
    Dr. Haskins. Another----
    Ms. Plaskett.--decimated place that no longer has the 
people living there because there are no jobs there, and we 
don't want them to be on food stamps or school lunch programs, 
we would rather they borrow money from family and leave----
    Dr. Haskins. No, I----
    Ms. Plaskett.--than take care of the situation here?
    Dr. Haskins. That is not what I am saying. I haven't said 
anything about cutting food stamp benefits or anything like 
that. In fact, I am arguing that food stamps are a crucial part 
of what I call the work support system, and a lot of people 
work because they can, not just with their own wages, which are 
often low, but because they get these other benefits, up to 
around $30,000 or so, they can make their family better off 
because of food stamps, Medicaid, childcare, and so forth. So 
the government programs that help them are essential. That is 
the main point of my testimony.
    Ms. Plaskett. Yes. And then aside from that, what are other 
ways that they could be able to get food, I know that some 
places have the waiver, but if the waiver is not available, 
what do we do then? For those people who are going to be, for a 
sustained period of time, on these programs.
    Dr. Haskins. Okay, one idea that has been tried in the past 
and has been, I would say, modestly successful is the 
government hires people in jobs, some people call them make-
work jobs, but they don't have to be that way. They used--in 
the old days they were called community work experience jobs. 
In some places, they made a guarantee to people and say you are 
going to get a job, you go out and look, we are going to give 
you, say, 2 weeks or 3 weeks----
    Ms. Plaskett. Yes.
    Dr. Haskins.--if you can't find a job, we are going to give 
you a job, and you get paid the minimum wage for that job so 
there would be motivation to try to get out of the job.
    Ms. Plaskett. Thank you.
    Dr. Haskins. But once you have income----
    Ms. Plaskett. Yes.
    Dr. Haskins.--and earnings, then you can get these benefits 
in the work support system and you would be much better off.
    Ms. Plaskett. Thank you.
    And, Dr. Ratcliffe, it is really important for us on this 
Subcommittee and the Committee as a whole to have a detailed 
reporting from you about the impediments that occur to families 
and to those children who have these food issues, particularly 
the economic, the long-term economic detriment to the 
individuals. I was really encouraged and interested in seeing 
the educational parameters and the impediments that happen to 
those educationally. Are there other areas, even their own 
relationships, the next generation, those things seem to me 
very important? Thank you.
    Dr. Ratcliffe. It goes back to some of what Dr. Ochoa was 
saying. Some of the research that looks at outcomes and child 
experience, we find that children who are poor in their 
earliest years, between birth and age 2, that they are less 
likely to graduate from high school, and that is controlling 
for how long they are in poverty, parents' employment, other 
measures of family well-being. So it is really in these early 
years that can be particularly critical. And if we are looking 
to identify children who are most at risk, those are children 
who are born to poor parents and poor, less-educated parents, 
those children are particularly likely to be persistently poor 
and then have these worse academic outcomes.
    Ms. Plaskett. Thank you.
    The Chairwoman. The chair recognizes----
    Ms. Plaskett. Thank you for your indulgence.
    The Chairwoman. Not a problem. The chair recognizes Mr. 
Aguilar, for 5 minutes.
    Mr. Aguilar. Thank you, Madam Chair and Ranking Member 
McGovern.
    Dr. Ochoa, I appreciate your statement where you referenced 
the fact that children who are living hungry may not experience 
those signs of food insecurity in the home. Children with 
asthma and allergies may demonstrate health-related issues and 
may not show signs of food insecurity. The screening process 
that you created to find children who are at risk of food 
insecurity is a great tool, and I wanted to know if you could 
expand on that for us, and do you believe that this is a model 
that can be used in other states, either on demonstration 
basis, or through your association? Can you walk us through a 
little bit of that piece?
    Dr. Ochoa. Yes, thank you, Mr. Aguilar.
    The Hunger Vital Sign, as I mentioned, we distilled from 
the 18 question USDA food insecurity screener and we validated 
that in our Children's HealthWatch sites. And so we actually 
are piloting it at our institution, at Arkansas Children's 
Hospital, with our resident trainees and their pediatric 
continuity clinics where they see the same panel of patients 
over the course of their residency. And we have found in some 
preliminary data analyses that they are detecting food 
insecurity at a rate of about 23 percent, just like our 
research in our emergency department shows. So by advocating 
for the use of the Hunger Vital Sign, our academy, which 
represents well over 70,000 pediatricians across the country, 
and hundreds of thousands of pediatric trainees, is advocating 
for its routine use. I do know that in the State of Oregon, the 
Medicaid Program is looking at the Hunger Vital Sign as a 
performance measure, and that would be great to replicate in 
other State Medicaid Programs as a tool for how effectively we 
are addressing the social determinants of health.
    I wanted to mention also that the kids that I see in my 
clinics are brought there by responsible parents who care for 
them, and they are bringing them to us to help. It would be a 
fantasy for me to try to treat some medical condition and 
completely ignore a hungry child or hungry family. So that is 
why the Hunger Vital Sign is so important because we are 
looking for other ways that we can support those families so 
that the health of their child is good, but the health of the 
household is even better. And it is our responsibility as 
pedestrians to figure that out.
    Mr. Aguilar. And oftentimes the individuals that are coming 
to you, they are going to have siblings who are going through 
similar issues. Ms. Riley talked about her family and her 
experiences. So if you could identify one child and screen them 
and offer this type of service and awareness, you could be 
helping multiple members of the family at the same time.
    Can you talk about other examples? You mentioned Oregon. 
How difficult would it be to take it to scale? Is the use 
through Medicaid a best practice, is it the best way to go 
about it, or what are other ways that we can look at it?
    Dr. Ochoa. Well, it can absolutely be taken to scale. I 
mean there are large health plans across the country like 
Kaiser. Kaiser is looking at the Hunger Vital Sign as well. But 
because Medicaid takes care of the majority of children in 
Arkansas, from birth through age 18, and when we expanded 
Medicaid for our adult population we also were able to have an 
impact on how we address social determinants for the low-income 
adult population. So I absolutely think that this can be taken 
to scale, along with some of the other interventions that we 
mention in our report, like the partnerships with the food 
pantries and trying to help with the SNAP application process. 
I think all those things working together can absolutely be 
taken to scale. There are hospitals across the country that 
have talked to us, from Louisiana to Ohio, about how we have 
done this. And I will say that a lot of what we have done, we 
have modeled after two large institutions in our network; 
Boston Medical Center and Hennepin County Medical Center in 
Minneapolis.
    Mr. Aguilar. Dr. Ochoa, what is the reaction of individuals 
and families after you bring information to their attention 
about SNAP resources?
    Dr. Ochoa. It is a huge relief. We have families that have 
successfully navigated the SNAP application process, but for 
those who don't, we help them out in our clinic. Even at some 
point, we engage our medical legal partnership on our campus to 
help them navigate the SNAP application process because we 
think it is so important. And, there is nothing like the look 
on the face of a family when you send them home with a bag of 
food that can get them through the next 2 or 3 days until we 
can reconnect them to another food provider in their county or 
their city. It really takes that huge burden off the family, 
even if it is for 2 or 3 days.
    Mr. Aguilar. And if you are raising awareness through these 
programs, you are offering them much more than something short-
term, you are offering them a path forward as a family.
    Thank you so much. I will yield back.
    Dr. Ochoa. Thank you, sir.
    The Chairwoman. Well, I certainly want to say thank you to 
the panel for coming and sharing your expertise, and giving us 
information so we can continue to look at the challenges that 
are faced by kids as they try to break the cycle of poverty. 
And I would agree, based on the seven previous hearings that we 
have had, that no program is perfect and we can always do 
better. So I appreciate your contribution in making that happen 
today.
    Under the rules of the Committee, the record of today's 
hearing will remain open for 10 calendar days to receive 
additional material and supplementary written responses from 
the witnesses to any question posed by a Member.
    This hearing of the Subcommittee on Nutrition is adjourned.
    [Whereupon, at 11:08 a.m., the Subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    Submitted Report by Hon. James P. McGovern, a Representative in 
                      Congress from Massachusetts
Promoting Food Security for All Children
Policy Statement Organizational Principles to Guide and Define the 
        Child HealthCare System and/or Improve the Health of all 
        Children
American Academy of Pediatrics
Council on Community Pediatrics, Committee on Nutrition
Pediatrics Volume 136, number 5, December 2015

          This document is copyrighted and is property of the American 
        Academy of Pediatrics and its Board of Directors. All authors 
        have filed conflict of interest statements with the American 
        Academy of Pediatrics. Any conflicts have been resolved through 
        a process approved by the Board of Directors. The American 
        Academy of Pediatrics has neither solicited nor accepted any 
        commercial involvement in the development of the content of 
        this publication.
          Policy statements from the American Academy of Pediatrics 
        benefit from expertise and resources of liaisons and internal 
        (AAP) and external reviewers. However, policy statements from 
        the American Academy of Pediatrics may not reflect the views of 
        the liaisons or the organizations or government agencies that 
        they represent.
          The guidance in this statement does not indicate an exclusive 
        course of treatment or serve as a standard of medical care. 
        Variations, taking into account individual circumstances, may 
        be appropriate.
          All policy statements from the American Academy of Pediatrics 
        automatically expire 5 years after publication unless 
        reaffirmed, revised, or retired at or before that time.
          www.pediatrics.org/cgi/doi/10.1542/peds.2015-3301
          DOI: 10.1542/peds.2015-3301
          Pediatrics (ISSN Numbers: Print, 0031-4005; Online, 1098-
        4275).
          Copyright <SUP><dbl-dagger></SUP>2015 by the American Academy 
        of Pediatrics.
          Financial Disclosure: The authors have indicated they have no 
        financial relationships relevant to this article to disclose.
          Potential Conflict of Interest: The authors have indicated 
        they have no potential conflicts of interest to disclose.
Abstract
    Sixteen million U.S. children (21%) live in households without 
consistent access to adequate food. After multiple risk factors are 
considered, children who live in households that are food-insecure, 
even at the lowest levels, are likely to be sick more often, recover 
from illness more slowly, and be hospitalized more frequently. Lack of 
adequate healthy food can impair a child's ability to concentrate and 
perform well in school and is linked to higher levels of behavioral and 
emotional problems from preschool through adolescence. Food insecurity 
can affect children in any community, not only traditionally under-
served ones. Pediatricians can play a central role in screening and 
identifying children at risk for food insecurity and in connecting 
families with needed community resources. Pediatricians should also 
advocate for Federal and local policies that support access to adequate 
healthy food for an active and healthy life for all children and their 
families.
Introduction
    In 2013, 17.5 million U.S. households, or 14.3% of all households 
and 21% of all children, met the U.S. Department of Agriculture (USDA) 
definition of a food-insecure household, one in which ``access to 
adequate food is limited by a lack of money or other resources.'' 
\1\<SUP>-</SUP>\2\ Households with children are nearly twice as likely 
to be food-insecure as households without children. In 2013, 7.5 
million American families with children lacked consistent access to 
adequate, nutritious food. The crisis becomes even more pressing for 
families facing severe economic hardships. In 2013, almost 60% of all 
food-insecure households had incomes below 185% of the Federal poverty 
thresholds, the income eligibility cutoff for many child nutrition 
programs. The Federal poverty threshold for an average family of four 
people in 2013 was $23,834; 185% of this threshold amount is $44,093, 
but the Federal poverty level is not a definition of economic hardship, 
and the amount to provide basic needs for a family of four often far 
exceeds this amount. Because 30% of food-insecure households have 
incomes above this level, it is clear the problem is not related solely 
to poverty.
    The demographic of food-insecure Americans extends beyond the areas 
of concentrated urban poverty and into suburbs and rural America, areas 
often mistakenly thought to be immune to this problem.\3\ Like poverty, 
food insecurity is a dynamic, intensely complex issue; the current 
economic recovery has marginally diminished food insecurity, but levels 
remain near historic highs.\4\ For many families, seemingly small 
changes in income, expenses, or access to Federal or state assistance 
programs may instantly reduce the ability to purchase healthy food and 
result in increased vulnerability to food insecurity. Moreover, 
families and children do not only feel the effects of hunger just as 
missed or meager meals; food insecurity manifests itself in many other 
biopsychosocial outcomes, including health, education, and economic 
prosperity.\5\<SUP>-</SUP>\12\ In fact, more than 30% of families who 
identified as food-insecure indicated that they had to choose between 
paying for food and paying for medicine or medical care.\13\ Combined, 
these negative effects can contribute to a less competitive workforce 
for the nation and higher health care costs borne by the U.S. 
Government and employers.
    Food insecurity is associated with many factors in addition to 
poverty. Unemployment and underemployment are also strongly associated 
with food insecurity.\2\ Certain populations, such as children in 
immigrant families \14\ and large families, families headed by single 
women, families with less education, and families experiencing parental 
separation or divorce are at greater risk.\2\<SUP>-</SUP>\3\ Families 
who are food-insecure usually have at least one parent who is working 
or has worked for at least 6 months of the previous year. Working poor 
families and single-parent families are at particular risk of food 
insecurity. In low-income households with children and food insecurity, 
84% participated in at least one Federal food assistance program, such 
as the Supplemental Nutrition Assistance Program (SNAP) or free or 
reduced-price school meals in 2010 to 2011.\2\ Thus, 16% of low-income, 
food-insecure households with children do not receive Federal supports. 
Federal benefits can attenuate the severity of food insecurity but 
might not eliminate it, particularly for children and in regions with 
higher food costs.\15\<SUP>-</SUP>\16\
Effects of Food Insecurity on Child Health and Developmental Outcomes
    The inability to consistently provide food creates stress in 
families, contributing to depression, anxiety, and toxic stress, which 
make optimal parenting difficult regardless of social 
class.<SUP>12, 17</SUP> Most parents strive to protect their children 
as much as possible from the physiologic sensation of hunger and, 
ultimately, nutritional deprivation. Studies on the effects of food 
insecurity in households demonstrate low dietary quality in adults but 
slightly better quality for the household's children,\18\ and 
qualitative studies reveal how parents strategically limit their own 
intake in an effort to spare their children.\13\
    There are multiple adverse health outcomes strongly correlated with 
food insecurity. Children 36 months old or younger who live in food-
insecure households have poorer overall health and more 
hospitalizations than do children who live in food-secure 
households.\7\ Children with food insecurity are more likely to be iron 
deficient, as are adolescents with food insecurity.\8\<SUP>-</SUP>\9\ 
Food insecurity also is associated with lower bone density in 
preadolescent boys.\19\
    Poverty is associated closely with the development of obesity. 
Although not a direct cause of obesity,\20\<SUP>-</SUP>\21\ food 
insecurity disproportionately threatens certain populations at highest 
risk of obesity, including those from racial and ethnic minority groups 
and the poor.\22\ Children in food-insecure households generally have 
limited access to high-quality food. Environmental realities in low-
income neighborhoods, including decreased presence of full-service 
grocery stores and increased availability of fast-food restaurants and 
energy-dense, nutrient-poor food,\22\ may create barriers for low-
income families trying to adopt healthy behaviors. Adequate food may be 
available only intermittently, leading to unhealthy eating patterns and 
increased stress that may make weight loss difficult and facilitate the 
development of obesity.\20\ Households with smokers are more likely to 
be food-insecure, perhaps because of the diversion of money to tobacco 
in these households.\23\
    Among children of all ages, food insecurity is linked with lower 
cognitive indicators, dysregulated behavior, and emotional distress. 
Children between 4 and 36 months of age who live in low-income, food-
insecure households are at higher risk of developmental problems, which 
presage impaired school function, compared with children of the same 
age living in low-income, food-secure households.\10\ Longitudinal 
studies have shown that food insecurity in kindergarten students 
predicts reduced academic achievement in math and reading over a 4 year 
period.\11\
    Young children in food-insecure households are more likely to have 
behavior problems above and beyond those attributable to their mother's 
depression and anxiety.\12\ Adolescents in food-insecure families are 
more likely to experience dysthymia and suicidal ideation.\24\ These 
observations may be attributable, in part, to neurotransmitter 
perturbations from poor diet and the sensation of hunger and in part 
from children's emotional reactions to food insecurity itself and its 
social meaning.
    School-aged children are aware of and distressed by food insecurity 
in their household. They often try to help manage food resources in the 
family, either by supporting the efforts of their parents or by 
initiating their own strategies for reducing food intake (including 
choosing to eat less than they want). Parents may be unaware of their 
child's understanding of the family's plight and may believe their 
child is unaware of the family's lack of food.\25\<SUP>-</SUP>\26\ 
Adolescents describe food insecurity in terms of quantity (eating less 
than usual, eating more or faster when food is available), quality 
(having only a few low-cost foods), affective states (worry, anxiety, 
or sadness about the family's food, shame or fear of being labeled 
``poor,'' feelings of having no choice or of adults trying to shield 
them from food insecurity), and social dynamics (using social networks 
to get food or being socially excluded).\27\
    As with many pediatric conditions, the health effects of food 
insecurity and associated malnutrition may persist beyond early life 
into adulthood. A substantial body of literature also links early 
childhood malnutrition to adult disease, including diabetes, 
hyperlipidemia, and cardiovascular disease.\5\<SUP>-</SUP>\6\ Studies 
of the outcomes of food insecurity in childhood suggest that it may be 
an example of ecologic context modifying individual physiologic 
function. Overall, the effects of food insecurity on the physical, 
mental, and emotional health of children and families are additive to 
the effects of low income alone.
Programs To Mitigate Food Insecurity
    Given the high prevalence of food insecurity among U.S. families 
with children and given its potential health effects, pediatricians 
need to be aware of resources that can mitigate food insecurity and 
know how to refer eligible families. These programs serve as critical 
supports for the physical and mental health and academic competence of 
children (Table 1).

 Table 1--Websites With Nutritional Information on Programs to Mitigate
                             Food Insecurity
------------------------------------------------------------------------
    Program          Information      Income Eligibility      Website
------------------------------------------------------------------------
WIC              WIC food packages    5185% of Federal    http://
                                       poverty level a     www.fns.usda.
                                                           gov/wic/final-
                                                           rule-
                                                           revisions-wic-
                                                           food-packages
                 State agency WIC-                        http://
                  approved food                            www.fns.usda.
                  lists for food                           gov/wic/links-
                  packages                                 state-agency-
                                                           wic-approved-
                                                           food-lists
SNAP             Eligible food items  <130% of Federal    http://
                                       poverty level a     www.fns.usda.
                                                           gov/snap/
                                                           eligible-food-
                                                           items-
                 SNAP-Ed resources                        http://
                                                           snap.nal.usda
                                                          gov/
National School  Nutritional          Reduced-cost        http://
 Lunch and        standards for        meals: 5185% of     www.fns.usda.
 National         school lunches and   Federal poverty     gov/school-
 School           breakfasts           level; a free       meals/
 Breakfast                             meals: 5130% of     nutrition-
 Programs                              Federal poverty     standards-
                                       level a             school-meals
Child and Adult  Meal patterns for                        http://
 Care Food        infants, children,                       www.fns.usda.
 Program          and adults                               gov/cacfp/
                                                           meals-and-
                                                           snacks
Summer Food      Finding summer meal                      http://
 Service          programs in the                          www.fns.usda.
 Program          community and meal                       gov/sfsp/
                  content                                  summer-food-
                                                           service-
                                                           program-sfsp
------------------------------------------------------------------------
a Available at http://familiesusa.org/product/federal-poverty-
  guidelines.

WIC
    The Special Supplemental Nutrition Program for Women, Infants, and 
Children (WIC), first established in the early 1970s, is a 
discretionary Federal program for which Congress must appropriate 
funding each year. Its mission is ``to safeguard the health of low-
income women, infants and children up to age 5 who are at nutritional 
risk by providing nutritious foods to supplement diets, information on 
healthy eating, and referrals to healthcare.'' WIC participants are 
pregnant women, breastfeeding women (up to the child's first birthday), 
non-breastfeeding postpartum women (up to 6 months postpartum), infants 
(up to their first birthday), and children up to their fifth birthday.
    Prenatal WIC participation has been consistently associated with 
higher birth weight and longer gestation, particularly among mothers at 
highest risk.\28\ Participation in WIC also is associated with more 
iron-dense diets and increased food and vegetable intake in 
preschoolers.\28\ WIC serves 53% of all infants younger than 1 year old 
in the United States. Most states provide vouchers or electronic 
benefits transfer cards for use in the purchase of eligible products 
and for nutrition counseling and connection to health and social 
services. In most states, WIC also has an associated program, the WIC 
Farmer's Market Nutrition Program, which gives additional vouchers for 
the purchase of fresh, locally grown produce at farmers' markets and 
roadside stands.
    WIC is an effective evidence-based intervention for improving the 
health of low-income women and their children. WIC has a strong 
commitment to increase breastfeeding among its participants, providing 
counseling, peer support, enhanced food packages, and access to breast 
pumps to support the initiation and continuation of breastfeeding. WIC 
participation has been linked to better infant health and lower rates 
of overweight and underweight status among infants.\29\
SNAP
    SNAP is an entitlement program that provides nutrition assistance 
to low-income families and individuals. SNAP, piloted as the Food Stamp 
Program in 1961 and confirmed with the Food Stamp Act in 1964 (Pub. L. 
No. 88-525), is the largest food and nutrition program of the USDA. It 
serves 47 million Americans, 72% of whom are in families with children. 
Like WIC, it is a Federal program, administered through state agencies. 
Although SNAP application and eligibility rules can be complex, the 
program has been shown to be effective in reducing food insecurity and 
negative health and developmental outcomes among recipients.\30\ SNAP 
provides monthly benefits (usually via electronic benefit transfer 
cards) to purchase eligible food items at retailers participating in 
the program. SNAP allotment is calculated as 30% of the net monthly 
household income, capped by number of members of the household (e.g., 
the maximum monthly allotment for a family of four is currently $649, 
or a maximum of $1.80 per person per meal).\31\ A pilot program to 
increase monthly family SNAP allotments by $60 was successful in 
reducing very low food security among children by 30%. A subsequent 
pilot program found that a $30 per month allotment reduced very low 
food security among children as well as the higher benefit but produced 
smaller reductions in food insecurity among adults and the full 
household.\32\
National School Lunch and National School Breakfast Programs
    The National School Lunch Program was established in 1946, although 
the USDA had provided funds and food to schools for many years before 
that. More than 32 million children annually are provided with a 
nutritionally balanced, low-cost or free lunch in over 100,000 public 
and nonprofit private schools and residential child care institutions. 
The School Breakfast Program was started as a pilot program in 1966 and 
was made permanent in 1975. It provides 13 million children each year 
with a free, nutritionally balanced breakfast in more than 89,000 
schools. In 1998, Congress expanded the National School Lunch Program 
to include coverage for snacks served to children in after-school 
educational and enrichment programs. In 2010, the Healthy, Hunger-Free 
Kids Act (Pub. L. No. 111-296) established the Community Eligibility 
Provision, which allows schools in areas of high poverty to offer both 
breakfast and lunch at no charge to all students while eliminating the 
stigmatizing school meal application process, which burdens both 
parents and school personnel. Notable savings in administrative costs 
also have been attributed to the Community Eligibility Provision.\33\
    The Healthy, Hunger-Free Kids Act required the USDA to update the 
meal pattern and nutrition standards for school meals and foods sold in 
schools during school hours based on the latest Dietary Guidelines for 
Americans. Some of the recent positive changes to the meal patterns 
included more whole grains offered, 0 grams of trans fat per portion, 
appropriate calories by age, more fruit offered, and reduction of 
sodium content. Although all meals must meet Federal meal requirements, 
local food authorities make the decisions about which specific foods to 
serve and how they are prepared. Implementation of these changes has 
increased fruit consumption and decreased wasted food among students 
participating in the National School Lunch Program.\34\
Child and Adult Care Food Program
    The Child and Adult Care Food Program, administered by the USDA, 
provides cash assistance to states to assist child and adult care 
institutions and family or group child care homes in providing 
nutritious foods that contribute to the wellness, healthy growth, and 
development of children. In Fiscal Year 2013, the program served more 
than three million children. In the Child and Adult Care Food Program, 
the USDA establishes meal patterns with minimum food component and 
quantity requirements; these requirements are currently under revision 
to make them more consistent with the Dietary Guidelines for Americans.
Summer Food Service Program
    The Summer Food Service Program (SFSP) began as a pilot program, 
the Special Food Service Program, in 1968, serving children during the 
summer and in child care. In 1975, the programs split and the SFSP came 
to stand on its own. The SFSP ensures that low-income children continue 
to receive nutritious meals when school is not in session and sustains 
children's physical and social development, helping them return to 
school ready to learn. Children 18 years old and younger can receive 
free meals and snacks at approved community sites, which may include 
health care institutions.
    The SFSP serves approximately two million children each summer. 
Despite its importance, participation in SFSP is far below the number 
of children eligible for the program and also below the number 
participating in school meals during the school year. In part, this 
reflects the challenge of reaching some populations of children during 
the summer, particularly children in rural areas, areas with dangerous 
levels of summer heat, or very urban areas where transportation or 
safety may be a challenge. Within communities, advocacy by 
pediatricians is especially important during the summer, when school 
nutrition programs may be insufficient or inaccessible for many 
children and families.
Food Pantries and Soup Kitchens
    Food pantries and soup kitchens are often available in local areas 
and serve as another vital piece of the safety net for children and 
families struggling with food insecurity. These resources usually are 
funded by a combination of local philanthropic organizations, faith-
based communities, and government resources. Knowing what is available 
in the community can help support improved nutrition and reduce food 
insecurity among families served by pediatricians. However, many 
charitable food providers are not consistently able to provide 
healthful food in general, nutritional items appropriate for infants 
and toddlers, or amounts adequate to protect families from food 
insecurity for more than a few days. Realizing the limited capacity of 
existing community resources is essential to tailoring referrals for 
families facing food insecurity.
Screening Tools for Pediatricians
    Pediatricians can better assess the stress of food insecurity in 
individual families by incorporating a screening tool into their 
practice. The USDA uses an 18 item measure to assess food insecurity 
with the Household Food Security Scale,\1\ which is the standard tool 
for research. A more practical in-office tool is the two item screen 
designed by Hager, et al.\35\ (Table 2), which uses a subset of two 
questions from the Household Food Security Scale. Affirmative answers 
to either of these two questions identified food insecurity with a 
sensitivity of 97% and a specificity of 83% (as compared with the full 
18 item Household Food Security Scale). These screens are designed to 
identify food insecurity in a family as a whole. In some cases, a 
single child in a family may be more or less affected by food 
insecurity that the others; this difference will not be detected by 
these screens. Some resources to address food insecurity when 
discovered at a clinic visit are listed in Table 3.

                 Table 2--Screening for Food Insecurity
 
 
-------------------------------------------------------------------------
1. Within the past 12 mo, we worried whether our food would run out
 before we got money to buy more. (Yes or No)
2. Within the past 12 mo, the food we bought just didn't last and we
 didn't have money to get more. (Yes or No)
------------------------------------------------------------------------
Adapted from Hager, et al.\35\ Although an affirmative response to both
  questions increases the likelihood of food insecurity existing in the
  household, an affirmative response to only one question is often an
  indication of food insecurity and should prompt additional
  questioning.


Table 3--Resources for Pediatricians Dealing With Food-Insecure Families
------------------------------------------------------------------------
      Program                 Website                  Description
------------------------------------------------------------------------
2-1-1                211.org, then access by    Access to information on
                      ZIP Code or city           school lunch programs,
                                                 summer food programs
                                                 for children, and other
                                                 government-sponsored
                                                 programs (e.g., SNAP,
                                                 WIC) as well as soup
                                                 kitchens and community
                                                 gardens
Healthy Food Bank    Healthyfoodbankhub.feedin  Includes a food bank
 Hub                  gamerica.org               locator and other tools
                                                 and resources for food-
                                                 insecure households
MyPlate              http://                    Recipes and tip sheets
                      www.choosemyplate.gov/     for low-cost healthy
                      budget/downloads/          eating
                      MeetingYourMyPlateGoalsO
                      nABudget.pdf
------------------------------------------------------------------------

Advocacy and Education
    At the Federal level, pediatricians have historically advocated in 
support of expanded funding for and access to key nutritional 
assistance programs such as WIC, SNAP, and the school nutrition 
programs. It is critical to maintain strong, evidence-based nutrition 
guidelines for all public programs that support childhood nutrition, 
including school lunches. Because Congress is scheduled to reauthorize 
many of the aforementioned child nutrition programs in the near future, 
attempts to weaken nutrition standards in school meals and other 
children's programs are anticipated. Advocacy by the American Academy 
of Pediatrics is crucial to ensure that nutrition standards remain in 
place and that access to effective assistance programs is expanded 
rather than reduced.
    Advocacy efforts at the Federal, state, and community levels must 
incorporate both obesity prevention and expanded nutritional access at 
the Federal, state, and local levels to promote children's health. 
Engagement of community residents in understanding local context \36\ 
and establishment of interdisciplinary collaboration are key elements 
of advocacy efforts that address food insecurity in communities.
    Medical education offers a natural opportunity to teach students 
and residents to screen for food insecurity regularly as a part of 
pediatric care. National initiatives such as the Community Pediatrics 
Training Initiative increasingly emphasize community- and population-
based objectives throughout residency training,\37\<SUP>-</SUP>\38\ and 
evidence suggests that formal training in community health is 
associated with community child health involvement among 
pediatricians.\39\ The following approaches enhance training about food 
insecurity within community pediatrics: engaging on-site social and 
legal resources to emphasize screening and management of food 
insecurity; \40\ using quality improvement methods to improve screening 
and evaluate efforts,\41\ including obtaining data on the impact of 
community-based initiatives such as farmers' markets and food pantries 
on food insecurity; establishing curriculum-based community site visits 
that expose medical students and residents to successful Federal 
programs, such as WIC; \42\ and encouraging medical students and 
residents to participate in local, regional, and Federal advocacy 
efforts. More data are needed to elucidate how curriculum elements can 
most effectively teach trainees to assess food insecurity and advocate 
for programs that mitigate food insecurity.
Recommendations
    The American Academy of Pediatrics recommends that pediatricians 
engage in efforts to mitigate food insecurity at the practice level and 
beyond. The following recommendations offer practice-level strategies 
for pediatricians.

  <bullet> A two question validated screening tool (Table 2) is 
        recommended for pediatricians screening for food insecurity at 
        scheduled health maintenance visits or sooner, if indicated.

  <bullet> It is beneficial for pediatricians to familiarize themselves 
        with community resources so that when children screen 
        positively for food insecurity, referral mechanisms to WIC, 
        SNAP, school nutrition programs, local food pantries, summer 
        and child care feeding programs, and other relevant resources 
        are accessible and expedient. This information is particularly 
        important for new mothers. New mothers in food-insecure 
        households can be connected to WIC and other community 
        resources during pregnancy and early in the postpartum period 
        to encourage breastfeeding.

  <bullet> When advocating for programs targeted at families with food 
        insecurity, it is important that pediatricians be aware of the 
        nutritional content of food offered in supplemental programs 
        (Table 3).

  <bullet> In the office setting, pediatricians who are aware of the 
        factors that may increase vulnerability of food-insecure 
        populations to obesity and factors that disproportionately 
        burden food-insecure households may address these issues at 
        clinic visits. These factors include lack of access to healthy 
        and affordable foods, cost of healthy food (and the low cost of 
        many unhealthy foods), media messaging that promotes non-
        nutritious foods and beverages, and the role of stress in 
        decisionmaking related to food.

    At a system level, pediatricians can advocate for the needs of 
children and families facing food insecurity.

  <bullet> Food insecurity, including screening tools and community-
        specific resource guides, can be incorporated into education of 
        medical students and residents to prepare future generations of 
        physicians to universally screen for and address food 
        insecurity.

  <bullet> Pediatricians can advocate for protecting and increasing 
        access to and funding for SNAP, WIC, school nutrition programs, 
        and summer feeding programs at the local, state, and national 
        levels. Advocacy must also include keeping the food offered in 
        these programs high in nutrient quality and based on sound 
        nutritional science. Pediatricians can promote access to 
        nutritious foods in out-of-school settings, particularly in 
        child care, in preschool, and during the summer. Advocacy for 
        ``express lane eligibility'' (adjunctive eligibility), which 
        permits a state to use findings from enrollment in one program 
        to enroll the family in other programs for which they qualify, 
        also will increase access to food and nutrition assistance 
        programs.

  <bullet> Pediatricians can strongly support interdisciplinary 
        research that elucidates the relationship between stress, food 
        insecurity, and adverse health consequences; the barriers to 
        breastfeeding for women under stress in food-insecure 
        households; and evidence-based strategies that optimize access 
        to high-quality, nutritious food for families facing food 
        insecurity.
Conclusions
    Food insecurity is a complex issue that presents profound 
challenges for children and families. Pediatricians play an essential 
role in recognition of food insecurity, practice-level intervention, 
and advocacy to mitigate food insecurity within our communities.
Lead Authors
    Sarah Jane Schwarzenberg, M.D., F.A.A.P.
    Alice A. Kuo, M.D., Ph.D., F.A.A.P.
    Julie M. Linton, M.D., F.A.A.P.
    Patricia Flanagan, M.D., F.A.A.P.
Council on Community Pediatrics Executive Committee, 2014-2015
    Benjamin A. Gitterman, M.D., F.A.A.P., Chairperson.
    Lance A. Chilton, M.D., F.A.A.P., Vice-Chairperson.
    William H. Cotton, M.D., F.A.A.P.
    James H. Duffee, M.D., M.P.H., F.A.A.P.
    Patricia Flanagan, M.D., F.A.A.P.
    Virginia A. Keane, M.D., F.A.A.P.
    Scott D. Krugman, M.D., F.A.A.P.
    Alice A. Kuo, M.D., Ph.D., F.A.A.P.
    Julie M. Linton, M.D., F.A.A.P.
    Carla D. McKelvey, M.D., F.A.A.P.
    Gonzalo J. Paz-Soldan, M.D., F.A.A.P.
Liaisons
    Ricky Y. Choi, M.D., F.A.A.P.--Chairperson, Immigrant Health 
Special Interest Group.
    Jacqueline Douge, M.D., M.P.H., F.A.A.P.--Chairperson, Prevention 
and Public Health Special Interest Group.
    Janna Gewirtz O'Brien, M.D.--Section on Medical Students, 
Residents, and Fellowship Trainees.
Staff
    Camille Watson, M.S.
Committee on Nutrition, 2014-2015
    Stephen R. Daniels, M.D., Ph.D., F.A.A.P., Chairperson
    Steven A. Abrams, M.D., F.A.A.P.
    Mark R. Corkins, M.D., F.A.A.P.
    Sarah D. de Ferranti, M.D., F.A.A.P.
    Neville H. Golden, M.D., F.A.A.P.
    Sheela N. Magge, M.D., M.S.C.E., F.A.A.P.
    Sarah Jane Schwarzenberg, M.D., F.A.A.P.
Liaisons
    Leila Beker, Ph.D., R.D.N.--Food and Drug Administration.
    Jeff Critch, M.D., F.A.A.P.--Canadian Pediatric Society.
     Rear Admiral Van S. Hubbard, M.D., Ph.D., F.A.A.P.--National 
Institutes of Health.
    Kelley Scanlon, Ph.D.--Centers for Disease Control and Prevention.
    Valery Soto, M.S., R.D., L.D.--US Department of Agriculture.
Staff
    Debra L. Burrowes, MHA
Acknowledgments
    The authors thank Children's HealthWatch for its valuable review of 
this policy statement.

                              Abbreviations
------------------------------------------------------------------------
 
-------------------------------------------------------------------------
SFSP: Summer Food Service Program
SNAP: Supplemental Nutrition Assistance Program
USDA: U.S. Department of Agriculture
WIC: Special Supplemental Nutrition Program for Women, Infants, and
 Children
------------------------------------------------------------------------

References

 
 
 
    1. Coleman-Jensen A., Gregory C., Singh A. Household Food Security
 in the United States in 2013. Publication no. ERR-173. Washington,
 D.C.: U.S. Department of Agriculture, Economic Research Service;
 September 2014.
    2. Coleman-Jensen A., McFall W., Nord M. Food Insecurity in
 Households With Children: Prevalence, Severity, and Household
 Characteristics, 2010-11. Publication no. EIB-1. Washington, D.C.: U.S.
 Department of Agriculture, Economic Research Service; May 2013.
    3. Gundersen C. Food insecurity is an ongoing national concern. Adv.
 Nutr. 2013; 4(1):36-41
    4. U.S. Food Security: Before and After the Great Recession.
 Washington, D.C.: U.S. Department of Agriculture, Economic Research
 Service; April 2015. Available at: www.ers.usda.gov/data-products/food-
 security-in-the-united-states/interactive-chart-food-security-
 trends.aspx. Accessed August 12, 2015.
    5. Calkins K., Devaskar S.U. Fetal origins of adult disease. Curr.
 Probl. Pediatr. Adolesc. Health Care. 2011;41(6): 158-176.
    6. Portrait F., Teeuwiszen E., Deeg D. Early life undernutrition and
 chronic diseases at older ages: the effects of the Dutch famine on
 cardiovascular diseases and diabetes. Soc. Sci. Med. 2011; 73(5): 711-
 718.
    7. Cook J.T., Black M., Chilton M., et al. Are food insecurity's
 health impacts underestimated in the U.S. population? Marginal food
 security also predicts adverse health outcomes in young U.S. children
 and mothers. Adv. Nutr. 2013; 4(1):51-61.
    8. Eicher-Miller H.A., Mason A.C., Weaver C.M., McCabe G.P., Boushey
 C.J. Food insecurity is associated with iron deficiency anemia in U.S.
 adolescents. Am. J. Clin. Nutr. 2009; 90(5) :1358-1371.
    9. Skalicky A., Meyers A.F., Adams W.G., Yang Z., Cook J.T., Frank
 D.A. Child food insecurity and iron deficiency anemia in low-income
 infants and toddlers in the United States. Matern. Child. Health J.
 2006; 10(2):177-185.
    10. Rose-Jacobs R., Black M.M., Casey P.H., et al. Household food
 insecurity: associations with at-risk infant and toddler development.
 Pediatrics. 2008; 121(1):65-72.
    11. Jyoti D.F., Frongillo E.A., Jones S.J. Food insecurity affects
 school children's academic performance, weight gain, and social skills.
 J. Nutr. 2005; 135(12): 2831-2839.
    12. Whitaker R.C., Phillips S.M., Orzol S.M. Food insecurity and the
 risks of depression and anxiety in mothers and behavior problems in
 their preschool-aged children. Pediatrics. 2006; 118(3). Available at:
 www.pediatrics.org/cgi/content/full/118/3/e859.
    13. Mabli J., Cohen R., Potter F., Zhao Z. Hunger in America 2010.
 National Report Prepared for Feeding America. Princeton, NJ:
 Mathematica Policy Research Inc; 2010.
    14. Chilton M., Black M.M., Berkowitz C., et al. Food insecurity and
 risk of poor health among U.S.-born children of immigrants. Am. J.
 Public Health. 2009; 99(3):556-562.
    15. Mabli J., Worthington J. Supplemental Nutrition Assistance
 Program participation and child food security. Pediatrics. 2014;
 133(4):610-619.
    16. Bartfeld J.S., Ahn H.M. The School Breakfast Program strengthens
 household food security among low-income households with elementary
 school children. J. Nutr. 2011;141(3): 470-475.
    17. Shonkoff J.P., Garner A.S.; Committee on Psychosocial Aspects of
 Child and Family Health; Committee on Early Childhood, Adoption, and
 Dependent Care; Section on Developmental and Behavioral Pediatrics. The
 lifelong effects of early childhood adversity and toxic stress.
 Pediatrics. 2012; 129(1). Available at: www.pediatrics.org/cgi/content/
 full/129/1/e232.
    18. Hanson K.L., Connor L.M. Food insecurity and dietary quality in
 U.S. adults and children: a systematic review. Am. J. Clin. Nutr. 2014;
 100(2):684-692.
    19. Eicher-Miller H.A., Mason A.C., Weaver C.M., McCabe G.P.,
 Boushey C.J. Food insecurity is associated with diet and bone mass
 disparities in early adolescent males but not females in the United
 States. J. Nutr. 2011; 141(9):1738-1745.
    20. Institute of Medicine. Hunger and Obesity: Understanding a Food
 Insecurity Paradigm: Workshop Summary. Washington, D.C.: National
 Academies Press; 2011.
    21. Laraia B.A. Food insecurity and chronic disease. Adv. Nutr.
 2013; 4(2):203-212.
    22. Larson N.I., Story M.T., Nelson M.C. Neighborhood environments:
 disparities in access to healthy foods in the U.S. Am. J. Prev. Med.
 2009; 36(1):74-81.
    23. Cutler-Triggs C., Fryer G.E., Miyoshi T.J., Weitzman M.
 Increased rates and severity of child and adult food insecurity in
 households with adult smokers. Arch. Pediatr. Adolesc. Med. 2008;
 162(11):1056-1062
    24. Alaimo K., Olson C.M., Frongillo E.A. Family food insufficiency,
 but not low family income, is positively associated with dysthymia and
 suicide symptoms in adolescents. J. Nutr. 2002; 132(4):719-725.
    25. Fram M.S., Frongillo E.A., Jones S.J., et al. Children are aware
 of food insecurity and take responsibility for managing food resources.
 J. Nutr. 2011; 141(6): 1114-1119.
    26. Fram M.S., Ritchie L.D., Rosen N., Frongillo E.A. Child
 experience of food insecurity is associated with child diet and
 physical activity. J. Nutr. 2015; 145(3):499-504.
    27. Connell C.L., Lofton K.L., Yadrick K., Rehner T.A. Children's
 experiences of food insecurity can assist in understanding its effect
 on their well-being. J. Nutr. 2005; 135(7):1683-1690
    28. Colman S., Nichols-Barrer I.P., Fedline J.E., Devaney B.L.,
 Ansell S.V. Effects of the Special Supplemental Nutrition Program for
 Women, Infants, and Children (WIC): A Review of Recent Research. U.S.
 Department of Agriculture, Food and Nutrition Service, Office of
 Research and Analysis. Report WIC-12-WM. Alexandria, VA: U.S.
 Department of Agriculture; 2012.
    29. Black M.M., Cutts D.B., Frank D.A., et al., Children's Sentinel
 Nutritional Assessment Program Study Group. Special Supplemental
 Nutrition Program for Women, Infants, and Children participation and
 infants' growth and health: a multisite surveillance study. Pediatrics.
 2004; 114(1):169-176.
    30. Mabli J., Ohls J., Dragoset L., Castner L., Santos B. Measuring
 the Effect of Supplemental Nutrition Assistance Program (SNAP)
 Participation on Food Security. U.S. Department of Agriculture, Food
 and Nutrition Service. Alexandria, VA: U.S. Department of Agriculture;
 2013.
    31. Supplemental Nutrition Assistance Program. How much could I
 receive. 2014. Available at: www.fns.usda.gov/snap/how-much-could-i-
 receive. Accessed August 30, 2015.
    32. U.S. Department of Agriculture. Summer Electronic Benefit
 Transfer for Children (SEBTC). Available at: www.fns.usda.gov/ops/
 summer-electronic-benefit-transfer-children-sebtc. Accessed August 12,
 2015.
    33. Logan C.W., Connor P., Harvill E.L., et al. Community
 Eligibility Provision Evaluation. Alexandria, VA: U.S. Department of
 Agriculture, Food and Nutrition Service; 2014.
    34. Schwartz M.B., Henderson K.E., Read M., Danna N., Ickovics J.R.
 New school meal regulations increase fruit consumption and do not
 increase total plate waste. Child. Obes. 2015; 11(3): 242-247.
    35. Hager E.R., Quigg A.M., Black M.M., et al. Development and
 validity of a 2-item screen to identify families at risk for food
 insecurity. Pediatrics. 2010; 126(1). Available at: www.pediatrics.org/
 cgi/content/full/126/1/e26.
    36. Larson C., Haushalter A., Buck T., Campbell D., Henderson T.,
 Schlundt D. Development of a community-sensitive strategy to increase
 availability of fresh fruits and vegetables in Nashville's urban food
 deserts, 2010-2012. Prev. Chronic Dis. 2013; 10:E125.
    37. Rezet B., Risko W., Blaschke G.S.; Dyson Community Pediatrics
 Training Initiative Curriculum Committee. Competency in community
 pediatrics: consensus statement of the Dyson Initiative Curriculum
 Committee. Pediatrics. 2005; 115 (4 suppl.): 1172-1183.
    38. Kuo A.A., Etzel R.A., Chilton L.A., Watson C., Gorski P.A.
 Primary care pediatrics and public health: meeting the needs of today's
 children. Am. J. Public Health. 2012; 102(12):e17-e23.
    39. Minkovitz C.S., Grason H., Solomon B.S., Kuo A.A., O'Connor K.G.
 Pediatricians' involvement in community child health from 2004 to 2010.
 Pediatrics. 2013; 132(6):997-1005.
    40. O'Toole J.K., Burkhardt M.C., Solan L.G., Vaughn L., Klein M.D.
 Resident confidence addressing social history: is it influenced by
 availability of social and legal resources? Clin. Pediatr. (Phila).
 2012; 51(7):625-631.
    41. Burkhardt M.C., Beck A.F., Conway P.H., Kahn R.S., Klein M.D.
 Enhancing accurate identification of food insecurity using quality-
 improvement techniques. Pediatrics. 2012; 129(2). Available at:
 www.pediatrics.org/cgi/content/full/129/2/e504.
    42. Risko W., Chi G., Palfrey J., eds; Anne E. Dyson Community
 Pediatrics Training Initiative Curriculum Committee. Community
 Pediatrics Curriculum. Elk Grove Village, IL: American Academy of
 Pediatrics; 2005. Available at: https://www2.aap.org/commpeds/cpti/
 Curriculum-Bod-2005.pdf. Accessed August 12, 2015.
 

Promoting Food Security for All Children
Council on Community Pediatrics and Committee on Nutrition
Pediatrics; originally published online October 23, 2015; DOI: 10.1542/
peds.2015-3301

------------------------------------------------------------------------
 
------------------------------------------------------------------------
Updated Information & Services       including high resolution figures,
                                      can be found at: http://
                                      pediatrics.aappublications.org/
                                      content/early/2015/10/20/peds.2015-
                                      3301
Subspecialty Collections             This article, along with others on
                                      similar topics, appears in the
                                      following collection(s):
                                     Nutrition
                                     http://
                                      pediatrics.aappublications.org//
                                      cgi/collection/nutrition_sub
Permissions & Licensing              Information about reproducing this
                                      article in parts (figures, tables)
                                      or in its entirety can be found
                                      online at: http://
                                      pediatrics.aappublications.org//
                                      site/misc/Permissions.xhtml
Reprints                             Information about ordering reprints
                                      can be found online: http://
                                      pediatrics.aappublications.org//
                                      site/misc/reprints.xhtml
------------------------------------------------------------------------

          Pediatrics is the official journal of the American Academy of 
        Pediatrics. A monthly publication, it has been published 
        continuously since 1948. Pediatrics is owned, published, and 
        trademarked by the American Academy of Pediatrics, 141 
        Northwest Point Boulevard, Elk Grove Village, Illinois, 60007. 
        Copyright 2015 by the American Academy of Pediatrics. All 
        rights reserved. Print ISSN: 0031-4005. Online ISSN: 1098-4275.
                                 ______
                                 
 Submitted Report by Eduardo Ochoa, Jr., M.D., F.A.A.P., Little Rock, 
                AR; on Behalf of Children's HealthWatch
Series--Hunger: A New Vital Sign
Doctor's Orders_Promoting Healthy Child Development by Increasing Food 
        Security in Arkansas
          ``At Arkansas Children's Hospital, we recognize alarming and 
        disappointing rates of food insecurity among our vulnerable 
        patients. To improve the health of our patients, we have 
        implemented innovative programs to alleviate food insecurity. 
        We urge other doctors and hospitals to take similar steps to 
        ensure that young children are healthy and nutritiously fed.''
                                                 Patrick H. Casey, M.D.

April 2015
Children's HealthWatch

          This brief was made possible by generous funding from 
        individual donors.
Executive Summary
    Parents should be able to afford to meet basic needs, including 
rent, utilities, medical bills, and prescriptions, and still have 
enough each month to pay for adequate food for all family members. 
Unfortunately, this is not a reality for many families in Arkansas, 
especially those with young children. Even those with higher levels of 
education and employment report an inability to make ends meet. When 
bills, including rent and utilities, drain already tight household 
budgets, families often cut the only flexible budget item: food. Both 
mothers and children in families that lack enough money to provide food 
for all members to lead active, healthy lives--a condition known as 
food insecurity--face increased risk of health and development 
concerns. Food-insecure families are also at increased risk of being 
unstably housed and having inadequate home energy to keep warm in 
winter or cool in summer.

    Compared with Arkansas children from food-secure families, those 
from food-insecure families were more likely to:

  <bullet> Have been hospitalized.

  <bullet> Have developmental delays.

  <bullet> Be in fair or poor health.

and their families were more likely to experience:

  <bullet> Fair or poor maternal health.

  <bullet> Housing insecurity.

  <bullet> Energy insecurity.

  <bullet> Foregoing needed health care for household members due to 
        cost.

  <bullet> Trade-offs between paying for other basic living expenses 
        such as food, rent, or housing in order to pay for health care.

    Health providers around the state are in a unique position to both 
screen for, and rapidly respond to, food insecurity in families. Many 
health facilities in Arkansas--and across the country--are leading the 
way by offering innovative health care-based approaches to reducing 
food insecurity.

    Options for connecting food-insecure families with assistance 
include:

  <bullet> Sharing handouts or online listings of food assistance 
        programs and local resources.

  <bullet> Establishing or partnering with a food pantry and/or 
        farmer's market within the health facility to better connect 
        patients with healthy foods.

  <bullet> Sponsoring an on-site USDA Summer Food Service Program or 
        Child and Adult Care Food Program (CACFP)-funded meal to feed 
        children while they attend their appointment.

  <bullet> Training in-house financial counselors to serve as SNAP/WIC 
        application liaisons or establishing roles for SNAP/WIC 
        outreach

 
 
-------------------------------------------------------------------------
    Household Food Insecurity: When households lack access to sufficient
 food for all members to lead active, healthy lives because of
 insufficient family resources. Child Food Insecurity: When children
 experience reductions in the quality and/or quantity of meals because
 caregivers can no longer buffer them from inadequate household food
 resources (the most severe level of food insecurity).
    Housing Insecurity: When households experience ANY of the following
 in the past year: frequent moves (two or more times), crowded housing
 situation, or doubling-up with another household for financial reasons.
 Energy Insecurity: When households lack consistent access to enough of
 the kinds of energy (e.g., electricity, natural gas and/or heating oil)
 needed for a healthy and safe life.
    Health-care Trade-offs: When a household is unable to pay for basic
 living expenses, including rent, utilities, or food, due to payment of
 medical expenses.
    SNAP: The Supplemental Nutrition Assistance Program, formerly known
 as food stamps, is the United States' largest child nutrition program
 and is proven effective in reducing food insecurity.
    WIC: The Special Supplemental Nutrition Program for Women, Infants,
 and Children is a nutrition program specifically for low-income
 pregnant, postpartum and breastfeeding women, and infants and children
 under the age of 5.
------------------------------------------------------------------------

Hunger Hurts
The Impact of Food Insecurity on Children
    Arkansas has the second-highest overall population rate of food 
insecurity in the United States (19.7 percent or 570,000 people in 
2013). The rate of food insecurity among Arkansas households with 
children is substantially higher at 27.7 percent (affecting 
approximately 196,950 children),\1\ which is, in turn, well above the 
national average of 21.6 percent among households with children.\2\
    Household and child food insecurity can harm every aspect of a 
child's well-being--growth and development,\3\ psychosocial functioning 
(e.g., ability to make friends, behavior, etc.),\4\ academic 
performance, and physical health.\5\<SUP>-</SUP>\7\ In particular, the 
first few years of life are critical because they are a significant 
time of brain and body growth, and establish the foundation for future 
physical and emotional health and school and workforce readiness. 
Deprivation of any length during this period can have harmful 
consequences that are remediable, but require much more effort and 
investment than is needed to prevent such deprivation in the first 
place.\8\
    Parents do everything they can to protect their children from going 
hungry, including going without food themselves.\9\ This can lead to 
poor diets and negative physical and mental health outcomes for parents 
<SUP>8, 10-11</SUP> as well as diminished energy to work and/or care 
for the child.\10\
    In 2013, 22.7 percent of families with children under the age of 4 
who received care at the Arkansas Children's Hospital Emergency 
Department and participated in the Children's HealthWatch survey 
reported food insecurity. Among those families surveyed, 8.3 percent 
reported child food insecurity. In a sample of more than 8,800 
interviewed between 2004 and 2014, families with a range of caregiver 
educational attainment and level of employment reported food 
insecurity. Some of the children in this sample had complex medical 
needs; medical costs associated with such needs can make it even more 
difficult for families to afford other basic necessities including 
food, rent and utilities.\12\
Figure 1
Food-Insecure Families in Arkansas Are More Likely to Have Poor Child 
        and Maternal Health Outcomes 
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
          Source: Children's HealthWatch Data, January 2004-June 2014. 
        All increases statistically significant at p < .05.
Figure 2
Food-Insecure Families in Arkansas Are More Likely To Experience 
        Additional Household Hardships
        [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
          Source: Children's HealthWatch Data, January 2004-June 2014. 
        All increases statistically significant at p < .05.

    Compared with young children in food-secure families, young 
children in food-insecure Arkansas families were:

  <bullet> 19% more likely to be hospitalized, not including at birth.

  <bullet> 45% more likely to be in fair or poor health.

  <bullet> 31% more likely to be at risk of developmental delays.

  <bullet> Almost five times as likely to have foregone health care.

    Compared with food-secure families, mothers in food-insecure 
Arkansas families were:

  <bullet> Over twice as likely to be in fair or poor health.

  <bullet> Over three times as likely to report depressive symptoms.

    Compared with food-secure families, food-insecure Arkansas families 
were:

  <bullet> 37% more likely to be housing insecure.

  <bullet> Four times as likely to be behind on their rent or mortgage 
        payments.

  <bullet> Almost four times as likely to be energy insecure.

  <bullet> Almost four times as likely to report making health care 
        trade-offs.

  <bullet> Three and a half times as likely to have foregone health 
        care.

          ``I am not hungry anymore, my stomach has shrunk so I [am] 
        used to it.''
                   Caregiver of patient at Arkansas Children's Hospital
          ``We can afford healthy food at the beginning of the month 
        when we receive SNAP. By the end of the month we are eating a 
        lot of noodles and carbs. Therefore, we are constantly losing 
        and gaining weight.''
                   Caregiver of patient at Arkansas Children's Hospital
Stranded in Arkansas' Food Deserts
    Poor access to food is a concern in Arkansas. ``Accessibility'' of 
food can refer to both affordability and physical proximity, and many 
Arkansas residents struggle with a lack of both.\13\<SUP>-</SUP>\14\ 
Food deserts--areas where people have limited access to a variety of 
healthy and affordable food--abound in Arkansas. Located far from 
supermarkets and grocery stores (defined as more than 1 mile away in 
urban areas and more than 10 miles away in rural areas),\15\ people 
living in a `food desert' may have no food access or are served only by 
fast food restaurants and convenience stores. All regions of Arkansas 
have food deserts. The fact that many do not have reliable access to 
transportation creates an additional barrier to food access and adds to 
the cost of obtaining food.
    The need for food assistance in Arkansas is large and growing. 
Between 2010 and 2014, there was a 103.\7\ percent increase in food 
distributed by the Arkansas Foodbank. Although food banks and pantries 
are an essential part of an emergency response, they are not designed 
to be a long-term solution and cannot match the rising tide of need.

          ``. . . food banking was started to provide people with 
        immediate and temporary food. We have taken on a wider role 
        because of need, and while we would love to provide for all 
        needs, we cannot.''
                                  Rhonda Sanders, CEO Arkansas Foodbank

    Food pantries are not able to meet the full need of families in 
Arkansas. In 2014, 29 percent of Arkansas food pantries did not have 
enough food to meet clients' needs, and 52 percent limited the number 
of times a household could receive food in order to conserve 
resources.\16\ When clients were able to get food from the pantries, 51 
percent of them said they did not find fruits or vegetables at their 
pantry, and 40 percent could not find dairy products.
    Shoring up food pantries with more supplies is helpful, but food 
pantries and banks report they do not have nearly enough resources to 
bring about permanent food security. At the root of food insecurity is 
an inability to access and afford food. Federal programs such as the 
Special Supplemental Nutrition Program for Women, Infants and Children 
(WIC) and the Supplemental Nutrition Assistance Program (SNAP) reduce 
food insecurity by allowing families to purchase food appropriate to 
their needs and at times that are convenient to them, while also 
contributing to the local economy.



 
 
-------------------------------------------------------------------------
    Spotlight on Arkansas Children's Hospital in collaboration with the
 Arkansas Hunger Relief Alliance
 
    Arkansas Children's Hospital (ACH) is the state's only pediatric
 medical center. Its mission is: ``We champion children by making them
 better today and healthier tomorrow.'' To achieve this mission, ACH has
 implemented several innovative programs to address and alleviate food
 insecurity among its patients and families. ACH currently:
 
  <bullet> Provides lunches to children visiting the hospital by acting
   as a sponsor site for the USDA Summer Food Service Program and Child
   and Adult Care Food Program.
 
  <bullet> Offers cooking and nutrition education resources to
   caregivers in partnership with local organizations.
 
  <bullet> Employs financial counselors trained to assist families with
   SNAP applications on-site when they apply for Medicaid.
 
  <bullet> Enrolls mothers and children in WIC through an on-site
   office.
------------------------------------------------------------------------

Trendlines
Is the American Dream Still Alive in the 'Natural State'?
    While food insecurity rates are traditionally high among very low-
income families, working families with higher education also struggle 
with food insecurity. Employment and higher education are usually seen 
as a solution to food insecurity, but when basic living expenses are 
greater than wages, even families with a working adult with a technical 
or college degree may face significant hardship.
    The Great Recession and slow recovery affected families in Arkansas 
from across the economic spectrum; many struggled to make ends meet, 
experiencing food insecurity. Families with access to a wide range of 
financial resources continue to be impacted. Unfortunately, sometimes 
conditions are such that the traditional economic safeguards of 
education and employment do not guarantee food security.
    In a sample of 2,566 Arkansas families with an employed caregiver 
who attended technical school, college, or higher, 13.4 percent 
reported household food insecurity and five percent reported child food 
insecurity.

    Compared to young children in similar food-secure families, young 
children in food-insecure families with an employed caregiver with 
education beyond high school were:

  <bullet> Nearly 1\1/2\ times as likely to be in fair or poor health.

    Compared to mothers in similar food-secure families, employed 
mothers with education beyond high school in food-insecure families 
were:

  <bullet> Over 2\1/2\ times as likely to be in fair or poor health.

  <bullet> Almost 3\1/2\ times as likely to report symptoms of 
        depression.

    Compared to similar food-secure families, food-insecure families 
with an employed caregiver with education beyond high school were:

  <bullet> 1\1/2\ times as likely to be housing insecure.

  <bullet> Nearly five times as likely to be behind on rent or 
        mortgage.

  <bullet> Over four times as likely to be energy insecure.

  <bullet> Almost 4\1/2\ times as likely to have made health care 
        trade-offs.

  <bullet> Nearly five times as likely have foregone health care due to 
        inability to pay.
Mind the Gap--Ensuring Families Across the Entire Economic Spectrum 
        Receive the Help They Need
    Health providers must be aware that even caregivers who are 
employed and have education beyond high school may have a difficult 
time providing enough food for their families. Screening all families 
and ensuring that all have access to enough healthful food is crucial 
for the health and well-being of Arkansas' children and families.
Figure 3
Food-Insecure, Working Families with Education Beyond High School Are 
        at Increased Risk of Poor Health Outcomes and Difficulty Paying 
        for Housing, Utilities and Health Care
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
          Source: Children's HealthWatch Data, January 2004-June 2014. 
        All increases statistically significant at p < .05.
Opportunities to Improve Access to Food at Health Facilities
    Many clinics and hospitals around the country, recognizing the 
difficulty of improving their patients' health if patients and their 
families are food-insecure, have taken a preventive health approach by 
actively screening for food insecurity and offering services to combat 
it. A variety of healthcare-based approaches to addressing food 
insecurity can be tailored for the needs of individual healthcare 
settings.\17\<SUP>-</SUP>\18\ Many health providers in Arkansas 
routinely work with their patients to solve and control acute and 
chronic health problems, but typically may not consider assessing and 
addressing food security as part of routine care. An Internal Revenue 
Service (IRS) ruling may spur additional conversation and innovation 
among nonprofit health facilities seeking ways to reduce patients' food 
insecurity. Recognizing the importance of such efforts, the IRS now 
allows nonprofit health facilities to claim an exemption on Federal tax 
returns for services related to improving nutrition access.\19\

 
 
-------------------------------------------------------------------------
    The Children's HealthWatch Hunger Vital SignTM
 
    Children's HealthWatch validated the Hunger Vital SignTM, a two
 question screening tool based on the U.S. Household Food Security
 Survey Module and suitable for clinical or community outreach use. The
 Hunger Vital SignTM identifies families with young children as at risk
 for food insecurity if they answer that either or both of the following
 two statements is `often true' or `sometimes true' (vs. `never true'):
 
        ``Within the past 12 months we worried whether our food would
     run out before we got money to buy more.''
        ``Within the past 12 months the food we bought just didn't last
     and we didn't have money to get more.''
------------------------------------------------------------------------

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
     
    Listed are various ways health facilities have improved their 
patients' access to food. These options are grouped by level of effort 
involved (Level 1 being the most easily achieved and Level 3 being more 
involved) so any health facility, regardless of size or resources, will 
be able to find a way to help connect vulnerable patients with food 
resources.
Level 1: Preparing the Ground

  <bullet> Use the Children's HealthWatch Hunger Vital 
        Sign<SUP>TM 20</SUP> during intake to determine whether a 
        family is at risk of food insecurity.

    <ctr-circle> If the caregiver responds affirmatively to either 
            question, clinic/hospital staff can direct them to food 
            assistance services.

        For example:

      <bullet> provide a handout with information on how and where to 
            apply for SNAP
              and/or WIC as well as where to find emergency food 
            assistance.

      <bullet> refer patients to a designated in-house outreach worker 
            or partner organi-
              zation.

  <bullet> Provide information on hospital/clinic's website with links 
        to instructions and applications for SNAP/WIC.
Level 2: Planting Seeds

  <bullet> Include the Hunger Vital Sign<SUP>TM</SUP> in the hospital/
        clinic electronic medical record, simultaneously providing 
        health professionals with documentation of individual patient 
        needs and the ability to track the level of need across the 
        hospital/clinic population.

  <bullet> Partner with a trusted, local nonprofit organization for 
        electronic or faxed referrals for assistance. Once families are 
        identified as at risk for food insecurity, an electronic 
        `prescription' for outreach services can be sent to the partner 
        organization, which then follows up with the family.

  <bullet> Partner with, or establish on-site, a food pantry or 
        farmer's market.

  <bullet> Partner with the state's Department of Human Services or the 
        state Health Department to outstation a SNAP and/or WIC 
        enrollment worker at the health facility each week.
Level 3: Putting Down Roots

  <bullet> Sponsor an on-site Summer Food Service Program and/or Child 
        and Adult Care Food Program (CACFP)-funded meal to provide 
        nutritious meals to children while visiting the health 
        facility.

  <bullet> Raise philanthropic support to feed parents as well as 
        children during visits.

  <bullet> Train financial counselors or other relevant staff to act as 
        SNAP/WIC application liaisons and/or establish a role for SNAP/
        WIC establish a role for SNAP/WIC in the healthcare facility.
Best Practices to Ensure Success
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Implementing tailored health care-based responses to hunger 
requires planning to ensure all stakeholders will work toward success. 
Below are proactive steps to take when implementing new programs or 
changes to existing programs.

  <bullet> Talk with other health facilities that have undertaken 
        similar efforts to learn how they implemented their nutrition 
        access programs, garnered support from key stakeholders, and 
        effectively reached out to families.

  <bullet> Engage medical staff early and provide them with information 
        on the connections between food insecurity and health.

  <bullet> Reach out to hospital/clinic administrators to discuss 
        potential ways to assist patients at various levels of effort 
        and cost. Nonprofit health facilities can report on tax returns 
        some efforts to improve patient nutrition access.

  <bullet> Determine where nutrition access fits into the clinic/
        hospital's organizational structure and who will be responsible 
        for implementation of new programs and future sustainability.

  <bullet> Engage Arkansas' DHS/DSS <SUP>[1]</SUP> and/or the local 
        health unit in efforts to train the health facility's financial 
        staff (who already assist families with state health insurance 
        applications) to assist caregivers through the SNAP and WIC 
        application processes.
---------------------------------------------------------------------------
    \[1]\ The Arkansas Department of Human Services/Department of 
Social Services (DHS/DSS) is the state department responsible for 
administering benefits, including SNAP, to families.

  <bullet> Partner with Arkansas' DHS/DSS and/or the State Health 
        Department offices and solicit support from local stakeholders 
        to increase the likelihood of approval from the USDA for 
---------------------------------------------------------------------------
        implementing food assistance programs onsite.

  <bullet> Partner with local nonprofit agencies and individuals with 
        an interest in addressing food insecurity at the neighborhood, 
        county or state level.
About Children's HealthWatch
    Children's HealthWatch is a nonpartisan network of pediatricians, 
public health researchers, and children's health and policy experts. 
Our network is committed to improving children's health in America. We 
do that by first collecting data in urban hospitals across the country 
on infants and toddlers from families facing economic hardship. We then 
analyze and share our findings with academics, legislators, and the 
public. These efforts help inform public policies and practices that 
can give all children equal opportunities for healthy, successful 
lives.
    Authors: Lindsay Giesen, Policy Intern; Stephanie Ettinger de Cuba, 
M.P.H., Research and Policy Director; Allison Bovell, M. Div, Boston 
Site Coordinator; Patrick H. Casey, M.D., Principal Investigator; 
Eduardo R. Ochoa, Jr., M.D., Principal Investigator; Kathy Barrett, 
M.S.E., Little Rock Site Coordinator; and Sharon Coleman, M.S., M.P.H., 
Statistical Analyst.
    Acknowledgements: Children's HealthWatch would like to thank Anna 
Strong of Arkansas Children's Hospital, Rhonda Sanders of Arkansas 
Foodbank, Kathy Webb, Patty Barker, and Nancy Conley of Arkansas Hunger 
Relief Alliance, Jennifer Ferguson of Arkansas Advocates for Children, 
William ``Buster'' Lackey of the Department of Human Services, and 
Justin Pasquariello and Richard Sheward of Children's HealthWatch for 
their thoughtful input and review of this work.
    Printing made possible by funding from Buster Lackey, 
Administrator, Arkansas Department of Human Services, Division of 
Chilldcare and Early Childhood Education Health and Nutrition Unit.
    For additional information, please contact:

  Stephanie Ettinger de Cuba, MPH, Research and Policy Director
  Tel. (617) 638-5850/E-mail: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="cdbea8a9ae8dafb8e3a8a9b8">[email&#160;protected]</a>
  Follow us:@ChildrensHW Facebook.com/ChildrensHealthWatch
Endnotes

 
 
 
    1. Feeding America. (2014). Map the Meal Gap. Retrieved from: http://
 www.feedingamerica.org/hunger-in-america/our-research/map-the-meal-gap/

    2. Coleman-Jensen, A., Nord, M., and Singh, A. (2013). Household
 Food Security in the United States in 2012, Economic Research Report
 no.155. U.S. Department of Agriculture, Economic Research Service.
 Retrieved from: http://www.ers.usda.gov/publications/err-economic-
 research-report/err155.aspx#.UuARENIo7Gg.
    3. Casey, P.H., Szeto, K.L., Robbins, J.M., Stuff, J.E., Connell,
 C., Gossett, J.M., and Simpson, P.M. (2005) Child Health-Related
 Quality of Life and Household Food Security. JAMA Pediatrics, 159(1),51-
 56.
    4. Alaimo, K, Olson, C.M., Frongillo Jr, E.A. (2001) Food
 Insufficiency and American School-Aged Children's Cognitive, Academic,
 and Psychosocial Development. Pediatrics. 108(1),44-53.
    5. Casey, P.H., Szeto, K., Lensing, S., Boogle, M., Weber, J. (2001)
 Children in Food-Insufficient, Low-Income Families: Prevalence, Health,
 and Nutrition Status. Archives of Pediatric and Adolescent Medicine,
 155(4):508-14.
    6. Alaimo K., Olson, C.M., Frongillo Jr, E.A. and Briefel, R.R.
 (2001) Food Insufficiency, Family Income, and Health in U.S. Pre-School
 and School-Aged Children. American Journal of Public Health, 91(5),781.
    7. Cook, J.T., Black, M., Chilton, M., Cutts, D., Ettinger de Cuba,
 S., Heeren, T.C., Rose-Jacobs, R., Sandel, S., Casey, P., Coleman, S.,
 Weiss, I., Frank, DA. (2013) Are Food Insecurity's Health Impacts
 Underestimated in the U.S. Population? Marginal Food Security Also
 Predicts Adverse Health Outcomes in Young U.S. Children and Mothers.
 Advances in Nutrition. 4(1), 51-61.
    8. Shankoff J.P., Garner A.S., et al. (2012) The Lifelong Effects of
 Early Childhood Adversity and Toxic Stress. Pediatrics. 129(1)e232-
 e246.
    9. Bickel, G., Nord, M., Price, C., Hamilton, W., Cook, J. (2000)
 Guide to Measuring Household Food Security. United States Department of
 Agriculture, Food Nutrition Service. Retrieved from: http://
 www.fns.usda.gov/sites/default/files/FSGuide.pdf.
    10. Cristofar, S.P. and Basiotis. (1992) Dietary Intakes and
 Selected Characteristics of Women Ages 19-50 Years and Their Children
 Ages 1-5 Years by Reported Perception of Food Sufficiency. Journal of
 Nutrition Education. 24(2),53-58.
    11. Cook, J. and Jeng, K. (2007) Child Food Insecurity: The Economic
 Impact on our Nation. Feeding America and the ConAgra Foods Foundation.
 Retrieved from: http://www.nokidhungry.org/sites/default/files/child-
 economy-study.pdf.
    12. Parish, S.L., Rose, R.A., Grinstein-Weiss, M., Richman, E.L.,
 Andrews, M.E. (2008) Material hardship in U.S. families raising
 children with disabilities. Exceptional Children, 75(1):71-92.
    13. Krukowski, R., Smith West, D., Harvey Berino, J., and Prewitt,
 T.E. (2010) Neighborhood Impact on Healthy Food Availability and
 Pricing in Food Stores. J. Community Health. 35(3): 315-320.
    14. Connell, C.L., Yadrick, M.K., Simpson, P., Gossett, J., McGee B.
 B., Bogle, M.L. (2007) Food Supply Adequacy in the Lower Mississippi
 Delta. Journal of Nutrition Education and Behavior. 39(2):77-83.
    15. United States Department of Agriculture, Agricultural Markets
 Service. Food Deserts. Retrieved from: http://apps.ams.usda.gov/
 fooddeserts/fooddeserts.aspx.
    16. Weinfield, N.S., Mills, G., Borger C., Gearing, M., Macaluso,
 T., Montaquila, J., Zedlewiski, S. (2014) Hunger in America 2014.
 Feeding America. Retrieved from: http://help.feedingamerica.org/
 HungerInAmerica/hunger-in-america-2014-full
 report.pdf?s_src=W151DIRCT&s_subsrc=http%3A%2F%2Fwww.feedingamerica.org
  %2Fhunger-in-america%2Fourresearch%2Fthe-hunger-study%2F&_ga=1.2146484
 71.1063929397.1409241861.
    17. Project Bread and University of Massachusetts Memorial Health
 Care. (2009). Hunger in the Community: Ways Hospitals Can Help.
 Retrieved from: http://www.projectbread.org/reusable-components/
 accordions/download-files/hospital-handbook.pdf.
    18. Share Our Strength, No Kid Hungry. (2012) Fighting Hunger
 Through Health Care: A Seamless Solution. Retrieved from: http://
 bestpractices.nokidhungry.org/sites/default/files/resources/
 Health%20Care%20Issue%20Brief.pdf.
    19. The Hagstrom Report. (2015) IRS Nonprofit hospitals can claim
 nutrition access aid to avoid taxes. 5(1). Retrieved from https://
 madmimi.com/p/d6d0c5?fe=1&pact=27429225056.
    20. Hager, E.R., Quigg, A.M., Black, M.M., Coleman, S.M., Heeren,
 T., Rose-Jacobs, R., & Frank, D.A. (2010). Development and validity of
 a 2-item screen to identify families at risk for food insecurity.
 Pediatrics, 126(1), e26-e32.
 

                                 ______
                                 
                          Submitted Questions
Response from Ruth Riley, Former WNBA Athlete and Olympic Gold 
        Medalist; on Behalf of NBA Cares
Questions Submitted by Hon. Rodney Davis, a Representative in Congress 
        from Illinois
    Question 1. Ms. Riley, as a Coach and father of two growing boys, I 
understand the value of ensuring every child access to nutritious 
meals. Without these meals, kids would not have the fuel they need to 
put in all the hours of practice, training and conditioning that lead 
to athletic success. But, from your personal experience, just how vital 
is three meals a day towards achieving success in the classroom?
    Answer. Growing up, I knew the expectation for me to excel set by 
my mom was based on what I would learn from 8:00-3:00 rather than any 
activity I pursued after school. While there is plenty of research that 
highlights the correlation between hunger and children's capacity to 
focus and learn, I have personally found my ability to concentrate on 
any task is significantly hindered when I am hungry. From a purely 
academic perspective, it is imperative for kids to have three meals a 
day to not only focus while they are at school, but also to help them 
concentrate on their homework at night.

    Question 2. Was it your experience that government programs served 
as a support, but were not the total solution? For example, in addition 
to getting food stamps, were there also times that your family turned 
to food pantries for help?
    Answer. My family never saw the governmental assistance programs as 
a singular answer to our problems. They were a complementary and 
essential piece of a holistic solution. We received food stamps only 
for a short period of time while my mother was obtaining the skill-set 
she needed to provide for us. Off and on throughout my childhood, we 
also were beneficiaries of the generosity of our family, friends, 
churches, and strangers. Different individuals and organizations 
collectively helped us when we needed it the most.

    Question 3. How important were programs like school meals to 
ensuring you received three meals a day?
    Answer. School meals were incredibly important for our family 
throughout my childhood. It not only provided two of our three meals 
each school day, it also helped my mom make her monthly budget stretch 
farther and ensured we would have enough food for dinner each night 
when we got home.


 
               SUPPLEMENTAL NUTRITION ASSISTANCE PROGRAM

 (PAST, PRESENT, AND FUTURE OF SNAP: THE NATIONAL COMMISSION ON HUNGER)

                              ----------                              


                      WEDNESDAY, NOVEMBER 18, 2015

                          House of Representatives,
                                  Committee on Agriculture,
                                                   Washington, D.C.
    The Committee met, pursuant to call, at 10:00 a.m., in Room 
1300 of the Longworth House Office Building, Hon. K. Michael 
Conaway [Chairman of the Committee] presiding.
    Members present: Conaway, Austin Scott of Georgia, LaMalfa, 
Davis, Yoho, Walorski, Allen, Bost, Abraham, Newhouse, Kelly, 
Peterson, David Scott of Georgia, Walz, Fudge, McGovern, 
DelBene, Lujan Grisham, Kuster, Nolan, Bustos, Kirkpatrick, 
Aguilar, Plaskett, Adams, Graham, and Ashford.
    Staff present: Anne DeCesaro, Haley Graves, Jadi Chapman, 
Jessica Carter, Mollie Wilken, Lisa Shelton, Liz Friedlander, 
Matthew MacKenzie, Nicole Scott, and Carly Reedholm.

OPENING STATEMENT OF HON. K. MICHAEL CONAWAY, A REPRESENTATIVE 
                     IN CONGRESS FROM TEXAS

    The Chairman. Good morning. I am going to call the hearing 
to order. I will ask David Scott to open us with a prayer. 
David?
    Mr. David Scott of Georgia. Dear Heavenly Father, we come 
before your throne of grace to, first of all, give thanks. We 
thank you for the bountiful blessings that you give to each of 
us every single day. Some we know not, some we asked not for, 
but you intercede on our behalf and give us the blessings that 
we need. And Heavenly Father, at this time we ask a special 
blessing, that your arms of protection hover around those 
families of those individuals of those 500 or more who were 
assassinated and slaughtered and injured by those radical 
Islamic terrorists in Paris. Now, dear Heavenly Father, we pray 
that you give our nation, the United States, the will and the 
backbone to stand up and lead. We ask, dear God, that you give 
us all that power and strength. I pray that we, as NATO, would 
give in to our Article V and help France the same way that, 
when we were attacked, we asked for Article V of NATO. We must 
do the same, and stand up and fight this evil, stand up with 
France as they stood with us in our time of need. And our 
President will lead and invoke Article V of NATO. This is my 
prayer, dear God. And finally, give this nation the Isaiah 
instinct. For when you said, ``Whom shall we send, and who will 
go for us in that great time of need,'' Isaiah, without 
hesitation, said, ``Here, my Lord, send me.'' Thank you, dear 
God. This is what we pray for, the courage and the backbone. We 
ask this prayer from our humble hearts, all of us, that we are 
able to rid this evil. We pray for this earnestly, and we pray 
for it in the name of your Son, Jesus Christ, and you, dear 
God. Amen.
    The Chairman. Amen. Thank you, David. Well, good morning, 
this hearing on the past, present, and future of SNAP: the 
National Commission on Hunger, will come to order. I want to 
welcome our witnesses to today's hearing, and thank them for 
taking time to share their experience as members of the 
National Commission on Hunger. This hearing, like those before, 
builds on the Committee's top to bottom review of the 
Supplemental Nutrition Assistance Program, or SNAP. Throughout 
this process we have had an eye towards strengthening SNAP so 
that it doesn't become a trap, but rather a tool to help 
individuals to move up the economic ladder.
    As we have learned throughout this hearing series, SNAP 
does not operate in a vacuum. It should not be expected to 
carry the entire load and provide all the solutions for the 
most vulnerable. That being said, it does serve an important 
role in the lives of nearly 46 million Americans. For them, and 
the integrity of our review, it is important that we continue 
to invite for our consideration a range of perspectives and 
recommendations for improving SNAP and the other nutrition 
programs under our jurisdiction. Hearing from the National 
Commission on Hunger is a continuation of that effort.
    As you will hear, the Commission spent the last year 
traveling the country to see and listen to those closest to 
this issue, to better understand the challenges within these 
programs, as well as learn about the successes. The Fiscal Year 
2014 omnibus appropriations bill provided $1 million for a 
national commission on the domestic hunger by including an 
amendment from former Congressman Frank Wolf. The purpose of 
the Commission, according to the bill, was to provide policy 
recommendations to Congress and the Secretary of Agriculture on 
how to more effectively use existing Department of Agriculture 
programs, and their funds, to combat domestic hunger. They were 
also instructed to develop innovative recommendations to 
encourage public-private partnerships, faith-based sector 
engagement, and community initiatives to reduce the need for 
government nutrition assistance programs, while protecting the 
safety net for the most vulnerable members of society.
    The ten member Commission was made up of individuals 
appointed by the Speaker, the Minority Leader of the House, the 
Senate Majority Leader, and the Senate Minority Leader, the 
result being five Republican and five Democratic selected 
Commissioners with a range of backgrounds from a medical doctor 
to a grocery store owner, to hunger advocates and community 
leaders. Today, the Commission selected Co-Chairs are here to 
share their year-long experience with a process that involved 
field hearings and site visits, to nine different cities. Each 
hearing began with invited witnesses, similar to our format, 
but it would then open up for public input. I believe the 
hearing in D.C., back in the spring, lasted more than 5 hours. 
Now, that is pretty remarkable, considering each public witness 
was limited to 5 minutes.
    While their report is not yet final, I commend their 
efforts to remain united as a Commission, especially given 
their diverse backgrounds, in presenting their final 
recommendations, and for staying within their charge to not 
propose policies that increase costs or require additional 
resources. I look forward to hearing from the Commission's Co-
Chairs about their process, the emergent themes from the 
process, and a preview of what we can expect when their final 
report is released in the coming weeks.
    [The prepared statement of Mr. Conaway follows:]

  Prepared Statement of Hon. K. Michael Conaway, a Representative in 
                          Congress from Texas
    I want to welcome our witnesses to today's hearing and thank them 
for taking the time to share their experience as members of the 
National Commission on Hunger.
    This hearing, like those before, builds upon the Committee's top-
to-bottom review of the Supplemental Nutrition Assistance Program, or 
SNAP.
    Throughout this process, we have had an eye towards strengthening 
SNAP so that it doesn't become a trap, but rather a tool to help 
individuals move up the economic ladder.
    As we have learned throughout this hearing series, SNAP does not 
operate in a vacuum. It should not be expected to carry the entire load 
and provide all solutions for the most vulnerable. That being said, it 
does serve an important role in the lives of nearly 46 million 
Americans.
    For them and the integrity of our review, it is important that we 
continue to invite for consideration a range of perspectives and 
recommendations for improving SNAP and the other nutrition programs in 
our jurisdiction.
    Hearing from the National Commission on Hunger is a continuation of 
that effort.
    As you will hear, the Commission spent the last year traveling the 
country to see and listen to those closest to this issue to better 
understand the challenges within these programs, as well as learn about 
the successes.
    The Fiscal Year 2014 omnibus appropriations bill provided $1 
million for a national commission on domestic hunger by including an 
amendment from former Congressman Frank Wolf.
    The purpose the Commission, according to the bill, was to provide 
policy recommendations to Congress and the Agriculture Secretary on how 
to more effectively use existing Agriculture Department programs and 
funds to combat domestic hunger.
    They were also instructed to develop ``innovative recommendations 
to encourage public-private partnerships, faith-based sector 
engagement, and community initiatives to reduce the need for government 
nutrition assistance programs, while protecting the safety net for the 
most vulnerable members of society.''
    The ten member Commission was made up of individuals appointed by 
the House Speaker, the House Minority leader, Senate Majority leader 
and Senate Minority leader.
    The result being five Republican and five Democratic selected 
Commissioners with a range of backgrounds from a medical doctor and 
grocery chain owner to hunger advocates and community leaders.
    Today, the Commission-selected co-chairs are here to share their 
year-long process that involved field hearings and site visits in nine 
different cities.
    Each hearing began with invited witnesses, similar to our format, 
but then were opened up for public input. I believe the hearing here in 
D.C., back in the spring, lasted more than 5 hours.
    This is rather remarkable given each public witness was limited to 
5 minutes.
    While their report is not yet final, I commend their efforts to 
remain united as a Commission, especially given their diverse 
backgrounds, in presenting their final recommendations and for staying 
within their charge to not propose policies that increase costs or 
require additional resources.
    I look forward to hearing from the Commission's co-chairs about 
their process, emergent themes from that process, and a preview of what 
we can expect when their final report is released in the coming weeks.

    The Chairman. And with that, I turn to the Ranking Member 
for any comments he would like to make.

OPENING STATEMENT OF HON. COLLIN C. PETERSON, A REPRESENTATIVE 
                   IN CONGRESS FROM MINNESOTA

    Mr. Peterson. Thank you, Mr. Chairman, and I would like to 
yield our time to the Ranking Member of the Nutrition 
Subcommittee, Mr. McGovern, from Massachusetts.

 OPENING STATEMENT OF HON. JAMES P. McGOVERN, A REPRESENTATIVE 
                 IN CONGRESS FROM MASSACHUSETTS

    Mr. McGovern. I thank the Ranking Member for yielding me 
the time. And let me also thank Dr. Chilton, and Mr. Doar, for 
being with us today. And I want to thank you for your work in 
Co-Chairing the National Commission on Hunger. This is a very 
important subject. It is a big deal, and, quite frankly, the 
issue of hunger ought to be a bigger deal in this Congress than 
it is. I appreciate you being here.
    I will say that this particular hearing is a little bit 
premature, in the sense that we haven't seen the final report 
yet. So, to me, it is difficult to see how we can get into the 
details on anything we haven't seen on paper. That being said, 
I appreciate your being here and giving us a preview of the 
Commission's findings. You were given no easy task, to come up 
with policy recommendations to solve hunger, and to put them 
all in one report, and you were given very, very strict 
parameters, to work within existing programs, and to carry out 
your work on a very limited budget. The Chairman began by 
saying that we want to strengthen SNAP, however, I have gotten 
the feeling that, rather than strengthening SNAP, it is a 
program that is constantly under attack in this Congress. And I 
do think we need to re-focus our attention on how we strengthen 
not only SNAP, but programs to make sure that people in this 
country have enough to eat, have access to good nutritious 
food, and don't go hungry.
    I want to just take a moment to remind everyone about a few 
fundamental facts about the SNAP program. First and foremost, 
it is a food program, not a jobs program. Its purpose is to 
provide food for people who are struggling. Second, about \2/3\ 
of those who receive SNAP are children, senior citizens, and 
the disabled. They are not expected to work. So we can talk all 
we want about work requirements, but the bottom line is those 
won't apply to the majority of those who are receiving SNAP. Of 
those who can work, the majority do work. Let me repeat that. 
The majority of SNAP recipients, who are able to work, do work. 
But the reality is they earn so little, either at full time 
jobs or at multiple part time jobs, that they still qualify for 
the benefit. And we do know, when people go back to work, they 
begin to lose some of their benefits, and sometimes they find 
themselves in this precarious predicament where, even though 
they are working, hunger is a bigger issue, rather than a 
smaller issue.
    There is no doubt that a strong economy and a living wage 
are the best pathways out of poverty, but compelling people to 
work when there are no jobs, or there are precious few slots in 
work training programs, or that they are not expected to work 
to begin with, doesn't make a lot of sense to me. Cutting them 
off from SNAP only makes hunger worse. SNAP is a food program, 
and we shouldn't expect it to single-handedly solve the many 
challenges of our country's poorest families. SNAP can't be 
expected to solve broader economic challenges, or barriers 
people have to work.
    So as we begin today's hearing, I urge my colleagues to 
remember that. What we really need is a national conversation 
about how we can better tackle hunger in this country. For a 
long time now I have been saying that the White House ought to 
convene a White House conference on food, nutrition, and 
hunger. Congress should work with the White House and the full 
range of stakeholders to come up with a holistic plan to end 
hunger in this country. We have programs to deal with this 
challenge, but I don't know of anybody when asked the question, 
what is our plan to end hunger, whether it is childhood hunger, 
or hunger among senior citizens, or hunger in general, that can 
actually articulate for me very specifically what their plan 
is. At the heart of that plan would be strengthening SNAP, and 
other anti-hunger programs, helping families put food on the 
table.
    Let me just finally say that, ultimately, hunger is a 
political condition. We know we have the resources, we have the 
intellectual capacity to solve this problem, we have the 
infrastructure, but for some reason it hasn't been a priority, 
and there is no sense of urgency to deal with this issue. And 
too often when we have these debates they end up turning into a 
session where people who are poor, and who are struggling, are 
blamed, and we are not talking about developing a road map to 
end hunger. So, I hope that this hearing is not just a hearing 
to check the box, but I hope it is a hearing that will actually 
begin to lay the groundwork for a wider discussion. We need 
other agencies, other departments in the government to be 
working together, not in a silo-like way. We need more public-
private partnerships. We have great examples of what works, and 
I am sure you have seen some of them all across the country. 
But we need to pull all this together, and work with the White 
House to develop a comprehensive plan to end hunger once and 
for all in this country. I thank you for being here, and look 
forward to your testimony. I yield back.
    The Chairman. I thank the gentleman. The chair requests 
that other Members submit their opening statements for the 
record so the witnesses may begin their testimony, and ensure 
there is ample time for questions.
    I would like to welcome our witnesses to the table today. 
We have Mr. Robert Doar, Co-Chair of the National Commission on 
Hunger, Morgridge Fellow in Poverty Studies, American 
Enterprise Institute here in Washington, and Dr. Mariana 
Chilton, Co-Chair of the National Commission on Hunger, and she 
is the Director of the Center for Hunger-Free Communities at 
Drexel University in Philadelphia. So, Mr. Doar, the microphone 
is yours for 5 minutes.

          STATEMENT OF ROBERT DOAR, CO-CHAIR, NATIONAL
           COMMISSION ON HUNGER; MORGRIDGE FELLOW IN
  POVERTY STUDIES, AMERICAN ENTERPRISE INSTITUTE, WASHINGTON, 
                              D.C.

    Mr. Doar. Thank you, Chairman Conaway, and Ranking Member 
Peterson. I appreciate being invited today to testify about the 
activities of the Congressionally appointed National Commission 
on Hunger. My name is Robert Doar, and I am the Morgridge 
Fellow in Poverty Studies at the American Enterprise Institute. 
Prior to coming to AEI, I was the Commissioner of the New York 
City Human Resources Administration, and prior to that, I was 
the Commissioner of the New York State Office of Temporary and 
Disability Assistance.
    It has been an honor to serve on the Commission. As a 
former State and City Administrator of Welfare Programs, 
including the Supplemental Nutrition Assistance Program, I was 
familiar with the challenges faced both by struggling 
Americans, and by the government, and not-for-profit 
organizations, which do so much to try to help poor Americans. 
But the experience of the last 18 months, where we gathered 
testimony and observed the difficulties facing low-income 
communities across the country, has given me an even greater 
understanding of the issue, and the ways in which we can 
address it.
    This morning I would like to highlight seven aspects of 
what we learned during this process. First, we came to an 
understanding of how to quantify the problem of hunger. We 
decided early on to focus on very low food security at the 
household level, an annual measure produced by the USDA, drawn 
from a survey of Americans. To the members of the Commission, 
reports of eating patterns being interrupted due to lack of 
resources is a significant indication of difficulty within a 
household, which requires attention. While we want to be clear 
that the hunger seen in America is not equivalent to the 
malnutrition seen in developing nations, we do believe that the 
very low food security measure reflects the reality of hardship 
in the United States. And by this measure, 5.6 percent of 
households reported hunger in 2014, a rate that remains 
elevated more than 5 years into the economic recovery.
    Second, members of the Commission were cognizant of the 
fact that our charge limited us to proposing changes which 
stayed within existing resources. We are aware of the fiscal 
challenges facing this country, and we are confident that more 
progress can be made in reducing hunger without having to 
significantly increase Federal spending. Third, members of the 
Commission were unanimous in identifying a number of root 
causes of hunger, many of which were beyond the traditional 
scope of the food and nutrition programs of the Federal 
Government. The root causes we identified included the still 
struggling economy, which contributes to unemployment, the 
growth in hunger rates are significantly higher for single 
parent families than they are for married families--and the 
need for personal responsibility from those with limited 
resources. To the members of the Commission, it was important 
to say to Congress that progress on reducing hunger will 
require attention to these issues, which are not solely the 
responsibility of the food and nutrition programs.
    Fourth, we came away from our field visits and hearings 
convinced that a key to solving hunger is helping more poor 
Americans find full time employment. Rates of very low food 
security are significantly higher in households with no adults 
working than it is in households with a full time worker. Our 
various social services programs, and our economy, must do a 
better job bringing people into the workforce if we are to make 
strides in reducing hunger.
    Fifth, members of the Commission learned that a lot of the 
best work being done on this issue is taking place in states, 
and is often led by the not-for-profit community. And the 
Commission feels that, to the extent possible, we should use 
states and localities as places for experimentation with new 
and different approaches, all to be rigorously evaluated before 
making nationwide changes to the various programs. We don't 
pretend to have all the answers to the problem of hunger, but 
we are confident that if states are allowed to experiment with 
pilot programs, better ideas will come to the fore. Sixth, 
members of the Commission came to believe that addressing 
hunger also means addressing nutrition. We can do a better job 
helping Americans have access to, and to prepare and consume 
more healthy foods, and in doing so we will make progress on 
alleviating hunger.
    Finally, Commission members came away from their experience 
exploring this issue deeply proud of the extensive activity by 
Federal, state, and local governments, corporations and not-
for-profits, individuals and faith-based institutions, which is 
already directed at alleviating, and does alleviate, for many, 
this difficult problem. Members were unanimous in wanting to 
celebrate the great contribution our country already makes to 
address this issue. And they also understood that knowledge of 
what we already have accomplished should give us a foundation 
to build on, and confidence that we can solve this problem. We 
can end hunger in America. Thank you.
    The Chairman. Thank you, Mr. Doar. Dr. Chilton, 5 minutes.

   STATEMENT OF MARIANA M. CHILTON, Ph.D., M.P.H., CO-CHAIR, 
NATIONAL COMMISSION ON HUNGER; ASSOCIATE PROFESSOR, DEPARTMENT 
  OF HEALTH MANAGEMENT AND POLICY, DORNSIFE SCHOOL OF PUBLIC 
  HEALTH, DREXEL UNIVERSITY; DIRECTOR, CENTER FOR HUNGER-FREE
                 COMMUNITIES, PHILADELPHIA, PA

    Dr. Chilton. Again, thank you for the opportunity to 
testify about the National Commission on Hunger. As a scientist 
at the Dornsife School of Public Health at Drexel University in 
Philadelphia, I bring over 15 years of experience designing and 
carrying out research studies among families with young 
children to investigate the causes, consequences, and 
prevention of hunger. I have directly witnessed the physical, 
social, emotional, and spiritual pain that hunger causes.
    Our field hearings for the National Commission also helped 
us to learn about the realities of hunger. The experience of 
one particular person, Saleema Akbar, who lives right here in 
Washington, D.C., made that hardship of hunger quite clear, and 
these are her words. ``I have worked since I was 13 years old. 
I am not a senior yet. I am only 57. I have fibromyalgia, 
osteoarthritis, and diabetes. With the diabetes, they tell me 
that I have to eat a lot of protein. I get food stamps, but I 
don't have enough money to buy enough protein to make it 
through the rest of the month. I am not a child, so I can't get 
help from any programs, and I am not yet a senior, so I can't 
get those, so I am stuck between a rock and a hard place. My 
disability income goes to pay my rent. I get disability because 
I am 100 percent disabled.'' She said, ``When you are talking 
about hunger, it is right here, right here. I know you have to 
feed the babies. I know you have to feed the seniors. But what 
about the people in the middle?''
    Ms. Akbar's testimony reveals to us two things. Number one, 
like her, the vast majority of people who experience hunger are 
already vulnerable. They are made vulnerable by their physical 
and mental health, or perhaps by historical and social 
circumstances, or perhaps they are incapable of coping with the 
stress of poverty. Number two, while it is absolutely true that 
we have very effective nutrition programs, and other support 
for low-income families, there are still many people that are 
missed, discounted, or uncounted that are poorly served through 
our current program structures.
    Hunger is an experience of poor nutrition that has major 
health consequences. Our research shows that hunger has serious 
consequences, especially in early childhood. Infants and 
toddlers that are younger than age 3 are in the most important 
years of human development, and any type of nutritional 
deprivation in those early years has lifelong consequences, and 
that is because hunger negatively affects children's physical, 
social, emotional, and cognitive functioning. These 
consequences stay with kids across their lifespan, and they can 
be transferred to the next generation. This type of childhood 
adversity is what neuroscientists call toxic stress. Other 
types of toxic stress are homelessness, exposure to violence, 
or having a parent in prison. Our report insists that families 
with young children are quite vulnerable to hunger, and they 
need special attention. Another group that needs our attention 
is America's veterans. Among veterans of the Iraq and 
Afghanistan wars, 12 percent reported hunger. This is twice the 
rate of hunger in the general population. Given the serious 
problems associated with Post-Traumatic Stress Disorder, we 
understand that in addition to having nutrition support, 
veterans may need specialized support to find jobs, and access 
to safe, affordable housing.
    SNAP, WIC, and other nutrition programs do a good job of 
reducing hunger and promoting health, but they do not solve 
hunger completely. Clearly we need to improve our current 
programs, but we also need to address the root causes of 
hunger, and ensure that we are counting and supporting the most 
vulnerable citizens of America. Saleema Akbar experiences 
hunger right here in D.C., and she can no longer be discounted. 
So many people in communities across America need your 
attention and leadership. One of our recommendations, 
therefore, is quite simple. Congress, and the White House, must 
insist on more effective cross-agency collaboration. Beyond the 
Department of Agriculture, this includes the Department of 
Health and Human Services, the Department of Education, 
Department of Labor, Department of Housing and Urban 
Development, and the Veterans' Administration. In concert with 
leadership from the White House and Congress, these agencies 
should make a coordinated national plan to end hunger in 
America. Only with this type of leadership, driven by your 
sense of social, moral, and personal responsibility to our 
country, is ending hunger possible. Thank you.
    [The joint prepared statement of Mr. Doar and Dr. Chilton 
follows:]

Joint Prepared Statement of Robert Doar, Co-Chair, National Commission 
  on Hunger; Morgridge Fellow in Poverty Studies, American Enterprise
Institute, Washington, D.C.; and Mariana M. Chilton, Ph.D., M.P.H., Co-
 Chair, National Commission on Hunger; Associate Professor, Department 
  of Health Management and Policy, Dornsife School of Public Health, 
    Drexel University; Director, Center for Hunger-Free Communities,
                           Philadelphia, PA *
---------------------------------------------------------------------------
    * The views expressed in this testimony are those of the authors on 
behalf of the National Commission on Hunger. Institutional affiliations 
are provided for identification purposes only and do not imply 
institutional support or endorsement.
---------------------------------------------------------------------------
    Chairman Conaway, Ranking Member Peterson, and other distinguished 
Members of the Committee, thank you for giving us the opportunity to 
testify about the findings of the National Commission on Hunger.
    This Commission was created by legislative mandate in the Omnibus 
Appropriations Bill of 2014, with the following charge:

          To provide policy recommendations to Congress and the USDA 
        Secretary to more effectively use existing programs and funds 
        of the Department of Agriculture to combat domestic hunger and 
        food insecurity; and to develop innovative recommendations to 
        encourage public-private partnerships, faith-based sector 
        engagement, and community initiatives to reduce the need for 
        government nutrition assistance programs, while protecting the 
        safety net for the most vulnerable members of society.

    Congressional leaders from both parties appointed ten members to 
the Commission: three each by the Speaker of the House and the Senate 
Majority Leader (John Boehner, R-Ohio, and Harry Reid, D-Nevada, 
respectively, at that time); and two each by the House and Senate 
Minority Leaders (Nancy Pelosi, D-California, and Mitch McConnell, R-
Kentucky, respectively, at that time). The Commission members represent 
government, industry, academia, and nonprofit organizations. The 
biographies of each Commission member are included in the Appendix.
    At the outset of our work together, the Commission selected two of 
our members as co-chairs to guide our work: Mr. Robert Doar and Dr. 
Mariana Chilton.
    Between the two of us, we have over 35 years of experience in 
addressing poverty and hunger. Robert Doar spent nearly 2 decades 
administering many of our nation's major safety net programs in New 
York City and New York State, and Dr. Mariana Chilton has dedicated 
much of her academic career to studying hunger, its causes, and its 
consequences for low-income Americans. We have been honored to serve as 
co-chairs of this bipartisan Commission.
    The Commission's goal is to develop recommendations to Congress and 
the USDA that has the unanimous, bipartisan support of all our members. 
We are close to completing our report, and are honored to share our 
process with you.
    Over the last year and a half, we traveled to nine cities and heard 
testimony from 80 invited experts and 102 members of the public who 
provided testimony and advice during hearings, briefings and site 
visits. We also observed government and nonprofit programs designed to 
alleviate hunger. We talked with struggling Americans trying to ensure 
a better life for themselves and their children. We listened to state 
officials describe the challenges they face in serving their 
populations. Through this process, we gained insight into the root 
causes of hunger in America, why it is such a significant problem, and 
what improvements can be made.
    As is to be expected from bipartisan commissions, sometimes we saw 
the same things and reached different conclusions about solutions. 
However, we are working together to put forward a report that gains the 
unanimous endorsement from our members and presents a full picture of 
hunger in America. We are confident that consensus will soon be reached 
and hopeful that upon its release, the report will be considered 
carefully by Congress.
    Today, we will give an update on our findings and the themes at the 
center of our forthcoming report. We lead with our outline:

  I.  Our definition of hunger and its consequences.

  II.  The root causes of hunger.

  III.  The populations that warrant specific concern.

  IV.  Our priorities in recommending solutions and improvements.
I. Our Definition of Hunger and its Consequences
    Before we could reach any conclusions about hunger in America, we 
first had to agree about how to define and quantify it. We chose a 
measure of hunger called ``very low food security,'' defined as the 
disruption of eating patterns and reduced food intake for at least one 
household member because the household lacked money or other resources 
for food. As a Commission, we are in agreement that hunger is an 
important problem. We also want to be clear that the hunger seen in 
America is not the equivalent of the famine and severe malnutrition 
found in developing countries. In our judgment, the very low food 
security measure of hunger appropriately reflects the reality of 
serious hardship and focuses our attention on the U.S. households where 
the problem is most severe. By this measure, 5.6 percent of households 
(6.9 million households) reported hunger in 2014.\1\
---------------------------------------------------------------------------
    \1\ Coleman-Jensen A., Rabbitt M., Gregory C., Singh A. Household 
food security in the United States in 2014. Washington, D.C.: Economic 
Research Service, U.S. Department of Agriculture; September 2015. 
Available at http://www.ers.usda.gov/publications/err-economic-
research-report/err194.aspx.
---------------------------------------------------------------------------
    This is a troubling statistic because the research shows hunger has 
far-reaching effects on Americans of all ages. When children experience 
hunger, their academic performance suffers.\2\ Adolescents in families 
reporting hunger encounter more problems with mental health and 
thoughts of suicide.\3\ Adults that report hunger are more likely to be 
overweight and have other health problems.\4\ For seniors, hunger can 
lead to depression and reduced capacity to perform day-to-day tasks.\5\
---------------------------------------------------------------------------
    \2\ Hickson M., de Cuba S.E., Weiss I., Donofrio G., Cook J. Too 
hungry to learn: Food insecurity and school readiness, Part I of II. 
Boston, MA: Children's HealthWatch, Boston Medical Center; 2013. 
Available at http://www.childrenshealthwatch.org/wp-content/uploads/
toohungrytolearn_report.pdf.
    \3\ Alaimo K., Olson C.M., Frongillo E.A. Family food 
insufficiency, but not low family income, is positively associated with 
dysthymia and suicide symptoms in adolescents. J. Nutr. 2002; 132(4): 
719-725.
    \4\ Lee J.S., Gundersen C., Cook J., Laraia B., Johnson M.A. Food 
insecurity and health across the lifespan. Adv. Nutr. 2012; 3(5): 744-
745.
    \5\ Ziliak J.P., Gundersen C., Haist M. The causes, consequences, 
and future of senior hunger in America. Lexington, KY: University of 
Kentucky; 2008. Available at http://www.ukcpr.org/Publications/
SeniorHungerStudy.pdf.
---------------------------------------------------------------------------
    We believe that addressing this problem is a question of values--no 
one in a country as rich as ours should go hungry. And given these 
concrete consequences, we argue that reducing hunger should be an 
urgent priority of Congress.
II. The Root Causes of Hunger
    After hearing over 180 testimonies and visiting multiple cities, it 
is clear to the Commission that there are many factors leading to 
hunger in America. A simple explanation focused only on low household 
income or insufficient nutrition assistance ignores other critical 
causes. For example, underemployment and unemployment are major 
factors. Underemployment, which includes part time jobs with 
unpredictable and fluctuating amounts of hours, seasonal work, or very 
low wages, causes major income instability or sharp income 
fluctuations, which are associated with increased odds of hunger. 
Additionally, households without a working adult are disproportionately 
likely to experience hunger.\6\ The 2007-2009 economic downturn led to 
a more than doubling of unemployed workers, and hunger levels spiked 
correspondingly.
---------------------------------------------------------------------------
    \6\ Coleman-Jensen A. Working for peanuts: nonstandard work and 
food insecurity across household structure. Journal of Family and 
Economic Issues. 2011; 32: 84-97.
---------------------------------------------------------------------------
    Six years after the official end of the recession, hunger rates 
today remain at historically high levels. And the negative impact of 
labor market forces on hunger is not just cyclical. Due to 
globalization and automation, our economy has experienced structural 
shifts over the last 60 years that have led to fewer well-paying job 
opportunities for Americans without a college degree.\7\ Adverse labor 
market conditions weaken the best defense against hunger: adequate 
earnings from employment.
---------------------------------------------------------------------------
    \7\ Acemoglu D., Autor D., Dorn D., Hanson G.H., Price B. Import 
competition and the great U.S. employment sag of the 2000s. August 
2014. Available at http://economics.mit.edu/files/9811.
---------------------------------------------------------------------------
    Relatedly, we identified a strong relationship between hunger and 
education that works in both directions. Children experiencing hunger 
have lower graduation rates, while individuals without a high school 
degree are more likely to experience hunger than their peers who 
completed high school.<SUP>8-9</SUP>
---------------------------------------------------------------------------
    \8\ Alaimo K., Olsen C., Frongillo J. Food insufficiency and 
American school-aged children's cognitive, academic and psycho-social 
development. Pediatrics. 2001; 108(1): 44-53.
    \9\ Coleman-Jensen A., McFall W., Nord M. Food insecurity in 
households with children: prevalence, severity, and household 
characteristics, 2010-11. Washington, D.C.: Economic Research Service, 
U.S. Department of Agriculture; May 2013. Available at http://
www.ers.usda.gov/media/1120651/eib-113.pdf.
---------------------------------------------------------------------------
    A third critical factor is family structure. Marriage has a 
significant impact on whether or not a household will experience 
hunger: The hunger rate for households headed by married couples is 
3.2%, yet for households headed by a single mother with children, the 
rate is four times that at 12.8%. For households headed by single 
fathers, the rate is more than two times that of married couples at 
7%.\10\ Furthermore, children who grow up in single parent families are 
less likely to do well in school or graduate high school.\11\ The fact 
that 40% of children in the United States are now born to parents that 
are not married is a key explanation for the continued existence of 
hunger.\12\
---------------------------------------------------------------------------
    \10\ Coleman-Jensen A., Rabbitt M., Gregory C., Singh A. Household 
food security in the United States in 2014. Washington, D.C.: Economic 
Research Service, U.S. Department of Agriculture; September 2015. 
Available at http://www.ers.usda.gov/publications/err-economic-
research-report/err194.aspx.
    \11\ Pruett K. Father-need. New York, NY: Broadway Books; 2000.
    \12\ The vast majority of pregnancies among couples that are not 
married are unplanned.
---------------------------------------------------------------------------
    We also agreed that a full understanding of hunger requires 
acknowledging the fact that the historical legacies of racism in 
America and continued racial discrimination today affect access to 
jobs, home ownership, education, and affordable healthy food. The 
persistence of racial inequality contributes to hunger rates of 10.4% 
and 6.9% for African American and Hispanic households, respectively, 
compared to a 4.5% rate for white households.\13\ Additionally, there 
is a clear link in the research between exposure to violence and 
hunger.\14\
---------------------------------------------------------------------------
    \13\ Coleman-Jensen A., Rabbitt M., Gregory C., Singh A. Household 
food security in the United States in 2014. Washington, D.C.: Economic 
Research Service, U.S. Department of Agriculture; September 2015. 
Available at http://www.ers.usda.gov/publications/err-economic-
research-report/err194.aspx.
    \14\ Chilton M.M., Rabinowich J.R., Woolf N.H. Very low food 
security in the USA is linked with exposure to violence. Public Health 
Nutr. 2014; 17(1): 73-82.
---------------------------------------------------------------------------
    Finally, it is critical to acknowledge one other key ingredient--
the actions of individuals. We agree as a Commission that personal 
agency, responsibility, and the importance of individuals making good 
choices play a role in the extent to which Americans are hungry, and 
any discussion of hunger that ignores the importance of personal 
responsibility is incomplete.
III. Populations of Specific Concern
    In our study of this issue, we have discovered that certain groups 
in our country are particularly at risk of experiencing hunger. For 
instance, the number of seniors will increase dramatically over the 
next few decades, and it seems likely that the number of homebound 
seniors will increase correspondingly. Because this growth will further 
strain organizations on which many elderly Americans depend, such as 
Meals on Wheels, seniors will be a group that warrants attention. 
People with disabilities are also a population of specific concern as 
38% of all households experiencing hunger include an adult with a 
disability.\15\
---------------------------------------------------------------------------
    \15\ Coleman-Jensen A., Nord M. Food insecurity among households 
with working-age adults with disabilities. Washington, D.C.: Economic 
Research Service, U.S. Department of Agriculture; January 2013. 
Available at http://www.ers.usda.gov/media/980690/err_144.pdf.
---------------------------------------------------------------------------
    A third population we want to focus on is America's veterans and 
active duty military. A 2012 study of veterans of the Iraq and 
Afghanistan wars found that 12% reported hunger, and approximately 1-2% 
of active duty military members receive SNAP benefits.\16\ While there 
is little data on the extent of hunger among active duty military and 
veterans, we agree that this issue deserves careful research and 
consideration.
---------------------------------------------------------------------------
    \16\ Windome R., Jensen A., Bangerter A. Food insecurity among 
veterans of the U.S. wars in Iraq and Afghanistan. Public Health Nutr. 
2015; 18(5): 844-848; and U.S. Department of Agriculture, Food and 
Nutrition Service. Quick facts: SNAP participation among members of the 
Armed Forces. Washington, D.C.: U.S. Department of Agriculture, Food 
and Nutrition Service; February 2014. Available at http://mldc.whs.mil/
public/docs/report/qol/
SNAP_and_Military_Quick_Facts_Feb_2014_update_w_2010-2012_ACS.pdf.
---------------------------------------------------------------------------
    Our Commission is also particularly worried about the formerly 
incarcerated, who have difficulty finding jobs, adequate housing and 
opportunities to re-engage with their families and communities. As 
previously indicated, single parent families with young children are 
especially vulnerable to experiences of hunger. And immigrants and 
American Indians face particular challenges in gaining access to enough 
healthy food.
    As Congress considers what interventions should be used to reduce 
hunger, we recommend that these seven groups--seniors, single parent 
families, people with disabilities, veterans and active duty military, 
American Indians, immigrants, and the formerly incarcerated--be given 
special consideration.
IV. Priorities in Recommending Solutions and Improvements
    In our field visits and hearings, we saw and heard about public and 
private food programs that were effective in reducing hunger. We 
encountered research showing that the Federal Government's food 
assistance programs--SNAP, WIC, and school meals among others--are 
essential tools that effectively target those in need.\17\ However, the 
latest ERS statistics show that hunger remains elevated despite a 171 
percent increase in SNAP receipt since 2000. This illustrates clearly 
that food assistance programs are addressing the problem, but not fully 
solving the problem, and this Commission believes that, without a focus 
on root causes and emphasis on work and nutrition, we will continue to 
fail to end hunger. Our vital safety net programs provide a strong 
foundation on which to build a more effective approach to fighting 
hunger.
---------------------------------------------------------------------------
    \17\ Shafir E. Invited written testimony to the National Commission 
on Hunger. Professor, Princeton University Woodrow Wilson School of 
Public and International Affairs. Research Triangle Park, NC: National 
Commission on Hunger; July 26 2015. Available at https://
hungercommission.rti.org/Portals/0/SiteHtml/Activities/
WrittenTestimony/InvitedWritten/
NCH_Invited_Written_Testimony_Eldar_Shafir.pdf; and Rachidi A. Invited 
testimony before the National Commission on Hunger: Addressing very low 
food security among American households. Albany, NY: Research Fellow in 
Poverty Studies, American Enterprise Institute for Public Policy 
Research; May 13 2015. Available at https://hungercommission.rti.org/
Portals/0/SiteHtml/Activities/PublicHearings/AlbanyNY/
AlbanyNY_Testimony_Angela_ Rachidi.pdf.
---------------------------------------------------------------------------
    While we are still working towards consensus on the final specific 
recommendations, the Commission thinks reforms must speak to the 
following themes: work, nutrition and well-being, experimentation, and 
executive leadership. The primary goal of SNAP is to treat and prevent 
hunger, but it can also serve as a support for families as they enter 
the job market. We will put forward recommendations designed to help 
benefit recipients find work, improve work incentives in assistance 
programs, and encourage policymakers to evaluate the states' 
performance in helping employable recipients go to work so they can 
earn sufficient wages.
    We also believe that nutrition programs should be viewed as an 
opportunity to ensure healthy choices among recipients, and we will 
endorse evidence-based strategies to encourage good nutrition, promote 
health, and help recipients make positive choices for their families.
    Our Commission will also prioritize finding ways to directly 
improve the immediate well-being of vulnerable Americans. Our 
recommendations will involve increasing access to and coordination of 
essential safety nets, improving the support offered to military 
families, and encouraging civic engagement efforts to provide help to 
our neighbors in our own communities.
    We don't pretend to have all of the answers to the problem of 
hunger in America. Instead, we want policymakers at the Federal, state, 
and local level to experiment with new ideas and to advance changes 
that prove to be successful. We plan to recommend several pilot 
programs and to encourage rigorous testing and evaluation of these 
experiments.
    Finally, while Congress can move forward on many of our 
recommendations, addressing the root causes of hunger, and ensuring 
that we protect the most vulnerable citizens of America will also take 
very deliberate, cross-sector and cross-agency collaboration that is 
encouraged by Congress and led by the Executive Branch. This will 
ensure that the relevant agencies such as the Department of Health and 
Human Services, the Department of Education, the Department of Labor, 
the Department of Agriculture, and the Veterans Administration (to name 
only a few) coalesce around the common cause of ending hunger in 
America. This type of leadership, collaboration, and commitment will 
demonstrate to all Americans that ending hunger is an achievable goal.
    Thank you again for the opportunity to provide you with an overview 
of our work. We hope that our findings and recommendations prove useful 
in your efforts to help America become a stronger and healthier nation.
 Appendix: Biographies of Members of the National Commission on Hunger
    Mariana Chilton, Ph.D., M.P.H. is an Associate Professor at Drexel 
University School of Public Health and Director of the Center for 
Hunger-Free Communities. She directs multiple research studies on the 
impact of public policy on food insecurity and health and well-being 
among families with young children. (Reid appointee)
    Spencer Coates is President of Houchens Industries, Inc. and serves 
on its Board of Directors. He joined the Houchens family of companies 
in October 2003, after retiring from BKD, LLP, a national public 
accounting firm where he had spent 30 years serving in various 
capacities. (McConnell appointee)
    Robert Doar is the Morgridge Fellow in Poverty Studies at the 
American Enterprise Institute, where he studies how improved Federal 
policies and programs can reduce poverty and provide opportunities for 
vulnerable Americans. Previously, he served as Commissioner of the New 
York State Office of Temporary and Disability Assistance and 
Commissioner of the New York City Human Resources Administration. 
(Boehner appointee)
    Jeremy Everett is the founding Director of the Texas Hunger 
Initiative at Baylor University, a capacity building project that seeks 
to develop and implement strategies to alleviate hunger through 
research, policy analysis, education, and community organizing. 
(Boehner appointee)
    Susan Finn, Ph.D. is the CEO of the global consultancy Finn/Parks & 
Associates and a recognized leader and a respected communicator in the 
food, nutrition, and health arena. She is a leader in the Academy of 
Nutrition and Dietetics and is committed to advancing nutrition 
research and education. (Boehner appointee)
    Deborah Frank, M.D. is a child health researcher and the inaugural 
incumbent of a newly established Pediatric Professorship in Child 
Health and Well Being at Boston University School of Medicine. She 
began working at Boston City Hospital (now Boston Medical Center) in 
1981. In 1984, she founded the Failure to Thrive Program, now called 
the Grow Clinic for Children. (Pelosi appointee)
    Cherie Jamason is President of the Food Bank of Northern Nevada, a 
nationally recognized anti-hunger organization and recent Feeding 
America Food Bank of the Year. She successfully implemented the Nevada 
Child Nutrition Initiative providing summer food and after school meal 
programs for low income children throughout Nevada. (Reid appointee)
    Billy Shore is the founder and CEO of Share Our Strength, a 
national nonprofit dedicated to ending childhood hunger in America 
through its No Kid Hungry campaign. He is also the author of four 
books, including The Cathedral Within, and chair of Community Wealth 
Partners, which helps change agents solve social problems. (Pelosi 
appointee)
    Russell Sykes is an independent consultant working on multiple 
Federal and state projects focusing on Job Search in Temporary 
Assistance for Needy Families (TANF), Medicaid Reform, Social Security 
Disability and workforce engagement. He was the former Deputy 
Commissioner for New York State's Office of Temporary and Disability 
Assistance where he was responsible for the administration of SNAP, 
TANF, welfare-to-work and multiple other public benefit programs. 
(McConnell appointee)
    Note: Congressional leaders appointed ten people to the Commission, 
but one, Ricki Barlow (Reid appointee), later resigned for personal 
reasons and is not listed above. Institutional affiliations are 
provided for identification purposes only and do not imply 
institutional support or endorsement.

    The Chairman. Thank you to our panel, our witnesses. The 
chair would remind Members that they will be recognized for 
questioning in order of seniority for Members who were here at 
the start of the hearing. After that, Members will be 
recognized in order of arrival. I appreciate Member's 
understanding. I recognize myself for 5 minutes.
    Again, I thank the witnesses for being here. We scheduled 
this hearing in anticipation that the final report would be 
done in October, and so that is why we are a little bit out of 
sync, but I wanted to go ahead and bring the Co-Chairs in with 
us this morning to visit.
    Today is our tenth hearing on SNAP, which actually is more 
than the last three Congresses combined, and calls attention to 
an issue that is of great concern to all of us. We have made a 
conscious effort to proceed without preconceived notions, and 
with a desire to hear from a range of perspectives. We have 
heard from policy experts, advocates, practitioners, agency 
officials, and, most importantly, current and former SNAP 
recipients, and it appears that the Commission made a similar 
effort to cover a range of perspectives, and to open this 
process to public witnesses. You are both well versed in the 
topic of hunger, as are the other Commission members, and you 
could easily have met and brought your ideas to form your 
recommendations. Instead, you took a considerable effort to go 
beyond your own knowledge base, which is important to do. So, 
with that backdrop, what additional perspectives did you pull 
in that we might not have been addressing here so far?
    Mr. Doar. Well, Mr. Chairman, we definitely went around the 
country. We went to the West Coast, we went to Maine, we went 
to Texas, we went to Arkansas, and we saw a very comprehensive 
picture of the extent to which many Americans are working hard 
to address this issue, and we heard from people who were 
struggling. I don't want to compare what perspectives we got to 
what perspectives you get, because I presume you get all the 
perspectives too. But we did a comprehensive job. I think we 
talked to a lot of people, we learned a lot, we listened, and 
our report will reflect their voices, both from the not-for-
profit, or government, or advocacy community, as well as the 
recipient community.
    The Chairman. What surprised you, or stood out, as a result 
of your hearings? Dr. Chilton or Mr. Doar?
    Mr. Doar. I would say one was the enormous amount of not-
for-profit involvement that we saw. That surprised me. I didn't 
realize quite the extent of it. Second was that we did hear 
from recipients of the Supplemental Nutrition Assistance 
Program who were grateful for the assistance that they were 
provided, but hoped that the social services programs broadly 
would be more helpful in helping them get into full time 
employment.
    The Chairman. Dr. Chilton?
    Dr. Chilton. It certainly wasn't a surprise to hear that--
--
    The Chairman. Please talk into your microphone.
    Dr. Chilton. Thank you. It certainly wasn't a surprise to 
hear, across the country, from most of the people who are 
recipients of SNAP and the other programs, that their primary 
concern is finding access to well-paying jobs. When we were in 
New Mexico, and in Maine, and in Texas, we heard a lot about 
how the economy was still struggling, high unemployment rates 
and it is still, very difficult to find full time employment so 
that they could get off of SNAP. There was a strong desire to 
be off of the nutrition programs, and the other programs, but 
there was also a strong appreciation for how those programs 
were helping families to get through the day.
    I think some of the surprises were, I brought it up in my 
testimony, the rates of hunger among veterans. And we heard a 
little bit about active duty military, which were things that 
were very concerning to us, which we are hoping to investigate 
a little bit more. We were also hearing, especially in 
Washington, D.C., about the relationship between disability and 
food insecurity or hunger, and that was made to us very clear, 
especially by Saleema Akbar and several others in Washington, 
D.C. We heard many other things, but those were the things that 
surprised me. Certainly the veterans, we need more assistance 
from the Department of Defense and the Veterans' 
Administration.
    The Chairman. You mentioned Ms. Akbar. Were there other 
memorable witnesses that stand out, besides her experience that 
you can share with us?
    Mr. Doar. Well, that is a hard question. We heard a lot. 
This testimony that my Co-Chair refers to does reflect the kind 
of gap in services between someone who is, due to a physical or 
mental incapacity, is restrained to her home, and Medicaid and 
Medicare, and other programs, aren't actually set up that well 
to provide food assistance to them, or SNAP, while they are at 
home and cannot get out. That was an issue that I thought was 
striking to us.
    Dr. Chilton. In Maine there was someone who testified who 
has been a recipient of SNAP, and who has also been in and out 
of the workforce, and was also very appreciative of the summer 
feeding programs, but one of the comments that she made is that 
we spend so much time and effort figuring out how to coordinate 
summer feeding, or how to help people to not experience hunger, 
but that we aren't doing enough to address the underlying 
issues that are related to poverty. She wants more access to 
skills, more training, more opportunities to get out of 
poverty. And what was upsetting, and sad to hear, but also very 
revealing, was that the access to emergency food, and to other 
food programs, is good, but all that really does in the end is 
keep her in line, waiting for the box of food.
    Mr. Doar. Mr. Chairman, if I could just add one other, we 
also saw effective summer feeding programs that were located in 
schools, or libraries, where the children that came and 
participated in them received the benefit both of the 
additional nutrition, but also of the programmatic offerings 
that that program would offer, that there was a benefit in 
learning, and in growth, that went beyond just the provision of 
food. And that was inspiring to us.
    The Chairman. Okay. Thank you. My time has expired. Mr. 
Scott, for 5 minutes.
    Mr. David Scott of Georgia. Thank you, Mr. Chairman. I want 
to talk about our veterans, because it is a very, very 
particular disgrace and shame of this nation that disabled 
veterans, disabled, not just veterans, those who lost their 
limbs on the battlefield, those who suffer from PTSD from the 
battlefield, are twice as likely to be a part of a food-
insecure household. And according to the Center on Budget and 
Policy Priorities, between 2011 and 2013, 1.7 million veterans 
live in households that need, and that use, food stamps. And 
70,000 of those veterans, and disabled veterans, live in my 
home State of Georgia. For veterans who are struggling to 
overcome obstacles to feed their families, food stamps make a 
crucial, crucial difference.
    But now the question, Dr. Chilton, the question is, given 
all of this, despite all this knowledge, we have people who 
want to cut food stamps, who want to limit food stamps. When we 
have our dear soldiers, who have given their all on the 
battlefield, 1.7 million of them living in households where 
they need and use food stamps. Why? What in God's name is 
causing people to want to so drastically cut a program of food 
stamps when our soldiers need it to exist? Can you answer that 
for me?
    Dr. Chilton. Thank you very much for your question. As a 
Member of Congress, you might be better poised to answer the 
question about why there is interest in cutting the programs. 
From my perspective as a scientist, my sense is that many 
legislators, and just the general public, do not understand 
what the experience of hunger is like. They may have this 
notion that hunger is a type of an eyeball diagnosis, that 
somehow we can see it on a person's face, or see it very 
easily. But hunger manifests in very invisible ways, but very 
harmful ways. It manifests in poor mental health, poor physical 
health, inability to get along with your peers, especially for 
children. For adolescents who are experiencing food insecurity, 
it is related to thinking about suicide. So it is hard to see 
it, and there is a lack of understanding about what the true 
issues really are.
    Mr. David Scott of Georgia. Dr. Chilton, and you too, if 
you have something----
    Mr. Doar. Sure.
    Mr. David Scott of Georgia.--to add to this----
    Mr. Doar. Yes.
    Mr. David Scott of Georgia.--because this is a very, very 
burning issue. I work closely with veterans. I have jobs fairs 
every year, health fairs, and I partner it with the VA in 
Atlanta, Georgia, with Ms. Leslie Williams, who you may know is 
Director of the VA program in Atlanta, and Al Bocchicchio, who 
is the Regional Director for the whole region. The issue is, 
and you put your finger on it, we in Congress sit here. Many of 
those voices who want to cut this program come from Congress, 
comes from us. And so what I want to ask is, what is it going 
to take to finally get the issue of food stamps to be addressed 
properly? And if we are not willing to do that for our 
soldiers, I mean, how does that speak of our nation?
    Mr. Doar. Congressman, one of the motivating factors behind 
this discussion is the extent to which we have had, over the 
last 7 or 8 years, a very significant increase in SNAP 
expenditures and SNAP recipients. And yet, at the same time, we 
have had a stubbornly high very low food security measure, at 
about 5\1/2\ percent, which has not come down despite this--and 
also big increase in school meals as well. All I would say is 
that what we did hear was some frustration about that may not 
be enough, you need to do other things as well to help people 
escape hunger.
    And that is what is happening when we have discussions 
about SNAP not being sufficient, or doing enough, or being 
effective enough. It is effective, but it is frustrating to 
have, really, record high expenditures and number of 
recipients, and also record high very low food security 5 years 
after the end of the recession.
    Mr. David Scott of Georgia. Well, just in conclusion, Dr. 
Chilton, and I know you have passion for the veterans, and this 
is what my passion is as well, and it is certainly the passion 
of all of us in Congress, but whatever you can do to help get 
this misguided vision of us here in Congress, and to lay out 
and continue to stress the dire need of correcting this 
terrible imbalance on food stamps, and use the examples of how 
critically our veterans need it----
    The Chairman. The gentleman's time has expired. Austin 
Scott, 5 minutes.
    Mr. Austin Scott of Georgia. Thank you, Mr. Chairman. Ma'am 
and sir, thank you for being here today. And one of the things 
that certainly I wrestle with is the balance between access of 
the system for those who need it, and that it was designed for, 
and the integrity of the system, where we have certainly some 
abuses. I don't think it is a huge portion of the program, but 
I do think that it is important for us to maintain the 
integrity of any program that we have in Washington. The other 
thing that I see is different policies that are put in place 
that increase the cost of food. If the cost of food goes up 20 
percent, then that is 20 percent less in calories, assuming 
they were buying the same foods----
    Dr. Chilton. Yes.
    Mr. Austin Scott of Georgia.--that they would have that 
they took home. Another issue that I see, quite honestly, is 
abuse at the retail level, where many poor people in this 
country end up paying significantly more for a gallon of milk 
than my wife and I pay for it when we go to the local grocery 
store and shop. I don't know that we can mandate fixes to all 
of those things, but I do know that the only way out of poverty 
is a job, and work. And the easier it is to create a job in 
this country, the easier it is to own a business in this 
country, the easier it is going to be for people to find that 
work to hopefully work their way out of poverty. And the goal 
would be to get them to the point where they no longer needed 
to be on the program.
    So one of my key questions--you do a nice job highlighting 
the positive effects of work. I think that is a bipartisan 
effort in the Commission.
    Dr. Chilton. Yes.
    Mr. Austin Scott of Georgia. Do you think that the current 
structure of the SNAP program discourages work?
    Dr. Chilton. I will start in on that. I am not really sure 
I would use the word discourage, but there is an issue that our 
Commission has really investigated, and that is it turns out 
that very low food security is often reported by people who are 
earning a little bit more than some people, and if they lose 
their SNAP benefits because they find a better job, they may 
have gotten a raise because they are doing well in the 
workforce, it is possible that they are losing their food 
stamps too soon, before they are able to adjust to the new 
income.
    And we have research with the Children's HealthWatch study, 
I am a member of that study. I know my colleague, Dr. Eddie 
Ochoa, was here a few weeks ago. It is a part of our research 
that shows that when families earn a little bit more, and then 
lose their food stamps, that they are more likely to report 
child hunger, which is the most severe form of food insecurity. 
It is a little bit counterintuitive, so something is going on 
there in the SNAP program where our Commission thinks that we 
could do a better job incentivizing people into the workforce. 
And a part of that may be lengthening the amount of time that 
we give families to stabilize themselves so that the income 
fluctuations don't push a person off of the SNAP benefits, and 
it makes them hungrier than they were before.
    Mr. Austin Scott of Georgia. In other words, if I make $1 
too much to qualify, I could lose hundreds of dollars worth 
of----
    Dr. Chilton. Yes. In a manner of speaking, yes.
    Mr. Doar. And in addition, there was testimony, and the 
Commission members came to believe that the programs that 
provide assistance to low income Americans do not work well 
together to help people who are on SNAP get into work. And we 
will make recommendations concerning greater encouragement, 
greater encouragement of collaboration, greater focus on that 
minority of SNAP recipients who are adults, and could work, but 
are not reporting earnings on their case.
    Mr. Austin Scott of Georgia. I think this is an issue not 
only with SNAP, but with other things as well, where if you 
make $1 too much, then if you put in that extra effort, and you 
work the overtime, it costs you more.
    Mr. Doar. Absolutely. That came up, the disincentive, and 
the marginal tax rate issue for people who are trying to 
transition off of benefit programs. There was a feeling that we 
don't have it quite right in this country in how we encourage 
people to get to self-sufficiency, as opposed to remaining on 
assistance, and maybe working less.
    Mr. Austin Scott of Georgia. I am almost out of time, but 
as you write the report, I would appreciate your opinion on 
that balance between access and integrity, and how we hit those 
areas of abuse. With that, Mr. Chairman, I yield the remainder 
of my time.
    The Chairman. The gentleman yields back. Ms. Fudge, 5 
minutes.
    Ms. Fudge. Thank you very much, Mr. Chairman, and I thank 
you both for being here. Certainly I really very much 
appreciate the discussion you were having about veterans, and 
just want to bring to your attention that today at noon there 
is going to be a briefing in Canon 340 about veteran food 
insecurity. So if anyone sitting here today would like to 
attend, certainly it is open to you.
    Let me just say that I thank the witnesses for the work 
they do. I thank you very much for how dedicated you are to 
eradicating hunger. And please do understand that what I am 
about to say does not have anything to do with you, is not 
directed to you, or any other person who has testified about 
SNAP or food insecurity. This is our tenth hearing on SNAP or 
food insecurity. It has, in fact, become an exercise in 
futility. It is a waste of our time if we are not going to do 
something about it. We can talk, and talk, and talk. I have no 
idea what the outcome is, or what we are even looking to do. 
What I do know is that hunger is not a game. It is not 
something that we play with. It is life and death for far too 
many Americans.
    We know the statistics. We have the data. We know the 
problem. I don't know why we keep asking you. We know the 
problem. We know about hungry veterans. We know about hungry 
seniors and hungry kids. When are we going to stop talking and 
do something? We can talk forever and never change one person's 
life. So the next hearing I want to go to about SNAP is how we 
are going to make it better. I don't want to hear any more of 
this. Enough. Let us do what the American people sent us here 
to do. We need to take care of our poor. We need to take care 
of our children. We need to take care of our veterans. It is 
time to stop talking. I yield back.
    The Chairman. I thank the gentlelady for yielding back. Mr. 
LaMalfa, 5 minutes.
    Mr. LaMalfa. Thank you, Mr. Chairman. That is why we do 
come here and talk, is to have a dialogue about how we improve 
a system that is in place that is helping many, many children, 
and people on the lower end of the income scale. We just want 
to target that better, because we are all about having it be 
effective, and having people's tax dollars be stewarded 
carefully as well, too. There are both ends of that scale that 
you hear. So I hope the hearings will produce a better 
coordinated effort there, what your efforts have done with your 
panels around the country, it looks like. So how many of those 
have you convened around the country? I am aware of one you had 
in Oakland, and----
    Dr. Chilton. Seven. We were in Albany, New York, Oakland, 
California. We had a roundtable discussion in Albuquerque, New 
Mexico, and had a site visit in New Mexico. We were in Little 
Rock, Arkansas, El Paso, Texas, Portland, Maine----
    Mr. LaMalfa. Were they all similar----
    Dr. Chilton.--Washington, D.C.
    Mr. LaMalfa.--similar type hearings, with many witnesses, 
or did----
    Dr. Chilton. Yes. We started out with about eight to ten 
invited witnesses, and then we opened it up for at least 2 
hours for public testimony, where anyone could sign up, and we 
had a variety of people. We had about 80 invited testimonies, 
and 100 uninvited, or just public testimonies.
    Mr. LaMalfa. Now, we were supposed to have a report in 
October. What held that up from--I guess it is going to be 
December now?
    Mr. Doar. It is a hard thing, reaching a unanimous 
conclusion, and it was important to us. We wanted to have this 
diverse group come together unanimously and endorse something 
that they all could stand behind. And that required some 
intense discussions and meetings, and writing it, getting it 
right. We had felt obligated to our customer, the Congress of 
the United States, to produce a report that we could be proud 
of. And, we didn't get it done, but we----
    Mr. LaMalfa. All right. Well, I appreciate the effort.
    Mr. Doar.--next month.
    Mr. LaMalfa. I appreciate the effort. IRS demands I get 
mine done on time. I am just kidding you a little bit there, 
the thing you are talking about here with the gap, Mr. Scott 
was talking about that it has puzzled me for a long time, even 
before I have been here in this political world. You can have 
the so-called welfare cliff, where they have a certain amount 
of income from public assistance, and then if they get a job, 
they find that they are lower than that.
    I have always felt the need to find a better way of 
tapering that to where a job, whether they have been able to 
become employed, or a better position or whatever, that will be 
a net plus to them to be employed, and if they are receiving 
some sort of assistance, whether it is SNAP or others, that 
they are better off, and that the incentive to advance is 
better, if they are in a position without disability, or 
retirement, whatever, that they can do that. So I hope the 
efforts of this Commission will help us to shape that. It is 
something that I am surprised we are not really aware of after 
all this time. Ms. Fudge was frustrated we talked a lot. Well, 
I guess I would be frustrated too that we don't know this 
already, of how to----
    Mr. Doar. Yes.
    Mr. LaMalfa.--get there.
    Mr. Doar. The issue is the coordination of the benefits 
across programs. That is the hard part, as a former 
Administrator of all these----
    Mr. LaMalfa. That is the thing here; we don't talk enough 
in this town of the cost of doing business. I am a farmer in my 
real life, and the cost of producing food, whether it is me and 
rice, or my colleagues and dairy, or----
    Mr. Doar. Yes.
    Mr. LaMalfa. There are so many costs that raise the cost of 
delivering a product from the field, or the handling. You have 
intervention, environmental regs, and you have the labor regs, 
you have health regs, some of them very well intentioned, some 
of them way off the mark. We are having food costs, or other, 
like, Health Department issues, where people that want to 
donate food, or they want to help people in certain ways, find 
barriers to that. Stupid barriers, sometimes, because of a 
bureaucrat somewhere saying, you can't do this, and people are 
ready to help. Or you have somebody saying you can't do that 
because it might cause a labor problem, something like that. I 
hope we can really identify these cost of doing business 
barriers that aren't necessary. Whether it is producing the 
food--and we talked about jobs. Mr. McGovern, Mr. Scott also 
mentioned that if we had more jobs available in this country. 
We don't have a jobs economy lately. We have trillions of 
dollars offshore that would like to be repatriated back to this 
country. Probably not your bag here, but there are issues that 
we need to do to have a jobs economy in this country, and raise 
people up from that.
    So the cliff, was this brought up a lot in the public 
testimony on your various stops?
    Dr. Chilton. Not only was it brought up in our testimonies, 
but we also were reviewing the research. It is about 20 years 
of food insecurity research that we were investigating, and 
also talking to administrators about the experience of trying 
to administrate staff, and helping people to find jobs. And so 
it was not just in the testimonies that we heard it, but we 
also see it in the research.
    Mr. LaMalfa. I thank you. I will yield back, Mr. Chairman.
    The Chairman. The gentleman's time has expired. Mr. 
McGovern, 5 minutes.
    Mr. McGovern. Thank you, Mr. Chairman. Again, let me thank 
you for your testimony, and for the work that you have done. 
This is big. This is a very important issue. We should all be 
ashamed that there are so many people, of all ages, in our 
country--the richest country in the history of the world--that 
are hungry. And we also should be ashamed about the fact that 
our response has not been particularly effective here in 
Congress. And, in fact, those of us here have actually cut 
SNAP. We cut it in the farm bill. We didn't renew the stimulus 
monies, so some people saw actually a decrease in their 
benefit. So, we have made people's lives more difficult because 
of some of the things that we have done.
    You mentioned the importance of cross-sector and cross-
agency collaboration, and more help from the Executive Branch. 
I hope that you will help me, and be specific with the 
Administration that they ought to do a White House conference 
on food, nutrition, and hunger. We need White House leadership 
to convene all the agencies and the departments together, as 
this issue falls under various responsibilities from various 
agencies and departments, as it does here in Congress. It is 
not just the Agriculture Committee with oversight. There are a 
number of other committees that do as well, so we need to work 
together. And so, whatever your recommendation is, you have to 
be specific, because people don't get it if you are vague. You 
need to be specific, and say to the White House, you have to do 
this. And, hopefully in a bipartisan way, we would support 
that. So I appreciate your comment on that.
    The other thing is: Mr. Doar, you talked about flexibility, 
and I have to tell you, I get nervous when people say 
flexibility. The way I look at flexibility, and the way some 
people look at flexibility, we have two different definitions. 
If flexibility means block granting this program and limiting 
the amount of resources to go to help feed hungry people so 
that it is not based on need, but based on a defined number. I 
have a problem with that. I have no idea what the economy is 
going to do. I hope it gets better, and better, and better, and 
fewer people need it, but I do worry about that.
    And the other thing is, as I understand it, under current 
law, states already have quite a lot of flexibility in how they 
administer their program, and how it interacts with other 
social programs. There is even extra funding available for 
states who want to expand employment and training, plus 
matching money for administrative expenses, and farmers' 
markets programs, among other things. And so, I am puzzled 
about the continued call for more flexibility, when many states 
don't take advantage of the flexibility that already exists. I 
would like you to comment on that as well. Also, in your 
hearings' testimony, did you bump into anybody who said cut the 
program, cut SNAP more, cut nutrition programs more, or anybody 
come out and say, block grant it, so that it is not based on 
need, but based on just a defined number?
    Mr. Doar. Well, we did get testimony on work requirements, 
and we got testimony on the ineffectiveness of SNAP over these 
past years to bring very low food security down, so there was 
some testimony along those lines. On flexibility, I am a former 
State Administrator from New York. We used flexibility to the 
extent that we could to do a lot of good things. As someone who 
had oversight from SNAP, Medicaid, cash welfare, and child 
support enforcement, I would say that the SNAP one was the one 
that I felt the most rigorous oversight and holding on us. 
Although, through elaborate processes of applying for ability 
to do waivers, you could get some flexibility.
    I am kind of a state guy. I like giving states----
    Mr. McGovern. I love states too. I love my state, but I am 
just simply saying that states are given a lot of flexibility 
right now, a lot of which they don't take advantage of. And I 
am all for flexibility, as long as it is not code for cutting 
the program, or eliminating the benefit.
    Mr. Doar. Well, the Federal Government can put restrictions 
on it, with regard to benefit levels or other, but I definitely 
feel that there is innovation opportunities out there if states 
were given greater ability to do more and different things, 
especially around work. One of the E&T, you have to come up 
with a local match in order to----
    Mr. McGovern. Right.
    Mr. Doar.--get most of the dollars. That puts a little bit 
of pressure that makes them put money in the game, and I 
understand why the Feds would want that, but it does make 
states reluctant to do more on work and food stamps.
    Mr. McGovern. And Dr. Chilton, do you want to comment? And 
will you comment----
    Dr. Chilton. Certainly.
    Mr. McGovern.--on whether we should have a White House 
conference so we can get the White House listening----
    Dr. Chilton. Yes.
    Mr. McGovern.--they will actually do something?
    Dr. Chilton. I will----
    Mr. McGovern. Yes.
    Dr. Chilton. I will get to that in a second.
    Mr. McGovern. Okay.
    Dr. Chilton. Talking about flexibility first, actually, in 
the employment and training programs, it turns out that, in the 
states that are trying to administer those, and trying to 
enhance those that the instructions are actually very 
confusing, and it is very difficult for them to figure out how 
to tap into subsidized employment. Also, we have heard from 
state administrators that when families are on this, and when a 
person isn't in an employment training program, and they get a 
job, that they lose their SNAP benefits too quickly, they are 
off the program. That also needs to be something that we look 
at.
    So there are some very positive ideas related to 
flexibility that we could explore. One thing that is very 
concerning, that we heard in New Mexico, however, is that the 
Governor of New Mexico is now trying to institute a work 
requirement, a work participating type of requirement, for 16 
and 17 year old children to participate in unpaid work. This is 
very concerning. It actually may not be allowable by Federal 
Law. So there are some times when states may take things into 
their own hands, and make matters worse.
    On the issue of Executive leadership, we will make very 
precise recommendations, as precise as we can make them, as a 
non-Congressional type of a Commission. We are going to pitch 
it all to you, and we hope that you can put it in statute to 
make sure that the Executive Branch is actually taking some 
leadership, and incentivize the cross-agency collaboration. It 
has to be incentivized, and we have to actually think beyond a 
conference. It needs to be ongoing leadership at the highest 
levels of the White House.
    Mr. McGovern. I appreciate it.
    The Chairman. The gentleman's time has expired. Mr. Kelly, 
5 minutes.
    Mr. Kelly. Mr. Doar first, but follow up if you need to, 
please, ma'am. Can you talk about the selection process, and 
why you believe it was the appropriate cross-section of the 
Commission? Mississippi, my state, is one of the highest food 
insecurity states in the country. We have the highest poverty, 
the highest obesity rates, which quite often go with hunger. We 
have actually, a lot of the people who are in the poorest area 
are actually in the areas where the food is grown, which are 
the poorest, and have the least food, which does not make 
sense. But you chose other food-insecure areas that are much 
less insecure in food, like Albany, or Oakland, as opposed to 
going to the Deep South, where some of the heart of the problem 
is. Do you feel like the Commission maybe should have looked at 
those areas?
    Mr. Doar. I definitely feel that it would have been better 
to go to more places, and it would have been nice to go to 
Mississippi. We did go to Little Rock, and we did go down into 
the Delta, and to----
    Dr. Chilton. Pine Bluff.
    Mr. Doar.--Pine Bluff, Arkansas. So we got a sense of that. 
Arkansas also has very high food insecurity rates. I think the 
highest in the country.
    Dr. Chilton. Yes.
    Mr. Doar. So we tried to do that. But, Congressman, you are 
right to wish that we would been able to do more.
    Dr. Chilton. What we did learn about in Pine Bluff in 
Arkansas is that there is a major struggle. And in Pine Bluff 
especially, their primary concern, again, was jobs, well-paying 
jobs that had good safety measures for occupational hazards. 
The major employers in that area, the fastest growing 
employment opportunity is the Department of Corrections. That 
was very concerning to us, and also very concerning to the 
people in that area, who are losing their youth who are moving 
to the city, looking for jobs, because there is nothing else 
happening there. There are very high rates of hunger, and 
Arkansas itself had the biggest increase in the previous years.
    We should have gone to Mississippi. We had very little 
time. It was a little bit difficult to get the money for us to 
travel. But we do hope that you, sir, could potentially make 
something happen to create an official visit to your state so 
that you could really investigate, and hear from people who are 
struggling, and then bring that back to Congress.
    Mr. Kelly. Yes. And this is a comment, it is not a 
question. But, people like to use us for the poster child of 
all the last, and those things, or the 49th or the 48th. You 
think you would start there, going to veterans, that is very 
dear to me, okay? And when we talk about veterans, there are 
two points that you made. Number one, that 12 percent of our 
veterans are under-nutritioned, or hungry.
    Dr. Chilton. Yes.
    Mr. Kelly. The second part of that is, having served, and 
being able to see those soldiers at the E1 through the E4 
level, who, quite frankly, a lot of time are newlywed, 
sometimes have children and those things, you said 12 percent 
of veterans, and I am assuming that is folks who have served in 
the past, but what percentage of our actually currently serving 
E1s through E4s in the military service have children or 
families who are undernourished?
    Dr. Chilton. Sir, I am sorry, we don't have that specific 
data, and one of our recommendations that we will be making is 
that we need to do a better job of measuring food insecurity 
and SNAP participation among our veterans and active duty 
military. Right now it is very difficult for us to get that 
information. It is not readily available. It is not formally 
collected, and we think that should be collected. And what will 
help us--this is the idea of being uncounted or discounted. We 
need to make sure that we are counting those families that are 
being missed by our samples nationally. And we can't do 
anything about it, we think, if you can't measure it and see 
some kind of a movement on it, try to find a way to intervene.
    Mr. Kelly. And, again, I will just reiterate, I don't know 
the numbers, but I have served with those guys----
    Dr. Chilton. Yes.
    Mr. Kelly.--so I know that they can't afford to feed their 
families sometimes on what they are paid.
    Dr. Chilton. Yes.
    Mr. Kelly. And the hard part of that is that most of these 
guys and girls, who cannot afford--the same gene that drives 
them to serve this great country at a very low profit to them 
also keeps them from asking or requesting assistance from a 
government which they love so much they would die for. So, 
again, I guess the whole point in my thing is let us look at 
the areas where it is most prevalent, and that would be our E1s 
through E4s, and the active duty military, and the poorest of 
poor states, the Deep South, the Mississippis, so that our 
recommendations reflect what best helps those who have the most 
need. And with that I yield back, Mr. Chairman.
    The Chairman. The gentleman yields back. Mr. Aguilar, for 5 
minutes.
    Mr. Aguilar. Thank you, Mr. Chairman. Thank you both for 
being here as well. A couple of my colleagues have picked up on 
the nine visits that you made, and I wanted to talk a little 
bit about the--the number was 80 experts as well. So what 
process did you use to reach out to pick experts at these site 
visits to listen to? Was it coordination with the states and 
coordination with other groups? How did that process come 
about?
    Dr. Chilton. First of all, we reviewed the research that 
the staff created for us for the Research Triangle Institute, 
RTI. We looked at the populations that were the most 
vulnerable, and then we looked at the states that had the rates 
of very low food security, in other words hunger, and where 
there were major increases. Because of the limited amount of 
funds that were allotted to our Commission, and the limited 
amount of time, we worked through our networks to figure out 
where we could go in a way that would be low cost. So it was 
primarily through our own networks, and through navigating 
where the highest rates of hunger were that allowed us to get 
to Arkansas, Texas, New Mexico, et cetera. We also worked very 
closely with the Southwest Regional Office at the United States 
Department of Agriculture, and we collaborated with the USDA 
throughout to try to help us with these hearings.
    Mr. Doar. And we promoted our hearings, and made sure that 
people were aware that they were taking place, and invited all 
comers to come and participate. And we stayed for as long as 
possible to hear all that could be offered.
    Mr. Aguilar. Sure.
    Dr. Chilton. Well, one last thing. In El Paso we also had 
on site interpretation, live interpretation from English to 
Spanish, Spanish to English, and that was available to everyone 
as well----
    Mr. Aguilar. Was that the----
    Dr. Chilton.--in El Paso.
    Mr. Aguilar. That was the only venue where----
    Dr. Chilton. That was the only venue, unfortunately.
    Mr. Aguilar. Okay. The public comment is admirable, I 
appreciate that. I viewed this as kind of three buckets, so, 
one, how did you pick the cities and the sites, how did you 
pick the experts, and then public comment would be another. So 
I kind of read it in that perspective.
    I know this is a bipartisan Commission, Dr. Chilton, and I 
appreciate that the Commission acknowledges that historical 
racism and continued racial discrimination play a role in food 
inequities and hunger. At the rate at which SNAP supports 
minority families, do you believe it can help close the gap 
between minorities and white communities? If not, what 
recommendations do you suggest to close these racial 
inequities?
    Dr. Chilton. Thank you very much for the beautiful, and 
extremely important question. Unfortunately, we have seen the 
racial and ethnic inequities in food insecurity since we have 
been measuring food insecurity in this country, and there has 
been no change in those disparities. That is very problematic, 
and I actually don't think that if we continue to administer 
SNAP in the current way that we do that we will be able to have 
an influence on reducing those racial and ethnic disparities.
    Currently most of the agencies from the United States 
actually have an Office of Minority Health, have a particular 
incentive to reduce disparities. I don't think that, within the 
United States Department of Agriculture, there is any type of 
leadership on reducing disparities. There is no major office 
that is looking at it. And, indeed, it turns out that with 
American Indians, who have some of the highest rates of hunger, 
the USDA does fund some very excellent programs, that we heard 
some very positive things about, but the tribes are 
continuously complaining that they don't have access to tribal 
foods. The USDA is asking for studies on American Indian 
hunger, but it doesn't feel as if they are doing enough to try 
to reach out to American Indian communities to make sure that 
they can reduce those rates.
    We need a more coordinated effort within the USDA, and, of 
course, across the agencies, more Executive leadership. The 
people who are coming out of prison have extremely high rates 
of food insecurity and hunger. I don't want to get into a 
conversation about mass incarceration, but I do think that, as 
we change the prison systems in the United States, that will 
actually help us to reduce food insecurity and hunger, and 
reduce some of the disparities. But we need a more 
comprehensive look, and more leadership at the top.
    Mr. Aguilar. Thank you so much. Mr. Doar, you mentioned the 
summer feeding program. In response to a question just a little 
bit ago, you talked about something that you learned within the 
summer feeding program that includes what I interpreted was 
kind of education and recreation, a more kind of inclusive view 
of summer feeding programs. Could we see recommendations that 
include that within the report?
    Mr. Doar. Well, we are going to say that we are impressed 
by it, and the aspect of summer feeding, and we are going to 
talk a little bit about how summer feeding could be expanded. 
But that is what I came away from, was that the dual benefit of 
summer feeding, both the food and nutrition and the 
programmatic aspect, was a two-fer. It made the program more 
effective than if you were, for instance, doing home delivered 
or EBT delivered food assistance. So that was my comment. I 
think that the households that are struggling with food 
insecurity or very low food security also have other issues, 
and sometimes those other issues are addressed by coming to a 
place in their community where they can get other kinds of 
programmatic interventions.
    Mr. Aguilar. Thank you. Thank you, Mr. Chairman.
    The Chairman. The gentleman's time has expired. Mr. Yoho, 5 
minutes.
    Mr. Yoho. Thank you, Mr. Chairman. Thank you for being 
here. A couple things come up. One is the root cause of hunger, 
reading your reports here, and where it says the fact that 40 
percent of the children in the United States are now born to 
parents that are not married, and it is a key explanation for 
the continued existence of hunger. Do you have any 
recommendations on how we can structure the family--and I 
believe in a traditional family, but I am not going to dictate 
that to anybody else, nor should the Federal Government. But 
what metrics can we look at to incentivize a family unit, 
whatever that person defines it as, because I know there are 
single mothers or single dads out there, and they have a family 
unit, and it may be different than what I see.
    What do you see that we can do differently to incentivize a 
situation where that single family doesn't have this problem? 
Because, with all the programs that I see, we are treating the 
symptom. The the underlying cause it says here the root cause 
is the single parent household. What have you guys come up 
with, or recommendations, whether it is tax incentives--I know 
we can have another program, and we can grow it, and we can 
grow it, and we can grow it, but the problem doesn't go away. 
And if we don't address the underlying problem, it is like 
dealing with a metastatic lesion in a cancer, and we are just 
treating that, not the underlying tumor.
    Mr. Doar. Congressman, you will see in our final report 
that we addressed issues that we thought were underlying 
causes, like the growing prevalence of single parent families, 
as being a contributing factor to higher rates of hunger in low 
income families. But we also recognize the methods to address 
them were beyond the charge of the Commission, which was to 
focus mostly on food and nutrition programs. And so we 
addressed them, and asked Congress to take a comprehensive look 
at these issues, but it was beyond our charge. And for the 
purposes of this testimony today, in other contexts, I talk 
about this issue often, but as a member of the Commission, all 
we could say was, this is an issue, it is a contributing 
factor, it can't be ignored, it needs to be talked about, kids 
need two parents. But we didn't come up with, for the purposes 
of this Commission, solutions or answers. They exist, but that 
was not what the Commission decided to tackle.
    Dr. Chilton. That is our story, and we are sticking to it.
    Mr. Yoho. All right. Well, then, you lead me into another 
one, and you gave me the perfect segue, because I wasn't sure 
how to ask this question. I wasn't sure how to ask this 
question, but your conversation with my previous colleague was 
perfect. You were talking about the ethnic disparity that you 
see in different ethnic categories. And you were talking about 
the hunger rates--or you weren't talking about that, but 
reading in this report, the persistence of racial inequality 
contributes to hunger rates of 10.4 percent, 6.9 percent for 
African Americans and Hispanic households, respectively. What 
is it in other minorities, like, say, the Chinese, or Iranians, 
or the Cubans, Vietnamese, or Indian households? Are those 
numbers large enough to do an analysis and a comparison, and 
what are the results of those? What are you finding?
    Dr. Chilton. Thank you so much for the question. It is 
actually very difficult to drill down, in any kind of 
meaningful way, for Asian populations, and Asian is a very, 
very broad category. There are a number of studies that look at 
people who are immigrants, but those studies are very small 
studies, and very localized, so in certain areas of the country 
we can pick up immigrants from Vietnam, et cetera. We can pick, 
for instance, with Children's HealthWatch, we are picking up 
the Somali population in Minneapolis, because that is where 
they are tending the refugees----
    Mr. Yoho. Right.
    Dr. Chilton.--are locating. We don't have enough 
comprehensive information nationally to make any kind of a 
strong sense of what the estimates are. We can only talk about 
necessarily immigrants, or people of a variety of ethnicities, 
but we don't have enough information, the way that we are 
measuring hunger right now, to be able to drill down. And that 
is something that we are hoping we will be recommending in our 
report, is to be able to drill down so we can figure out what 
is happening in a more precise way.
    Mr. Yoho. Well, that is interesting, because I have talked 
to people from the islands, Jamaica, and some of the other 
places, and I say, what do you view as poverty in your country? 
And they say, we don't view it as poverty. That is just the way 
it is, and we deal with it. And I don't know if we are, we 
always talk about creating a dependent structure in this 
country, and I don't know if we need to look at it differently 
because you don't hear about the disparity in, say, some of the 
other ethnic groups, and I want to know why. Is it a stronger 
family unit, or these other things, that we can take that 
information and utilize it here, and say, you know what, it 
works here in this group, why don't we assess that, and 
implement it here, and do a study on that? And so, with that, I 
yield back, and I appreciate your time and your work. Thank 
you.
    Dr. Chilton. Thank you.
    The Chairman. The gentleman yields back. Mr. Ashford, 5 
minutes.
    Mr. Ashford. Thank you. This is very interesting. I am 
interested in your point about that it is really our job to 
address these things, and maybe we haven't. Is it correct to 
say that the last real comprehensive legislative approach to 
poverty was the War on Poverty in Johnson's Administration? Has 
there been any other real comprehensive big look at poverty?
    Mr. Doar. Well, the welfare reform of 1996 was a----
    Mr. Ashford. Okay.
    Mr. Doar.--significant piece of legislation, and----
    Mr. Ashford. Okay. And that was----
    Mr. Doar. And led to reductions in poverty. And the farm 
bill every year, Earned Income Tax Credit expansions--sometimes 
I get a little frustrated with people thinking the last time we 
looked at poverty was 1965. Back----
    Mr. Ashford. I was just asking----
    Mr. Doar.--Congress--President--on that for a long time, 
and some progress was made, and some setbacks have occurred.
    Mr. Ashford. So I guess the answer is that wasn't the last 
time?
    Mr. Doar. No.
    Mr. Ashford. Okay.
    Mr. Doar. It was not.
    Mr. Ashford. No, but I----
    Dr. Chilton. We have not had a comprehensive view that 
involves multiple agencies----
    Mr. Ashford. Right. And that is my point. I don't think 
there has been a comprehensive look-see at this since the 
1960s, and there had been efforts, and the farm bill is one, 
obviously. There are other efforts like welfare reform. We were 
involved in doing a welfare reform bill in Nebraska when I was 
in the legislature, 1994. So, I am aware of those things, and 
that bill dealt with poverty, it dealt with income disparity, 
it dealt with incentives to work, and all those sorts of 
things. But I don't think there has been a comprehensive 
approach. This year it looks like we may have a comprehensive 
approach on mental health in the Murphy bill that is going 
through the Congress now. That has been decades where we 
haven't had a comprehensive approach on mental health.
    I served as Executive Director of a housing authority in 
Omaha, Nebraska.
    Dr. Chilton. Yes.
    Mr. Ashford. It was a very challenging job, and all these 
issues in that job. Clearly the issue of the cliff effect, when 
someone gets a job, and then loses their public housing 
immediately, which is exactly what happens. The idea of how 
much do you spend on these programs in a static sense, how much 
do you put into the budget for a program, is really not the way 
to analyze these things. It would seem to me that the way to 
analyze these efforts is what does it save over time? And so I 
support and would love to see some ideas about ex-offenders, 
with housing, and with veterans. Every hearing we have had this 
year, and they have been great. I like these hearings. I think 
we could have as many hearings as we can have, because we are 
identifying the problem, and the solution is inter-agency 
collaboration.
    Mr. Doar. That is correct.
    Dr. Chilton. Yes.
    Mr. Ashford. You have already said it, so I guess you don't 
need to say it again. I honestly don't know why we don't do it. 
I mean, we need that same comprehensive approach we are doing 
to mental health, with the Murphy bill and other things, to 
really address this. It isn't just the farm bill, and the farm 
bill can't----
    Dr. Chilton. Yes.
    Mr. Ashford.--possibly do this. I don't know if you have 
any other comment on that.
    Mr. Doar. Well, it takes Presidential leadership. I mean, 
that would help. Someone would take a comprehensive look, and 
make it a high priority. And that will be reflected in some of 
what we say in our Commission report.
    Mr. Ashford. Right. So the Commission report suggests that 
a comprehensive approach, or an inter-agency approach is not 
only a good idea, but it is essential, critical, can't be any 
other way. Is that sort of----
    Mr. Doar. Yes.
    Dr. Chilton. Yes. I think we use those words exactly.
    Thank you.
    Mr. Ashford. That makes me feel better. Thank you, Mr. 
Chairman. I yield back.
    The Chairman. The gentleman yields back. Thanks, Brad. Mr. 
Allen, 5 minutes.
    Mr. Allen. Thank you, Mr. Chairman, and thank you for your 
insight into this. I know we have had a lot of hearings on the 
nutrition programs, as they relate to agriculture, and that 
sort of thing. And I do somewhat agree with my colleague, we 
kind of need to figure out why we are having these problems. 
And your report is going to give us tremendous insight, and I 
am looking forward to that report. But one of the things that 
puzzles me as I am out in the district is that there are jobs 
available, lots of jobs available, but at the same time we have 
this disconnect in trying to get folks trained and on the job, 
and off of these programs. And we have--I don't know, it seems 
like there is a wall there. And I guess my question is are 
programs like this discouraging folks from trying to get over 
that wall, and get employed, and provide for their family, or 
even have a family?
    Mr. Doar. I think what we heard was that programs, and SNAP 
would be the principal one that we heard the most about, was 
that it just doesn't address work sufficiently, that it is a 
transactional engagement between the case worker and the 
applicant in which the caseworker says, in effect, ``Let me 
find out what your income is, let me get you on assistance, and 
everything else about your life, well, you go somewhere else 
for that. We are just in charge of getting you food stamp 
benefits.'' That is what we heard, and that is why we are going 
to make a recommendation that there needs to be a more 
holistic, comprehensive look at both the programs and how we 
address the needs of people we serve.
    Mr. Allen. My parents drilled into me every day that 
choices have consequences. And, of course, back when I grew up 
there were a lot less choices that you could get in serious 
trouble on. And, it looks like to me that we have created, in 
some of this--and it is not their fault. It is not the people 
who are struggling in this cycle. Apparently we are not 
educating them on, hey, there is a way out of this. Because, 
what we are doing is we are increasing these programs, thinking 
that that is going to solve the problem. But then again, we 
have more single family households being created. We have more 
people who are not looking for work anymore, and basically more 
dependence on government. So, in your findings has there been 
any suggestions on how do we get this thing turned around and 
start making improvement? Or solving these problems, as my 
colleague mentioned earlier.
    Mr. Doar. Again, it was a bipartisan Commission----
    Mr. Allen. Yes.
    Mr. Doar.--so we had to come together unanimously, and I 
think that these themes of leadership, comprehensive look, 
coherent, working with multiple agencies, talking about work as 
being essential, understanding that families matter, racial 
discrimination matters, these other factors matter as well, 
that is what we could do.
    Mr. Allen. Yes.
    Mr. Doar. We think it is a contribution, and it will 
contribute to a fuller understanding. But, again, we definitely 
saw witnesses who wanted to achieve self-sufficiency, and just 
wanted help and how to get there. And I thought we felt that 
our programs aren't doing enough about that.
    Mr. Allen. There are also many pro-family organizations out 
there. The State of Georgia has one, and they do a lot of 
economic studies based on choices, like finishing high school, 
and maybe not getting married until you finish high school, and 
then after you get married, then you have children. And the 
economic impact of that is enormous. And so how do we get that, 
because I really believe, like I said, a lot of these folks 
just don't know a way out. You might look at some of these 
studies out there, as you put in this report--and, again, this 
is a report, I guess, just on what your findings are.
    Mr. Doar. Yes.
    Mr. Allen. But as we go to solutions, it looks like that we 
would look at, okay, this is the way out. This is the way to 
get off, to feed your children, and to get a job. And is that 
something you are going to look at, as far as your Commission 
is concerned?
    Mr. Doar. Again, we listed issues that are important to 
resolving this problem----
    Mr. Allen. Okay.
    Mr. Doar.--and one of them was personal choices, or 
personal agency, or personal responsibility. We felt that it 
would be inappropriate to say that the entire solution resides 
in what government can do for people. It also is related to 
what people need to do for themselves. So we say that. Now, we 
don't have many specifics on how to make that happen----
    Mr. Allen. Okay.
    Mr. Doar.--but we felt it was important to say.
    Mr. Allen. So that would be the next step?
    Mr. Doar. Yes.
    Mr. Allen. This is how we make it happen? I yield back. I 
am out of time.
    The Chairman. The gentleman's time has----
    Mr. Allen. Thank you.
    The Chairman.--expired. Ms. Plaskett, 5 minutes.
    Ms. Plaskett. Yes, thank you, Mr. Chairman, and thank you 
all for your testimony, and for the information that you have 
disseminated.
    Dr. Chilton. Yes.
    Ms. Plaskett. Despite some of the things that I hear, I am 
going to just stick to what I originally thought I was going to 
ask as questions. One of the factors that contributes to hunger 
in the United States is related to food deserts. Can you talk 
about that a little bit, and has the Commission looked at this 
issue of food deserts, and how do you factor that in? And have 
you, if you have looked at it, made recommendations as to how 
to address it?
    Dr. Chilton. Thank you very much for the question. We did 
look at food deserts, but I don't think we looked at it 
thoroughly enough. We heard a lot about lack of access to 
nutritious food, especially in the State of New Mexico, where 
the distances to the grocery store are very, very far. But, 
again, turning back to the concerns of the people that we heard 
from, the number one concern was being able to have enough 
money to purchase food, enough money for travel. So we don't 
make any recommendations in our report about food deserts. We 
do acknowledge that it is a really important issue. It is 
something that should be addressed. But the research on the 
relationship between food deserts and food insecurity is not 
very comprehensive, so we didn't feel confident enough to be 
able to make recommendations on----
    Ms. Plaskett. Did you look at--you talked about places like 
New Mexico----
    Dr. Chilton. Yes.
    Ms. Plaskett.--where it is sheer distance. Did you look at 
urban areas that are food deserts because people do not have 
adequate transportation to not just purchase from the corner 
store, that doesn't have fresh fruit and vegetables?
    Dr. Chilton. We did not look at that thoroughly, no, we did 
not.
    Ms. Plaskett. Okay. And the other discussion----
    Mr. Doar. Well, one thing----
    Ms. Plaskett. One second. We are--do you have a----
    Mr. Doar. We did discuss the extent to which--there were to 
be some opportunities for USDA to use its authority approving 
stores for participating in the SNAP program to encourage 
greater availability of health fruits and vegetables, and 
grains, and other----
    Ms. Plaskett. Well, I mean, places in this city itself, 
Washington, D.C., Chicago, all of those corner stores take food 
stamps. But do they provide fruit and vegetables at a 
reasonable price, or at all, to the people that are in those 
communities----
    Mr. Doar. That was an issue that we heard about, and was 
something that we took seriously.
    Ms. Plaskett. Did you have any thoughts, or do you have any 
thoughts about how that can be addressed?
    Dr. Chilton. We were talking among the Commission, we were 
talking about extending the amount of shelf space for fruits 
and vegetables and healthier foods at SNAP eligible stores, 
that the USDA could make modifications to demand more of the 
corner stores, and demand more of the bodegas to have----
    Ms. Plaskett. Yes.
    Dr. Chilton.--healthier choices. So we did look into it. We 
don't know necessarily what that is going to do about reducing 
food insecurity, but we did look into it. We make one minor 
recommendation on that.
    Ms. Plaskett. And will your report include information 
related to the U.S. territories, Puerto Rico, Guam, the U.S. 
Virgin Islands, which have enormous food issues, with having to 
import a great amount of food, as well as high rates of 
poverty?
    Dr. Chilton. Thank you very much for the question. We did 
not investigate in the territories what was happening. We did 
get some encouragement to look into it, and, again, we did the 
best that we could with the timeframe, and the amount of funds 
that we did have, but we do encourage Congress to maybe make a 
more comprehensive effort to look at what is happening in the 
territories, and make a coordinated plan for that.
    Ms. Plaskett. Okay. And because I am who I am, and I can't 
help myself from asking in response to other questions I heard, 
you talked some time ago about racial disparities. What are 
some of those? You didn't go into specifics about what those 
racial disparities are. What are the factors that cause greater 
food insecurity in some communities, minority communities, as 
opposed to other minority communities?
    Dr. Chilton. Okay. So overall the hunger rates for African 
American families are two to three times that of White 
families, and for Latino families the same is true. There is--
--
    Ms. Plaskett. The question----
    Dr. Chilton. I just----
    Ms. Plaskett.--why.
    Dr. Chilton.--evidence--there is good evidence to 
demonstrate that there is discrimination in access to safe and 
affordable housing, and to access to jobs, et cetera, but we 
did not get into it in any kind of a deep way. Again, we felt 
like it was beyond our Commission's call to look at the 
nutrition assistance programs, but we do acknowledge it as 
something that is very important. So American Indians, who are 
often isolated, who have a history of colonization, racial 
discrimination, also have some major issues and major problems 
with the nutrition assistance programs, access to housing, et 
cetera. Housing and hunger go together.
    Ms. Plaskett. Housing, and job opportunities, and 
discrimination in jobs may lead to some of this, as opposed 
to----
    Dr. Chilton. Yes.
    Ms. Plaskett.--people just don't want to have a job?
    Dr. Chilton. This is true.
    Ms. Plaskett. Thank you.
    The Chairman. The gentlelady's time has expired. Mr. Davis, 
5 minutes.
    Mr. Davis. Thank you, Mr. Chairman, and thank you to both 
witnesses for being here. My questions today are going to be 
for Mr. Doar. Coming in late to the hearing, I notice that you 
already addressed many of the issues that we wanted to bring 
up. And I want to especially commend both of you for addressing 
the issue about hunger, and a lack of access to food with our 
veterans' population. I think it is a population that is self-
reliant, in many cases, sometimes not willing to ask for 
assistance, and the Commission's recognition of this particular 
group's issues, says a lot about some of the priorities that we 
should have as policymakers, and also looking ahead.
    But Mr. Doar, in your testimony you point out the 
continuing cycle that is hunger and education. And children 
experiencing hunger have lower graduation rates, and those 
without a high school diploma are more likely to be hungry than 
their peers that completed high school. In our last Nutrition 
Subcommittee hearing, we started to address this relationship 
between hunger and education when thinking about ways young 
people can break the cycle of poverty. And from the stories and 
the testimony that you have heard, just how vital is three 
meals a day towards a child being able to focus and achieve 
success in the classroom? So simply does the goal of three 
meals a day get us closer to breaking the cycle?
    Mr. Doar. I don't know that we made a recommendation about 
the goal of three meals a day. I don't think we did. We 
definitely heard testimony about the benefits, and aspects, and 
results from school meals. We saw a breakfast in the school 
program, in I believe Arkansas----
    Mr. Davis. Yes.
    Mr. Doar.--and we are aware of the role that school meals 
play. So I would rank that activity as one of those things that 
made us feel as if a lot of good work is being done in helping 
people who struggle with hunger. And one place it is happening 
is in schools, with school meals. But, specifically on this 
sort of goal of three meals a day, or how government or school 
meals would address it, I don't believe we got into that.
    Mr. Davis. Well, do you have any additional comments 
relating to the possibility of three meals a day that would be 
relevant to our conversations that we have in this Committee 
hearing room?
    Mr. Doar. If you are talking about--no, I don't, because I 
don't know exactly what it means. If it is discussing a 
mandate, or a Federal requirement that all schools provide 
three meals a day, I don't think I know enough about that 
topic, and how that would work, and the cost-benefit of it, to 
comment.
    Mr. Davis. Okay. Well, Dr. Chilton, do you have any 
thoughts on this issue?
    Dr. Chilton. I do. We very deliberately chose the measure 
of very low food security at the household level, which we are 
referring to as hunger, which is an indication of reduced 
nutrient intake, and also disordered eating patterns, skipping 
meals, not eating for a whole day, and sometimes reporting 
hunger because families don't have enough money for food. This 
is a readily available measure that does indicate serious 
nutrition hardship in our country, and so we wanted to work 
with a measure that actually already exists, it is mandated 
through the United States Department of Agriculture and the 
Economic Research Service. So we feel like that is a very good 
measure to be working with. It is also a very broad measure. It 
picks up other kinds of issues about anxiety about having 
enough money for food, and it picks up the issue about having 
enough income for food, which is very, very important to the 
underlying issues of food insecurity.
    Mr. Davis. Well, thank you, and I do appreciate the work 
that the Commission is doing. I represent a rural district that 
has many metropolitan areas, and there are, I am glad that 
there is starting to be a recognition of food deserts in rural 
areas. And programs can work, but we have to get transportation 
to those meal sites. So your willingness to continue this 
discussion, and also intertwine it with a discussion on the 
school lunch program, and how or why our kids may be still not 
getting enough within those two meals that are being provided 
at the school, and how that could impact that student's not 
only learning, but also their physical abilities and 
capabilities as we move into the rest of the day, whereas you 
just mentioned, they may not get that third meal once they get 
home.
    So these are issues that are very important to me and my 
district, and I know they are very important to Chairman 
Conaway, and I look forward to working with you in the future. 
I yield back.
    The Chairman. The gentleman yields back. Ms. Adams, 5 
minutes.
    Ms. Adams. Thank you, Mr. Chairman, and thank you both for 
being here. Next year, up to one million people in the U.S. 
will lose SNAP benefits, and they will lose food assistance 
because time limit waivers will expire for able-bodied adults 
who work less than 20 hours a week, and do not have dependents. 
In my home State of North Carolina, the Governor recently 
signed a bill that would prohibit the state from asking for 
waivers, even during economic downturns. Instead of helping 
these people find jobs, North Carolina has decided to just cut 
off their benefits. The North Carolina unemployment rate is 
about the 11th highest in the nation, and in my district it is 
about 13.8 percent. So a lot of people who want to work can't 
find a job. And I am not opposed to encouraging people to look 
for work, but sometimes the jobs just aren't there, and people 
have significant barriers, as we have heard, to obtaining and 
keeping a job.
    Based on the conversations you have had during the hearings 
that you held throughout the country, what do you think will be 
the true impact of allowing these benefits to expire?
    Mr. Doar. Well, Congresswoman, we do not make a 
recommendation about waivers in our report. We could not come 
to an agreement on that. As the Co-Chair, that is as far as, I 
feel, for this testimony, I should go. That is a big issue, but 
that is what the Commission has decided, to not make a 
recommendation on that matter.
    Dr. Chilton. What we--if--can I add here?
    Ms. Adams. Yes, please.
    Dr. Chilton. What we do think is really important is that 
states make more of an effort to help people find employment 
and training opportunities. As we heard in New Mexico, and in 
Maine, both of those states are now doing work requirements, 
and we heard in the testimonies that there is a lot of 
difficulty in finding jobs, getting transportation to those 
jobs, and getting access to child care. So as a Commission we 
did work very hard to find out ways that we could help states, 
or encourage, or potentially require states to offer assistance 
in helping families to find jobs with sustainable, good wages, 
and to be able to have the support that they need. Again, that 
could be child care, transportation, et cetera.
    So with the waivers now expiring, this is very concerning, 
and we really hope that you can send a strong message to the 
states to make sure that there are good supports in place to 
help those families find gainful employment.
    Mr. Doar. I should also say we did hear testimony from the 
Commissioner of Social Services in Maine, who talked positively 
about the benefits of the waiver ending, and helping people get 
into work by being expected to get into work.
    Ms. Adams. Okay. We notice also in our state we have a 
skills gap as well, so the jobs that are available, people are 
not qualified to take them. Of course, then education becomes 
an issue there. But wouldn't the increase in hunger lead to 
greater stress and more difficulty in job seeking?
    Mr. Doar. I think that the premise of your question is that 
there will be an increase of hunger because waivers are ending. 
I do not accept that premise. I don't know that that will take 
place.
    Ms. Adams. Okay. Dr. Chilton?
    Dr. Chilton. Although we do know, through our research, and 
through the research of the United States Department of 
Agriculture, that when families do lose their SNAP benefits, 
and lose them too soon, they are more likely to report food 
insecurity, or very low food security. So it is a concern that 
families might be losing their--especially will be losing their 
SNAP benefits. Again, if there are the proper supports in place 
to help those individuals find and be able to keep jobs, then 
we can prevent any type of potential increase in hunger. It is 
a serious concern, and the issue about waivers is something 
that is very important. And again, as you know, we did not 
necessarily agree on that issue, and so we weren't able to pick 
it up. But there are 27 states that have voluntary employment 
and training programs, and they also need some support in 
helping to help people find good available employment, and 
opportunities for volunteering.
    Ms. Adams. Thank you. How would fully funding the Child 
Care Development block grant support working families with 
children?
    Dr. Chilton. Robert?
    Mr. Doar. This is the Child Care block grant?
    Ms. Adams. Right, yes.
    Mr. Doar. Well, that, again, this is sort of outside the 
scope of our Commission, representing the Commission, I don't 
want to comment on it. But, in my other work, I will say that 
child care assistance is something that is of concern to me, 
and helping low income families stay in employment.
    Ms. Adams. Thank you very much. I yield back, Mr. Chairman.
    The Chairman. The gentlelady yields back. Well, thank you 
very much. I appreciate both of you being here today. We are 
all coming face to face with this difficulty of trying to 
capture the essence of what we are talking about in 30 second 
sound bites. Did you have a question?
    Ms. Lujan Grisham. I do, sir. Nice to see you this morning.
    The Chairman. Well, thank you. We started at 10:00. You are 
recognized for 5 minutes.
    Ms. Lujan Grisham.--the same thing.
    The Chairman. I have you. But the Agriculture Committee is 
alphabetically first, so the gentlelady from New Mexico is 
recognized for 5 minutes.
    Ms. Lujan Grisham. Thank you, Mr. Chairman, and I can't 
really argue with the alphabet. So I really appreciate this 
panel, and I am very grateful, sir, that I got here in the nick 
of time. I spend a lot of time, really, talking about the 
conditions in New Mexico, which, given your research, and some 
of your--particularly, Dr. Chilton, some references that there 
are concerns about states like New Mexico, who have had waivers 
for the work requirements because our employment issues, and 
our economic climate, is so severe. I learned public health by 
the seat of my pants. I don't know what they did by appointing 
a lawyer to run the Department of Health in New Mexico. I can't 
really explain it. But I am very now clear about making policy 
decisions, particularly in the area of public health, that are 
evidence-based.
    Work, and improved economic conditions, are absolutely 
powerful tools in helping people achieve advances so that they 
are not in poverty. But I also am clear about two facts. One, 
that we have a working poor dilemma in this country that 
doesn't really address being able to meet your basic needs, and 
that two, New Mexico is in such a terrible set of circumstances 
that there is no way that people can actually get the kind of 
jobs that you would in states that make traditional investments 
in helping folks navigate, and get the skills that they need to 
meet the work requirement.
    In fact, in a state that is so severely depressed 
economically, it is my understanding that the state is thinking 
about investing somewhere between $2\1/2\ million and $4 
million without really what I would consider a tested evidence-
based plan on initiating a work requirement program without any 
identification about real work, while at the same time ignoring 
the fact that we still have one of the hungriest populations in 
the country. Do you have data from New Mexico, and from states 
in similar situations, that would indicate that when the 
economic climate is this bad, that these investments, and the 
way in which we make them, actually improve the hunger status 
of the entire family, and particularly the children?
    Dr. Chilton. How do you want to handle that one? I will go 
first. Thank you very much for your comments, and also for 
mentioning public health. We--in the world of public health, we 
see public health in all policies. So even though some people 
may think that food stamps, or SNAP, is a nutrition policy, it 
is actually a public health policy----
    Ms. Lujan Grisham. Yes.
    Dr. Chilton.--as well as labor policies, et cetera. So I 
appreciate you mentioning that. We did not specifically look at 
any data to see whether an investment of having a work 
requirement actually reduces hunger. I don't know if that data 
really exists. We don't have data from New Mexico. Although I 
do know that there are 23 counties in New Mexico that still 
have very high rates of unemployment, that would still make New 
Mexico eligible for the waiver to not require work, and that 
there is a very deep concern. We heard that when we were in 
Albuquerque, at our roundtable for the hearing, that imposing a 
strong work requirement for almost the whole state, and also 
for children and elders, or people who are over 50, was very 
concerning. And it was especially concerning among the tribal 
groups, who felt as if they had not been heard by the 
Governor's Office, et cetera, even though they had been trying 
to get meetings.
    So we understand that there is very heightened concern, 
very heightened worry, and that is a concern for us on the 
Commission, but, again, we really strongly recommend that, as 
states move people into the workforce, they actually provide 
the support necessary. Again, transportation, child care, and 
access to training opportunities.
    Ms. Lujan Grisham. Go ahead. And then I am going to try to 
have a couple seconds at the end.
    Mr. Doar. We did not make a recommendation on waivers as a 
Commission, and we heard concerns in testimony, but we did also 
have two former SNAP directors of state food stamp programs who 
did not take the waiver, and thought the waiver wasn't 
necessary to help people get into employment.
    Ms. Lujan Grisham. They don't have data that indicates that 
what they were doing without the waiver made a difference. And 
one of the----
    Mr. Doar. Well----
    Ms. Lujan Grisham.--individuals, I will tell you, said 
things that are so highly inflammatory and discriminatory is no 
longer working in the State of New Mexico. So, in claiming my 
time, I just want to point that out, that we have to be clear, 
and that is why I want the data. So it isn't politically 
driven, it is data driven. It is evidence-based, so we make 
decisions about reforming these programs that are in the best 
interest, in a public health sense, of the population for whom 
we are serving. Because I don't think that data exists, and, 
Mr. Chairman, with all due respect, we should be demanding that 
that data is available to us, and available in this Committee, 
that leads the Congress on sound nutrition policy so that we 
have an impact on stopping hunger in the richest country in the 
world. Thank you both very much.
    The Chairman. A bit of a conflict there, you said the data 
doesn't exist, so----
    Ms. Lujan Grisham. Much of the data about the work 
requirement's impact on hunger does not exist, and----
    The Chairman. Okay, then----
    Ms. Lujan Grisham.--it certainly doesn't exist in New 
Mexico.
    The Chairman.--have it if it doesn't exist, okay. Mr. 
Abraham, 5 minutes.
    Mr. Abraham. Thank you, Mr. Chairman. I apologize for my 
tardiness from another committee. I read your testimonies on 
the root causes of hunger, and you lay out several critical 
factors. One of them is work, which seems to be a theme 
throughout the testimony. As you point out, we are 6 years from 
the recession ending, yet hunger remains historically high. You 
suggest digging a little deeper, beyond households being low 
income. You talk about underemployment, which is a situation in 
which a worker is employed, but his or her work and/or wages 
have been reduced, other than at the worker's request. How is 
that different from being low income? Because at the end of the 
day, it is still not enough income to meet the needs of one's 
family. Are there any particular policies currently in place 
that promote underemployment? Say the 30 hour workweek 
requirement under Obamacare.
    Mr. Doar. As you will see in both our testimony, and in the 
final report, there will be a reference to underemployment. So 
we did hear from folks who indicated that the extent to which 
they were not able to get full time work put them in a 
situation that was precarious with regard to food. Now, we do 
not, I believe, make any recommendations concerning Federal 
policies that could incentivize, or regulate businesses that 
make them more likely to cut people off at 30 hours, but it is 
an issue that did come up among both our members, and in 
testimony, that people wanted more hours, but, for whatever 
reason, the employers were not offering them.
    Dr. Chilton. In addition, the research bears out that 
families that have jobs that have unpredictable work hours, or 
that are seasonal workers, have major income fluctuations, and 
those income fluctuations are not necessarily accommodated in 
the SNAP program, so people may lose their SNAP benefits before 
they have stabilized their income, and are more likely to 
report hunger. So we are very interested in trying to figure 
out how we can have a system within SNAP that doesn't cut 
families off too soon, and helps to smooth out their incomes in 
a way that can help to allay what is happening in terms of 
reports of hunger.
    Again, I want to reiterate what Co-Chair said, we do not 
make any recommendations about what type of labor laws and 
labor practices there should be, but we do recognize it as an 
issue, and we heard about it in the field.
    Mr. Abraham. Thank you, Mr. Chairman. That is the only 
question I had.
    The Chairman. Well, I thank the gentleman, he yields back 
his time. One quick one. As you look at a community, where the 
rubber meets the road, there is a vast array of resources. And 
you talked a bit about the lack of coordination at the Federal 
level, between all this nonsense, and I will talk to you in a 
second about that, but can you talk to us a little bit about if 
there are community examples where they have actually 
integrated the not-for-profits, the churches, all those other 
hunger resources and assets in with the state efforts and the 
Federal efforts? Are you seeing a better job of coordinating 
there with jobs, and all the other programs they have--about 
case managers, and the importance they have? Did you see it 
being done well somewhere?
    Mr. Doar. We did see it being done well, in your home State 
of Texas, under the leadership of one of the Commission 
members, Jeremy Everett. The Texas Hunger Initiative does a lot 
to coordinate both the----
    The Chairman. A Baylor grad, by the way.
    Mr. Doar. Yes. Well, I am not sure I heard you, Mr. 
Chairman, but anyway, we also saw it in Indianapolis, where 
another member of our Commission took us to see this really 
robust interaction between the not-for-profit, the faith-based, 
the corporate, and the government efforts to help people that 
are struggling. And it will come through in our report, our 
belief that that kind of thing is very much part of the 
solution.
    Dr. Chilton. And that it should also be incentivized. What 
made those groups be able to coalesce together was they had 
some incentive to work together. And also we recognized, when 
we were in Texas, and seeing what the Texas Hunger Initiative 
was doing, we recognized it really takes very strong leadership 
in the local community. We saw a really extraordinary summer 
feeding program in Anthony, Texas, where they were employing 
teenagers, 70 teenagers, to help package the food, and help 
distribute it out to members of their community. That was 
extraordinary, and that was good public-private partnership. 
That was a way of leveraging Federal funds, and using community 
funds, to get really good nutritious food to families in the 
summertime. It was very exciting to see that, and we hope that 
Congress can find ways to incentivize that further.
    The Chairman. Well, again, thank you both for being here. 
The difficulty we all have is this is a broad issue with a lot 
of aspects, and finding a 30 second sound bite to answer this, 
about the attention span of many of us, is proving difficult. 
We also spent a lot of time talking past each other. One side 
uses an extreme of a 27 year old surfer, and the other side 
uses the extreme of folks that no one would argue ought to come 
off the benefits. Dr. Chilton, even you, when we were talking 
you mentioned that it is hard for families to come off too 
quickly, but you corrected yourself.
    Dr. Chilton. Yes.
    The Chairman. Even there we were talking about families, we 
are--so we all use these--and in good faith. No one wants 
anybody hungry. There is no one who would argue that we need 
more hunger in this country, and we are all against it. I 
appreciate the comments, at least in your testimony, about the 
impact of families, and jobs, and education, and the personal 
responsibility we have with respect to what we are all 
struggling with as we move forward.
    Again, thank you for what you have done. I am looking 
forward to your recommendations, as you complete your report. 
You are doing the Lord's work, so to speak, and I appreciate 
your efforts, and also the efforts of trying to find a 
consensus among yourselves. I sensed a bit of a struggle on 
certain issues.
    Mr. Doar. No.
    Dr. Chilton. It is all very friendly.
    The Chairman. Obviously, we do the same thing here. You 
appear to have broken through those barriers in a way that 
should be instructive to us, but none of us have all the 
answers. I, for one, don't know everything I need to know about 
it. Maybe there some folks on our Committee who know everything 
they ever need to know about this issue. I don't, and so that 
is the rationale behind this long look. We think it is an 
appropriate look. You spent a year looking at it in a deeper 
way than we can, and I appreciate getting your report in a 
month or so, and being able to evaluate and analyze it. So, 
again, thank you very much.
    Under the rules of the Committee, today's record of the 
hearing will remain open for 10 days to receive additional 
material and supplemental written responses from the witnesses 
to any questions posed by a Member. This hearing of the 
Committee of Agriculture is adjourned. Thank you.
    [Whereupon, at 11:46 a.m., the Committee was adjourned.]
    [Material submitted for inclusion in the record follows:]
           Submitted Report by National Commission on Hunger
Freedom from Hunger:
An Achievable Goal for the United States of America
Recommendations of the National Commission on Hunger to Congress and 
        the Secretary of the Department of Agriculture
2015
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Executive Summary
    To identify solutions to hunger, Congress created the bipartisan 
National Commission on Hunger ``to provide policy recommendations to 
Congress and the USDA Secretary to more effectively use existing 
programs and funds of the Department of Agriculture to combat domestic 
hunger and food insecurity.''
    This report is based on the Commission members' full agreement that 
hunger cannot be solved by food alone, nor by government efforts alone. 
The solutions to hunger require a stronger economy, robust community 
engagement, corporate partnerships, and greater personal 
responsibility, as well as strong government programs.
    Our Process. The Commission held regular meetings; traveled to 
eight cities across America to hold public hearings and visit 
government, nonprofit, community, and faith-based programs working to 
alleviate hunger; and heard testimony from 80 invited experts from 
government, industry, universities, and nonprofits and from 102 members 
of the public.
    What Is Hunger? We chose a precise and readily available measure of 
hunger called very low food security. For purposes of this report, 
hunger means the lack of access to food when families do not have 
enough money, causing them to cut the size, quality, or frequency of 
their meals throughout the year. We wish to be very clear that hunger 
in America is not the same as famine and the resulting malnutrition 
seen in developing countries.
    Why Is Hunger Significant? In 2014, 5.6% of households in America 
experienced hunger in the past year, for an average of about 7 
months.\1\ The percent of households facing hunger rose from 4.1% in 
2007 to 5.4% in 2010, and has remained around 5.6% since, even as the 
economic recovery enters its sixth year.
    Root Causes. Many factors lead to hunger in America; focusing only 
on household income or the availability of government assistance misses 
major contributing factors such as low or underemployment, unstable 
families, insufficient education, exposure to violence, a history of 
racial or ethnic discrimination, personal choices, or a combination of 
these. These factors can play a large role in hunger and cannot be 
addressed solely through public nutrition assistance programs or 
charitable giving.
    Populations of Specific Concern. We focused on seven groups that 
experience high rates of hunger: seniors, single parent families with 
young children, people with disabilities, veterans and active duty 
military, American Indians, people affected by high incarceration 
rates, and immigrants.
    Addressing Hunger. The U.S. Government, along with a host of 
nonprofit organizations, corporations, and individuals, works daily to 
reach millions of families, and they do so in comprehensive, effective, 
and creative ways. In 2014, the U.S. Government spent an estimated 
$103.6 billion on Federal food and nutrition assistance programs.\2\ 
Supplementing these are many community programs and private 
initiatives.
    Recommendations. We offer 20 specific recommendations in six areas 
to reduce hunger:

  I.  Improvements to the Supplemental Nutrition Assistance Program 
            (SNAP) (10 recommendations)

  II.  Improvements to child nutrition programs (4 recommendations)

  III.  Improvements to nutrition assistance options for people who are 
            disabled or medically at risk (2 recommendations)

  IV.  Pilot programs to test the effectiveness of strategic 
            interventions to reduce and eliminate hunger (1 
            recommendation)

  V.  Incentives to expand roles for corporate, nonprofit, and public 
            partnerships in addressing hunger in civil society (1 
            recommendation)

  VI.  Creation of a White House Leadership Council to End Hunger (2 
            recommendations).
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        
            
Table of Contents
    Introduction
    The Commission's Work

          Who We Are
          Our Process

    What Is Hunger and Why Is It a Significant Problem?
    Root Causes of Hunger

          Labor Market Forces and Job Availability
          Family Structure
          Education
          Exposure to Violence
          Historical Context
          Personal Responsibility

    Populations of Specific Concern

          Seniors
          Single Parent Families with Young Children
          Veterans and Active Duty Military
          People with Disabilities
          American Indians
          Those Affected by High Incarceration Rates
          Immigrants

    Addressing Hunger in America

          Federal Programs

                  WIC
                  SNAP
                  School Meals
                  Summer and after school Food Programs

          Community Programs
          Public-Private Partnerships

    Recommendations
    Conclusion
    References
    Appendix A. Acknowledgments
    Appendix B. U.S. Household Food Security
    Survey Module
    Glossary
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
Introduction
          [The] leading object [of our government] is . . . to lift 
        artificial weights from all shoulders; to clear the paths of 
        laudable pursuit for all; to afford all an unfettered start and 
        a fair chance in the race of life.
                                          Abraham Lincoln, July 4, 1861

    In America, we seek freedom and opportunity. But for almost seven 
million households, the experience of hunger limits their freedom and 
reduces their chances of success. Thus, hunger in the United States can 
undermine our nation's full potential.
    In spite of diverse viewpoints on the causes and consequences of 
hunger, we as a Commission are in agreement that hunger is an important 
problem and that we can do something about it.
    Hunger in America is solvable. People in America are not hungry due 
to war or famine or drought. Our country--with all its strength, 
genius, creativity, and spirit of community--has the ability to be free 
from hunger. America has no shortage of food, and no shortage of food 
assistance programs. But those programs do not work as effectively, 
cooperatively, and efficiently as they should.
    To identify solutions to hunger, Congress created the ten member 
National Commission on Hunger. The Commission members, appointed by the 
House and Senate leadership, represent government, industry, academia, 
and nonprofit organizations.
    We believe that the problem of hunger in America is fundamentally a 
problem of values--in a nation as rich as ours, no one should go 
hungry. Our members are in full agreement that the problem of hunger 
cannot be solved through government efforts alone. In addition to sound 
public policy, the solution to hunger in America requires an economy 
with broad opportunity for working age adults, robust community and 
corporate partnerships, personal responsibility to make good, positive 
choices for our families and communities, and our sincere commitment to 
helping others in ways that strengthen the fabric of our society.
    There are many root causes of hunger, including labor market forces 
and job availability, family structure, education, exposure to 
violence, historical context, and personal responsibility. By focusing 
on the most vulnerable members of our society, such as seniors, single 
parent families with young children, people with disabilities, and our 
veterans, the United States can surely put an end to hunger.
    In this report, we outline the pathway to achieve the goal of 
ending hunger in the United States through 20 recommendations to 
Congress, the U.S. Department of Agriculture (USDA), and other 
Executive Branch agencies that can be acted upon in the immediate 
future. What we outline here is achievable, practical, and forward 
thinking. These solutions depend on bipartisan actions in Congress, and 
commitment from the current and future President of the United States 
and the Executive Branch, and they depend on each of us to make the 
personal choice to get involved and act on our commitment to help 
nourish our families and communities. By doing so, we will ``afford all 
an unfettered start and a fair chance.''

          This is our charge:
          To provide policy recommendations to Congress and the USDA 
        Secretary to more effectively use existing programs and funds 
        of the Department of Agriculture to combat domestic hunger and 
        food insecurity; and to develop innovative recommendations to 
        encourage public-private partnerships, faith-based sector 
        engagement, and community initiatives to reduce the need for 
        government nutrition assistance programs, while protecting the 
        safety net for the most vulnerable members of society.

------------------------------------------------------------------------
 
-------------------------------------------------------------------------
Defining Hunger:
 
Very Low Food Security
 
    ``Hunger'' is a complex concept to quantify. We wish to be very
 clear that the situation we call hunger in America is not the
 equivalent of famine and the resulting malnutrition seen in developing
 countries.
    Food insecurity (see glossary) is measured by the U.S. Household
 Food Security Survey Module, which has been in widespread use for
 nearly 20 years. It asks questions about respondents' reports of
 uncertain, insufficient, or inadequate food access, availability, and
 use because of limited financial resources, and about the compromised
 eating patterns and consumption that might result. The USDA uses the
 responses to classify households into four categories: high food
 security, marginal food security, low food security, and very low food
 security. Households with high or marginal food security are called
 food-secure, and households with low or very low food security are
 called food-insecure.
    To define hunger for this report, we chose a precise and readily
 available measure called very low food security, which occurs when
 eating patterns are disrupted or food intake is reduced for at least
 one household member because the household lacked money and other
 resources for food. The use of this particular measure allowed us to
 focus on households where the problem is most severe.
    Thus, when we use the word ``hunger'' we mean households
 experiencing very low food security. When statistics are not available
 for this measure, we may report values for the broader measure of food
 insecurity, which captures both low and very low food security.
------------------------------------------------------------------------

Volunteers at the D.C. Community Kitchen
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

The Commission's Work
Who We Are
    Congressional leaders from both parties appointed the Commission 
members: three each by the Speaker of the House and the Senate Majority 
Leader (John Boehner, R-Ohio, and Harry Reid, D-Nevada, respectively, 
at that time); and two each by the House and Senate Minority Leaders 
(Nancy Pelosi, D-California, and Mitch McConnell, R-Kentucky, 
respectively, at that time). We then selected two of our members as co-
chairs to guide our work--Dr. Mariana Chilton and Mr. Robert Doar. Our 
goal was to develop recommendations to Congress and the USDA that had 
the unanimous, bipartisan support of all our members.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


 
 
 
Mariana        Spencer        Robert Doar    Jeremy         Susan Finn
 Chilton        Coates                        Everett
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                        

 
 
 
Deborah Frank      Cherie Jamason     Billy Shore       Russell Sykes
 
Note: Congressional leaders appointed ten people to the Commission, but
  one, Ricki Barlow (Reid appointee), later resigned for personal
  reasons and is not listed above.

    Mariana Chilton, Ph.D., M.P.H., is an Associate Professor at Drexel 
University School of Public Health and Director of the Center for 
Hunger-Free Communities. She directs multiple research studies on the 
impact of public policy on food insecurity and health and well-being 
among families with young children. (Reid appointee)
    Spencer Coates is President of Houchens Industries, Inc., and 
serves on its Board of Directors. He joined the Houchens family of 
companies in October 2003, after retiring from BKD, LLP, a national 
public accounting firm where he had spent 30 years serving in various 
capacities. (McConnell appointee)
    Robert Doar is the Morgridge Fellow in Poverty Studies at the 
American Enterprise Institute, where he studies how improved Federal 
policies and programs can reduce poverty and provide opportunities for 
vulnerable Americans. Previously, he served as Commissioner of the New 
York State Office of Temporary and Disability Assistance and 
Commissioner of the New York City Human Resources Administration. 
(Boehner appointee)
    Jeremy Everett is the founding Director of the Texas Hunger 
Initiative (THI) at Baylor University, a capacity building project that 
develops and implements strategies to alleviate hunger through 
research, policy analysis, education, and community organizing. Prior 
to THI, Mr. Everett worked for international and community development 
organizations as a teacher, religious leader, community organizer, and 
farmer. (Boehner appointee)
    Susan Finn, Ph.D., is the CEO of the global consultancy Finn/Parks 
& Associates and a recognized leader and respected communicator in the 
food, nutrition, and health arena. She is a leader in the Academy of 
Nutrition and Dietetics and is committed to advancing nutrition 
research and education. (Boehner appointee)
    Deborah A. Frank, M.D., is a child health researcher and the 
inaugural incumbent of a newly established Pediatric Professorship in 
Child Health and Well Being at Boston University School of Medicine. 
She began working at Boston City Hospital (now Boston Medical Center) 
in 1981. In 1984, she founded the Failure to Thrive Program, now called 
the Grow Clinic for Children, where she still practices. (Pelosi 
appointee)
    Cherie Jamason is President and CEO of the Food Bank of Northern 
Nevada, a nationally recognized anti-hunger organization and recent 
Feeding America Food Bank of the Year. She established the Nevada Child 
Nutrition Initiative implementing summer food and after school meal 
programs for low income children throughout Nevada, and was 
instrumental in crafting Nevada's first State Food Security Plan and 
creating Bridges to a Thriving Nevada, which takes on poverty and 
financial instability. (Reid appointee)
    Billy Shore is the founder and CEO of Share Our Strength, a 
national nonprofit dedicated to ending childhood hunger in America 
through its No Kid Hungry campaign. He is also the author of four 
books, including The Cathedral Within, and chair of Community Wealth 
Partners, which helps change agents solve social problems. (Pelosi 
appointee)
    Russell Sykes is an independent consultant working on multiple 
Federal and state projects focusing on job search in Temporary 
Assistance for Needy Families, Medicaid reform, Social Security 
Disability, and workforce engagement. He was the former Deputy 
Commissioner for New York State's Office of Temporary and Disability 
Assistance where he was responsible for the administration of SNAP, 
Temporary Assistance for Needy Families, welfare-to-work, and multiple 
other public benefit programs. (McConnell appointee)
Our Process
    Since May 2014, we have met monthly in person or by phone to carry 
out our work. In addition, we have held regular meetings with 
representatives of the USDA.
    We invited 83 experts from government, industry, universities, and 
nonprofits to give us testimony, and received responses from 80 of 
them. In 2015, we traveled to eight cities across America to visit 
programs working to alleviate hunger, including government, nonprofit, 
community, and faith-based programs. We held public hearings in seven 
of those cities, where we heard from 102 members of the public. 
Altogether, we received testimony from 182 people, including experts, 
recipients of assistance, and members of the public.
    Not surprisingly, we gained wisdom from people from all walks of 
life. We listened to corporate executives who have forged public-
private partnerships to reduce dependence on government programs, 
physicians who have treated children lacking adequate nutrition, state 
officials tasked with implementing large Federal assistance programs 
while also preventing fraud and abuse, and new Americans in search of a 
safer and better life for their children. In schools and community 
centers we witnessed breakfast-in-the-classroom programs, nutrition 
education and cooking classes, summer meals programs, and emergency 
food distribution.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Public testimony from Coach Larry Clark of LifeSkills for 
        Youth, where they administer child nutrition programs In Little 
        Rock.
          Used with permission. <Copyright>2015 Jane Colclasure. All 
        rights reserved.
Sites Visited by the Commission
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Figure note: All hunger rates are state rate of very low food 
        security for 2012-2014, from USDA Economic Research Service 
        data. State rates range from 2.9% (North Dakota) to 8.1% 
        (Arkansas). U.S. average is 5.6%.
        [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
          Community meeting at El Centro de Salud Familiar La Fe, El 
        Paso.

    We visited Oakland, California, and Albany, New York, sizable 
cities located in two of the country's largest states, and Portland, 
Maine, in a northeastern state with high levels of hunger. We visited 
Little Rock, Pine Bluff, and Altheimer in Arkansas, because Arkansas 
has one of the highest rates of hunger in the country, and we wanted to 
observe what local authorities and organizations were doing to address 
it. We visited immigrant populations in El Paso, Texas, and American 
Indian (Pueblo) communities participating in a Food Distribution 
Program on Indian Reservations program near Albuquerque, New Mexico. In 
Indianapolis, Indiana, we visited a public-private partnership that 
works on multiple fronts to reduce hunger. In Washington, D.C., we 
observed an example of a successful summer feeding program and learned 
about nonprofit organizations offering job training and health services 
along with food assistance.
    Although these visits offered only a snapshot of people's 
experiences, they provided insights into the available public and 
private assistance programs, and revealed the need for continued 
improvements on both fronts for programs to function more effectively. 
We also learned firsthand about the root causes and consequences of 
hunger. Many of the causes are associated with poverty and other 
economic and social factors, and poverty itself has multiple causes. 
Solutions to these larger issues are beyond the bounds of our mandate, 
but we encourage Congress and the President to make them a greater 
focus, as they lay the foundation for eliminating hunger across the 
nation.
    To support us in our efforts, the Secretary of Agriculture 
selected, through a competitive bidding process, an independent, 
nonprofit research organization, RTI International, to conduct a 
current and prospective review of the literature on hunger, offer 
independent recommendations for reducing hunger, and provide us with 
ongoing research support and technical expertise. RTI prepared 
research-based ``white papers'' on questions posed by Commissioners and 
potential solutions to hunger.<SUP>3-15</SUP> RTI also created a 
Commission website, which houses our activities, minutes from our 
meetings, and written testimonies and transcriptions and recordings of 
the hearings. Commissioners also contributed relevant peer-reviewed 
papers and other primary sources, some of which were posted on our 
website.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Charlotte Douglas, State Representative, R-75th District, 
        Arkansas, provided invited testimony In Little Rock.
          Used with permission. <Copyright>2015 Jane Colclasure. All 
        rights reserved.

    Because our own backgrounds and disciplines are diverse, we often 
saw and learned the same things but reached different conclusions. We 
have sought to set those differences aside in favor of reporting on 
what we did agree upon, and we have synthesized it to present an 
overall picture of hunger in America today. At a time when our nation's 
politics are so partisan and polarized, we hope the unanimity that we 
demonstrate in this report will give its conclusions and 
recommendations extra weight.
    This report takes all of the information we collected through this 
process and synthesizes it to present our collective view of hunger in 
America today, and culminates in a set of recommendations to Congress, 
the USDA, and others committed to decreasing hunger in America. 
Eliminating hunger, as we define it, is possible, but doing so demands 
leadership and strategic vision. In light of that challenge, we crafted 
our recommendations to be targeted, meaningful, and realistic. We hope 
that Congress, the USDA, and the rest of the Executive Branch respond 
thoroughly, thoughtfully, and urgently.
What Is Hunger and Why Is It a Significant Problem?
    In 2014, 6.9 million households, or 5.6% of households in America, 
had at least one member experience hunger at some time in the past 
year.\1\

          Households reporting hunger (i.e., very low food security) in 
        2014 experienced it for an average of about 7 months of the 
        year.\1\ During the Great Recession, the percent of households 
        that experienced hunger increased from 4.1% in 2007 to 5.4% in 
        2010. The rate has remained at that level even as the economic 
        recovery enters its sixth year. In addition, too many people 
        who could work remain out of the labor market--labor force 
        participation by working age adults has been declining since 
        its peak in 2000.\16\
          Hunger has far-reaching consequences, not just on 
        individuals, but also on the U.S. health care system, our 
        educational system, and the economy: hunger contributes to 
        nutritional deficits that can undermine people's health, 
        diminish human capital, and impede children's 
        development.<SUP>17-34</SUP> These negative effects can 
        translate into greater health care expenditures, reduced worker 
        productivity, and greater rates of worker 
        absenteeism.<SUP>21, 25</SUP>
          Decades of medical, economic, social science, and educational 
        research have shown that hunger affects people of all ages in 
        the United States. Impairment of childhood health and 
        development arising from hunger may result in poor health and 
        poor academic achievement, generating potentially preventable 
        costs for the health care and education 
        systems.<SUP>20, 26-27</SUP> Adolescents in families reporting 
        hunger experience more problems with mental health and thoughts 
        of suicide.<SUP>35-36</SUP> Adults that report hunger also 
        report poorer physical and mental health and higher rates of 
        being overweight or diabetic, and other related 
        problems.<SUP>17, 24, 29, 30, 34</SUP> Among seniors, hunger 
        can lead to depression and reduced capacity to perform 
        activities of daily living.<SUP>37-39</SUP>
          Given these serious consequences for individuals and for the 
        productivity and success of our country, it is urgent that we 
        do everything in our power to reduce and ultimately eliminate 
        hunger.
        [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
Hunger Rates by Household Characteristics, 2014
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          <SUP>a</SUP> Households with children in complex living 
        arrangements, e.g., children of other relatives or unrelated 
        roommate or boarder.
          <SUP>b</SUP> Hispanics may be of any race.
          <SUP>c</SUP> Metropolitan area residence is based on 2013 
        Office of Management and Budget delineation. Prevalence rates 
        by area of residence are not precisely comparable with those of 
        previous years.
          <SUP>d</SUP> Households within incorporated areas of the 
        largest cities in each metropolitan area. Residence inside or 
        outside of principal cities is not identified for about 17 
        percent of households in metropolitan statistical areas.
          Source: Calculated by ERS using data from the December 2014 
        Current Population Survey Food Security Supplement.
Root Causes of Hunger
    Many factors lead to hunger in America. A simplistic explanation 
focused only on household income or the availability of Federal 
nutrition programs misses major contributing factors.
    For example, the Supplemental Nutrition Assistance Program (SNAP, 
formerly known as Food Stamps) has been shown to reduce hunger, but it 
does not succeed in eliminating it altogether for every 
participant.\40\ Furthermore, hunger occurs in 25.5% of households with 
incomes below 130% of the poverty line that did apply for and receive 
SNAP benefits for 12 months, but occurs in only 10% of households at 
the same income level that did not receive SNAP benefits at all during 
that period.\1\ Clearly, hunger has causes other than income alone, and 
therefore, food assistance alone will not eliminate hunger.
    U.S. households experience hunger because of limited income due to 
a variety of factors, including low or underemployment, family 
instability, low educational attainment, exposure to violence, a 
history of racial or ethnic discrimination, personal choices, or a 
combination of these. These factors can play a large role in hunger and 
cannot be addressed solely through the public nutrition assistance 
programs or through charitable giving. Understanding the root causes of 
hunger is essential in order to eliminate hunger.

          [People put] energy into collecting data and building 
        infrastructure to distribute food boxes and run soup kitchens, 
        creating ways to get kids to want to come eat some of the meals 
        in the parks and close by--that's a lot of work. It's a lot of 
        planning. It's a lot of organizing and it's great intelligence. 
        Yet, doing so does not assist anyone out of poverty, and/or 
        increase their accessibility to be part of mainstream 
        community. It keeps us in line waiting for the box.
                            Dee Clarke, Founder, Survivor Speak (Maine)
Labor Market Forces and Job Availability
    The number of households experiencing hunger is sensitive to 
economic forces.

------------------------------------------------------------------------
 
-------------------------------------------------------------------------
    Globalization: changes promoting the open flow of goods and services
 among countries.
    Offshoring: moving jobs from the United States to other countries
 where labor is cheaper.
------------------------------------------------------------------------

    The 2007-2009 economic downturn, the Great Recession, led to 
significant unemployment, which in turn led to an increase in hunger. 
The number of unemployed workers more than doubled, from 7.1 million in 
2007 to 14.3 million in 2009.\41\ Hunger levels also jumped sharply 
during that period. Six years after the official end of the recession, 
hunger rates shamefully remain at historically high levels, with 
particularly high rates among single parent households with young 
children, households of persons with disabilities, and the households 
of racial and ethnic minorities.<SUP>1, 42-43</SUP>
    Our nation's economy has struggled with significant structural 
shifts that have occurred over the last 60 years. Manufacturing jobs 
have declined, partly due to deindustrialization and automation, while 
the service sector is growing and producing more jobs. Globalization 
has contributed to more widespread offshoring and outsourcing, 
particularly of manufacturing jobs, but also of some types of service 
jobs, such as those in call centers. These trends have contributed to 
fewer well-paying job opportunities for those without a post-secondary 
education.<SUP>44-45</SUP>
    Workers with a high school education or below are more likely to 
hold jobs that pay low wages, and are part-time, unstable, or seasonal. 
Oftentimes these types of jobs offer few opportunities for career 
advancement, and may not offer important supports such as sick leave or 
family leave. Such jobs are also associated with major income 
instability or sharp income fluctuations. These are the kinds of 
conditions that can cause a household to experience hunger.\46\

          We hear every day loud and clear from all areas of the state 
        that people can't support their families. They can't get food 
        because they can't find decent jobs. The forest industry, the 
        fishing industry, canning, textile, manufacturing are all in 
        distress. Giant Mills: Empty. A major naval air station: 
        Closed. Mill towns: have struggling economies. We hear about 
        the problem of people living isolated from job centers in a 
        state with virtually no public transportation, or the lack of 
        affordable housing (if people do move to the few job centers).
             Donna Yellen, Chief Program Officer, Preble Street (Maine)
Family Structure
    Marriage has a significant impact on whether or not a household 
will experience hunger: Households with an unmarried head of household 
are more likely to face hunger than other households in America.

          The hunger rate for households headed by a single mother 
        (12.8%, or 1.3 million households) is four times the rate for 
        households headed by a married couple (3.2%, or 804,000 
        households). For households headed by a single father, the rate 
        (7.0%, or 228,000 households) is more than twice the rate of 
        households headed by people who are married.\1\
          Today, 40% of children in the United States are born to 
        unmarried parents.\47\ These pregnancies are mostly unplanned: 
        69% of pregnancies among unmarried couples are unintended, 
        compared to 35% of pregnancies among married couples.\48\ 
        Children growing up in single parent households are more likely 
        to miss out on fundamental opportunities for their social and 
        emotional development,\49\ and are less likely than children in 
        two parent families to do well in school or graduate high 
        school.\50\ Having children too early in life, struggling to 
        create a safe and stable household environment, and having 
        multiple children outside of marriage compounds this 
        problem.\51\ *
---------------------------------------------------------------------------
    * It is important to note here that children can be raised in 
single-parent households for reasons other than parents choosing not to 
marry, such as divorce or death of a parent.
---------------------------------------------------------------------------
          Households with one wage-earner typically have lower incomes. 
        In addition, women earned about 81% of the median earnings of 
        their male counterparts in 2012.\52\ Women with children under 
        18 also earned less than both women and men without children 
        and men with children.\53\ Understanding that many factors 
        affect the labor market and play a role in these data, these 
        wage disparities compound the problem facing single-earner 
        households, especially those headed by women. The poverty rate 
        among children in households headed by a married couple is 6.2% 
        (3.7 million households), compared to 15.7% of households 
        headed by a single father (970,000 households), and 30.6% of 
        households headed by single mother (4.8 million 
        households).\54\

          Basically, what it comes down to, being food-insecure, you 
        have to go through a lot of resources. It is really aggravating 
        because basically I'm doing what I'm supposed to do as a 
        parent, right? But when there's no husband or boyfriend or any 
        other kind of support, everything falls on me.
     Denise Speed, Marbury Plaza Resident, Anacostia (Washington, D.C.)
Education
    U.S. high school graduation rates have improved, with the national 
graduation rate exceeding 80% in 2012 for the first time in U.S. 
history; however, economic, racial, cultural, and ethnic differences 
remain.

          The graduation rate for low-income students in 2014 was below 
        80% in 41 states.\55\ Some of the most important predictors of 
        high school graduation are reading level at third grade, family 
        poverty, family structure, and concentrated poverty at the 
        neighborhood level.
          The relationship between hunger and high school graduation 
        operates in both directions: graduation rates are lower among 
        those experiencing hunger, and hunger, in turn, has been linked 
        to special education and grade repetition, both important 
        predictors of high school dropout rates.\56\ Hunger is also 
        related to lower educational attainment: in 46% of households 
        with hunger among children, the adults did not have an 
        education beyond high school.\57\ Hunger among children is 
        present in 2.9% of households in which the adults did not 
        complete high school, 1.3% of those with adults having only a 
        high school education or GED, and 0.4% of households having an 
        adult with a college degree or more.\57\
Exposure to Violence
    Research over the last 10 years has found that victims of violence, 
neglect, or abuse as a child or violence as an adult, are more likely 
to report hunger.<SUP>58-60</SUP>

          For example, hunger rates among women who, as children, 
        experienced physical, emotional, or sexual abuse or household 
        dysfunction (domestic violence, parent in jail) are 12 times as 
        high as rates among women who did not.\60\ Hunger is also more 
        frequently reported by women who recently experienced domestic 
        violence. In some studies, women who report experiencing post-
        traumatic stress disorder are more likely to report household 
        food insecurity.<SUP>61-63</SUP>
Historical Context
    There are significant racial, ethnic, and gender disparities 
between households that report hunger and those that do not.

          For example, the hunger rate among African American 
        households is 10.4% (1.6 million households); for Hispanic 
        households, it is 6.9% (1.1 million households); whereas for 
        white households, that rate is 4.5% (3.8 million 
        households).\1\ Among American Indians, data are not available 
        for hunger rates, but the broader food insecurity rate is 
        nearly twice that of the general U.S. population.\64\ These 
        racial and ethnic disparities have been consistent since the 
        USDA began measuring food insecurity in 1995. These disparities 
        may be attributable to a persistent combination of political, 
        social, and economic factors--including residual racial and 
        ethnic discrimination--that affect access to jobs, 
        opportunities for home ownership, high-quality education, and 
        affordable healthy food.
          We must acknowledge this historical context if we are to 
        improve the nutrition, health, well-being, and security of all 
        Americans, regardless of race or ethnicity.
Hunger Rates Over Time by Race and Ethnicity
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


          These disparities are wreaking havoc on our communities and 
        our country and we need a sort of holistic response to the 
        economic disparity and the food insecurity that you all are 
        focusing on. Dr. King said in a letter from the Birmingham 
        jail, ``We're caught in an inescapable network of mutuality 
        tied in a single garment of destiny. Whatever affects one 
        directly affects all indirectly.'' This problem isn't a problem 
        for people of color. This is everybody's problem.
               George Jones, CEO, Bread for the City (Washington, D.C.)
Personal Responsibility
    Although we feel that our nation would make progress in reducing 
hunger if we made gains in each of the factors above, we also 
acknowledge one other key ingredient--the actions of individuals.

          Personal agency, personal responsibility, and individuals 
        making good choices play an important role in the extent to 
        which Americans are hungry, and any discussion of how to reduce 
        hunger that omits these factors is incomplete.
          Individuals make many life choices that can affect financial 
        circumstances and hunger: choices about staying in or dropping 
        out of high school, choices about getting a job or not, and 
        choices about having or delaying children.
          While it is true that enhancing the health and cognitive and 
        emotional well-being of Americans by reducing hunger would 
        produce greater opportunities for individuals, we must always 
        recognize the importance of individual decision-making. As Ron 
        Haskins, Senior Fellow at the Brookings Institution, contends, 
        ``changes in personal behavior . . . would have an enormous 
        impact on poverty and opportunity.'' \65\
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
        
Populations of Specific Concern
    Taking into consideration the disparities in household 
characteristics between those who experience hunger and those who do 
not, we focused on seven specific groups that are especially vulnerable 
to hunger: seniors, single parent families with young children, 
veterans and active duty military, people with disabilities, American 
Indians, people affected by high incarceration rates, and immigrants.
Seniors
    The number of older adults will increase over the next few decades, 
and if we do not change the way we assist seniors, the number of 
seniors who experience hunger will increase significantly.\66\

          In 2014, 3.2% of households with seniors aged 65 and older 
        (1.1 million households) and 3.8% (480,000 households) of 
        households with seniors living alone were hungry.\1\ Many 
        seniors who live alone depend on organizations such as Meals on 
        Wheels.

------------------------------------------------------------------------
 
-------------------------------------------------------------------------
    Multigenerational: a family headed by an adult householder aged 40
 or older and with three generations (grandparent, parent, child) or
 grandparent and grandchild with no adult parent (so-called skipped
 generation).
------------------------------------------------------------------------

          Among adults aged 40 and older, those living in 
        multigenerational households have higher rates of hunger (5.5%) 
        than those who do not (3.1%).\38\ Hunger rates among 
        multigenerational households have also increased substantially 
        over the past decade.
          Compared to seniors who do not experience hunger, seniors 
        experiencing hunger are three times as likely to suffer from 
        depression, 50% more likely to have diabetes, and 60% more 
        likely to have congestive heart failure or a heart attack.\67\ 
        In addition, 20% to 50% of patients admitted to the hospital 
        are malnourished and thus compromised in their ability to fight 
        illness and complications; these patients are predominately 
        low-income/Medicaid patients 65 and older.\68\ Readmissions 
        among this group costs the health care system approximately $25 
        billion annually, and 70% of this cost is for return trips that 
        might not have been necessary if patients had received proper 
        care, including proper nutrition.\69\ Programs such as Meals on 
        Wheels (both pre-admission and post-discharge), as well as 
        greater attention to early nutrition assessment and 
        intervention are critical to preventing complications and 
        lowering costs.\68\ These interventions in both health care 
        settings and the community are not meeting growing need: in 
        many communities, there is a waiting list for Meals on Wheels 
        and similar programs.<SUP>70-71</SUP>
       [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
          Gloria Gonzalez and Father Villegas, San Luis Rey Parish, 
        Chamberino, NM.
Single Parent Families with Young Children
    Substantial research has found that a substantial percentage of 
young children in food-insecure households experience negative social, 
emotional, and cognitive outcomes.<SUP>28, 31, 72-75</SUP>

          About 6% (4.4 million individuals) of individuals in 
        households with children under age 6 are in households that 
        report hunger; the rate is the same for households with 
        children under 18 (9.5 million individuals). These rates are 
        slightly higher than the percent of individuals in all 
        households that report hunger (5.5%, 17.2 million individuals). 
        But the problem is much worse in households with only one 
        adult. Among married couple families with children, the rate of 
        hunger among individuals is 3.5% (3.9 million individuals), 
        whereas for households headed by a single mother, the rate is 
        13.2% (4.7 million individuals), and for households headed by a 
        single father, the rate is 7.2% (0.8 million individuals).\76\
          Although adult caregivers (including grandparents) often try 
        to mitigate the effects of hunger on their children by reducing 
        their own food intake, such reductions affect the caregivers' 
        health and capabilities, which in turn affects their ability to 
        juggle parenting, work, and self-care. We heard this reflected 
        in testimony from single parents during our field hearings.
          Given the serious consequences of hunger for families with 
        young children and children in the sensitive period of brain 
        development, single parent families merit particular attention, 
        care, and support to lay the foundation for optimal child 
        development for school performance, good health, and 
        participation in the workforce.

          The cycle of hunger has never left my family. My siblings and 
        I lived with my mom growing up, and we struggled with hunger. 
        When she died, we went to live with my dad. And we struggled 
        then. The stress of having no food affected him. He couldn't 
        deal. He was so overwhelmed he started drinking instead of 
        eating, and he sent us down South to our aunts, thinking we'd 
        be better off. But we still were hungry there. And on top of 
        that, we were missing our dad, and missing our mom. Hunger 
        destroys people. It destroys families.
                Tangela Fedrick, Witnesses to Hunger (Washington, D.C.)
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Courtesy of Tangela Fedrick.
Veterans and Active Duty Military
    America's veterans and active duty military have provided and 
continue to provide our country with outstanding service to protect our 
freedom and security.

          However, there is evidence that both groups have experiences 
        with food insecurity and have inconsistent or inadequate access 
        to nutrition assistance. In a 2012 study of veterans of the 
        Iraq and Afghanistan wars, 12% reported hunger.80 Approximately 
        1-2% of active duty military members (more than 20,000) and 7% 
        of veterans (1.6 million veterans) receive SNAP benefits.\81\ 
        Hunger tends to occur among the lower enlisted ranks, 
        especially those with multiple dependents.\81\
          These issues are concerning, yet the Department of Defense, 
        the Veterans Administration, and the USDA provide little data 
        on the extent of hunger among active duty military and 
        veterans.

          I ask that you consider our veteran population in your work, 
        and the only thing I have to say is that no veteran should go 
        hungry after serving honorably on behalf of this country. No 
        veteran should be left behind and that's what I ask of you is 
        to make sure that the veteran population is included in this 
        discussion about hunger in America. We're hungry, too.
         Carlos Rivera, Veteran, U.S. Air Force, 1971 to 1975 (El Paso)
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

People with Disabilities
    Disability has been identified as ``one of the strongest known 
factors that affect a household's food security.'' \77\

          Thirty-eight percent of all households experiencing hunger 
        include an adult with a disability.\42\ Families with children 
        with disabilities are also at increased risk for hunger.\78\
          Low employment rates and high health care costs constrain the 
        economic resources of people with disabilities, leading to 
        higher rates of hunger. Despite special SNAP provisions 
        regarding resource limits and medical deductions for adults 
        with disabilities, \1/3\ of chronically ill adults cannot 
        afford both food and medicine.\79\ In addition, their health 
        may be more fragile than those who do not have disabilities, 
        making them more vulnerable to the health consequences of 
        hunger. In Washington, D.C., we heard from Saleema Akbar, a 57 
        year old sufficiently disabled from arthritis and diabetes to 
        receive Supplemental Security Income and SNAP. She relies on a 
        manual wheelchair to go out, but she is too young to qualify 
        for programs that deliver meals to seniors. She said her SNAP 
        benefits are not sufficient to provide the high-protein diet 
        recommended for her diabetes, and in the previous year, she 
        lost more than 100 pounds from lack of sufficient protein.
American Indians
    American Indians and Alaska Natives experience food insecurity at 
rates more than twice those of non-Hispanic Whites (23% vs. 11%).\82\

          The Navajo Nation has the highest reported rate of food 
        insecurity of any subpopulation in the United States, with 
        76.6% of households on their reservation experiencing food 
        insecurity.\83\ *  This is more than three times the food 
        insecurity rate of American Indians as a whole.\84\
---------------------------------------------------------------------------
    * Although figures for hunger specifically are not available, the 
figures for the broader category of food insecurity highlight the 
disparities in rates between American Indians and other populations.
---------------------------------------------------------------------------
          For many American Indians living in their traditional 
        homelands or reservations, obtaining nutritious, affordable 
        food can mean traveling more than 30 miles. In one study of 
        Navajo members, 51% traveled off-reservation to get to a 
        grocery store. Among this sample, the shortest distance 
        traveled off-reservation was 155 miles round-trip.\83\ Lack of 
        access to healthy food is a daunting problem for American 
        Indians, who are two to three times more likely than the 
        general population to have diabetes, and are also more likely 
        to be obese.<SUP>85-86</SUP>
Those Affected by High Incarceration Rates
    Incarceration affects not just those in prison, but also their 
families and communities.

          For a family, one member's incarceration can mean loss of 
        income and emotional support, disruption of family life, and 
        social stigma. Especially for children, the result can be 
        insufficient food and shelter, emotional trauma, difficulty in 
        school, and increased stress.\93\ Several studies have found 
        significant correlations between parental incarceration and 
        food insecurity.<SUP>94-95</SUP>
          About 650,000 people are released from prison each year; most 
        are poor, unemployed, and homeless or living in marginal 
        housing.\96\ Returning to society after serving time, finding a 
        job, getting housing, and reconnecting with family and 
        community is often very difficult. Felons are ineligible to be 
        a principal lease-holder for subsidized housing, and in most 
        states, those convicted of a drug felony (but not other 
        felonies, including violent ones) are prohibited from receiving 
        SNAP. Currently, no nationally representative study assesses 
        the hunger rate of people recently released from prison across 
        the United States, but in a recent study, 90% of individuals 
        released from prison reported household food insecurity, and 
        37% reported not eating for an entire day because they had no 
        money.\97\ All of these difficulties affect not just the 
        released inmate, but also their families.
          Meeting with Commissioners in Washington, D.C., two women 
        described their lives as ``broken'' after leaving prison, until 
        they began job training at D.C. Central Kitchen. Monitoring 
        hunger and providing assistance to people who have served their 
        time and are re-entering society with a willingness to become 
        productive and responsible members of society will not only 
        help reduce hunger, but may also help to keep people from 
        returning to prison and lessen the impact on their families.
Immigrants
    Individuals and families immigrate to the United States for a 
variety of reasons: economic opportunity, reunification with family, or 
asylum from ethnic, religious, or political persecution.

          Forty-one million immigrants--13.1% of our population--live 
        in the United States. Of those 41 million, about 27% (11.3 
        million) do not have legal documentation.\87\ Documented and 
        undocumented immigrants represent a sizeable portion of our 
        population, and their children account for a significant 
        proportion of our future workforce. Therefore, understanding 
        and monitoring hunger among immigrant families, including 
        undocumented persons, is an important part of preventing long-
        term negative impacts.\87\

------------------------------------------------------------------------
 
-------------------------------------------------------------------------
    Documented immigrants are those who are in the United States
 legally.
    Undocumented immigrants are those who are here illegally. These may
 include asylum seekers (people who have entered illegally seeking
 refugee status, which if granted, would regularize their presence and
 make them legal) and those who entered the United States legally on a
 temporary visa that has since expired, rendering their presence here
 illegal.
    Colonia: an unincorporated settlement of immigrant families, the
 majority of whom are undocumented.
------------------------------------------------------------------------

          Assessing hunger in documented and undocumented immigrant 
        populations is challenging for a variety of reasons. Immigrant 
        households may include citizen children and non-citizen 
        parents, who may or may not be documented. Extended family 
        members--documented and undocumented--may also live in such 
        households, either temporarily or permanently. In addition, 
        immigrants who are seasonal workers move frequently. 
        Undocumented persons may avoid participating in surveys and the 
        Census out of fear of deportation or incarceration. Therefore, 
        even though they are included in survey results, these factors 
        make it difficult to compare hunger rates between documented 
        and undocumented populations.\88\
          Given these complexities, studies among immigrants tend to be 
        small, may include people of many different countries of 
        origin, or be limited to particular geographies or professions, 
        making it hard to compare hunger rates. We do know that 
        children in immigrant households are disproportionately 
        affected by hunger: children in households with immigrant 
        mothers are three times as likely to be hungry as children in 
        households with U.S.-born mothers \89\ (documentation status 
        not reported). Children in households headed by a recent 
        immigrant are also more likely to be hungry than children in 
        other households \90\ (documentation status not reported). One 
        small study compared documented and undocumented workers in 
        Georgia and found that undocumented workers were about three 
        times as likely to be food-insecure as documented workers.\91\
          On our trip to El Paso, we visited Colonias in the Lower Rio 
        Grande Valley. Women and lay community health workers from 
        those communities told us that their communities lack basic 
        infrastructure for safety and security. A survey of women in 
        the Colonias found that 78% of households did not have enough 
        food, and 7% had no food at all. Approximately 18% had adults 
        who were unemployed (documentation status not reported).\92\
        [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
          A home to a family of nine in Sparks, a Colonia near El Paso, 
        Texas.
          Photo courtesy of Socorro Ramirez Community Center, El Paso, 
        TX.
        [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
Addressing Hunger in America
    In our field visits, we observed many successful public and private 
food programs with track records of effectiveness and bipartisan 
support. These partnerships highlighted for us the synergy that can 
occur between government entities, nonprofits, industry, and 
individuals, not only producing a greater impact on hunger than any one 
of these sectors could alone, but also strengthening the bonds of 
communities across social classes and sectors. Through our review of 
the research, we learned of many effective programs as well as 
opportunities to enhance the work. The U.S. Government, along with many 
nonprofit organizations, corporations, and individuals, works daily to 
reach millions of families, and they do so in comprehensive, effective, 
and creative ways.
Federal Programs
    In 2014, the U.S. Government spent an estimated $103.6 billion on 
Federal food and nutrition assistance programs,\2\ with one in four 
people having participated in at least one of the government's 15 food 
assistance programs at some point during the year.\98\ The five largest 
programs accounted for 97% of these expenditures. Together these 
programs form a nutritional safety net for millions of children and 
low-income adults, providing them the additional nutrition assistance 
they need to lead an active and healthy life. In his formal testimony 
to the Commission, Dr. Eldar Shafir, the William Stewart Tod Professor 
of Psychology and Public Affairs in the Woodrow Wilson School of Public 
and International Affairs at Princeton University, wrote, ``The data 
suggest that government safety nets are not luxuries, but can be 
powerful tools to improve conditions precisely when things are 
difficult.'' \99\
    In her formal testimony to the Commission, Angela Rachidi, a 
research fellow in poverty studies at American Enterprise Institute, 
told Commissioners, ``Data suggest that our main food assistance 
programs are appropriately targeting those with very low food 
security.'' \100\
    The largest food assistance programs are discussed below.

------------------------------------------------------------------------
 
-------------------------------------------------------------------------
                Largest Federal Food Assistance Programs
 
    SNAP: Supplemental Nutrition Assistance Program
    WIC: Special Supplemental Nutrition Program for Women, Infants, and
 Children
    School Meals:
 
      <bullet> National School Lunch Program
      <bullet> School Breakfast Program
 
    Summer and after school Programs
 
      <bullet> Summer Food Service Program
      <bullet> Child and Adult Care Food Program
------------------------------------------------------------------------

WIC: The Special Supplemental Nutrition Program for Women, Infants, and 
        Children 
        [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
    The Special Supplemental Nutrition Program for Women, Infants, and 
Children (WIC) provides Federal grants to states for specific healthy 
foods, health care referrals, and nutrition education for low-income 
pregnant or postpartum women, and to infants and children under 5 who 
are at nutritional risk. In 2014, approximately 8.3 million women, 
infants, and children under 5 received help through the WIC program in 
an average month.\107\ More than \1/2\ of all newborn children in the 
United States participated in the WIC program. As of Fiscal Year 2013, 
23% of WIC participants were infants, about 54% were children from 1-4 
years old, and 24% were women.\107\
    WIC has been credited with a 68% reduction in hunger among families 
with young children.\108\ Kate Breslin, President and CEO of the 
Schuyler Center for Analysis and Advocacy, explained in her testimony 
that WIC is associated with healthier births, more nutritious diets, 
improved cognitive development, and stronger connections to preventive 
health care, including an increased likelihood of children receiving 
immunizations.\109\ Research supports Breslin's testimony: a 
longitudinal study of WIC participation examined the association 
between how long a household participated in WIC and food security 
status. Among pregnant women who reported hunger, receiving WIC in the 
first or second trimesters, as opposed to only the third trimester, 
reduced the odds of food insecurity. Additionally, among children 
living in food-insecure households, children who were on WIC longer had 
lower odds of hunger at the final clinic visit.\110\
    WIC, which involves participants in intensive nutrition education 
and encourages linkages to health care services, exerts a positive 
influence on health beyond reducing hunger. According to an analysis of 
data from the Early Childhood Longitudinal Study of 10,700 children 
born in 2001, WIC decreased the rate of low birth weight by at least 
20%.\111\ Low birth weight is associated with increased risk of 
impaired immune function, chronic disease, developmental delays, and 
high perinatal and lifelong health and educational costs. Another study 
of 26,950 WIC-eligible women and children from 2000 to 2010 found that 
receiving WIC diminished the effects of multiple stressors, including 
food insecurity and the depression often accompanying it.\112\
SNAP: The Supplemental Nutrition Assistance Program
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The Supplemental Nutrition Assistance Program (SNAP, formerly known 
as Food Stamps) is the nation's largest program meant to address hunger 
by improving access to food for low-income individuals and households 
through additional income for groceries. According to program 
operations data from the USDA Food and Nutrition Service, SNAP provided 
assistance to 46.5 million people in an average month in Fiscal Year 
2014, slightly fewer than the 47.6 million people served in an average 
month in Fiscal Year 2013. Thomas Ptacek, a military veteran who had 
experienced homelessness, spoke at the public hearing in Portland, 
Maine. He said, ``It was not a quick and easy road back for me, and the 
SNAP program was a big part of my success in returning to a more 
fulfilling life. To me, the most beneficial aspect of the SNAP program 
is that it allows for choice in the purchase of food that can be 
prepared in the home . . . This extra piece, that I personally 
benefited from greatly, is the sense of normalcy and stability that 
comes from going to the grocery store and choosing your food.'' \101\
    SNAP participation has decreased the percentage of households 
experiencing hunger by 12-19%.\102\ In addition, people who participate 
in SNAP for 2 years are 20-50% less likely to report hunger than those 
who leave the program before 2 years.\103\
    SNAP provides benefits that go beyond money for food. Compared to 
low-income, non-SNAP households, mothers receiving SNAP are less likely 
to experience maternal depression, although they are still more likely 
to experience maternal depression than mothers in food-secure 
households.\104\ In households participating in SNAP, children are 16% 
less likely to be at risk of developmental delays and have lower rates 
of failure to thrive and hospitalization compared to children in 
similar households not participating in SNAP.\104\
    The larger issues of economic growth, job creation, wages, and 
family choices are the underpinnings of addressing the root causes of 
hunger. SNAP is, by design, one of the most responsive programs to 
economic downturns, diminished labor force participation, and recession 
economies, doing exactly what it should do to mitigate hunger-
eligibility for participation increasing when incomes are decreasing.
    In spite of SNAP's success, hunger remains a stubborn problem. SNAP 
administrative data show that from 2000 to 2014, the number of SNAP 
participants has increased 171%.<SUP>105-106</SUP> However, hunger 
rates, relatively steady between 3% and 4% until 2007, also increased 
dramatically in 2008 (from 4.1% to 5.7%) and remained high in 2009 and 
2010. But through 2014, both the increased participation levels and the 
increased hunger rates have yet to decline significantly, even 6 years 
into the recovery.
SNAP and National School Lunch Program (NSLP) Participation Compared to 
        Hunger Rates Over Time
     [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        

          Our research has demonstrated the benefits of SNAP and WIC on 
        the health and developmental academic well-being of children. 
        We have come to think of these programs as prescriptions for 
        healthier children. We need research on the adequacy of SNAP 
        benefits in varying family contexts which relate to SNAP 
        benefit levels.
            Patrick Casey, M.D., Harvey and Bernice Jones Professor of 
 Developmental Pediatrics, University of Arkansas for Medical Sciences 
                                                          (Little Rock)
School Meals
    The National School Lunch Program and School Breakfast Program 
offered meals to more than 30 million students in Fiscal Year 2014. The 
programs operate in more than 100,000 public and nonprofit private 
schools and residential child care institutions. Because school 
nutrition programs have such bipartisan support, many communities have 
seen this as an excellent way to reduce hunger and improve the 
nutritional status of our children.
    Researchers found that children from food-insecure and marginally 
food-secure households receive a larger proportion of their food and 
nutrient intakes from school meals than do children from food-secure 
households. This difference is partially explained by the higher 
participation rates of the food-insecure and marginally food-secure in 
school meal programs.\113\ While some studies have examined the 
relationship between school meal programs and food security, they 
cannot assess what the food security status of school meals 
participants would have been in the absence of the program. However, 
national nutrition survey data suggest that school meals are an 
important source of healthy foods: all school lunch participants, 
especially low-income participants, generally consume more healthful 
food at lunch than non-participants.\114\
    In similar fashion to SNAP and WIC, school nutrition programs have 
an impact that goes beyond decreasing household hunger. Some studies 
have examined the correlation between participation in the School 
Breakfast Program and academic performance. Low-income school breakfast 
participants are reported to have lower tardiness and absence rates and 
a larger increase in test scores than low-income children who did not 
participate.\115\ Similarly, studies have linked higher rates of school 
breakfast participation with improved grades in math.<SUP>116-117</SUP>
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          A school garden in Little Rock.

    Despite the value of school breakfast, there remains a wide gap 
between the number of children who receive school lunch and the number 
who receive breakfast. In 2014, nearly 22 million school children 
received a free or reduced price school lunch, but despite the same 
eligibility, only about \1/2\ those children participated in school 
breakfast.\118\ Implementing ``breakfast after the bell'' strategies 
such as ``breakfast in the classroom'' or ``grab-and-go'' meals 
(instead of serving breakfast in the cafeteria) is a promising approach 
to improving child nutrition and academic achievement.
    Under the National School Lunch and School Breakfast Programs, the 
Community Eligibility Provision allows schools and local educational 
agencies in communities with high poverty rates to provide breakfast 
and lunch to all students without certification requirements, thus 
decreasing the school's administrative costs and reducing stress and 
stigma for parents who would normally have to apply on an individual 
basis. The Community Eligibility Provision eliminates the burden of 
collecting household applications to determine eligibility for school 
meals, relying instead on information from other means-tested programs 
such as SNAP and Temporary Assistance for Needy Families. Marian Wright 
Edelman, President of the Children's Defense Fund, recommended in her 
testimony to the Commission that use of the Community Eligibility 
Provision be promoted, since it predominantly serves low-income 
children and increases access to the school meal program while reducing 
labor costs to schools.119
    More than 14,000 high-poverty schools in 2,200 school districts 
participated under the Community Eligibility Provision \120\ in the 
first year of nationwide availability, and more than six million 
children now attend schools participating in the program. In Illinois, 
Kentucky, and Michigan, schools implementing the Community Eligibility 
Provision in the 2011-2012 school year saw breakfast participation 
increase from 44% in October 2010 to 56% in October 2012. Lunch 
participation increased from 69% in October 2010 to 78% in October 
2012.\121\ To our knowledge, no data are yet available linking the 
implementation of the Community Eligibility Provision to food security. 
Therefore, this is an important area for further research.

------------------------------------------------------------------------
 
-------------------------------------------------------------------------
               Other Federal Nutrition Assistance Programs
 
    The Federal Government operates a number of other smaller programs
 targeted to specific populations to assist with reducing and preventing
 food insecurity:
 
  <bullet> The Food Distribution Program on Indian Reservations provides
   USDA foods to low-income households, including the elderly, living on
   Indian reservations.\128\ For those living far from food stores, the
   Food Distribution Program on Indian Reservations is seen as more
   accessible than SNAP, although traditional food offerings are limited
   and overall food choices are restricted. Those living near
   supermarkets tend to choose SNAP for a better variety of foods.
 
  <bullet> The Emergency Food Assistance Program provides USDA foods to
   emergency food providers and food banks to supplement the diets of
   low-income Americans, including the elderly.\124\
 
  <bullet> The Commodity Supplemental Food Program provides seniors with
   a food package containing good sources of nutrients.
 
  <bullet> The Fresh Fruit and Vegetable Program provides students with
   no-cost fresh fruits and vegetables in school.
 
  <bullet> The Special Milk Program provides participants with no-cost
   milk through their school, childcare center, or camp.
 
  <bullet> The WIC Farmers' Market Nutrition Program and Senior Farmers'
   Market Nutrition Program provide coupons participants can use at
   farmers' markets for fruits, vegetables, honey, and fresh herbs.
 
    To our knowledge no recent research examines the effects of these
 programs on hunger.
------------------------------------------------------------------------

Summer and Afterschool Food Programs
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          A child receiving lunch in the summer at Acoma Pueblo 
        Community Center in New Mexico.

    Millions of students participate in school lunch and breakfast 
programs, but during the summer, many children face a period without 
substantial healthy meals. In 2012, about 4% of households 
participating in the National School Lunch Program reported ``sometimes 
or often not having enough to eat'' from January to May, but this 
figure increased to over 5% in June and July.\122\
    In an effort to address this issue, the Summer Food Service Program 
enables low-income children to receive meals when school is not in 
session by going to a central location and eating in a supervised 
setting. The program is delivered through public-private partnerships 
with summer camps, summer school, parks and recreation programs, 
churches, and other community organizations. Unfortunately, and for a 
variety of reasons, participation is relatively low. In 2014, 
approximately 14% of eligible children received meals in the 
summer.\123\ More than 2.6 million children participated at almost 
45,200 sites in the summer of 2014.\124\ While visiting Washington, 
D.C., we observed the operation of the Summer Food Service Program at 
Anacostia Public Library. Washington, D.C.'s summer food programs have 
served over one million meals to children and youth in the District of 
Columbia in the past three summers, and serve approximately 60% of the 
D.C. children who are eligible.\125\ On a field visit in Texas, the 
Anthony Independent School District reported that they increased summer 
meal participation by almost 60,000 meals. This program helps to employ 
over 70 high school students who get involved in distributing meals at 
the baseball and t-ball fields, with a welcoming community atmosphere.
    The Child and Adult Care Food Program is another program that 
serves nutritious meals and snacks to eligible children and adults at 
participating child care centers, day care homes, and adult day care 
centers. The program also provides meals and snacks to children and 
youth participating in after school programs or living in emergency 
shelters. On an average day, 3.8 million children receive nutritious 
meals and snacks through the Child and Adult Care Food Program in an 
effort to reduce hunger.\126\ The program also provides meals and 
snacks to 120,000 adults who receive care in nonresidential adult day 
care centers.<SUP>126-127</SUP> However, more empirical research 
remains to be done to assess links between the Child and Adult Care 
Food Program and reductions in hunger.
Community Programs
    Across our country, individuals, nonprofit organizations, faith-
based organizations, and corporations are engaged in helping to 
alleviate hunger in their communities. In 2013, 62.6 million people in 
the United States contributed 7.7 billion volunteer hours, time 
estimated to be worth $173 billion. Providing food to others was among 
the most frequently reported activities, with 24% of volunteers saying 
that they ``collected, distributed, prepared, or served food'' during 
the year.\129\
    We heard from many volunteers at our hearings, and they were very 
proud of their organizations' accomplishments in providing food to low-
income people. While almost all experts point out that volunteers alone 
cannot meet the overall needs of families, and that their efforts 
cannot replace the effectiveness of Federal nutrition assistance 
programs, volunteers can play an important role in supplementing and 
leveraging those programs.
    Through innovative school nutrition and summer feeding programming, 
job training efforts, social services provision, community gardening, 
farm-to-table programs, soup kitchens, food pantries, and advocacy 
efforts, volunteers significantly contribute to the work of hunger 
relief organizations across the country. We provide some examples 
below.

------------------------------------------------------------------------
 
-------------------------------------------------------------------------
  <bullet> In Maine, Preble Street involves 5,000 volunteers in serving
   500,000 meals yearly across eight local soup kitchens.\130\
 
  <bullet> The D.C. Central Kitchen relies on 14,000 volunteers each
   year to help prepare meals, which are provided under government
   contracts to D.C. public schools that don't have the equipment and
   staff to do their own healthy ``scratch cooking,'' and to 80 partner
   agencies, such as homeless shelters.
 
  <bullet> Feeding America, the largest umbrella organization for food
   banks and food rescue organizations, has 200 members supporting
   61,000 agencies that, as of 2010, distributed food to 37 million
   Americans, including 14 million children.\131\ Feeding America
   organizations benefit from 8 million hours of service per month from
   two million volunteers; more than \1/2\ of these volunteers manage
   entire agencies without full-time staff.\132\
------------------------------------------------------------------------

Public-Private Partnerships
    People and businesses in America are generous and motivated to help 
solve problems in their communities, and local organizations offer 
opportunities for cross-sector collaboration to maximize the 
effectiveness of publicly funded nutrition assistance programs. Public-
private partnerships create valuable relationships that draw on the 
strengths of each organization to meet community 
needs.<SUP>133-134</SUP> Partnerships between public and private 
entities have the potential to address hunger in ways that go beyond 
the limitations of government entities, by taking advantage of the 
ingenuity and creativity of private enterprise. For example, both the 
public and private sectors bring knowledge about food production and 
insights about pressing social issues.\133\
    Public-private partnerships use a variety of strategies to reduce 
hunger, and can be classified into five categories.<SUP>135-136</SUP>

  <bullet> SNAP partnerships offer outreach to increase SNAP 
        participation and train volunteers to help individuals apply 
        for SNAP and offer nutrition education. For example, the 
        Arkansas Hunger Relief Alliance brings together 47 food banks 
        and pantries and has increased access to SNAP applications 
        throughout the state. SNAP partnerships also involve efforts to 
        assist eligible participants in completing SNAP applications. 
        Another example is Making Dinner a SNAP, a collaborative effort 
        developed between the private nonprofit Ohio District 5 Area 
        Agency on Aging Inc., five grocery stores, the Department of 
        Job and Family Services in Richland County, and local nursing 
        homes. The program aims to increase senior SNAP participation 
        and teach seniors about cost-effective, nutritious recipes.

  <bullet> Child nutrition partnerships focus on increasing school meal 
        and summer meal participation and promoting farm-to-table 
        initiatives. For example, ConAgra Foods has funded grants to 
        Feeding America programs such as Kids Cafe, which provides free 
        meals or snacks in after school settings, and Child Hunger 
        Corps, which trains people in food banks nationwide to 
        implement outside-of-school meal programs for children. Public-
        private partnerships also work together to implement child 
        nutrition assistance initiatives. For example, the Academy of 
        Nutrition and Dietetics and ConAgra work together to facilitate 
        community education delivered by registered dietitian 
        nutritionist educators. In addition, more than 80 private 
        partners and state agencies recruit meal sites and facilitate 
        the distribution of meals for summer breakfasts, lunches, and 
        food backpacks on the weekends.

  <bullet> Food distribution partnerships include food hubs that 
        coordinate the sale and transport of produce from farm to local 
        markets, stores, and emergency food providers. For example, in 
        Indianapolis, we visited a partnership between Elanco (a 
        division of Eli Lilly and Company), Kroger Country, Rose Acres 
        Farms, and two Indiana food banks to make eggs more accessible 
        to undernourished people of all ages.\137\ The Indianapolis 
        partnership also meets regularly to discuss and collaborate on 
        research projects and a variety of other anti-hunger efforts.

  <bullet> Healthy food access partnerships work to improve 
        availability of healthy foods. For example, the Boston Bounty 
        Bucks program promotes the purchase of fruits and vegetables. 
        The program, begun in 2008 as a partnership between The Food 
        Project nonprofit and the City of Boston, provides electronic 
        benefit transfer terminals at farmers' markets so SNAP 
        recipients can use benefits to buy produce. The program 
        promotes purchase of healthful food by providing a dollar-for-
        dollar matching incentive for SNAP purchases up to $10. By the 
        2013-2014 season, $166,540 SNAP and Bounty Bucks dollars were 
        spent through the program at 20 farmers' markets in the Boston 
        area.\138\ The New York City Health Department and Human 
        Resources Administration works with Greenmarket Co. to 
        distribute $2 Health Buck coupons for every $5 that electronic 
        benefit transfer customers spend on fresh fruits and vegetables 
        at the farmer's market. Fifty-one Greenmarkets distributed over 
        $260,000 in Health Bucks in 2013.\139\ In addition, the Academy 
        of Nutrition and Dietetics, using funding from Feeding America, 
        General Mills, the ConAgra foundation, and the National Dairy 
        Council, provides community training tools and educational 
        grants for registered dietitian nutritionists to teach low-
        income people how to cook for their families. In another 
        example, Share Our Strength's Cooking Matters Program works 
        with local organizations to educate and empower low-income 
        families to stretch their food budgets so their children get 
        healthy meals at home. Cooking Matters, which leverages SNAP 
        Nutrition Education funding in local markets, helps 
        participants learn to shop strategically, use nutrition 
        information to make healthy food choices, and cook affordable 
        meals.

  <bullet> Research and education partnerships create collaborations 
        among government agencies, businesses, nonprofits, and 
        community organizers to raise awareness and engage other 
        stakeholders in their efforts. For example, the USDA Hunger-
        Free Communities Grants Awards program provided money to local 
        governments and nonprofits to help assess and reduce hunger. In 
        another example, Tyson Foods launched the KNOW Hunger 
        Initiative with the Food Research and Action Center to assess 
        people's views on hunger in the United States and raise 
        awareness of hunger among stakeholders to encourage people to 
        get involved in anti-hunger campaigns.<SUP>140-141</SUP>

    Public-private partnerships can help address hunger and many 
related issues (e.g., insufficient low-cost housing, lack of 
employment, inadequate child care opportunities) that contribute to 
food insecurity in communities where Federal assistance programs cannot 
fulfill immediate needs. Open communication and clear guidelines may 
help to increase the effectiveness of partnerships.\133\ Existing 
partnerships may serve as examples for future initiatives and can 
provide peer advice to other nonprofits, faith-based organizations, and 
corporations that wish to similarly commit resources and staff to such 
partnerships.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


          ``tQue Sabrosa Vida! (What a Delicious Life!)'' by Mauricio 
        Mora.
          This painting hangs in the main lobby of El Centro de Salud 
        Familiar (Family Health Center) La Fe's Child and Adolescent 
        Wellness Center in South El Paso. It is meant to capture the 
        beauty of traditional and healthy Mexican-American foods.
Recommendations

------------------------------------------------------------------------
 
-------------------------------------------------------------------------
Defining Hunger:
 
Very Low Food Security
 
    As noted in the box in the Introduction, when we use the word
 ``hunger'' we mean households experiencing very low food security.
------------------------------------------------------------------------

    The latest USDA statistics, published in September 2015, show 
levels of hunger that are still elevated from the pre-recession period. 
This illustrates clearly that existing food assistance programs are not 
solving the problem--nor are they likely to do so without progress on 
the root causes of hunger. The Commission believes that we must 
continue to improve existing food assistance programs to alleviate 
hunger as effectively as possible, while also working to address the 
root causes. Accordingly, we offer the following recommendations for 
system changes, both statutory and administrative, across both the 
public and private arenas, to reduce hunger. However, we want to 
emphasize that although existing programs have not completely 
eliminated hunger, the research and information we reviewed and the 
testimony we heard support the conclusion that rates of hunger would be 
higher without them. Thus, they provide both opportunities for 
improvement and a strong foundation on which to build.
    Mindful of our charge to ``provide recommendations to more 
effectively use existing [USDA] programs and funds,'' our 
recommendations will not require significant new resources, but may 
lead to some future spending if further analysis or evaluations reveal 
opportunities for improvement.
    We urge Congress to act on these recommendations as soon as 
possible, without waiting for bills (such as the farm bill) that are on 
a particular timeline. The child nutrition program improvements can be 
made through the upcoming Child Nutrition Act reauthorization process.

------------------------------------------------------------------------
 
-------------------------------------------------------------------------
    We make recommendations in six areas to comprise a total of 20
 specific recommendations to Congress and the USDA.
 
  I.  Make improvements to SNAP (10 recommendations in three categories:
   work, nutrition, and well-being)
 
  II.  Make improvements to child nutrition programs (4 recommendations)
 
  III.  Improve nutrition assistance options for people who are disabled
   or medically at risk (2 recommendations)
 
  IV.  Fund pilot programs to test the effectiveness of strategic
   interventions to reduce and eliminate hunger (1 recommendation; 4
   pilots)
 
  V.  Incentivize and expand corporate, nonprofit, and public
   partnerships to address hunger in civil society (1 recommendation)
 
  VI.  Create a White House Leadership Council to End Hunger that
   includes participation by a broad group of government and non-
   government stakeholders (2 recommendations).
------------------------------------------------------------------------

          With a little help, every non-disabled working-age adult has 
        the capacity to pull themselves out of poverty and experience 
        the life-changing, transcendent dignity that comes from gainful 
        employment.
       Mary Mayhew, Commissioner, Maine Department of Health and Human 
                                                    Services (Portland)
I  Make Improvements to SNAP that Promote Work, Improve Nutrition, and 
        Enhance well-being
    We identified ten areas for improvement in SNAP, which we have 
placed in three categories: work, nutrition, and well-being.
Ensure that SNAP Promotes and Supports Work
    While the primary goal of SNAP is to treat and prevent hunger, it 
can also serve as a way to help support families as they enter or re-
enter the job market. The majority of people who receive SNAP benefits 
are not expected to work: they are the elderly, children, or people who 
are disabled. Another group of recipients includes adults who report 
earnings when they apply for assistance. In these cases, SNAP is acting 
to support work.
    But a substantial number of working age, non-disabled adults who 
receive SNAP benefits report no earnings on their case budgets, and 
state SNAP administrators provide little help to these adult 
participants in their search for employment. This needs to change.

  1   Encourage a greater focus on job placement, job training, and 
            career development among SNAP recipients, and ensure 
            necessary supports and infrastructure to facilitate finding 
            work.

          Rationale: Having sufficient earnings is the best defense 
        against hunger and reduces the need for nutrition assistance. 
        If SNAP, as the number one nutrition assistance program, did 
        more to help families move beyond the need for nutrition 
        assistance, not only would it be an investment in improving the 
        success, health, and productivity of low-income participants, 
        but also, in the long run, it would reduce government spending.

          Action Items:

    a.  Congress and the USDA should require states to provide more 
            opportuni-
              ties for adults participating in SNAP to attain the 
            skills they need and
              find jobs with wages sufficient to enable them to leave 
            SNAP. All non-work-
              ing, non-public assistance (Temporary Assistance for 
            Needy Families or
              state cash assistance programs), non-disabled, non-
            pregnant heads of
              households (with or without young children) applying for 
            or participating
              in SNAP should be strongly encouraged and supported in 
            their efforts to
              seek employment or participate in work-related activities 
            realistically
              designed to lead to available employment. SNAP 
            eligibility case workers
              should, at all stages of the program (initial 
            application, during household
              participation, and re-certification), assist all 
            employable heads of household
              to secure employment by promoting the importance of 
            earnings both so-
              cially and economically. For adult, non-senior recipients 
            who are not report-
              ing earnings, not disabled, and not on Temporary 
            Assistance for Needy
              Families, states must provide more case management and 
            employment
              services at initial application and re-certification. 
            Further, they should offer
              participants the ability to participate in existing SNAP 
            employment and
              training programs or connect employable adults on SNAP to 
            other existing
              job readiness, job development, and job placement 
            providers in the commu-
              nity that offer case management, supervised job search, 
            resume prepara-
              tion, transportation assistance, soft skill training, and 
            short-term career
              training related to available jobs in the local 
            community. For households
              with children, families should be connected to 
            subsidized, safe, accessible,
              and affordable child care. Such requirements on states to 
            promote work
              and connect employable adults to appropriate services 
            should be defined by
              USDA's Food and Nutrition Service in regulations and 
            implemented by the
              states.

    b.  Congress should ensure that the USDA collaborates with the 
            Department
              of Labor, the Department of Health and Human Services, 
            and other rel-
              evant agencies at the state and local level to facilitate 
            the administration
              of programs that can support families applying for or 
            participating in SNAP
              as they look for work and enter the workforce. Employers 
            and community
              colleges should be integrally involved in designing 
            career-directed training
              and skill development relevant to existing labor-market 
            job opportunities.
              Specific services to ensure that families can find 
            employment are outlined
              in (a) above.

    c.  Congress should direct USDA to monitor and report annually, on 
            a state-
              by-state basis, the share of working age, able-bodied 
            adult SNAP recipients
              who do not report earnings and who are not receiving 
            Temporary Assist-
              ance for Needy Families. This may include adding new 
            tables to the ``Char-
              acteristics of Supplemental Nutrition Assistance Program 
            Households'' re-
              port or beginning a stand-alone, annual report on the 
            labor force participa-
              tion and employment levels of SNAP recipients. In 
            documenting these labor
              and SNAP participation dynamics, the USDA would provide 
            reliable
              metrics to evaluate their performance in helping 
            employable recipients suc-
              cessfully connect to the labor market.

    d.  The USDA should allow states greater flexibility within their 
            current
              SNAP Employment and Training funding to test innovative 
            approaches
              that encourage work. Currently, the USDA has rigid and 
            complex rules gov-
              erning how SNAP Employment and Training funds can be 
            utilized, which
              potentially stifle the creative and effective provision 
            of employment serv-
              ices. For example, while other work support programs and 
            SNAP Employ-
              ment and Training can be integrated to leverage funds 
            across programs,
              more should be done to help states to utilize Employment 
            and Training
              funds for programs such as subsidized employment, 
            substance abuse and
              mental health treatment, and legal aid services that help 
            recent prisoners
              reenter the workforce. While ten new SNAP Employment and 
            Training pi-
              lots have been funded and will be evaluated for broader 
            replication, await-
              ing their results should not be a reason to wait on 
            efforts to improve the
              use of SNAP Employment and Training.

  2  Ensure SNAP eligibility incentivizes work by improving 
            responsiveness to earned-income fluctuations.

          Rationale: SNAP has a logical phase-down of benefits as 
        income increases. Still, there is evidence that when people 
        abruptly lose all SNAP benefits at the top end of income 
        eligibility, they may have less time to adapt to new income 
        realities and may report that they experience 
        hunger.<SUP>46, 142, 143</SUP> Faced with this possibility, 
        some SNAP recipients may not seek out work or seize an 
        opportunity to increase their earnings.

          Action Items:

    a.  Congress should allow states to offer all households leaving 
            SNAP for em-
              ployment that pays sufficiently to end their program 
            eligibility an appro-
              priate extension of their SNAP benefits at the pre-
            existing level to help
              them navigate pay lags and adjust household food 
            budgeting. The period of
              extended benefits shall be determined by states. In 
            implementing these ad-
              aptations, states should measure their effectiveness 
            through outcomes such
              as household reports of hunger, amount of administrative 
            savings and cost
              of benefits, and amount of churn (reapplications for 
            benefits within 3
              months).

    b.  The USDA should encourage states to improve their 
            administration of
              SNAP by mandating a more streamlined and effective 
            approach to re-cer-
              tification for recipients who are working.
     Ensure that SNAP Promotes Improved Nutrition
  3  Encourage the use of financial incentives to SNAP recipients to 
            facilitate the purchase of fruits, vegetables, high-quality 
            proteins, whole grains, and other healthy foods.

          Rationale: SNAP is not only an opportunity to help families 
        meet the costs of providing food for themselves and their 
        families, but can also play a crucial role in promoting healthy 
        choices and good nutrition.

          Action Items:

    a.  Congress should encourage the USDA to continue to develop 
            mechanisms
              for incentivizing purchases of healthier foods and to 
            promote cost-sharing
              opportunities with states, nonprofits, and municipal 
            governments to
              incentivize purchases of healthy foods.

    b.  The USDA should ensure mechanisms that provide broad, 
            understandable,
              and culturally appropriate communication regarding these 
            healthy incen-
              tives.

  4  Exclude a carefully defined class of sugar-sweetened beverages 
            from the list of allowable purchases with SNAP benefits.

          Rationale: SNAP benefits should help families meet their 
        nutritional needs, not contribute to negative health outcomes 
        through poor nutrition choices. Recent scientific evidence 
        suggests that the consumption of sugar-sweetened beverages, 
        which are unhealthy, can have profound and serious negative 
        effects on health, such as obesity and diabetes, especially 
        among children.<SUP>144-148</SUP> Reducing the consumption of 
        sugar-sweetened beverages also follows the guidelines of 
        leading health agencies such as the World Health Organization, 
        the National Institutes of Health, the Centers for Disease 
        Control and Prevention, the Institute of Medicine, and the 
        Surgeon General of the United States. The technology to exclude 
        certain items already exists at the participating retail store 
        level. In light of the research and the recommendations of 
        numerous health agencies, sugar-sweetened beverages should be 
        added to the list of items excluded from the allowable purchase 
        with SNAP.

          Action Items:

    a.  Congress should enact legislation to restrict the purchase of a 
            carefully de-
              fined list of sugar-sweetened beverages developed in 
            consultation with
              major health and nutrition organizations (e.g., the 
            organizations mentioned
              above), nutritionists, and scientific experts.

    b.  The USDA should ensure mechanisms that provide broad, 
            understandable,
              and culturally appropriate communication regarding this 
            new restriction.

  5  Use evidence-based product placement strategies that encourage 
            purchase of healthy products with SNAP benefits, and tie it 
            to SNAP eligibility for stores.

          Rationale: Participating SNAP retail stores receive 
        significant revenue from SNAP and should therefore promote the 
        purchase of healthy products. If the amount of shelf space 
        allocated to healthy foods is increased, and shelf space for 
        sugar-sweetened beverages and other unhealthy products is 
        reduced, consumers are more likely to purchase healthier foods.

          Action Item:

                  The USDA should create new standards for SNAP vendor 
                eligibility to ensure that participating stores, 
                including not just grocery stores, but other outlets, 
                comply with improved health and nutrition standards. 
                For example, the USDA should require retail stores that 
                currently accept SNAP or apply to become a 
                participating retailer to provide enhanced and 
                immediately visible shelf space for healthy foods and 
                beverages.

  6  Reform SNAP Nutrition Education (SNAP-Ed) to ensure that efforts 
            are likely to lead to measurable improvements in the health 
            of SNAP recipients.

          Rationale: While there are other nutrition education programs 
        in the USDA system, SNAP Ed, which operates in all 50 states, 
        is the most comprehensive. The USDA spent about $400 million on 
        SNAP-Ed in Fiscal Year 2014.\149\ While there are many 
        evaluations of individual SNAP-Ed programs that demonstrate 
        their impact on nutrition, there is an opportunity to 
        standardize the data collection and evaluation across programs 
        to assess the effectiveness of SNAP-Ed on improving health and 
        hunger outcomes.

          Action Item:

                  The USDA should continue to collaborate with the 
                Centers for Disease Control and Prevention and the 
                Department of Health and Human Services and other 
                agencies and experts to ensure that funds designated 
                for SNAP-Ed are supporting state-of-the-art nutrition 
                education that is effective, relevant, and meaningful 
                to SNAP participants. USDA can use multiple tools, such 
                as the Academy of Nutrition and Dietetics Guide for 
                Effective Nutrition Interventions and Education 
                (GENIE), to define best practices within SNAP-Ed, 
                develop or modify programs, and evaluate outcomes.\150\ 
                We note that, currently, SNAP-Ed outcomes data tend to 
                focus on inclusion of fruits and vegetables in the 
                diets of recipients. Future studies, however, should 
                broaden that focus to include whole grains, low-fat 
                dairy products, and high-quality proteins (including 
                lean meat, fish, and eggs), in addition to fruits and 
                vegetables.
Maximize SNAP's Ability To Promote Well-Being
    Overall, SNAP participation can improve health and well-being and 
help steer participants to make healthy choices. SNAP is often only one 
of the multiple services that a family or individual needs. For 
instance, given the evidence that food insecurity is related to 
increased risk of depression and poor mental health, or to unsafe 
housing conditions, or to employment barriers, SNAP application and 
administration provides an opportunity to assist families on a number 
of fronts. Building on this, the Commission recommends the following:

  7  Continue to promote and facilitate greater coordination of means-
            tested programs across Federal and state agencies and 
            provide state incentives for establishing a ``no wrong 
            door'' approach between SNAP and non-nutrition family 
            support programs.

          Rationale: Families that are eligible for SNAP are often 
        eligible for other programs, such as Medicaid and housing 
        assistance. Efforts are underway to find ways to serve families 
        more holistically. However, these programs still have their own 
        application mechanisms, facilities for application, and 
        distinct funding streams at the Federal level, which are 
        attached to differing rules and regulations for eligibility and 
        administration. This can create greater hardship for eligible 
        families and increase the administrative burden and costs for 
        states. In the case of Social Security/disability benefits, 
        such rules and regulations can sometimes act at cross-purposes.

          Action Items:

    a.  Congress should intensify existing efforts to encourage 
            collaboration across
              agencies to facilitate the coordination of programs and 
            to serve families
              more holistically in terms of SNAP, housing, medical 
            care, education, child
              care, and job training supports. Additionally, states 
            should be encouraged
              to use the option for enhanced Federal systems match 
            funding to coordinate
              Medicaid, SNAP, veteran's benefits, and Temporary 
            Assistance for Needy
              Families more widely.

    b.  Congress should increase their efforts to identify additional 
            ways to link
              funding streams between different agencies to ensure 
            greater collaboration
              between SNAP and other means-tested programs to ensure 
            efficient and ef-
              fective delivery of services, increased earnings, and 
            reduced hunger.

    c.  The USDA should find ways to ensure states are working to 
            collaborate
              across agencies and should incentivize SNAP programming 
            that collabo-
              rates with other state and Federal agencies.

  8  The USDA should use its current flexibility to the greatest extent 
            possible to support state innovations that would help 
            clients to become more food-secure and more self-
            sufficient, and should approve or disapprove these requests 
            within 90 days of submission.

          Rationale: States have long been a valuable arena for trying 
        new ideas and evaluating them to see if they could work on the 
        national scale. In addition, not all states have the same 
        problems or conditions, labor markets, or caseload composition. 
        Therefore, it is important for the USDA to be receptive to 
        state innovation and experimentation, both by encouraging 
        demonstration projects and by reviewing proposed projects in a 
        timely manner. The USDA should create a process and offer staff 
        support to encourage such innovation, and maximize the 
        demonstration and waiver authority of the programs within its 
        purview, while adhering to the SNAP goal of treating and 
        preventing hunger, maintaining client protections, and keeping 
        program integrity safeguards intact.

          Action Item:

                  Congress should require that the USDA allow greater 
                flexibility for states to apply for SNAP waivers and 
                demonstrations, and ensure that the USDA approves or 
                disapproves such requests within 90 days of submission, 
                including a thorough explanation of the final decision.

          A common sense approach is needed [that would enable] states 
         to ensure welfare benefits are being used appropriately. 
        Being closer to recipients, state governments can more 
        effectively determine which program changes best fit their 
        populations. . . . [S]tates have made significant strides in 
        some areas to tackle fraud, waste and abuse in the system.
 Jason Turner, Executive Director, [State Human Services] Secretaries' 
                                               Innovation Group (Maine)

  9  Create mechanisms for improved training for front-line SNAP 
            caseworkers to maintain a customer service perspective that 
            facilitates best practices of case management.

          Rationale: Although accessibility to participation in SNAP 
        has improved, the relationship between front-line caseworkers 
        and applicants could be more positive and effective. Front-line 
        caseworkers are often a client's first encounter with a system 
        meant to help them; therefore, they have the best opportunity 
        to provide effective and appropriate assistance.

          Action Item:

                  The USDA should require states to provide 
                comprehensive training and modern infrastructure 
                support for front-line caseworkers that ensures strong 
                knowledge of SNAP eligibility; an emphasis on the 
                importance of positive client service that explores 
                potential other problems (such as violence exposure or 
                homelessness) faced by the applicant; cultural 
                competency; and the ability to thoughtfully convey the 
                benefits of full-time work and related work supports. 
                Periodic retraining is also recommended, as program 
                rules change often. Accountability mechanisms to 
                demonstrate high performance on client service and case 
                management standards should be built into caseworker 
                performance reviews. The USDA should also measure the 
                performance of states relative to customer service, in 
                addition to the current focus on error rates and 
                timeliness. Unless such new measurements and expanded 
                training are added, client service will likely not 
                improve. In many places, office hours extending beyond 
                9-5 and offsite access points for working families are 
                already available and should be encouraged.

          I urge the Commission to focus on the horizontal integration 
        of these important programs, and not only linking these 
        resources, but [also] making the individual programs easy to 
        navigate. Because it is a social safety net, not a ropes 
        course.
 Sarah Palmer, Policy Associate, California Association of Food Banks; 
                             former CALFresh (SNAP) Recipient (Oakland)

  10  Support the well-being of families that have members who serve or 
            have served in the U.S. Military.

          Rationale: Families with an active duty service member should 
        have as much support as possible to stay healthy, well-
        nourished, and financially stable while their family member 
        serves to protect our country. Likewise, veterans who have 
        served our country should not have to struggle to put food on 
        the table for themselves and their families.
          There is a particular policy issue that restricts some SNAP-
        eligible active duty military families from qualifying for SNAP 
        benefits. For families living off base or in privatized on-base 
        housing, the Basic Allowance for Housing is counted as income 
        in the determination of eligibility for SNAP and may prevent or 
        reduce eligibility for SNAP. However, the Basic Allowance for 
        Housing is currently excluded as income for calculating income 
        taxes and eligibility for other government programs, including 
        WIC. The Basic Allowance for Housing is also counted as income 
        in determining eligibility for the Family Subsistence 
        Supplemental Allowance, a program administered by the 
        Department of Defense that operates somewhat in parallel to 
        SNAP and was created to move military families off of SNAP.
          Finally, data on food security and SNAP participation among 
        members of the military on active duty, veterans, and their 
        families are not readily available.

          Action Items:

    a.  Congress should enact legislation to exclude the Basic 
            Allowance for Hous-
              ing as income for the determination of SNAP eligibility 
            and benefit levels
              for families who have an active duty service member.

    b.  Congress should direct the Department of Defense to undertake a 
            com-
              prehensive review of the Family Subsistence Supplemental 
            Allowance pro-
              gram and recommend reforms that are directed at improving 
            food security
              in active duty military families.

    c.  In keeping with our country's priority of national security, 
            the USDA
              should work jointly with the Department of Defense and 
            the Depart-
              ment of Veterans Affairs to help with collecting data on 
            food security, its
              causes and consequences, and SNAP participation among 
            active duty mili-
              tary and veterans, and make this data available to 
            Congress, the President,
              and to the public at regularly specified intervals.
II  Make Targeted Improvements to Child Nutrition Programs
    Nutrition programs that are especially targeted to children provide 
much needed nutrition assistance in key periods of a child's 
developmental growth, promoting their health and well-being and having 
an impact on their ability to learn, grow, and develop to their full 
potential. The WIC and school meal programs are widely available, show 
significant effectiveness, and should be sustained and enhanced. 
However, other programs, which seek to reach children outside of the 
normal school hours and academic schedule, can be improved. Below we 
make four specific recommendations.

  11  Improve access to summer feeding programs and congregate meals by 
            reconsidering requirements for rural areas.

          Rationale: Children living in rural areas may have limited 
        access to summer nutrition programs due to remote living 
        conditions and lack of transportation.

          Action Item:

                Congress should change the congregate feeding 
                requirements based on a community's stated need and 
                local context to allow them to substitute or supplement 
                with different, more accessible approaches. This 
                includes areas of high need in rural areas where 
                congregate feeding can be a barrier to feeding as many 
                children as possible.

  12  Change area eligibility for reimbursement of summer feeding from 
            50% of children eligible for free or reduced price school 
            meals to 40% to help reach children in rural and suburban 
            areas.

          Rationale: The summer feeding program uses an area 
        eligibility test to determine whether to provide reimbursements 
        for snacks and meals. This test defines a ``low-income area'' 
        as one where more than 50% of children are eligible for free or 
        reduced-price school meals. It is particularly hard for rural 
        and suburban areas to meet this 50% requirement, because 
        poverty is less concentrated in these areas. That keeps many 
        communities with significant numbers of low-income children, 
        but not a high enough concentration of poverty, from 
        participating. In addition, the 50% test is inconsistent with 
        federally funded summer programs, such as the 21st Century 
        Community Learning Center programs and Title I Education 
        funding, which require only 40% school meal participation.

          Action Item:

                Congress should change the area eligibility criteria 
                for participation in summer feeding programs from 50% 
                to 40% of children participating in free or reduced 
                priced school meals.

  13  Make the summer electronic benefit transfer option available by 
            creating a mechanism that allows communities to apply for 
            it if they can clearly demonstrate a barrier to congregate 
            feeding related to remoteness, climate, or safety.

          Rationale: Despite a high prevalence of children at risk for 
        hunger in some communities, participation in summer feeding 
        programs can be very low. This may indicate that the need is 
        not as serious as thought in some areas, but in others, may 
        reflect chronic under-service due to transportation barriers 
        related to remote living conditions, severe weather patterns, 
        or parental concerns regarding community violence. These 
        barriers can occur in both rural and urban settings. USDA pilot 
        studies have shown that participation in an electronic benefit 
        transfer option can reduce hunger among families with children 
        by more than 30%.\151\ This is significant evidence of a 
        targeted child nutrition program improvement.

          Action Items:

    a.  Congress should allow the USDA to offer summer electronic 
            benefit trans-
              fer in communities that are especially at risk for hunger 
            among children
              and where participation in summer feeding sites is 
            restricted or minimized
              by remoteness, safety, or climate. The electronic benefit 
            transfer option
              should be offered in areas (Census tracts or school 
            attendance zones) with-
              out the consistent presence of summer meals sites in an 
            effort to minimize
              the duplicate use of summer electronic benefit transfer 
            and congregate
              sites.

    b.  The USDA should work with communities at risk to create an 
            administra-
              tive mechanism through which funds can be provided 
            directly to families
              with eligible at-risk children through an existing 
            electronic benefit transfer
              mechanism.

          At [our health center] we talk about Nuestro Bienestar, we 
        talk about our total wellness. We talk about the categorical, 
        dysfunctional system that we live in: where we talk about 
        health and nothing else; where we talk about education and 
        nothing else; where we talk about hunger and nothing else--as 
        if each one were to lead a separate life. We know that all of 
        them are intermingled. All of them are one.
 Salvador Balcorta, CEO, El Centro de Salud Familiar de La Fe (El Paso)

  14  Streamline and simplify administrative processes among the child 
            nutrition programs.

          Rationale: Currently, the various child nutrition programs 
        have different application processes, even though the same 
        organizations and sponsors frequently administer these 
        programs. Having to complete separate applications and comply 
        with differing or conflicting regulations places undue 
        administrative burdens on the community-based programs that run 
        these programs. Currently, community-based organizations 
        operate the Child and Adult Care Food Program's At Risk after 
        school Meal Program and the Summer Food Service Program 
        separately, even though they are serving the same children, 
        often at the same sites, throughout the year. This approach not 
        only burdens community organizations, but also incurs 
        unnecessary USDA costs to review and respond to multiple 
        applications from the same providers under complex regulations.

          Action Items:

    a.  Congress should allow the USDA to streamline and consolidate 
            the appli-
              cation processes, funding mechanisms, and regulations for 
            the Summer
              Food Service Program and the Child and Adult Care Food 
            Program's At-
              Risk after school Meal Program into one program for 
            community-based
              sponsors.

    b.  Congress should allow the USDA to permit school food 
            authorities, with a
              single application, to provide and administer the School 
            Breakfast Program,
              the National School Lunch Program, the Summer Food 
            Service Program,
              and the Child and Adult Care Food Program's At Risk after 
            school Meal
              Program under National School Lunch Program regulations.

          It's very difficult on the SNAP and Medicaid side to have the 
        kind of effective streamlined eligibility access that leads to 
        that integrative perspective that we want to see, because they 
        are driven by different rules. That is something that is within 
        the hands of national policy makers to change--it's a 
        modernization. We know that if we can get services delivered 
        faster in earlier ways to families, and we're not caught by the 
        fact about whether someone qualifies for Medicaid or for SNAP 
        or vice versa, we're serving families better and ultimately 
        reducing taxpayer dollars because we're driving down the cost 
        of health.
Tracy Wareing Evans, Executive Director, American Public Human Services 
                                                            Association
III  Improve Nutrition Assistance Options for People Who Are Disabled 
        or Medically at Risk
    People with disabilities or multiple, debilitating health 
conditions are at increased risk for hunger and poor nutrition status. 
Additionally, homebound seniors and others with disabilities with 
limited ability in activities of daily living are also at nutritional 
risk. Such problems can exacerbate illnesses, decrease functioning, 
lower productivity, and increase health care costs. In our research, as 
well as in our field visits and hearings, we heard from agency 
administrators, people who are disabled and medically at risk, and 
physicians about ways to improve programming for medically vulnerable 
people. Below we make two recommendations that will improve conditions 
for people who are frail or disabled.

  15  Expand Medicare managed care plans to include coverage for meal 
            delivery for seniors with physician recommendation.

          Rationale: Meals on Wheels programs meant to serve home-bound 
        elderly people have been found to be highly effective in 
        improving seniors' nutritional intake and reducing health care 
        costs.154 Access to this type of programming for under-served 
        seniors would be important, especially as the baby-boomers are 
        approaching their senior years, drastically increasing the 
        numbers who will need assistance and who will be looking to be 
        productive citizens in their own communities. This approach is 
        appropriately the responsibility of the health care financing 
        systems, because increased home-delivered meals could be an 
        important cost-effective approach to reduce costly hospital 
        admissions and readmissions. Currently, Medicare Advantage 
        plans under Medicare Part C that cover home-delivered meals in 
        certain circumstances are available in some areas. However, 
        since these areas can be small, the reach of existing plans is 
        difficult to determine.

          Action Item:

                Congress should work with the USDA and the Department 
                of Health and Human Services to leverage existing 
                efforts under Medicare Part C to create a national 
                mechanism to provide home-delivered meals to seniors as 
                a reimbursable cost through Medicare.

  16  Expand Medicaid managed care plans to include coverage, with a 
            physician recommendation, for meal delivery for individuals 
            who are too young for Medicare, but who are at serious 
            medical risk or have a disability.

          Rationale: Home-delivered meals for medically at-risk 
        patients can promote health and prevent readmission to the 
        hospital; as noted earlier, 20% to 50% of patients admitted to 
        the hospital are malnourished, and readmissions among this 
        group cost the health care system approximately $25 billion 
        annually. Programs such as Meals on Wheels, as well as greater 
        attention to early nutrition assessment and intervention, are 
        critical to preventing complications and lowering costs. 
        Additionally, some people who are too young to receive Medicare 
        have multiple debilitating health problems that affect their 
        functioning and activities of daily living. Such patients 
        should be afforded the same assistance as people over 65. 
        Currently, some states offer home-delivered meals via a 
        Medicaid Section 1915(c) Home and Community Based Services 
        waiver or a Section 1115 demonstration waiver. However, these 
        waivers cover a broader range of services than home meal 
        delivery, so reach is difficult to determine.

          Action Item:

                Congress should work with the USDA and the Department 
                of Health and Human Services to leverage existing 
                efforts under Medicaid waivers to create a national 
                mechanism through which to provide home-delivered meals 
                to people at risk and find a way for this to be a 
                reimbursable cost through Medicaid.
IV  Fund Pilot Programs To Test the Effectiveness of Strategic 
        Interventions To Reduce and Eliminate Hunger
    As with any endeavor, research and development is required to 
consistently find ways to improve government programs and systematic 
efforts designed to reduce and eliminate hunger. There are many valid 
and empirically based ideas that suggest that USDA should make a strong 
commitment to testing particular interventions. We recommend funding 
the following demonstration projects. An evaluation component should be 
part of each pilot, based on multi-year, rigorous, random assignment 
protocols that include statistically valid sample sizes and a cost-
benefit analysis that pays special attention to documenting potential 
savings in health and education spending. This list of projects is not 
meant to be exhaustive; many additional approaches are worthy of 
adequately funded research, but are beyond the time constraints of the 
Commission to elucidate fully.

  17  Congress should allot funds to the USDA to implement, evaluate, 
            and disseminate results of multiple pilot programs to 
            assess their effectiveness on reducing hunger.

          Pilot A: Investigate the effect on hunger of changing the 
        SNAP benefit calculation from the Thrifty Food Plan to the Low 
        Cost Food Plan.

                  Rationale: While families are meant to supplement 
                their SNAP allotment with 30% of their own net income 
                after deductions, the combination of the Thrifty Food 
                Plan and additional family dollars may not be adequate 
                to provide enough healthful nutrition for their 
                families. Health and nutrition experts, including the 
                Institute of Medicine, contend that the Low Cost Food 
                Plan shows promise in reaching the appropriate 
                nutrition levels for low-income families and 
                individuals. Testing this theory will shed important 
                new light on this issue.

          Pilot B: Test the effect on working families of three 
        different increases to the earnings disregard compared to the 
        current 20% (control).

                  Rationale: Providing a higher income disregard may 
                reduce the danger of losing benefits before families 
                are ready to transition to self-sufficiency. A higher 
                income disregard may provide families time enough to 
                stabilize their economic situations, and may also 
                promote entry into the workforce and job retention by 
                eliminating a potential disincentive to increase 
                earnings or to engage in work.

          Pilot C: Test the impact on hunger of increasing the maximum 
        excess shelter deduction/allowance in SNAP. Focus test 
        demonstrations on the five markets with the highest housing 
        costs.

                  Rationale: Research has linked the lack of affordable 
                housing with hunger.<SUP>152-153</SUP> If the shelter 
                allowance was raised to more realistically account for 
                the cost of housing, this change could reduce hunger.

          Pilot D: Further assess the effectiveness of public and 
        private forms of nutrition education on purchasing habits, 
        nutrient intake, health, and food insecurity, and conduct meta-
        analyses to better understand and build on collective evidence 
        across these domains.

                  Rationale: Multiple federally funded studies have 
                been conducted on the effectiveness of Federal 
                nutrition education programs at improving purchasing 
                habits, health, and nutrient intake, but the evidence 
                is mixed. Additionally, there is limited research on 
                how both public and private nutrition education 
                programs impact hunger. While there is a foundation of 
                studies analyzing the scope of nutrition education 
                programs, their barriers, and characteristics of 
                successful programs with programmatic recommendations, 
                the USDA should invest additional funds to test, 
                rebuild, and re-analyze these programs using standard 
                methodologies across a variety of domains and 
                demographic sectors.
V  Incentivize and Expand Corporate, Nonprofit, and Public Partnerships 
        to Address Hunger in Civil Society
    Federal Government programs are not and cannot be the only answer 
to hunger--civil society plays a vital role as well. Many stakeholders 
are already deeply involved in addressing the issues faced by 
households that report hunger. For instance, corporations, faith-based 
and community organizations, agriculture programs, and government 
entities at all levels (e.g., local health departments) have a role to 
play in providing fresh and nutritious foods for all people in the 
United States by, for example, keeping food costs low or providing 
strategic guidance and resources.
    Community efforts should engage corporations in joint community 
impact efforts. Additionally, it has been a long-standing tradition in 
the United States for nonprofits, institutions of higher education, and 
faith-based organizations to find creative and meaningful ways to help 
people rise out of poverty through outreach to potentially eligible 
households regarding existing public benefit programs and the strategic 
provision of food, resources, technical assistance, education and 
training, and behavioral health supports. Many times, government 
programs cannot reach all eligible people in need, and sometimes the 
added efforts of our community organizations, private philanthropy, and 
corporations can not only help reach the most vulnerable, but also 
provide strategic solutions to improve government programs. Therefore, 
we make the following recommendation.

  18  Incentivize and expand civic engagement efforts on reducing and 
            eliminating hunger.

          Rationale: Addressing hunger should not be the responsibility 
        of individuals and government alone, but should be shared with 
        multiple stakeholders and a large volunteer base of committed 
        community leaders for widespread community impact. Much 
        ingenuity arises out of such community-based or corporate-led 
        efforts, and these efforts should be rewarded and encouraged, 
        as the strong desire to help our neighbors and to empower 
        others is part of our American values and social fabric.

          Action Items:

    a.  Congress should designate existing funds to measures such as 
            tax incen-
              tives, matching funding programs, and other similar 
            measures that provide
              incentives to and catalyze the development of greater 
            private efforts to ad-
              dress hunger and support existing partnerships with 
            government.

    b.  The USDA should provide incentives for creating and sustaining 
            public-pri-
              vate partnerships (which should adhere to the same 
            standards of non-dis-
              crimination that apply to fully public programs) while 
            also placing greater
              emphasis on and providing funds for

      i.  Hunger-Free Communities collective impact efforts.

      ii.  Efforts that improve the quality of emergency food and 
            reduce food waste
                by enabling grocers, restaurant owners, caterers and 
            other food service
                providers, and food producers to donate extra food to 
            emergency food pro-
                viders and others who serve low-income communities 
            (this requires im-
                proved Good Samaritan laws).

      ii.  Programs that provide incentives for farmers to contribute 
            food to food
                banks and other food providers.

      iv.  Social enterprise that supports job training and education, 
            and placement
                strategies for high-risk groups.
VI  Create a White House Leadership Council to End Hunger that Includes 
        Participation by a Broad Group of Government and Non-Government 
        Stakeholders
    As stated above, the root causes of hunger are many and varied, and 
many of the consequences of hunger are far beyond the reach and 
effectiveness of nutrition assistance programs. For instance, 
employment trends and labor market dynamics, housing costs, disability, 
access to quality education, the rising prevalence of single parent 
families, behavior, income dynamics, and access to medical care all 
have an impact on hunger, but cannot be addressed effectively solely 
through nutrition assistance programs. Therefore, just as hunger cannot 
be solved by food alone, national efforts to alleviate hunger cannot be 
carried out by the USDA alone. To improve the overall health and well-
being of people in the United States, the White House should mount a 
thoughtful, coordinated, and focused effort to address hunger and its 
root causes.
    This strong commitment will demand

  <bullet> A willingness to review all programs meant to assist low-
        income families for their effectiveness and to candidly discuss 
        economic dislocation, discrimination, and the family structure 
        and formation issues that contribute to hunger.

  <bullet> Cross-agency collaboration among, at minimum, the following 
        agencies: the Departments of Agriculture, Housing and Urban 
        Development, Health and Human Services, Labor, Energy, Defense, 
        Education, and Veterans Affairs; the National Institutes of 
        Health; the Centers for Disease Control and Prevention; and the 
        Center for Medicare and Medicaid Services.

  <bullet> Strong representation, participation, and commitment from 
        the corporate, nonprofit, university, and faith-based sectors.

  <bullet> More civic engagement in our communities, as well as 
        meaningful initiative and involvement from those experiencing 
        hunger.

    Therefore, we make the following two recommendations.

  19  Establish a mechanism for cross-agency collaboration to 
            facilitate improved public assistance programming and 
            evaluation through enhanced technology, data sharing, and 
            coordinated funding streams that protect effective programs 
            and encourage coordinated efforts to address larger issues 
            of poverty.

          Rationale: Currently, mechanisms for funding streams, 
        eligibility and delivery systems, and accountability are 
        separate, resulting in a variety of disparate and uncoordinated 
        rules and regulations confusing to administrators and 
        recipients alike. Additionally, there is no single agency that 
        can improve hunger alone. A national, coordinated plan among 
        multiple government and private sector partners to address 
        hunger and its root causes should be developed. This plan must 
        build upon and improve current public and private programs and 
        have the mutual goals of improved outcomes and cost efficiency.

          Action Items:

    a.  The President should establish a White House Leadership Council 
            to
              End Hunger with representation from government, 
            corporations, non-
              profits, faith-based organizations, community leaders, 
            program benefi-
              ciaries, private foundations, and other stakeholders to 
            develop and imple-
              ment a comprehensive plan to eliminate hunger, and should 
            ensure that
              the Council has adequate resources and staff.

    b.  The President should establish, convene, and lead the White 
            House Lead-
              ership Council to End Hunger through the office of the 
            Domestic Policy
              Council. The White House Leadership Council to End Hunger 
            will be
              charged with developing a coordinated plan for ending 
            hunger.

  20  The White House Leadership Council to End Hunger and its members 
            should monitor hunger at the Federal and state level, with 
            a specific emphasis on the following at-risk populations:

    (a)  seniors,

    (b)  single parent households with young children,

    (c)  people with disabilities,

    (d)  veterans and active duty military,

    (e)  American Indians,

    (f)  those reentering society from prison,

    (g)  survivors of violence, abuse, and neglect, and

    (h)  immigrants (including documented and undocumented, asylum 
            seekers and
              refugees).

          Rationale: The groups listed above are particularly 
        vulnerable to hunger. Their individualized and unique issues 
        are often misunderstood and too often go unaddressed.

          Action Item:

                  The White House Leadership Council to End Hunger 
                should oversee progress within the involved government 
                agencies and report annually to the Administration, 
                Congress, and the public regarding the status of hunger 
                nationwide among all families and individuals, as well 
                as those particularly vulnerable populations outlined 
                above. They should also report annually on the progress 
                being made to eradicate hunger. Further, as part of 
                their charter, they should regularly review program 
                efficiency and effectiveness and recommend to the 
                Administration and Congress any changes necessary to 
                accomplish their goals.
                [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                
          High school students preparing food for a summer food program 
        at Anthony Independent School District in El Paso, Texas.
Conclusion
    In this report, we have described our process, what we learned, and 
what we think our nation should do to address hunger. We believe that 
our best chance for success is to make progress on the contributing 
factors and underlying root causes we have described. We also are 
confident that the implementation of our recommendations will lead to a 
significant reduction in hunger.
    At various points in this report, we have said that personal 
choices and individual responsibility are factors associated with 
hunger in America. But there is another aspect of personal 
responsibility at work: personal responsibility extends to all. 
Everyone can take direct actions to reduce hunger. Each of us should 
extend compassion for and help to our neighbors and get involved in 
hunger relief efforts in our communities. We need more of that kind of 
personal responsibility, too. With it, we will end hunger in the United 
States.
References

 
 
 
    1. Coleman-Jensen A., Rabbitt M., Gregory C., Singh A. Household
 food security in the United States in 2014. Washington, D.C.: Economic
 Research Service, U.S. Department of Agriculture; September 2015.
 Available at http://www.ers.usda.gov/publications/err-economic-research-
 report/err194.aspx.
    2. U.S. Department of Agriculture, Economic Research Service.
 Expenditures for USDA's food assistance programs fall in 2014.
 Washington, DC: U.S. Department of Agriculture; May 7, 2015. Available
 at http://www.ers.usda.gov/data-products/chart-gallery/
 detail.aspx?chartId=40105.
    3. RTI International. Research to Support Potential Recommendations
 of the National Commission on Hunger to Reduce Very Low Food Security:
 American Indian Experiences. Research Triangle Park, NC: RTI
 International; 2015.
    4. RTI International. Research to Support Potential Recommendations
 of the National Commission on Hunger to Reduce Very Low Food Security:
 Effects of Shifting Biofuel Subsidies to the WIC and SNAP Programs.
 Research Triangle Park NC: RTI International; 2015.
    5. RTI International. Research to Support Potential Recommendations
 of the National Commission on Hunger to Reduce Very Low Food Security:
 Special Efforts by USDA or Other Agencies to Reduce Disparities in Food
 Insecurity. Research Triangle Park, NC: RTI International; 2015.
    6. RTI International. Research to Support Potential Recommendations
 of the National Commission on Hunger to Reduce Very Low Food Security:
 Food Insecurity Among LGBT Communities and Individuals. Research
 Triangle Park, NC: RTI International; 2015.
    7. RTI International. Research to Support Potential Recommendations
 of the National Commission on Hunger to Reduce Very Low Food Security:
 Public-Private Partnerships. Research Triangle Park, NC: RTI
 International; 2015.
    8. RTI International. Research to Support Potential Recommendations
 of the National Commission on Hunger to Reduce Very Low Food Security:
 Pine Bluff, Arkansas. Research Triangle Park, NC: RTI International;
 2015.
    9. RTI International. Research to Support Potential Recommendations
 of the National Commission on Hunger to Reduce Very Low Food Security:
 Experiences of Those Who Have Served Time and Those Recently Released
 From Prison. Research Triangle Park, NC: RTI International; 2015.
    10. RTI International. Research to Support Potential Recommendations
 of the National Commission on Hunger to Reduce Very Low Food Security:
 Food Insecurity Among Older Adults. Research Triangle Park, NC: RTI
 International; 2015.
    11. RTI International. Research to Support Potential Recommendations
 of the National Commission on Hunger to Reduce Very Low Food Security:
 Nutrition Education Programs. Research Triangle Park, NC: RTI
 International; 2015.
    12. RTI International. Research to Support Potential Recommendations
 of the National Commission on Hunger to Reduce Very Low Food Security:
 Estimating the Impact of Discounting Income From SSI When Calculating
 SNAP Benefits. Research Triangle Park, NC: RTI International; 2015.
    13. RTI International. Research to Support Potential Recommendations
 of the National Commission on Hunger to Reduce Very Low Food Security:
 Cost Savings From Uniform Regulations for New Store Approval in WIC and
 SNAP. Research Triangle Park, NC: RTI International; 2015.
    14. RTI International. Research to Support Potential Recommendations
 of the National Commission on Hunger to Reduce Very Low Food Security:
 Estimating Additional Economic Activity Stemming From an Increase in
 SNAP Benefits. Research Triangle Park, NC: RTI International; 2015.
    15. RTI International. Research to Support Potential Recommendations
 of the National Commission on Hunger to Reduce Very Low Food Security:
 Intimate Partner Violence Screening and Referral. Research Triangle
 Park, NC: RTI International; 2015.
    16. Bureau of Labor Statistics, U.S. Department of Labor. Labor
 force statistics from the current population survey. Available at http:/
 /data.bls.gov/timeseries/LNS11300000. Accessed November 12, 2015.
    17. Berkowitz S.A., Baggett T.P., Wexler D.J., Huskey K.W., Wee C.C.
 Food insecurity and metabolic control among U.S. adults with diabetes.
 Diabetes Care. 2013; 36(10): 3093-3099.
    18. Brown L., Shepard D., Martin T., Orwat J. The economic cost of
 domestic hunger estimated annual burden to the United States. Sodexho
 Foundation: in partnership with the Public Welfare Foundation and Spunk
 Fund, Inc.; June 5, 2007.
    19. Carmichael S.L., Yang W., Herring A., Abrams B., Shaw G.M.
 Maternal food insecurity is associated with increased risk of certain
 birth defects. J. Nutr. 2007; 137(9): 2087-2092.
    20. Cook J.T., Frank D.A. Food security, poverty, and human
 development in the United States. Ann. N. Y. Acad. Sci. 2008; 1136: 193-
 209.
    21. Cook J., Jeng K. Child food insecurity: the economic impact on
 our nation. Chicago, IL: Feeding America; 2009. Available at http://
 www.nokidhungry.org/sites/default/files/child-economy-study.pdf.
    22. Glynn L.M., Schetter C.D., Hobel C.J., Sandman C.A. Pattern of
 perceived stress and anxiety in pregnancy predicts preterm birth.
 Health Psychol. 2008; 27(1): 43-51.
    23. Gowda C., Hadley C., Aiello A.E. The association between food
 insecurity and inflammation in the U.S. adult population. Am. J. Public
 Health. 2012; 102(8): 1579-1586.
    24. Hadley C., Crooks D.L. Coping and the biosocial consequences of
 food insecurity in the 21st century. Am. J. Phys. Anthropol. 2012; 149
 Suppl. 55: 72-94.
    25. Hamelin A.M., Habicht J.P., Beaudry M. Food insecurity:
 consequences for the household and broader social implications. J.
 Nutr. 1999; 129 (2S Suppl.): 525S-528S.
    26. Hickson M., de Cuba S.E., Weiss I., Donofrio G., Cook J. Too
 hungry to learn: Food insecurity and school readiness, Part I of II.
 Boston, MA: Children's HealthWatch, Boston Medical Center; 2013.
 Available at http://www.childrenshealthwatch.org/wp-content/uploads/
 toohungrytolearn_report.pdf.
    27. Hickson M., Ettinger de Cuba S., Weiss I., Donofrio G., Cook J.
 Feeding our human capital: Food insecurity and tomorrow's workforce,
 Part II of II. Boston, MA: Children's HealthWatch, Boston Medical
 Center; 2013. Available at http://www.childrenshealthwatch.org/wp-
 content/uploads/FeedingHumanCapital_report.pdf.
    28. Kursmark M., Weitzman M. Recent findings concerning childhood
 food insecurity. Curr. Opin. Clin. Nutr. Metab. Care. 2009; 12(3): 310-
 316.
    29. Laraia B.A. Food insecurity and chronic disease. Adv. Nutr.
 2013; 4(2): 203-212.
    30. Lee J.S., Gundersen C., Cook J., Laraia B., Johnson M.A. Food
 insecurity and health across the lifespan. Adv. Nutr. 2012; 3(5): 744-
 745.
    31. Murphy C., Ettinger de Cuba S., Cook J., Cooper R., Weill J.D.
 Reading, writing and hungry. The consequences of food insecurity on
 children, and on our nation's economic success. Washington, D.C.: The
 Partnership for America's Economic Success; November 19 2008. Available
 at http://frac.org/newsite/wp-content/uploads/2010/03/
 reading_writing_hungry_report.pdf.
    32. Perez-Escamilla R., De Toledo Vianna R.P. Food insecurity and
 the behavioral and intellectual development of children: a review of
 the evidence. Journal of Applied Research on Children. 2012; 3(1): 1-
 16.
    33. Shepard D., Setren E., Cooper D. Hunger in America: suffering we
 all pay for. Washington, D.C.: Center for American Progress; 2011.
 Available at http://americanprogress.org/issues/poverty/report/2011/10/
 05/10504/hunger-in-america/.
    34. Tayie F.A., Zizza C.A. Food insecurity and dyslipidemia among
 adults in the United States. Prev. Med. 2009; 48(5): 480-485.
    35. Alaimo K., Olson C.M., Frongillo E.A. Family food insufficiency,
 but not low family income, is positively associated with dysthymia and
 suicide symptoms in adolescents. J. Nutr. 2002; 132(4): 719-725.
    36. McIntyre L., Williams J.V., Lavorato D.H., Patten S. Depression
 and suicide ideation in late adolescence and early adulthood are an
 outcome of child hunger. J. Affect. Disord. 2013; 150(1): 123-129.
    37. Coleman-Jensen A., Nord M., Andrews M., Carlson S. Spotlight on
 senior health: adverse health outcomes of food-insecure older
 Americans. Washington, D.C.: Economic Research Service, U.S. Department
 of Agriculture; September 2012. Available at http://www.ers.usda.gov/
 publications/err-economic-researchreport/err141.aspx.
    38. Ziliak J.P., Gundersen C. Multigenerational families and food
 insecurity. Lexington, KY: University of Kentucky Center for Poverty
 Research; November 2012. Available at http://uknowledge.uky.edu/
 ukcpr_papers/25/.
    39. Ziliak J.P., Gundersen C., Haist M. The causes, consequences,
 and future of senior hunger in America. Lexington, KY: University of
 Kentucky; 2008. Available at http://www.nfesh.org/wp-content/uploads/
 2013/03/Causes+Consequences+and+Future+of+ Senior+Hunger+2008.pdf.
    40. Nord M., Coleman-Jensen A.L. Food insecurity after leaving SNAP.
 J. Hunger Environ. Nutr. 2010; 5(4): 434-453.
    41. Bureau of Labor Statistics, U.S. Department of Labor. Household
 data annual averages. Table 1. Employment status of the civilian
 noninstitutional population, 1944 to date. Available at http://
 www.bls.gov/cps/cpsaat01.pdf. Accessed November 12, 2015.
    42. Coleman-Jensen A., Nord M. Food insecurity among households with
 working-age adults with disabilities. Washington, D.C.: Economic
 Research Service, U.S. Department of Agriculture; January 2013.
 Available at http://www.ers.usda.gov/media/980690/err_144.pdf.
    43. Coleman-Jensen A., Nord M., Singh A. Household food security in
 the United States in 2012. Washington, D.C.: Economic Research Service,
 U.S. Department of Agriculture; September 2013. Available at http://
 www.ers.usda.gov/publications/err-economic-research-report/err155.aspx.
    44. Acemoglu D., Autor D., Dorn D., Hanson G.H., Price B. Import
 competition and the great U.S. employments age of the 2000s. August
 2014. Available at http://economics.mit.edu/files/9811.
    45. Autor D.H., Dorn D. The growth of low-skill service jobs and the
 polarization of the U.S. Labor Market. Am. Econ. Rev. 2013; 103(5):
 1553-1597.
    46. Coleman-Jensen A. Working for peanuts: nonstandard work and food
 insecurity across household structure. Journal of Family and Economic
 Issues. 2011; 32: 84-97.
    47. Martin J.A., Hamilton B.E., Osterman M.J., Curtin S.C., Matthews
 T.J. Births: final data for 2013. Natl. Vital Stat. Rep. 2015; 64(1): 1-
 65.
    48. Zolna M., Lindberg L. Unintended pregnancy: incidence and
 outcomes among young adult unmarried women in the United States, 2001
 and 2008. New York, NY: Guttmacher Institute; April 2012. Available at
 https://www.guttmacher.org/pubs/unintended-pregnancy-US-2001-2008.pdf.
    49. Lamb M.E. The role of the father in child development. 5th ed.
 Hoboken, NJ: John Wiley & Sons; 2010.
    50. Pruett K. Father-need. New York, NY: Broadway Books; 2000.
    51. Tach L., Mincy R., Edin K. Parenting as a ``package deal'':
 Relationships, fertility, and nonresident father involvement among
 unmarried parents. Demography. 2010; 47(1): 181-204.
    52. Bureau of Labor Statistics, U.S. Department of Labor. Highlights
 of women's earnings in 2012 (BLS Report 1045). October 2013. Available
 at http://www.bls.gov/cps/cpswom2012.pdf. Accessed September 29, 2015.
    53. Bureau of Labor Statistics, U.S. Department of Labor. The
 Economics Daily, Median weekly earnings by sex, marital status, and
 presence and age of own children under 18 in 2012. December 3, 2013.
 Available at http://www.bls.gov/opub/ted/2013/ted_20131203.htm.
 Accessed September 29, 2015.
    54. U.S. Census. Table 4. Poverty status of families, by type of
 family, presence of related children, race, and Hispanic origin: 1959
 to 2014. Available at https://www.census.gov/hhes/www/poverty/data/
 historical/families.html. Accessed September 29, 2015.
    55. National Center for Education Statistics. Public high school
 graduation rates. Washington, D.C.: National Center for Education
 Statistics; May 2015. Available at http://nces.ed.gov/programs/coe/
 indicator_coi.asp.
    56. Alaimo K., Olsen C., Frongillo J. Food insufficiency and
 American school-aged children's cognitive, academic and psycho-social
 development. Pediatrics. 2001; 108(1): 44-53.
    57. Coleman-Jensen A., McFall W., Nord M. Food insecurity in
 households with children: prevalence, severity, and household
 characteristics, 2010-11. Washington, D.C.: Economic Research Service,
 U.S. Department of Agriculture; May 2013. Available at http://
 www.ers.usda.gov/media/1120651/eib-113.pdf.
    58. Wehler C., Weinreb L.F., Huntington N., et al. Risk and
 protective factors for adult and child hunger among low-income housed
 and homeless female-headed families. Am. J. Public Health. 2004; 94(1):
 109-115.
     59. Chilton M.M., Rabinowich J.R., Woolf N.H. Very low food
 security in the USA is linked with exposure to violence. Public Health
 Nutr. 2014; 17(1): 73-82.
    60. Jing S., Knowles M., Patel F., Frank D., Heeren T., Chilton M.
 Childhood adversity and adult reports of food-insecurity among
 households with children. Am. J. Prev. Med. 2016, in press. Available
 at http://www.ajpmonline.org/article/S0749-3797(15)00626-1/pdf.
    61. Melchior M., Caspi A., Howard L.M., et al. Mental health context
 of food insecurity: a representative cohort of families with young
 children. Pediatrics. 2009; 124(4): e564-572.
    62. Davison K.M., Marshall-Fabien G.L., Tecson A. Association of
 moderate and severe food insecurity with suicidal ideation in adults:
 national survey data from three Canadian provinces. Soc. Psychiatry
 Psychiatr. Epidemiol. 2015; 50(6): 963-972.
    63. Hernandez D.C., Marshall A., Mineo C. Maternal depression
 mediates the association between intimate partner violence and food
 insecurity. J. Womens' Health. 2014; 23(1): 29-37.
    64. Gordon A., Oddo V. Addressing child hunger and obesity in Indian
 Country: report to Congress. Final report. Washington, D.C.: U.S.
 Department of Agriculture; January 12, 2012. Available at http://
 www.fns.usda.gov/sites/default/files/IndianCountry.pdf.
    65. Haskins R. Povery and opportunity: begin with facts. Testimony
 before the House Budget Committee. January 28, 2014. Available at http:/
 /www.brookings.edu/research/testimony/2014/01/28-povertyopportunity-
 begin-with-facts-haskins.
    66. Ziliak J., Gundersen C. Senior hunger in the United States:
 Differences across states and rural and urban areas. Lexington, KY:
 University of Kentucky Center for Poverty Research Special Reports;
 September 2009. Available at http://www.mowaa.org/document.doc?id=193.
    67. Ziliak J.P., Gundersen C. The health consequences of senior
 hunger in the United States: Evidence from the 1999-2010 NHANES.
 Alexandria, VA: National Foundation to End Senior Hunger; February
 2014. Available at http://www.nfesh.org/wp-content/uploads/2013/03/
 Health-Consequences-of-Food-Insecurity-final.pdf.
    68. Tappenden K.A., Quatrara B., Parkhurst M.L., Malone A.M.,
 Fanjiang G., Ziegler T.R. Critical role of nutrition in improving
 quality of care: an interdisciplinary call to action to address adult
 hospital malnutrition. J. Acad. Nutr. Diet. 2013; 113(9): 1219-1237.
     69. PriceWaterhouse Coopers' Health Research Institute. The price
 of excess: identifying waste in healthcare, 2008. October 2015.
 Available at www.pwc.com/us/en/healthcare/publications/the-price-of-
 excess.jhtml.
    70. U.S. Government Accountability Office. Older Americans Act:
 Updated information on unmet need for services. Washington, D.C.: U.S.
 Government Accountability Office; June 10, 2015. Available at http://
 www.gao.gov/products/GAO-15-601R.
    71. U.S. Government Accountability Office. Older Americans Act: More
 should be done to measure the extent of unmet need for services.
 Washington, D.C.: U.S. Government Accountability Office; February 2015.
 Available at http://www.gao.gov/products/GAO-11-237.
    72. Eicher-Miller H.A., Mason A.C., Weaver C.M., McCabe G.P.,
 Boushey C.J. Food insecurity is associated with diet and bone mass
 disparities in early adolescent males but not females in the United
 States. J. Nutr. 2011; 141(9): 1738-1745.
    73. Ettinger de Cuba S., Frank D.A., Rose-Jacobs R. Nourishing
 development: a report on food insecurity and the precursors to school
 readiness among very young children. Boston, MA: Children's Sentinel
 Nutrition Assessment Program (C-SNAP); 2008. Available at http://
 www.childrenshealthwatch.org/wp-content/uploads/
 nourishing_development_2_08.pdf.
    74. Rose-Jacobs R., Black M.M., Casey P.H., et al. Household food
 insecurity: associations with at-risk infant and toddler development.
 Pediatrics. 2008; 121(1): 65-72.
    75. Ryu J.H., Bartfeld J.S. Household food insecurity during
 childhood and subsequent health status: the early childhood
 longitudinal study-kindergarten cohort. Am. J. Public Health. 2012;
 102(11): e50-55.
    76. Coleman-Jensen A., Rabbitt M.P., Gregory C., Singh A.
 Statistical supplement to household food security in the United States
 in 2014. Washington, D.C.: U.S. Department of Agriculture, Economic
 Research Service; September 2015. Available at http://www.ers.usda.gov/
 publications/ap-administrative-publication/ap069.aspx#.VAXbfWMZnFI.
    77. Coleman-Jensen A., Nord M. Disability is an important risk
 factor for food insecurity. Washington, D.C.: U.S. Department of
 Agriculture (USDA), Economic Research Service (ERS); May 6, 2013.
 Available at http://www.ers.usda.gov/amber-waves/2013-may/disability-is-
 an-important-risk-factor-for-food-insecurity.aspx#.VgRaZ6Mo6M9.
    78. Boell A., Rose-Jacobs R., Ettinger de Cuba S., Coleman S., Frank
 D.A. Nurturing children: solutions to alleviate hardships and barriers
 for families of children with special health care needs. Boston, MA:
 Children's HealthWatch; August 2015. Available at http://
 www.childrenshealthwatch.org/publication/nurturing-childrensolutions-to-
 alleviate-hardships-and-barriers-for-families-of-children-with-special-
 health-care-needs.
    79. Berkowitz S.A., Seligman H.K., Choudhry N.K. Treat or eat: food
 insecurity, cost-related medication underuse, and unmet needs. Am. J.
 Med. 2014; 127(4): 303-310 e303.
    80. Windome R., Jensen A., Bangerter A. Food insecurity among
 veterans of the U.S. wars in Iraq and Afghanistan. Public Health Nutr.
 2015; 18(5): 844-848.
    81. U.S. Department of Agriculture, Food and Nutrition Service.
 Quick facts: Snap participation among members of the Armed Forces.
 Washington, D.C.: U.S. Department of Agriculture, Food and Nutrition
 Service; February 2014. Available at http://mldc.whs.mil/public/docs/
 report/qol/SNAP_and_Military_Quick_Facts_Feb_2014_update_w_2010-
 2012_ACS.pdf.
    82. Healthy People 2010. Nutrition and overweight chapter. 2011.
 Available at http://www.cdc.gov/nchs/data/hpdata2010/
 hp2010_final_review_focus_area_19.pdf.
    83. Pardilla M., Prasad D., Suratkar S., Gittelsohn J. High levels
 of household food insecurity on the Navajo Nation. Public Health Nutr.
 2014; 17(1): 58-65.
    84. Gundersen C. Measuring the extent, depth, and severity of food
 insecurity: An application to American Indians in the USA. Journal of
 Population Economics. 2008; 21: 191-215. http://www.nptao.arizona.edu/
 %5C/pdf/xtent%20Depth%20and%20
 Severity%20of%20Food%20Insecurity%20%20An%20Application%20to%20American
 %20Indians%20in%20the%20United%20States %20-%20J%20Pop%20E.pdf.
    85. Liao Y., Bang D., Cosgrove S., et al. Surveillance of health
 status in minority communities--Racial and Ethnic Approaches to
 Community Health Across the U.S. (REACH U.S.) risk factor survey,
 United States, 2009. Atlanta, GA: Centers for Disease Control and
 Prevention; 2011. Available at http://www.cdc.gov/mmwr/preview/mmwrhtml/
 ss6006a1.htm.
    86. O'Connell J., Yi R., Wilson C., Manson S.M., Acton K. Racial
 disparities in health status: A comparison of the morbidity among
 American Indian and U.S. adults with diabetes. Diabetes Care. 2010;
 33(7): 1463-1470. http://care.diabetesjournals.org/content/33/7/
 1463.full.
    87. National Academies of Sciences, Engineering, and Medicine. The
 integration of immigrants into American society. In: Panel on the
 integration of immigrants into American society, Waters M.C., Pineau
 M.G., eds. Committee on Population. Division of Behavioral and Social
 Sciences and Education. Washington, D.C.: The National Academies Press;
 2015.
    88. De la Puente M., Stemper D. The enumeration of colonias in
 Census 2000: perspectives of ethnographers and census enumerators.
 Washington, D.C.: U.S. Census Bureau, Statistical Research Division;
 September 22, 2003. Available at http://www.census.gov/pred/www/rpts/
 J.4.pdf.
    89. Cook J. Risk and protective factors associated with prevalence
 of VLFS in children among children of foreign-born mothers. Lexington,
 KY: University of Kentucky Center for Poverty Research; 2013. Available
 at http://uknowledge.uky.edu/cgi/
 viewcontent.cgi?article=1011&context=ukcpr_papers.
    90. Anderson P.M., Butcher K.F., Hoynes H.W., Schanzenbach D.W.
 Beyond income: What else predicts very low food security among
 children? Lexington, KY: University of Kentucky Center for Poverty;
 2014. Available at http://www.ukcpr.org/sites/www.ukcpr.org/files/
 documents/DP2014-06_0.pdf.
    91. Hill B.G., Moloney A.G., Mize T., Himelick T., Guest J.L.
 Prevalence and predictors of food insecurity in migrant farmworkers in
 Georgia. Am. J. Public Health. 2011; 101(5): 831-833.
    92. Sharkey J.R., Dean W.R., Johnson C.M. Association of household
 and community characteristics with adult and child food insecurity
 among Mexican-origin households in colonias along the Texas-Mexico
 border. Int. J. Equity Health. 2011; 10: 19.
    93. Annie E. Casey Foundation, Hairston C.F. Focus on children with
 incarcerated parents: an overview of the research literature.
 Baltimore, MD: Annie E. Casey Foundation; October 1, 2007. Available at
 http://www.aecf.org/resources/focus-on-children-with-incarcerated-
 parents/.
    94. Cox R., Wallace S. The impact of incarceration on food
 insecurity among households with children. Fragile Families Working
 Paper: 13-05-FF. 2013. Available at http://sentencingproject.org/doc/
 publications/cc_A%20Lifetime%20of%20Punishment.pdf.
    95. Turney K. Paternal incarceration and children's food insecurity:
 a consideration of variation and mechanisms. Lexington, KY: University
 of Kentucky Center for Poverty Research; 2014. Available at http://
 uknowledge.uky.edu/cgi/
 viewcontent.cgi?article=1002&context=ukcpr_papers.
    96. U.S. Department of Justice. Prisoners and prisoner re-entry.
 Washington, D.C.: U.S. Department of Justice; n.d. Available at http://
 www.justice.gov/archive/fbci/progmenu_reentry.html.
    97. Wang E.A., Gefei A.Z., Evans L., Carroll-Scott A., Desai R.,
 Fiellin L.E. A pilot study examining food insecurity and HIV risk
 behaviors among individuals recently released from prison. AIDS Educ.
 Prev. 2013; 25(2): 112-123.
    98. Oliveira V. The food assistance landscape: FY 2014 Annual
 Report. Washington, D.C.: U.S. Department of Agriculture, Economic
 Research Service; March 2015. Available at http://www.ers.usda.gov/
 media/1806461/eib137.pdf.
    99. Shafir E. Invited written testimony to the National Commission
 on Hunger. Professor, Princeton University Woodrow Wilson School of
 Public and International Affairs. Research Triangle Park, NC: National
 Commission on Hunger; July 26, 2015.
    100. Rachidi A. Invited testimony before the National Commission on
 Hunger: Addressing very low food security among American households.
 Albany, NY: Research Fellow in Poverty Studies, American Enterprise
 Institute for Public Policy Research; May 13, 2015.
    101. Ptacek T. Public Testimony before the National Commission on
 Hunger. Research Triangle Park, NC: National Commission on Hunger; July
 30, 2015.
    102. Mabli J., Ohls J. Supplemental Nutrition Assistance Program
 participation is associated with an increase in household food security
 in a national evaluation. J. Nutr. 2015; 145(2): 344-351.
    103. Nord M. How much does the Supplemental Nutrition Assistance
 Program alleviate food insecurity? Evidence from recent programme
 leavers. Public Health Nutr. 2012; 15(5): 811-817.
    104. Sherward R., Ettinger de Cuba S., Cook J., Pasquariello J.,
 Coleman S. RX for healthy child development: nutritious, affordable
 food promotes health and economic stability for Boston families.
 Boston, MA: Children's HealthWatch; April 2014. Available at http://
 www.childrenshealthwatch.org/wp-content/uploads/FINAL-Boston-Food-
 Insecurity-for-web.pdf.
    105. Ziliak J. Why are so many Americans on food stamps? The role of
 economy, policy, and demographics. Lexington, KY: University of
 Kentucky Center for Poverty Research; September 2013. Available athttp:/
 /uknowledge.uky.edu/cgi/
 viewcontent.cgi?article=1019&context=ukcpr_papers.
    106. U.S. Department of Agriculture, Food and Nutrition Service.
 SNAP participation and costs, 1969 to 2014. Washington, D.C.: U.S.
 Department of Agriculture, Food and Nutrition Service; November 2015.
 Available at http://www.fns.usda.gov/pd/supplemental-nutrition-
 assistance-program-snap.
    107. U.S. Department of Agriculture. Diet quality of American young
 children by WIC participation status: Data from the National Health and
 Nutrition Examination Survey, 2005-2008. Washington, D.C.: U.S.
 Department of Agriculture, Food and Nutrition Service; May 2015.
 Available at http://www.fns.usda.gov/sites/default/files/ops/NHANES-
 WIC05-08.pdf.
    108. Kreider B., Pepper J.V., Roy M. Identifying the effect of WIC
 on very low food security among infants and children. Lexington, KY:
 University of Kentucky Center for Poverty Research; 2012.
    109. Breslin K. Invited testimony before the National Commission on
 Hunger, Albany, NY. President and CEO, Rockefeller Institute. Research
 Triangle Park, NC: National Commission on Hunger; May 13, 2015.
    110. Metallinos-Katsaras E., Gorman K.S., Wilde P., Kallio J. A
 longitudinal study of WIC participation on household food insecurity.
 Matern. Child Health J. 2011; 15(5): 627-633.
    111. Kreider B., Pepper J., Roy M. Does the Women, Infants, and
 Children Program (WIC) improve infant health outcomes? 2014; http://
 tippie.uiowa.edu/economics/tow/papers/kreider.b-spring2014.pdf.
    112. Black M.M., Quigg A.M., Cook J., et al. WIC participation and
 attenuation of stress-related child health risks of household food
 insecurity and caregiver depressive symptoms. Arch. Pediatr. Adolesc.
 Med. 2012; 166(5): 444-451.
    113. Potamites E., Gordon A. Children's food security and intakes
 from school meals. Final report. Princeton, NJ: Mathematica Policy
 Research; May 2010. Available at http://naldc.nal.usda.gov/download/
 42320/PDF.
    114. Condon E., Drilea S., Lichtenstein C., Mabli J., Madden E.,
 Niland K. Diet Quality of American School Children by National School
 Lunch Participation Status: Data from the National Health and Nutrition
 Examination Survey, 2005-2010. Prepared by Walter R. McDonald &
 Associates, Inc. for the Food and Nutrition Service; 2015.
    115. Meyers A.F., Sampson A.E., Weitzman M., Rogers B.L., Kayne H.
 School Breakfast Program and school performance. American Journal of
 Diseases of Children. 1989; 143(10): 1234-1239.
    116. Murphy J.M., Pagano M.E., Nachmani J., Sperling P., Kane S.,
 Kleinman R.E. The relationship of school breakfast to psychosocial and
 academic functioning: cross-sectional and longitudinal observations in
 an inner-city school sample. Arch. Pediatr. Adolesc. Med. 1998; 152(9):
 899-907.
    117. Kleinman R.E., Hall S., Green H., et al. Diet, breakfast, and
 academic performance in children. Annals of Nutritional & Metabolism.
 2002; 46 (Suppl. 1): 24-30.
    118. U.S. Department of Agriculture, Food and Nutrition Service.
 Child nutrition tables: national level annual summary tables FY 1969-
 2014. Washington, D.C.: U.S. Department of Agriculture, Food and
 Nutrition Service; 2014. Available at http://www.fns.usda.gov/pd/child-
 nutrition-tables.
    119. Edelman M.W. Invited written testimony to the National
 Commission on Hunger.  President, Children's Defense Fund. Research
 Triangle Park, NC: National Commission on Hunger; July 2015.
    120. Neuberger Z., Segal B., Nchako C., Masterson K. Take up of
 community eligibility this school year: More than 6 million children
 have better access to school meals. Washington, D.C.: Center on Budget
 and Policy Priorities; February 25, 2015. Available at http://
 www.cbpp.org/cms/index.cfm?fa=view&id=5273.
    121. Levin M., Neuberger Z. Community eligibility: Making high-
 poverty schools hunger free. Washington, D.C.: Center on Budget and
 Policy Priorities and FRAC; October 1, 2013. Available at http://
 frac.org/pdf/community_eligibility_report_2013.pdf.
    122. Huang J., Barnidge E., Kim Y. Children receiving free or
 reduced-price school lunch have higher food insufficiency rates in
 summer. J. Nutr. 2015; 145(9): 2161-2168.
    123. U.S. Department of Agriculture. Summer Food Service Program
 website. April 15. Available at http://www.ers.usda.gov/topics/food-
 nutrition-assistance/child-nutrition-programs/summer-food-service-
 program.aspx. Accessed November 2, 2015.
    124. U.S. Department of Agriculture (USDA), Food and Nutrition
 Service (FNS). Summer Food Service Program (SFSP): frequently asked
 questions (FAQS). July 2013. Available at http://www.fns.usda.gov/sfsp/
 frequently-asked-questions-faqs.
    125. D.C. Hunger Solutions. D.C. free summer meals program: Kids &
 teens eat free. Available at http://www.dchunger.org/fedfoodprogs/
 summer/summer_index.htm. Accessed September 24, 2015.
    126. U.S. Department of Agriculture, Food and Nutrition Service
 (FNS). FNS Program Information Report. Available at http://
 www.fns.usda.gov/sites/default/files/datastatistics/keydata-august-
 2015.pdf. Accessed November 12, 2015.
    127. Heflin C., Arteaga I., Gable S. The child and adult care food
 program and food insecurity. Lexington, KY: University of Kentucky
 Center for Poverty Research; October 2012. Available at http://
 uknowledge.uky.edu/cgi/
 viewcontent.cgi?article=1028&context=ukcpr_papers.
    128. U.S. Department of Agriculture. Food Distribution Program on
 Indian Reservations. Food and Nutrition Service, Nutrition Program Fact
 Sheet. Washington, D.C.: U.S. Department of Agriculture; July 2014.
 Available at http://www.fns.usda.gov/sites/default/files/pfs-fdpir.pdf.
    129. Corporation for National & Community Service. Volunteering and
 civic life in America 2014. Available at http://
 www.volunteeringinamerica.gov/. Accessed September 29, 2015.
    130. Preble Street. Soup kitchens. Available at http://
 www.preblestreet.org/soup_kitchens.php. Accessed September 30, 2015.
    131. Feeding America. How we work. Available at http://
 www.feedingamerica.org/about-us/how-we-work/.
    132. Donaldson A. Through the eyes of a volunteer. 2015. Available
 at http://www.feedingamerica.org/hunger-inamerica/news-and-updates/
 hunger-blog/through-the-eyes-of-a.html.
    133. Institute of Medicine (IOM). Building public-private
 partnerships in food and nutrition: workshop summary. Washington, D.C.:
 The National Academies Press; 2012.
    134. van der Meer K. Public-Private cooperation in agricultural
 research: Examples from the Netherlands. In: Byerlee D., Echeverria
 R.G., eds. Agricultural Research Policy in an Era of Privatization:
 Experiences from the Developing World. New York, NY: CABI; 2002.
    135. Kane H., Sreenivasan P., Bronstein K., et al. Research to
 support potential recommendations of the National Commission on Hunger
 to reduce very low food security. Research Triangle Park NC: RTI
 International; August 2015.
    136. Lawrence M. Bringing legislators to the table addressing hunger
 through public-private partnerships. Washington, D.C.: National
 Conference of State Legislatures; 2011.
    137. Elanco. Consumer purchases drive donations of HATCHT eggs in
 Indiana. Greenfield, IN: Elanco; May 18 2015. Available at https://
 www.elanco.com/pdfs/hatch_update_5-18-2015.pdf.
    138. The Food Project. Boston bounty bucks. Available at http://
 thefoodproject.org/bountybucks. Accessed September 29, 2015.
    139. GrowNYC. Greenmarket farmers markets. Available at http://
 www.grownyc.org/greenmarket. Accessed September 29, 2015.
    140. Tyson Foods. Our commitment: KNOW hunger. Available at http://
 www.tysonhungerrelief.com/ourcommitment/. Accessed September 29, 2015.
    141. Nicholson E. Testimony to the National Commission on Hunger,
 Little Rock, AR. May 19, 2015.
    142. Nord M., Coleman A.L. Food Insecurity After Leaving SNAP.
 Journal of Hunger & Environmental Nutrition. 2010; 5(4): 434-453.
    143. Ettinger de Cuba S., Harker L., Weiss I., Scully K., Chilton
 M.M., Coleman, S. Punishing Hard Work: The Unintended Consequences of
 Cutting SNAP Benefits. Found at http://www.childrenshealthwatch.org/
 publication/punishing-hard-work-unintended-consequences-cutting-snap-
 benefits/2013.
    144. Andreyeva T., Tripp A.S., Schwartz M.B. Dietary Quality of
 Americans by Supplemental Nutrition Assistance Program Participation
 Status: A Systematic Review. Am. J. Prev. Med. 2015; 49(4): 594-604.
    145. Brownell K.D., Farley T., Willett W.C., et al. The public
 health and economic benefits of taxing sugar-sweetened beverages. N.
 Engl. J. Med. 2009; 361(16): 1599-1605.
    146. Vartanian L.R., Schwartz M.B., Brownell K.D. Effects of soft
 drink consumption on nutrition and health: a systematic review and meta-
 analysis. Am. J. Public Health. 2007; 97(4): 667-675.
    147. Malik V.S., Hu F.B. Fructose and Cardiometabolic Health: What
 the Evidence From Sugar-Sweetened Beverages Tells Us. J. Am. Coll.
 Cardiol. 2015; 66(14): 1615-1624.
    148. Malik V.S., Hu F.B. Sugar-sweetened beverages and health: where
 does the evidence stand? Am. J. Clin. Nutr. 2011; 94(5): 1161-1162.
    149. U.S. Department of Agriculture, Food and Nutrition Service.
 Approved Federal Funds for SNAP-Ed, FY2006-FY2014. Washington, D.C.:
 U.S. Department of Agriculture, Food and Nutrition Service; May 23
 2013. Available at https://snaped.fns.usda.gov/about-snap-ed-connection-
 0#snaped.
    150. Abram J.K., Hand R.K., Parrott J.S., Brown K., Ziegler P.J.,
 Steiber A.L. What is your nutrition program missing? Finding answers
 with the guide for Effective Nutrition Interventions and Education
 (GENIE). J. Acad. Nutr. Diet. 2015; 115(1): 122-130.
    151. U.S. Department of Agriculture. Summer Electronic Benefits
 Transfer for Children (SEBTC) Demonstration: Evaluation Findings for
 the Full Implementation Year. 2012 Final Report. August Available at
 http://www.fns.usda.gov/sites/default/files/SEBTC2012.pdf.
    152. Cutts D.B., Meyers A.F., Black M.M., et al. U.S. Housing
 insecurity and the health of very young children. Am. J. Public Health.
 2011; 101(8): 1508-1514.
    153. Meyers A., Cutts D., Frank D.A., et al. Subsidized housing and
 children's nutritional status: data from a multisite surveillance
 study. Arch. Pediatr. Adolesc. Med. 2005; 159(6): 551-556.
    154. Parikh R.B., Montgomery A., Lynn J. The Older Americans Act at
 50--Community-based care in a value-driven era. N. Engl. J. Med. 2015;
 373(5): 399-401.
 

Appendix A. Acknowledgments
    The Commission wishes to acknowledge all the organizations that 
hosted us on our visits, as well as the community members who took the 
time to talk to us in these informal settings. We found these site 
visits and conversations enormously helpful--thank you!

  <bullet> Acoma Food Distribution Program, Pueblo of Acoma, NM.

  <bullet> Alameda County Board of Supervisors, Oakland, CA.

  <bullet> Anacostia Library Summer Meal Program, Washington, D.C.

  <bullet> Anthony Independent School District Summer Meals Program, El 
        Paso, TX.

  <bullet> Arkansas Children's Hospital Medical Nutrition and Feeding 
        Program, Little Rock, AR.

  <bullet> Arkansas Children's Hospital WIC Clinic, Little Rock, AR.

  <bullet> Arkansas Food Bank food distribution and Mayor Zola Hudson, 
        Altheimer, AR.

  <bullet> Arkansas Hunger Relief Alliance, Cooking Matters Class, 
        Little Rock, AR.

  <bullet> Bread for the City, Washington, D.C.

  <bullet> D.C. Central Kitchen, Washington, D.C.

  <bullet> East Side Baptist Church food pantry, Pine Bluff, AR.

  <bullet> ELANCO HATCH program, Indianapolis, IN.

  <bullet> First United Methodist Church, Cooking Matters Class, Little 
        Rock, AR.

  <bullet> Indian Pueblo Cultural Center, Albuquerque, NM.

  <bullet> Jericho Way Day Center, Little Rock, AR.

  <bullet> El Centro de Salud Familiar La Fe, El Paso, TX.

  <bullet> La Fe Culture and Technology Center, El Paso, TX.

  <bullet> Marbury Plaza, Washington, D.C.

  <bullet> Merrill Community Center, Pine Bluff, AR.

  <bullet> MLK Interdistrict Magnet Elementary School, School Breakfast 
        Program, Little Rock, AR.

  <bullet> Nelson A. Rockefeller Institute of Government, Albany, NY.

  <bullet> San Luis Rey Parish and Fr. Robert Villegas, C.S.C., 
        Chamberino, NM.

  <bullet> Socorro Ramirez Community Center, El Paso, TX.

  <bullet> Statehouse Convention Center, Little Rock, AR.

  <bullet> TOPPS (Targeting Our People's Priorities with Service) 
        after-school snack program, Pine Bluff, AR.

  <bullet> University of Southern Maine, Lee Community Hall, Portland, 
        ME.

    We are also grateful to all the people who testified at the public 
hearings or provided written testimony, both invited and public. We 
heard from a total of 182 people or organizations.

                               Summary of Testimony Received by Type and Category
----------------------------------------------------------------------------------------------------------------
                                                        University/
          Type             Nonprofit     Government      Research      Industry      Unaffiliated       Total
----------------------------------------------------------------------------------------------------------------
Invited                            53              11            12             4               --            80
Public                             64               7             5            --               26           102
                        ----------------------------------------------------------------------------------------
  Total                           117              18            17             4               26           182
----------------------------------------------------------------------------------------------------------------

Invited Testimonies

 
 
 
Justin Alfond, Maine State Senator, Portland, ME
Salvador Balcorta, M.S.S.W., Chief Executive Officer, El Centro De Salud
 Familiar La Fe, El Paso, TX
Jessica Bartholow, M.P.S., Legislative Advocate, Western Center on Law
 and Poverty, Oakland, CA
Joel Berg, Executive Director, New York City Coalition Against Hunger,
 Albany, NY
Laurie Biscoe, Deputy Director, Texas Workforce Commission, El Paso, TX
Janet Bono, Workforce Services Program Administrator, Workforce
 Solutions Borderplex, El Paso, TX
Linda Bopp, Executive Director, Hunger Solutions New York, Albany, NY
Lee Bowes, Ph.D., CEO, America Works, Albany, NY
Michael Brennan, Mayor, City of Portland, Portland, ME
Kate Breslin, M.P.H., M.R.P., President and CEO, Schuyler Center for
 Analysis and Advocacy, Albany, NY
Patrick Casey, M.D., Harvey and Bernice Jones Professor of Developmental
 Pediatrics, University of Arkansas for Medical Sciences, Little Rock,
 AR
Dee Clarke, Founder, Survivor Speak, Portland, ME
Celia Cole, M.A., CEO, Feeding Texas, El Paso, TX
Faye Conte, MS, Advocacy and Education Director, Hunger Free Vermont,
 Portland, ME
Christy Daggett, M.P.P.M., Policy Analyst, Maine Center for Economic
 Policy, Portland, ME
Mitchell Davis, Director, Global Shared Value, ELANCO (written only)
Charlotte Douglas, Arkansas State House of Representatives, Little Rock,
 AR
Clarissa Doutherd, Executive Director, Parent Voices Oakland, Oakland,
 CA
Marian Wright Edelman, J.D., President, Children's Defense Fund (written
 only)
Willy Elliot-McCrea, CEO, Second Harvest Food Bank Santa Cruz County,
 Oakland, CA
Thomas Farley, M.D., CEO, Public Goods Project, Washington, DC
Linda Farr, R.D.N., L.N., F.A.N.D., Speaker-Elect of the House of
 Delegates, Academy of Nutrition and Dietetics, El Paso, TX
Edward Frongillo, Ph.D., Professor and Chair, Department of Health
 Promotion, Education, and Behavior, University of South Carolina,
 Washington, DC
Veronica Garcia, Ed.D., Executive Director, New Mexico Voices for
 Children, Albuquerque, NM
Karen Gruneisen, Associate Director, Episcopal Community Services in San
 Francisco, Oakland, CA
Craig Gundersen, Ph.D., Endowed Professor, Department of Agricultural
 and Consumer Economics, University of Illinois (written only)
Sandra Hassink, M.D., President, American Academy of Pediatrics (written
 only)
John Hennessy, Interim Canon Missioner for Communication and Advocacy,
 Episcopal Diocese of Maine, Portland, ME
Ellie Hollander, President and CEO, Meals on Wheels America, Washington,
 D.C.
Mia Hubbard, M.A., Vice President of Programs, MAZON: A Jewish Response
 to Hunger, Oakland, CA
George Jones, CEO, Bread for the City, Washington, D.C.
Paula Jones, Ph.D., Senior Health Planner, Office of Equity and Quality
 Improvement, San Francisco Department of Public Health, Oakland, CA
Kathy Komoll, Executive Director, New Mexico Association of Food Banks,
 El Paso, TX
Kathy Krey, Ph.D., Director of Research, Texas Hunger Initiative at
 Baylor University, El Paso, TX
Jennifer Laurent, Executive Director, Randy Sams Outreach Shelter,
 Little Rock, AR
Rich Livingston, State President, AARP, Portland, ME
Mary Mayhew, Commissioner, Maine Department of Health and Human
 Services, Portland, ME
Kim McCoy Wade, J.D., Consultant, Alliance to Transform CalFresh,
 Oakland, CA
Travis McKenzie,  Executive Director, Grow the Future, Albuquerque, NM
Edmund McMahon, President, Empire Center for Public Policy, Albany, NY
Robyn Merrill, J.D., M.S.W., Executive Director, Maine Equal Justice
 Partners, Portland, ME
Kristen Miale, M.B.A., President, Good Shepherd Food Bank, Portland, ME
Oscar Munoz, Dir., Texas A&M Colonias Program, Center for Housing and
 Urban Development, El Paso, TX
Matt Newell-Ching, Public Affairs Director, Partners for a Hunger-Free
 Oregon, Oakland, CA
Ed Nicholson, Senior Director, Community Relations and Customer Service;
 Representative, Corporate Affairs, Tyson Foods, Inc., Little Rock, AR
Sarah Palmer, M.A., Policy Associate, California Association of Food
 Banks, Oakland, CA
Kathleen Pickering, Ph.D., Professor of Anthropology, Colorado State
 University; Dr. Pickering was joined in her testimony by Benjamin
 McShane-Jewell, Community Garden Program Director, Community Crops;
 Michael Brydge, Co-owner, Sweet Grass Consulting; Marcella Gilbert,
 South Dakota State University Extension, Cheyenne River Tribal Office;
 and Linda Black Elk, Secondary Science Education Instructor,
 Ethnobotany, Sitting Bull College, Standing Rock Reservation (written
 only)
Louise Pocock, J.D., Staff Attorney, New Mexico Center on Law and
 Poverty, Albuquerque, NM
Janet Poppendieck, Ph.D., Policy Director, New York City Food Policy
 Center at Hunter College and the CUNY School of Public Health, Albany,
 NY
Anne Quaintance, Chief Program & Government Affairs Officer, Meals on
 Wheels San Francisco, Oakland, CA
Mark Quandt, M.S.W., Executive Director, Regional Food Bank of
 Northeastern New York, Albany, NY
Angela Rachidi, Ph.D., Research Fellow in Poverty Studies, American
 Enterprise Institute for Public Policy Research, Albany, NY
Jennifer Ramo, Executive Director, New Mexico Appleseed, Albuquerque, NM
Robert Rector, M.P.S., Senior Research Fellow, The Heritage Foundation,
 Washington, D.C.
Kori Reed, Vice President, Cause and Foundation, ConAgra Foods, El Paso,
 TX
Heather Reynolds, President/CEO, Catholic Charities Fort Worth (written
 only)
Audrey Rowe, Administrator for the Food & Nutrition Service, U.S.
 Department of Agriculture, Washington, D.C.
Rhonda Sanders, M.P.H., CEO, Arkansas Foodbank, Little Rock, AR
Deborah Sanderson, Maine State Representative, Portland, ME
Eric Saunders, Ed.D., Assistant Commissioner for Fiscal and
 Administrative Services, Arkansas Department of Education, Little Rock,
 AR
John Selig, M.P.A., Director, Arkansas Department of Human Services,
 Little Rock, AR
Cathy Senderling-McDonald, M.P.P.M., Deputy Director, County Welfare
 Directors Association of California, Oakland, CA
Eldar Shafir, Ph.D., Professor, Princeton University Woodrow Wilson
 School of Public and International Affairs (written only)
Joseph Sharkey, Ph.D., Professor, Texas A&M School of Public Health, El
 Paso, TX
Tia Shimada, M.P.H., Managing Nutrition Policy Advocate, Food Policy
 Advocates, Oakland, CA
Reagan Smetak, Bureau Chief, State of New Mexico Children, Youth &
 Families Department, Albuquerque, NM
Andrew Souza, President and CEO, Community Food Bank, Oakland, CA
Valerie Tarasuk, Ph.D., Professor, Department of Nutritional Sciences,
 University of Toronto (written only)
Charolette Tidwell, Director, Antioch Consolidated Association for Youth
 and Family, Little Rock, AR
Jason Turner, Executive Director, Secretaries' Innovation Group,
 Portland, ME
Kathy Underhill, Executive Director, Hunger Free Colorado, El Paso, TX
Emily Wang, M.D., Assistant Professor, Yale School of Medicine (written
 only)
Tracy Wareing Evans, Executive Director, American Public Human Services
 Association, Washington, D.C.
Kathy Webb, Executive Director, Arkansas Hunger Relief Alliance, Little
 Rock, AR
Paul Winkeller, Independent Consultant (written)
Scott Winship, Ph.D., Walter B. Wriston Fellow, Manhattan Institute for
 Policy Research, Washington, D.C.
Ian Yaffe, Executive Director, Mano en Mano, Portland, ME
Donna Yellen, M.S.W., Chief Program Officer, Preble Street, Portland, ME
James Ziliak, Ph.D., Founding Director, Center for Poverty Research,
 University of Kentucky, Washington, D.C.
Kelly Zunie, Cabinet Secretary, Indian Affairs Department, Albuquerque,
 NM
 

Public Testimonies
    Many of the people who provided public testimony did not provide a 
written copy, and we have only the sign-in sheet or audio transcripts 
to document who they were. We apologize to anyone whose name we have 
inadvertently misspelled as a result. We also had a few people present 
public testimony who did not identify themselves at all, so we are 
unable to thank them by name.

 
 
 
127 State and Local Hunger Organizations (See complete list of
 organizations in Attachment 1; written only)
Saleema Akbar, Washington, D.C.
Alexandra Ashbook, J.D., L.L.M., Director, D.C. Hunger Solutions,
 Washington, D.C.
James Audiffred (written only)
Ali Avery, Portland, ME
Patricia Baker, Senior Policy Analyst, Massachusetts Law Reform
 Institute (MLRI), Portland, ME
Maria Elena Barron, Partner, El Pasoans Fighting Hunger, El Paso, TX
Lionel Battle, Washington, D.C.
Rev. David Beckmann, President, Bread for the World, Washington, D.C.
Jill Borak, Policy Manager, Jewish Council for Public Affairs,
 Washington, D.C.
Rebecca Brislain, Florida Association of Foodbanks (written only)
Katharine Broton, Ph.D. Candidate, University of Wisconsin (written
 only)
Elaine Bultena, Volunteer Coordinator, Food Ministry--First United
 Methodist Church, Little Rock, AR
Rhonda Chafin, Executive Director, Second Harvest Food Bank of Northern
 Tennessee (written only)
Leslie Clark, Veteran, St. Mary's Center, Oakland, CA
Bill Collins, Oakland, CA
Heather Cosson, M.S., Dir. of Communications, National Foundation to End
 Senior Hunger, Washington, D.C.
Kay Cota (written only)
Evelyn County, Volunteer, Alameda County Community Food Bank, Oakland,
 CA
Joanna Cruz, Witnesses to Hunger, Washington, D.C.
Mike Curtin, D.C. Central Kitchen, Washington, D.C.
Diana Davis (written only)
Lisa Davis, J.D., Senior Vice President of Government Relations, Feeding
 America, Washington, D.C.
David DeVaughn, M.P.A., Manager, Policy and Government Relations, City
 Harvest, Albany, NY
Allissa Eiser, R.D., School Food Service Director, Public School System
 (written only)
Brooke Evans, Student and McNair Scholar, University of Wisconsin-
 Madison (written only)
Tangela Fedrick, Witnesses to Hunger, Washington, D.C.
Susan Forte, Exec. Director, House About It Community and Economic
 Development Agency, Little Rock, AR
Dana Frasz, Founder and Director, Food Shift, Oakland, CA
Abby Getman, The Food Bank of Western Massachusetts (written only)
Sara Goldrick-Rab, Ph.D. Candidate, University of Wisconsin (written
 only)
Rev. Phillip Grigsby, Executive Director, Schenectady Inner City
 Ministry, Albany, NY
Sarah Grow, Director of Advocacy and Development, The Open Door,
 Portland, ME
Jonetta Hall, Oakland, CA
Scott Hamann, State Representative, Maine House of Representatives,
 Portland, ME
James Hanna, Executive Director, Cumberland County Food Security
 Council, Portland, ME
Helen Hanson, Portland, ME
Jim Hoffman, Friar, Franciscan Outreach Association (written only)
Ortencia Hopvi, Oakland, CA
Noel Hubler, Ray of Hope Food Pantry Inc., Little Rock, AR
Joan Ingram, SNAP-Ed Program Manager, University of New England,
 Portland, ME
Jennifer Johnson, President, George J Mitchell School PTO, Portland, ME
Andrea Jones, Oakland, CA
Rev. Kasey Jones, National Baptist Memorial Church, Washington, D.C.
Monica Kamen, Advocacy Coordinator, DC Fair Budget Coalition,
 Washington, D.C.
Erika Kelly, Meals on Wheels, Washington, DC
Courtney Kennedy, Nutrition Educator Manager, Good Shepherd Food Bank,
 Portland, ME
Jeff Kleen, Public Policy Advocate, Oregon Food Bank (written only)
Jeremiah Lowery, Research and Policy Coordinator, Restaurant Opportunity
 Center, Washington, D.C.
Cindy MacIntyre, Grace Episcopal Church Food Pantry, Washington, D.C.
Kate Maehr, M.P.P.A., Executive Director, Greater Chicago Food
 Depository (written only)
Nahomi Martinez, El Paso, TX
Oscar Martinez, Coordinator, Social Justice Education Project, El Paso,
 TX
Janese Massey (written only)
Kirk Mayes, Chief Executive Officer, Forgotten Harvest (written only)
Shannon McCabe, Portland, ME
Bruce Meraviglia, Bread for the Cities, Washington, D.C.
Joycene Moore, Washington, D.C.
Artrese Morrison, Executive Vice President, Strategic Initiatives,
 Project Open Hand (written only)
Corina Marruto, El Paso, TX
National Association of Food Distribution Programs on Indian
 Reservations (written only)
Gina Nunez, Ph.D., Interim Director of Women's Studies, The University
 of Texas, El Paso, TX
Teri Olle, Director of Policy and Advocacy, San Francisco Marin Food
 Bank, Oakland, CA
Marisa Parisi, M.S., Executive Director, Hunger Free Vermont, Portland,
 ME
Mary Penet, Director of Senior Feeding Programs, FeedMore, Washington,
 DC
Delene Perley, Food Pantry Coordinator, Project FEED, Portland, ME
Sr. Frances Mary Pierson, Dominican Sisters of MSJ (written only)
Shanti Prasad, Community Mobilization Coordinator, Alameda County
 Community Food Bank, Oakland CA
Carla Price (written only)
Thomas Ptacek, Portland, ME
Paula Reichel, D.C. Regional Director, Capital Area Food Bank,
 Washington, D.C.
Jeanne Reilly, Director of School Nutrition, Windham Raymond School
 Nutrition Program, Portland, ME
Colleen Rivecca, Advocacy Coordinator, St. Anthony Foundation, Oakland,
 CA
Carlos Rivera, President, Legacy of Valor, El Paso, TX
Wes Rivers, Policy Analyst, D.C. Fiscal Policy Institute, Washington,
 D.C.
Connie Rizoli, Director of Public Policy, Project Bread (written only)
Rosemary Rodibaugh, Ph.D., University of Arkansas Cooperative Extension,
 Little Rock, AR
Madonna Sactomah, Former Passamaquoddy Tribal Representative, Maine
 State Legislature, Portland, ME
David Sanchez, Regional Evaluator, Aliviane, Inc. and Prevention
 Resource Center 10, El Paso, TX
Ruben Sanchez, Regional Director, Texas Hunger Initiative, El Paso, TX
Anne Sheridan, M.S., Director, Maryland Governor's Office for Children,
 Washington, D.C.
Janie Sinclair, Executive Director, El Pasoans Fighting Hunger Food
 Bank, El Paso, TX
Ana Solis, Open Arms Catholic Charismatic Community, El Paso, TX
Denise Speed, Washington, D.C.
Triada Stampas, M.P.A., Vice Pres. for Research and Public Affairs, Food
 Bank for New York City, Albany, NY
Kyle Stephan, Volunteer, Border Servant Corps-Kelly Memorial Food
 Pantry, El Paso, TX
Andrew Stettner, M.P.P., Chief Program Officer, Single Stop (written
 only)
Duke Storen, Sr. Director of Research, Advocacy, & National
 Partnerships, Share Our Strength, Washington, D.C.
Nermin Tadros, Board Member, New York City Coalition Against Hunger Food
 Action, Albany, NY
William Taft, Bread for the Cities, Washington, D.C.
Joel Thomas, Lead Culinary Educator, Martha's Table, Washington, D.C.
Daryl Twerdahl (written only)
Sr. Betsy Van Deusen, C.S.J., Catholic Charities of the Diocese of
 Albany, Albany, NY
Gloria Williams, El Paso, TX
Michael Wilson, Director, Maryland Hunger Solutions, Washington, D.C.
Witnesses to Hunger, Washington, D.C.
Diane Woloshin, R.D., M.S., Director of Nutrition Services, Nutrition
 Services of Alameda County, Oakland, CA
Jessica Wynter Martin, Restaurant Opportunity Center, Washington, D.C.
Esther Zapata, El Paso, TX
Ginger Zielinskie, M.B.A., President, Benefits Data Trust, Washington,
 D.C.
Susan Zimet, Executive Director, Hunger Action Network of New York
 State, Albany, NY
 
     Attachment 1. List of Signers of Letter from 127 Organizations
 
 
 
AHEPA [American          Food Bank of Alaska      Ohio Association of
 Hellenic Educational    Food Bank of Central      Foodbanks
 Progressive              New York                Orange East Senior
 Association]                                      Center
Alabama Food Bank        Food Bank of Contra      Oxnard-Pathway to
 Association              Costa & Solano           Educated Nutrition,
Arkansas Hunger Relief   Food Bank of Delaware     Inc.
 Alliance
Arrowhead Senior Center  Food Bank of the Golden  Oregon Food Bank
                          Crescent
Association of Arizona   FRAC                     Partners for a Hunger-
 Food Banks                                        Free Oregon
B.J. Jordan Child Care   Franklin Grand Isle      Pennsylvania Council
 Programs                 Community Action         of Churches
Baltimore Area Faces of  GEDCO (Govans            Point Roberts Food
 Homelessness Speakers'   Ecumenical Development   Bank
 Bureau                   Corporation)            Poor Peoples United
                                                   Fund
Baltimore Outreach       Great Plains Food Bank   Preble Street Maine
 Services, Inc.          Greater Philadelphia      Hunger Initiative
Bay Area Food Bank        Coalition Against       Public Policy Center
Bean's Cafe<greek-th>     Hunger                   of Mississippi
                                                  Project Bread
Blue Valley Community    Hardwick Area Food       Redwood Empire Food
 Action Partnership       Pantry, Inc.             Bank
CAFB (Capital Area Food  Harvest Regional Food    Regional Food Bank of
 Bank)                    Bank                     Oklahoma
Cambridge Economic       Hawaii Appleseed Center  Rhode Island Community
 Opportunity Committee,   for Law & Economic       Food Bank
 Inc.                     Justice                 Roxbury Food Shelf
Capital Area Food Bank   Hunger Advocacy Network  San Francisco-Marin
 of Austin                                         Food Bank
CDA                      Hunger Free Colorado     Schenectady Inner City
Center for Civil         Hunger Free Vermont       Ministry
 Justice                 Hunger Solutions         Second Harvest Food
CFPA (California Food     Minnesota                Bank of Middle
 Policy Advocates)                                 Tennessee
Champlain Islands        Hunger Solutions New     Single Stop
 Foodshelf                York
Child and Family Policy  Hunger Task Force        South Carolina
 Center                  Idaho Hunger Relief       Appleseed Legal
Child Care Food Program   Task Force               Justice Center
 Roundtable
Children's Alliance      Illinois Hunger          South Plains Food Bank
                          Coalition
Citizens for Citizens,   Imperial Valley Food     St. J. Nutritional
 Inc.                     Bank                     Center/Meals on
                                                   Wheels
Committee on Temporary   Kenai Peninsula Food     St. Mary's Food Bank
 Shelter                  Bank                     Alliance
Community Action         Kentucky Equal Justice   Survivors, Inc.
 Committee of Lehigh      Center                  Tennessee Justice
 Valley & Northeast      Kingdom Community         Center
 Pennsylvania             Services
Community Action Marin   Loaves and Fishes Food   The Food Depot
                          Pantry
Community Servings       Long Island Care, Inc.   The Greater Boston
                                                   Food Bank
D.C. Hunger Solutions    Louisiana Food Bank      The Open Door
                          Association
Day Care Connection      Maryland Hunger          The Food Bank of
                          Solutions                Western Massachusetts
Duxbury Elf Food Shelf   Mercy Medical Center--   Three Square Food Bank
El Paso Human Services,   Mercy Supportive        Toledo Northwestern
 Inc.                     Housing Program          Ohio Food Bank, Inc.
Empire Justice Center    MLRI (Massachusetts Law  Treasure Coast Food
End Hunger CT!            Reform Institute)        Bank
                                                  Turning Point
Enosburg Food Shelf      Montana Food Security    Umbrella, Inc.
                          Council
Facing Hunger Food Bank  North Carolina           United Ministries,
                          Association of Food      Inc.
                          Banks
Fair Share               National Health Care     United Way of King
Faith in Action           for the Homeless         County
 Northern Communities     Council                 Virginia Poverty Law
 Partnership             New Hampshire Food Bank   Center
                                                  Utahans against Hunger
Federation of Virginia   Nebraska Appleseed       Western Center on Law
 Food Banks              New Jersey Anti-Hunger    and Poverty
Feeding Indian's Hungry   Coalition               Woodbury Calais Food
                                                   Shelf
Feeding Missouri         New York City Coalition  Woodstock Community
Feeding South Dakota      Against Hunger           Food Shelf
Feeding Texas            Northeast Kingdom        Worcester Food &
                          Neighbors Helping        Active Living Policy
                          Neighbors/RuralEdge      Council
Food Bank for New York   Northwest Harvest        Worcester State
 City                                              University
Florida Impact           .......................  Wu Yee Children's
                                                   Services
 
Note: This letter was provided to us by FRAC (Food Research Action
  Center). Some signers provided only an acronym. Where possible, we
  have identified those and spelled them out in parentheses following
  the acronym.

Appendix B. U.S. Household
Food Security Survey Model
    In 2012, researchers at the USDA Economic Research Service compiled 
and made available a current version of the U.S. Household Food 
Security Survey Module to help other researchers achieve accuracy and 
standardization in application of the measures in empirical research. 
The U.S. Household Food Security Survey Module is available at the USDA 
Economic Research Service website, Food Security in the United States, 
(http://www.ers.usda.gov/topics/food-nutrition-assistance/food-
security-in-the-us.aspx#.U8HyuLFv_Ok) along with very helpful guidance 
and recommendations for researchers' use of the module. In addition, 
Economic Research Service researchers have been an ongoing accessible 
and very helpful sources of advice, help, and guidance for public and 
private researchers who wish to use the food security measures in their 
own research. The support provided by the Economic Research Service has 
been a key factor in the large number of high-quality research studies 
that have been conducted on food security in the United States.
    A household's raw score is the number of ``affirmative'' responses 
(e.g., ``yes,'' ``often,'' ``sometimes,'' ``almost every month,'' 
``some months but not every month'') to the questions (listed below). 
The raw score is translated into one of four food security levels 
(high, marginal, low, very low) using ranges that depend on the subset 
of questions used.
How is food security measured?
(Scores are adult-only households on left; households with children on 
        right)
        [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
U.S. Household Food Security Survey Module Questions
    1. ``We worried whether our food would run out before we got money 
to buy more.'' Was that often, sometimes, or never true for you in the 
last 12 months?
    2. ``The food that we bought just didn't last and we didn't have 
money to get more.'' Was that often, sometimes, or never true for you 
in the last 12 months?
    3. ``We couldn't afford to eat balanced meals.'' Was that often, 
sometimes, or never true for you in the last 12 months?
    4. In the last 12 months, did you or other adults in the household 
ever cut the size of your meals or skip meals because there wasn't 
enough money for food? (Yes/No)
    5. (If yes to question 4) How often did this happen--almost every 
month, some months but not every month, or in only 1 or 2 months?
    6. In the last 12 months, did you ever eat less than you felt you 
should because there wasn't enough money for food? (Yes/No)
    7. In the last 12 months, were you ever hungry, but didn't eat, 
because there wasn't enough money for food? (Yes/No)
    8. In the last 12 months, did you lose weight because there wasn't 
enough money for food? (Yes/No)
    9. In the last 12 months did you or other adults in your household 
ever not eat for a whole day because there wasn't enough money for 
food? (Yes/No)
    10. (If yes to question 9) How often did this happen--almost every 
month, some months but not every month, or in only 1 or 2 months?

          (Questions 11-18 were asked only if the household included 
        children age 0-17)

    11. ``We relied on only a few kinds of low-cost food to feed our 
children because we were running out of money to buy food.'' Was that 
often, sometimes, or never true for you in the last 12 months?
    12. ``We couldn't feed our children a balanced meal, because we 
couldn't afford that.'' Was that often, sometimes, or never true for 
you in the last 12 months?
    13. ``The children were not eating enough because we just couldn't 
afford enough food.'' Was that often, sometimes, or never true for you 
in the last 12 months?
    14. In the last 12 months, did you ever cut the size of any of the 
children's meals because there wasn't enough money for food? (Yes/No)
    15. In the last 12 months, were the children ever hungry but you 
just couldn't afford more food? (Yes/ No)
    16. In the last 12 months, did any of the children ever skip a meal 
because there wasn't enough money for food? (Yes/No)
    17. (If yes to question 16) How often did this happen--almost every 
month, some months but not every month, or in only 1 or 2 months?
    18. In the last 12 months did any of the children ever not eat for 
a whole day because there wasn't enough money for food? (Yes/No)
Glossary
    Child and Adult Care Food Program: A Federal nutrition assistance 
program that provides meals to children and adults in institutions and 
day care centers. Generally subject to the congregate feeding 
requirement.
    Colonia: An unincorporated settlement of immigrant families, the 
majority of whom are undocumented.
    Congregate Feeding Requirement: A requirement of the Summer Food 
Service Program and the Child and Adult Care Food Program to provide 
meals at a public site (e.g., school, senior center).
    Documented immigrant: A citizen of another country who is in the 
United States legally.
    Food-insecure: A household with low or very low food security, as 
measured by the U.S. Household Food Security Survey Module.
    Food insecurity: A household-level economic and social condition of 
limited or uncertain availability of nutritionally adequate and safe 
foods, or the limited or uncertain ability to acquire acceptable foods 
in socially acceptable ways without resorting to emergency food 
supplies, scavenging, stealing or other coping strategies.
    Food-secure: A household with high or marginal food security, as 
measured by the U.S. Household Food Security Survey Module.
    Food security: Access by all people at all times to enough food for 
an active, healthy life.
    Globalization: Changes promoting the open flow of goods and 
services among countries.
    Hunger: Households experiencing very low food security.
    Multigenerational household: A family headed by an adult 
householder aged 40 or older and with three generations (grandparent, 
parent, child) or grandparent and grandchild with no adult parent (so-
called skipped generation).
    National School Lunch Program: A Federal nutrition assistance 
program that provides school children with free or reduced price lunch.
    Offshoring: Moving jobs from the United States to other countries 
where labor is cheaper.
    Public-private partnerships: Arrangements between public, private, 
and nonprofit organizations to provide public services.
    School Breakfast Program: A Federal nutrition assistance program 
that provides school children with free or reduced price breakfast.
    SNAP: Supplemental Nutrition Assistance Program, the largest 
Federal nutrition assistance program. Formerly called Food Stamps.
    Summer Food Service Program: A Federal nutrition assistance program 
that provides children with food during the summer when they are not in 
school. Generally subject to the congregate feeding requirement.
    Undocumented immigrant: A citizen of another country who is in the 
United States illegally. These may include asylum seekers (people who 
have entered illegally seeking refugee status, which if granted, would 
regularize their presence and make them legal) and those who entered 
the U.S. legally on a temporary visa, such as a student or tourist 
visa, that has since expired, rendering their presence here illegal.
    U.S. Household Food Security Survey Module: A survey used to 
classify households into four food security categories: high food 
security, marginal food security, low food security, and very low food 
security. See Appendix B.
    Very low food security: The disruption of eating patterns and 
reduced food intake for at least one household member because the 
household lacked money and other resources for food.
    WIC: Special Supplemental Nutrition Program for Women, Infants, and 
Children; a Federal nutrition assistance program that provides 
assistance to pregnant and postpartum women, infants, and children 
under 5 to ensure they get adequate nutrition.
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
